<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                        WEDNESDAY, JUNE 22, 2011

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:39 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Cochran, and Shelby.

                       NONDEPARTMENTAL WITNESSES

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. First, I'd like to apologize to all of you 
for this lateness. Last night we were deluged with 
thunderstorms, and I live in Rockville, Maryland. It took me 2 
hours to get in. No traffic lights, and American drivers 
without traffic lights.
    So I'd like to welcome all of you to this hearing to 
receive testimony pertaining to the various issues related to 
defense appropriations requests. Because we have so many 
witnesses, I will have to remind the witnesses that they will 
be limited to 4 minutes apiece. I'm sorry about that.
    At this point I'd like to recognize my vice chairman, 
Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you. It's a pleasure 
to join you in welcoming the witnesses to the hearing. We 
appreciate your interest in our work and it will make a 
contribution to helping improve our national security and the 
work we do here in supporting our military forces and related 
interests around the world.
    Chairman Inouye. Our first witness is Dr. Matthew King of 
the American Thoracic Society. Dr. King.

STATEMENT OF MATTHEW KING, M.D., ON BEHALF OF THE 
            AMERICAN THORACIC SOCIETY
    Dr. King. Mr. Chairman, members of the subcommittee: Thank 
you for hearing me today. My name is Matt King. I'm a pulmonary 
physician in Nashville, Tennessee, and I've worked at both 
Vanderbilt University and the Nashville Veterans Administration 
(VA) Hospital with military personnel and veterans.
    I'm testifying today on behalf of the American Thoracic 
Society, which is a medical professional organization dedicated 
to the prevention, treatment, and cure of lung disease. Many of 
the members of the American Thoracic Society work in the 
military and with the VA, and as such we've become deeply 
concerned with the respiratory issues that some of our military 
personnel are suffering.
    There is a real cause for concern here. As you may have 
read in the New York Times over the weekend, there have been 
several studies reporting a startling number of respiratory 
disorders in our military personnel returning from Iraq and 
Afghanistan. In fact, military personnel that have served in 
Iraq and Afghanistan are reporting severe respiratory diseases 
at a rate seven times higher than people who are serving 
elsewhere.
    Studies have documented increases in asthma, fixed 
obstructive lung disease, allergic rhinitis, and several other 
rare pulmonary disorders. I personally have been involved in a 
study that's going to be published next month of 50 veterans 
returning from Iraq and Afghanistan that have a rare incurable 
pulmonary disease caused constrictive bronchiolitis. These 
patients often have normal pulmonary function tests, but, 
despite their normal tests, are having severe respiratory 
symptoms.
    We don't know exactly why, but Iraq and Afghanistan 
veterans are exposed to a number of inhalational insults, 
ranging from dust storms to inhaled smoke from burn pits to 
aerosolized metal and chemicals from exploding improvised 
explosive devices (IEDs), blast overpressure or shock waves to 
the lung, outdoor allergens such as date pollen, and indoor 
allergens such as the mold aspergillus. We think many of these 
are contributing. We've identified many respiratory illnesses, 
but we really don't know the scope of the problem.
    So there are several questions: What are the key causative 
agents? How many veterans are experiencing this disease? What 
is the best way to identify and treat the servicemen and women? 
Attention is needed to address these and other important 
questions.
    The American Thoracic Society recommends the following 
steps: All service men and women should have pre- and post-
deployment pulmonary function testing. The Department of 
Defense (DOD) and VA should support projects to establish a 
more comprehensive normative pulmonary function test database 
used to evaluate military men and women. The DOD and VA should 
jointly create and fund a program to study the respiratory 
exposures that may be contributing to these respiratory 
illnesses. Potential goals of this kind of research program 
could include identifying the exact agents to which people are 
exposed and that may be causing the illnesses, considering 
potential population-based and individual interventions that 
could prevent or at least reduce exposure to these causative 
agents, and supporting research and to improve prevention, 
detection, and treatments for deployment-related respiratory 
diseases.
    Also, the DOD and VA should consider establishing centers 
of excellence to enhance research and clinical treatment of 
these service men and women that are returning with deployment-
related respiratory illnesses.
    Finally, we believe that the DOD and VA should create a 
standard administrative approach to determining respiratory 
disability for the Operation Iraqi Freedom and Enduring Freedom 
service personnel.
    Thank you. The American Thoracic Society appreciates the 
opportunity to testify here. I'd be happy to answer any 
questions.
    [The statement follows:]

                 Prepared Statement of Dr. Matthew King

    The American Thoracic Society appreciates the opportunity to 
testify before the Senate Department of Defense Appropriations 
Subcommittee regarding the fiscal year 2012 budget.
    The American Thoracic Society is a medical professional society of 
over 15.000 members who are dedicated to the prevention, detection, 
treatment and cure of respiratory, sleep and critical care related 
illnesses. Our physicians, nurses, respiratory therapists and basic 
scientists are engaged in research, education and advocacy to reduce 
the worldwide burden of respiratory diseases.
    Many members of the American Thoracic Society service as 
researchers and clinicians in the U.S. military and at VA medical 
centers. As such, we are deeply concerned about the respiratory health 
of U.S. military personal.
    And there is cause for concern.
    A surprising number of returning service men and women from Iraq 
and Afghanistan are experiencing moderate to server respiratory 
diseases. There are several anecdotes of military personal who were 
elite athletes--marathon runners, road cyclists--before deployment are 
no longer able to complete the 2 mile physical readiness run. Even more 
puzzling, is in many cases, these service men and women have normal 
pulmonary function text values. Despite having normal pulmonary 
function test values, these service members severely de-saturate during 
exercise.
    Physicians have described a new disease called Iraq-Afghanistan War 
lung injury (IAW-LI), among soldiers deployed to these countries as 
part of Operation Iraqi Freedom, Operation Enduring Freedom, and 
Operation New Dawn. Not only do soldiers deployed to Iraq and 
Afghanistan suffer serious respiratory problems at a rate seven times 
that of soldiers deployed elsewhere, but the respiratory issues they 
present with show a unique pattern of fixed obstruction in half of 
cases, while most of the rest are clinically reversible new-onset 
asthma, in addition to the rare interstitial lung disease called 
nonspecific interstitial pneumonitis associated with inhalation of 
titanium and iron.
    Iraq and Afghanistan veterans are faced with a barrage of 
respiratory insults, including: (1) dust from the sand, (2) smoke from 
the burn pits, (3) aerosolized metals and chemicals from exploded IEDs, 
associated with (4) blast overpressure or shock waves to the lung, (5) 
outdoor aeroallergens such as date pollen, and (6) indoor aeroallergens 
such as mold aspergillus. Researchers have experimentally exposed mouse 
models to samples of the dust taken from Iraq and Afghanistan and found 
that it produces extreme histological responses, underscoring the 
severe exposures that these soldiers undergo.
    A case series study was recently presented at the American Thoracic 
Society international conference by Robert Miller, MD, of Vanderbilt 
University. Dr. Miller discussed a cohort of patients with constrictive 
bronchiolitis who were deployed in Iraq.
    While clinicians and researchers have defined the condition, there 
is much we don't know. There are uncertainties regarding the number of 
service men and women who are experiencing deployment related 
respiratory illnesses. Complicating both clinical and research efforts 
is that fact that deployed troops do not receive pre and post 
deployment pulmonary function tests--in this case a simple spirometry 
test--that would help doctors know the extent of lung damage.
    Further challenges include the spectrum of possible lung diseases 
that may be occurring from Southwest Asia exposures, such as asthma, 
constrictive bronchiolitis, acute eosinophilic pneumonia and 
rhinosinusitis, and the variability in exposures that may confer risk, 
including particulate matter from desert dusts, burn pits, vehicle 
exhaust and tobacco smoke.
    Clinicians face a different set of challenges with this patient 
population, including the role of targeted medical surveillance in 
determining need for further respiratory diagnostic evaluation, and, 
importantly, the role of surgical lung biopsy in clinical diagnosis of 
post-deployment lung disease.
    Attention is needed to address the respiratory illnesses suffered 
by returning service men and women. The ATS recommends the Department 
of Defense and the Department of Veterans Affairs take the following 
steps:
  --The American Thoracic Society recommends all military personal 
        deployed in combat receive a pre- and post-deployment pulmonary 
        function test.
  --Support projects to establish more comprehensive normative 
        pulmonary function test values for military men and women.
  --The Department of Defense and the Department of Veterans Affairs 
        jointly create and fund a program to study respiratory 
        exposures of servicemen and women deployed in Iraq and 
        Afghanistan. Potential goals of this joint research program 
        could include:
    --Identify likely agents responsible for respiratory illnesses of 
            returning OEF and OIF personal;
    --Consider potential population based and individual interventions 
            to prevent or reduce exposure to causative agents; and
    --Support research into improved prevention, detection and 
            treatments for deployment-related respiratory disease.
  --Establish Centers of Excellence to facilitate improved research and 
        clinical treatment of service men and women experiencing severe 
        deployment-related respiratory illnesses.
  --The Department of Defense and the Department of Veterans Affair 
        consider administrative standardized approaches to determining 
        respiratory disability for deployment related respiratory 
        illnesses.
    The American Thoracic Society appreciates the opportunity to 
testify before the House Department of Defense Appropriations 
Subcommittee. We would be happy to answer any questions or provide 
follow up information.

    Chairman Inouye. Dr. King, I thank you very much. Will you 
share with this subcommittee the results of your testing, your 
findings?
    Dr. King. Of my personal study?
    Chairman Inouye. Yes.
    Dr. King. We have had 80 to 100 people from Fort Campbell 
in Kentucky referred to Vanderbilt University, where we've done 
extensive testing in patients, in whom we were unable to 
identify any other cause of potential respiratory symptoms. We 
did open-lung biopsies and found this constrictive 
bronchiolitis, which is an untreatable and irreversible 
condition, to which we speculate it is a reaction to some 
inhalational toxin experienced in Southwest Asia.
    Chairman Inouye. Thank you.
    Senator Cochran.
    Senator Cochran. I think we owe you a debt of gratitude and 
thanks for bringing this to our attention. I think you can be 
assured we'll look into it and try to make a decision that 
responds to the challenge.
    Dr. King. Thank you very much.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. No comments. I just want to hear the 
witnesses. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Our next witness is Ms. Dee Linde of the Dystonia Medical 
Research Foundation. Ms. Linde.

STATEMENT OF DEE LINDE, PATIENT ADVOCATE, DYSTONIA 
            MEDICAL RESEARCH FOUNDATION
    Ms. Linde. Thank you, Mr. Chairman, and aloha nui loa to 
you.
    Mr. Chairman and members of the Senate Defense 
Appropriations Subcommittee: Thank you for the opportunity to 
testify today. My name is Dee Linde and I am a dystonia patient 
and volunteer with the Dystonia Medical Research Foundation, or 
DMRS. As a veteran and former Navy petty officer, I am honored 
to testify before this subcommittee.
    The DMRS is a patient-centered nonprofit organization 
dedicated to serving dystonia patients and their families. 
Dystonia is a neurological movement disorder that causes 
muscles to contract and spasm involuntarily. Dystonia is a 
chronic disorder whose symptoms vary in degrees of frequency, 
intensity, disability, and pain. Dystonia can be generalized or 
focal. Generalized dystonias affect all major muscle groups, 
resulting in twisting repetitive movements and abnormal 
postures. Focal dystonias affect a specific part of the body, 
such as the legs, arms, eyelids, or vocal cords.
    Dystonia can be hereditary or caused by trauma, and it 
affects approximately 300,000 persons in the United States. At 
this time there is no cure for dystonia and treatment is highly 
individualized. Patients frequently rely on invasive therapies.
    In 1995, after my Navy career, I started feeling symptoms 
for what would later be diagnosed as tardive dystonia, which is 
medication-induced dystonia. The symptoms started as 
uncontrollable shivering sensations. Over the next 2 years, the 
symptoms continued to worsen and I started feeling like I was 
being squeezed in a vise. My diaphragm was constricted and I 
couldn't breathe. I also had blepharospasm, a form of dystonia 
that forcibly shut my eyes, leaving me functionally blind even 
though there was nothing wrong with my vision.
    My dystonia affected my entire upper body and for years my 
spasms wouldn't allow me to sit in a chair or sleep safely in 
bed with my husband. I spent those years having to sleep and 
even eat on the floor.
    After I developed dystonia, I was forced to give up my 
private practice as a psychotherapist. Since I am a veteran, I 
receive all my medical care through the VA system. In 2000, I 
underwent surgery to receive deep brain stimulation (DBS). The 
neurosurgeon implanted leads into my brain that emit constant 
electrical pulses which interrupt the bad signals and help 
control my symptoms. Thanks to DBS, I have gone from being 
completely nonfunctional to having the ability to walk and move 
like a healthy individual. I'm happy to say that I am now 
almost completely symptom free.
    The DMRS has received reports that the incidence of 
dystonia in the United States has noticeably increased since 
our military forces were deployed to Iraq and Afghanistan. A 
June 2006 article in Military Medicine titled ``Post-Traumatic 
Shoulder Dystonia in an Active Duty Soldier'' stated that: 
``Dystonia after minor trauma can be as crippling as a 
penetrating wound, with disability that renders the soldier 
unable to perform his duties.''
    Awareness of this disorder, dystonia, is essential to avoid 
mislabeling and possibly mistreating a true neurological 
disease. The Department of Defense peer-reviewed medical 
research program is the most essential program studying 
dystonia in military and veteran populations, and I myself was 
the consumer reviewer on this panel. This program is critical 
to developing a better understanding of the mechanisms 
connecting trauma and dystonia.
    The dystonia community would like to thank the subcommittee 
for adding dystonia to the list of conditions eligible for 
study under the program in the fiscal year 2010 and 2011 
defense appropriation bills. We urge the subcommittee to 
maintain dystonia as an eligible condition in the defense peer-
reviewed medical research program in fiscal year 2012.
    Thank you for allowing me the opportunity to address the 
subcommittee today.
    Chairman Inouye. Ms. Linde, I thank you very much for your 
testimony and we will do our best.
    Ms. Linde. Thank you.
    Chairman Inouye. Senator Cochran.
    Senator Cochran. Mr. Chairman, I have nothing further to 
add. We appreciate your presence and your advice and 
observations for the benefit of the subcommittee.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Nothing to add either, but I appreciate all 
of you being here.
    Ms. Linde. Thank you.
    Chairman Inouye. Thank you very much.
    [The statement follows:]

                    Prepared Statement of Dee Linde

    Mr. Chairman and members of the Senate Appropriations Defense 
Subcommittee, thank you for the opportunity to testify today. My name 
is Dee Linde, and I am a dystonia patient and volunteer with the 
Dystonia Medical Research Foundation or ``DMRF.'' I am also a former 
Navy service member and I am honored to testify before this 
subcommittee. The DMRF is a patient-centered, nonprofit organization 
dedicated to serving dystonia patients and their families. The DMRF 
works to advance dystonia research, increase dystonia awareness, and 
provide support for those living with the disorder.
    Dystonia is a neurological movement disorder that causes muscles to 
contract and spasm involuntarily. Dystonia is not usually fatal, but it 
is a chronic disorder whose symptoms vary in degrees of frequency, 
intensity, disability, and pain. Dystonia can be generalized or focal. 
Generalized dystonia affects all major muscle groups, resulting in 
twisting repetitive movements and abnormal postures. Focal dystonia 
affects a specific part of the body such as the legs, arms, hands, 
neck, face, mouth, eyelids, or vocal chords. Dystonia can be hereditary 
or caused by trauma, and it affects approximately 300,000 persons in 
the United States. At this time, there is no cure for dystonia and 
treatment is highly individualized. Patients frequently rely on 
invasive therapies like botulinum toxin injections or deep brain 
stimulation (DBS) to help manage their symptoms.
    In 1995, after my Navy career, I started feeling symptoms for what 
would later be diagnosed as tardive dystonia, which is medication-
induced dystonia. The symptoms started as an uncontrollable shivering 
sensation that often prompted people to ask me if I was cold. Over the 
next 2 years, the symptoms continued to worsen and I started feeling 
like I was being squeezed: my diaphragm was constricted and I couldn't 
breathe. I also had belpharospasm which meant that my eyes would shut 
forcibly and uncontrollably, leaving me functionally blind even though 
there was nothing wrong with my vision.
    The tardive dystonia affected my entire upper body and for years my 
spasms didn't allow me to sit in a chair, or sleep safely in the bed 
with my husband. As a family joke, my mother made my husband a nose 
guard to wear because I kept hitting him during the night. I spent 
those years having to sleep and even eat on the floor. Before I 
developed dystonia, I had my own private practice as a licensed 
psychotherapist which I had to give up as a result of my spasms.
    Because I have other service-connected disabilities and am 
considered 100 percent unemployable, I receive care at the Veterans 
hospital in Portland, Oregon. In 2000, I underwent surgery to receive 
deep brain stimulation (DBS). The surgeons implanted leads into my 
basil ganglia which is the part of the brain that controls movement. 
The leads emit electric pulses that interrupt the bad signals that my 
brain is sending to my body and allow me to control my movement. Thanks 
to DBS, I have gone from being completely non-functional, to having the 
ability to walk and to move like a healthy individual. I am happy to 
say that I am now almost completely symptom free. The battery packs for 
the DBS are implanted under my clavical, and I used to return to the 
hospital every 2 years to surgically replace them. In 2010, I had the 
new rechargeable battery implanted. This battery lasts for 9 years, and 
now I literally ``recharge my batteries'' for 2.5 hours at the end of 
every week.
    The DMRF has received reports that the incidence of dystonia in the 
United States has noticeably increased since our military forces were 
deployed to Iraq and Afghanistan. This recent increase is widely 
considered to be the result of a well-documented link between traumatic 
injuries and the onset of dystonia. A June 2006 article in Military 
Medicine, titled ``Post-Traumatic Shoulder Dystonia in an Active Duty 
Soldier'' reported on dystonia experienced by military personnel and 
stated that ``Dystonia after minor trauma can be as crippling as a 
penetrating wound, with disability that renders the soldier unable to 
perform his duties . . . awareness of this disorder [dystonia] is 
essential to avoid mislabeling, and possibly mistreating, a true 
neurological disease.'' As military personnel remain deployed for 
longer periods, we can expect dystonia prevalence in military and 
veterans populations to continue to rise.
    Although Federal dystonia research is conducted through a number of 
medical and scientific agencies, the Department of Defense (DOD) Peer-
Reviewed Medical Research Program remains the most essential program 
studying dystonia in military and veteran populations. This program is 
critical to developing a better understanding of the mechanisms 
connecting trauma and dystonia. The DMRF would like to thank the 
Subcommittee for adding dystonia to the list of conditions eligible for 
study under the DOD Peer-Reviewed Medical Research Program in the 
fiscal year 2010 and 2011 Defense Appropriation bills. The DMRF is 
excited to report that dystonia researchers were granted two awards in 
fiscal year 2010. We urge the Committee to maintain dystonia as a 
condition eligible for study through the Peer-Reviewed Medical Research 
Program in fiscal year 2012.
    Thank you again for allowing me the opportunity to address the 
Subcommittee today. I hope you will continue to include dystonia as a 
condition eligible for study under the DOD Peer-Reviewed Medical 
Research Program. Below is a poem that I composed during one of my most 
difficult moments, and I hope this poem provides greater insight to the 
hardships and loneliness faced in enduring this disorder.

                              DYSHARMONIA

The twitch \1\ doctor says it's dystonia
Which is far from the likes of harmonia
The muscles don't work in dystonia
But how graceful they are in harmonia
I can walk down the street
Without two left feet
I can hold my head high
Not low like a geek
I can keep both my eyes wide open
And swallow my food without chokin'
But that's with harmonia
And I've got dystonia
Which leaves me just feelin'
Alonia

    \1\ twitch doctor = Movement Disorder Specialist.

    Chairman Inouye. Our next witness is Ms. Barbara Zarnikow, 
Interstitial Cystitis Association.

STATEMENT OF BARBARA ZARNIKOW, CO-CHAIR, INTERSTITIAL 
            CYSTITIS ASSOCIATION
    Ms. Zarnikow. Chairman Inouye, Ranking Member Cochran, and 
distinguished members of the Defense Subcommittee: Thank you 
for the opportunity to testify today, to present testimony 
today on interstitial cystitis, commonly known as ``IC.'' I am 
Barbara Zarnikow from Buffalo Grove, Illinois. I am an IC 
patient and co-chair of the Interstitial Cystitis Association, 
a nonprofit organization which provides advocacy, research 
funding, and education for patients living with IC.
    IC is a chronic debilitating condition characterized by 
recurring pain, pressure, and discomfort in the bladder and 
pelvic region. It is often associated with frequent and urgent 
urination. There is no known cause and it can take years to 
diagnose because it is often misdiagnosed. There is not a test 
to diagnose IC, so it is diagnosed through the process of 
elimination of other diseases with similar symptoms.
    IC affects an estimated 3 to 8 million women in the United 
States and is often believed to be primarily a women's disease. 
However, recent research shows that 1 to 4 million men suffer 
from IC as well. IC is a debilitating disease that has an 
impact on the quality of life similar to what's been reported 
by individuals suffering from end stage renal disease and 
rheumatoid arthritis. IC can cause patients to suffer from 
severe pain, sleep deprivation, high rates of depression, 
anxiety, and overall decline in quality of life. IC affects all 
aspects of a patient's life.
    A study conducted between 1992 and 2002 found that 
approximately 1.4 percent of veterans served by the Veterans 
Health Administration were being treated for IC. The study also 
showed a 14 percent increase in patients being treated for IC 
in VHA during this same period.
    IC is currently part of the Department of Defense peer-
reviewed medical research program. This is so important because 
studies have shown that the incidence of IC in our population 
is much higher than previously thought.
    A prime example of how IC can impact members of the 
military is former Navy Captain Gary Mowrey, retired, who was 
forced to cut his career short as a result of IC. Captain 
Mowrey was in the Navy for 25 years and has served as commander 
of the VAQ133 Squadron, operations officer on the USS Dwight D. 
Eisenhower, chief of the Enlisted Performance Division in the 
Bureau of Naval Personnel, and earned a Southwest Asia Service 
Medal with two stars for his service in Operation Desert Storm.
    In 1994 he began to experience significant pelvic pain and 
could not always make it to the bathroom. He was not even able 
to sit through normal meetings. After months of unsuccessful 
antibiotic treatments for urinary tract infections, Captain 
Mowrey was diagnosed with IC, and shortly after retired due to 
the pain and limitations imposed by IC.
    He then attempted to teach high school math, but had to 
retire from this position as well due to the pain, frequent 
urination, and fatigue associated with having to urinate 20 to 
30 times each night. If you've ever had a bladder infection or 
know someone who has, imagine if that infection never went away 
and you had to live with these symptoms your entire life. That 
is IC.
    On behalf of IC patients, including many veterans, we 
request IC continue to be eligible for the peer-reviewed 
medical research program for fiscal year 2012. Thank you for 
your time and consideration.
    Chairman Inouye. Ms. Zarnikow, I thank you very much on 
behalf of the subcommittee. We appreciate it very much.
    [The statement follows:]

     Prepared Statement of Barbara Gordon, RD, Executive Director, 
                   Interstitial Cystitis Association

    Chairman Inouye, Ranking Member Cochran, and distinguished members 
of the Subcommittee, thank you for the opportunity to present 
information on Interstitial Cystitis (IC). The Interstitial Cystitis 
Association (ICA) provides advocacy, research funding, and education to 
ensure early diagnosis and optimal care with dignity for people 
affected by IC. Until the biomedical research community discovers a 
cure for IC, our primary goal remains the discovery of more efficient 
and effective treatments to help patients live with the disease.
    IC is a chronic condition characterized by recurring pain, 
pressure, and discomfort in the bladder and pelvic region. The 
condition is often associated with urinary frequency and urgency, 
although this is not a universal symptom. The cause of IC is unknown. 
Diagnosis is made only after excluding other urinary and bladder 
conditions, possibly causing 1 or more years of delay between the onset 
of symptoms and treatment. Men suffering from IC are often misdiagnosed 
with bladder infections and chronic prostatitis. Women are frequently 
misdiagnosed with endometriosis, inflammatory bowel disease (IBD), 
irritable bowel syndrome (IBS), vulvodynia, and fibromyalgia, which 
commonly co-occur with IC. When healthcare providers are not properly 
educated about IC, patients may suffer for years before receiving an 
accurate diagnosis and appropriate treatment.
    Although IC is considered a ``women's disease,'' scientific 
evidence shows that all demographic groups are affected by IC. Women, 
men, and children of all ages, ethnicities, and socioeconomic 
backgrounds develop IC, although it is most commonly found in women. 
Recent prevalence data reports that 3 to 8 million American women and 1 
to 4 million American men suffer from IC. Using the most conservative 
estimates, at least 1 out of every 77 Americans suffer from IC, and 
further study may indicate prevalence rates as high as 1 out of every 
28 people. Based on this information, IC affects more people than 
breast cancer, Alzheimer's diseases, and autism combined.
    The effects of IC are pervasive and insidious, damaging work life 
and productivity, psychological well-being, personal relationships, and 
general health. Quality of life studies have found that the impact of 
IC can equal the severity of rheumatoid arthritis and end-stage renal 
disease. Health-related quality of life in women with IC is worse than 
in women with endometriosis, vulvodynia, or overactive bladder alone. 
IC patients have significantly more sleep dysfunction, higher rates of 
depression, increased catastrophizing, anxiety and sexual dysfunction.
    Although IC research is currently conducted through a number of 
Federal entities, including the National Institutes of Health (NIH) and 
the Centers for Disease Control and Prevention (CDC), the DOD's Peer-
Reviewed Medical Research Program (PRMRP) remains essential. The PRMRP 
is an indispensable resource for studying emerging areas in IC 
research, such as prevalence in men, the role of environmental 
conditions such as diet in development and diagnosis, barriers to 
treatment, and IC awareness within the medical military community. 
Specifically, IC education and awareness among military medical 
professionals takes on heightened importance, as neither the 
President's fiscal year 2012 budget request nor the Centers for Disease 
Control and Preventions fiscal year 2011 Operating Plan include renewed 
funding for the CDC's IC Education and Awareness Program.
    On behalf of ICA, and as an IC patient, I would like to thank the 
Subcommittee for including IC as a condition eligible for study under 
the DOD's PRMRP in the fiscal years 2010 and 2011 DOD Appropriations 
bills. The scientific community showed great interest in the program, 
responding to the initial grant announcement with an immense outpouring 
of proposals. We urge Congress to maintain IC's eligibility in the 
PRMRP in the fiscal year 2012 DOD Appropriations bill, as the number of 
current military members, family members, and veterans affected by IC 
is increasing.

    Ms. Zarnikow. Thank you.
    Senator Cochran. Thank you for your attendance. We 
appreciate your giving us this information and the observations 
you have about this problem.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. I thank the whole panel and I thank this 
woman who just gave this presentation. This is very 
interesting. It affects a lot of people. I know that.
    Thank you, Mr. Chairman.
    Ms. Zarnikow. It does affect a lot of people.
    Chairman Inouye. Thank you very much.
    Ms. Zarnikow. Thank you.
    Chairman Inouye. Our next witness is Mr. Dane Christiansen, 
International Foundation for Functional Gastrointestinal 
Disorders.

STATEMENT OF DANE R. CHRISTIANSEN, DEVELOPMENT 
            COORDINATOR, INTERNATIONAL FOUNDATION FOR 
            FUNCTIONAL GASTROINTESTINAL DISORDERS
    Mr. Christiansen. Chairman Inouye, Ranking Member Cochran, 
Senator Shelby, and the distinguished members of the Defense 
Appropriations Subcommittee: Thank you for the opportunity to 
present testimony. My name is Dane Christiansen and I am 
testifying on behalf of the International Foundation for 
Functional Gastrointestinal Disorders, or IFFGD. We request 
that the subcommittee include functional gastrointestinal 
disorders on the list of conditions deemed eligible for study 
through the Department of Defense peer-reviewed medical 
research program within fiscal year 2012 defense appropriations 
legislation.
    Founded in 1991, IFFGD is a nonprofit patient-driven 
organization dedicated to helping individuals affected by 
functional gastrointestinal and motility disorders. The phrase 
``functional gastrointestinal disorder'' or ``functional GI 
disorder'' refers to a family of conditions where the nerves, 
muscles, and related mechanisms of the digestive tract do not 
function properly. The result is multiple, persistent, and 
often painful symptoms, ranging from nausea and vomiting to 
altered bowel habit.
    Over two dozen functional gastrointestinal disorders have 
been identified. Severity ranges from bothersome to disabling 
and life-altering. The conditions may strike anywhere along the 
GI tract. One thing they have in common is that little is 
understood about their underlying mechanisms and as a result 
little is understood about treatment.
    The few treatments available reduce symptoms in some but 
not all patients. These conditions are chronic, costly from a 
healthcare standpoint, impair productivity, and exact a 
tremendous toll in terms of quality of life. The onset of a 
functional gastrointestinal disorders can be triggered by 
infection of the GI tract and/or severe stress. Deployed 
military personnel face an elevated chance of experiencing 
these risk factors.
    The 2010 Institute of Medicine (IOM) report that looked at 
health effects of serving in the gulf war concluded that there 
is sufficient evidence for an association between deployment 
and symptoms consistent with functional gastrointestinal 
disorders. Functional gastrointestinal disorders are one of the 
hallmarks of what was previously described as gulf war 
syndrome.
    The Veterans Administration recognizes a presumption of 
service connection for the purposes of soldiers with functional 
gastrointestinal disorders applying for disability benefits.
    In order to better articulate the suffering associated with 
functional gastrointestinal disorders, I would like to be the 
voice of Dr. Brennan Spiegel, a physician who regularly sees 
military personnel affected by these conditions. I'm quoting 
now:
    ``Those of us in the VA are now witnessing a near-epidemic 
emerging and that is chronic GI symptoms, like abdominal pain, 
nausea, vomiting, and diarrhea. The stories are heartbreaking 
and compelling and they are constant and unrelenting. Imagine 
having the stomach flu. Now think about having that every day 
and being told that we can't treat it very well.
    ``Every Monday morning at the West Los Angeles VA Medical 
Center, our clinic cares for at least 5 to 10 patients with 
service-related GI symptoms. Recently, a soldier entered my VA 
exam room square-jawed and battle-tested. Within minutes, he 
was crying, averting eye contact, and trying to explain that 
his life came to a near halt after kicking in a door one day in 
Tikrit. His abdomen was burning while in the moment and he 
stifled nausea to get through the event. Then, when it was 
over, he broke from his troop and threw up. It's never stopped 
and that was 2 years ago.
    ``There are so many other stories like this. We're making 
progress, but we don't have good answers or good treatments.''
    Please consider including functional gastrointestinal 
disorders on the eligible conditions list for the DOD peer-
reviewed medical research program within fiscal year 2012 
defense appropriations legislation. This would allow 
researchers to begin working to better understand, diagnose, 
and treat these conditions, particularly as they impact 
veterans and active duty military personnel.
    Thank you for your time and your consideration of this 
request.
    [The statement follows:]

   Prepared Statement of Nancy J. Norton, President and Co-Founder, 
   International Foundation for Functional Gastrointestinal Disorders

    Thank you for the opportunity to present the views of the 
International Foundation for Functional Gastrointestinal Disorders 
(IFFGD) regarding functional gastrointestinal disorders (FGIDs) among 
service personnel and veterans. I am here today to request that that 
the Subcommittee include FGIDs as a condition eligible for study in the 
Department of Defense (DOD) Peer-Reviewed Medical Research Program in 
fiscal year 2012.
    Established in 1991, IFFGD is a patient-driven nonprofit 
organization dedicated to assisting individuals affected by functional 
GI disorders, and providing education and support for patients, 
healthcare providers, and the public at large. Our mission is to inform 
and support people affected by painful and debilitating digestive 
conditions, about which little is understood and few (if any) treatment 
options exist. The IFFGD also works to advance critical research on 
functional GI and motility disorders, in order to provide patients with 
better treatment options, and to eventually find a cure.
    FGIDs are disorders in which the movement of the intestines, the 
sensitivity of the nerves of the intestines, or the way in which the 
brain controls intestinal function is impaired. People who suffer from 
FGIDs have no structural abnormality which makes it difficult to 
identify their condition using X-rays, blood tests or endoscopies. 
Instead, FGIDs are typically identified and defined by the collection 
of symptoms experienced by the patient. For this reason, it is not 
uncommon for FGID suffers to have unnecessary surgery, medication, and 
medical devices before receiving a proper diagnosis. Examples of FGIDs 
include irritable bowel syndrome (IBS) and functional dyspepsia. IBS is 
characterized by abdominal pain and discomfort associated with a change 
in bowel pattern, such as diarrhea and/or constipation. Symptoms of 
functional dyspepsia usually include an upset stomach, pain in the 
belly, and bloating.
    FGIDs can be emotionally and physically debilitating. Due to 
persistent pain and bowel unpredictability, individuals who suffer from 
this disorder may distance themselves from social events, work, and 
even may fear leaving their home. Stigma surrounding bowel habits may 
act as barrier to treatment, as patients are not comfortable discussing 
their symptoms with doctors. Because FGID symptoms are relatively 
common and not life-threatening, many people dismiss their symptoms or 
attempt to self-medicate using over-the-counter medications.
    In April 2010, the National Academy of Sciences (NAS) published a 
report titled ``Gulf War and Health, Volume 8: Update on the Health 
Effects of Serving in the Gulf War'' which determined that there is 
sufficient evidence to associate deployment to the gulf war and FGIDs, 
including IBS and functional dyspepsia. According to the report, there 
have been a large number of FGID cases among gulf war veterans, and 
their symptoms have continued to be persistent in the years since that 
war. The NAS report focused on the incidence of GI disorders among 
veterans and did not attempt to determine causality. However, the 
report provides compelling evidence linking exposure to enteric 
pathogens during deployment and the development of FGIDs. The NAS 
recommended that further research be conducted on this association.
    The Department of Defense (DOD) Peer-Reviewed Medical Research 
Program conducts important research on medical conditions that impact 
veterans and active duty military personnel. Given the conclusions of 
the NAS report, and the report's recommendations for further research 
on the link between FGIDs and exposures experienced by veterans in the 
gulf war, FGIDs would make an appropriate addition to the eligible 
conditions list for the Defense Medical Research Program. Therefore, we 
ask that you include ``functional gastrointestinal disorders'' as a 
condition eligible for study in the fiscal year 2012 DOD Peer-Reviewed 
Medical Research Program.
    Thank you again for the opportunity to address the Subcommittee 
today. I hope you agree that the evidence linking FGIDs to service in 
the gulf war is compelling, and that you will include ``functional 
gastrointestinal disorders'' as a condition eligible for study in the 
Department of Defense Peer-Reviewed Medical Research Program in fiscal 
year 2012.

                            IBS INFORMATION

    IBS, one of the most common functional GI disorders, strikes all 
demographic groups. It affects 30 to 45 million Americans, 
conservatively at least 1 out of every 10 people. Between 9 to 23 
percent of the worldwide population suffers from IBS, resulting in 
significant human suffering and disability. IBS as a chronic disease is 
characterized by a group of symptoms that may vary from person to 
person, but typically include abdominal pain and discomfort associated 
with a change in bowel pattern, such as diarrhea and/or constipation. 
As a ``functional disorder'', IBS affects the way the muscles and 
nerves work, but the bowel does not appear to be damaged on medical 
tests. Without a definitive diagnostic test, many cases of IBS go 
undiagnosed or misdiagnosed for years. It is not uncommon for IBS 
suffers to have unnecessary surgery, medication, and medical devices 
before receiving a proper diagnosis. Even after IBS is identified, 
treatment options are sorely lacking and vary widely from patient to 
patient. What is known is that IBS requires a multidisciplinary 
approach to research and treatment.

    Chairman Inouye. I thank you very much, Mr. Christiansen. 
Your request will be very seriously considered. Thank you.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you for bringing the 
witnesses to the subcommittee today to let us hear about these 
situations. I think we have an obligation to look carefully 
into the suggestions of service connection between the events 
in their military deployment and the symptoms that are later 
discovered. I hope we have enough people who are willing to 
devote attention to this so we can figure out a way to find a 
cure or medicinal palliatives that make it better or in any 
other way possible to help restore them to good health.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. What are the, say, two most promising areas 
of research in this area to date, dealing with all of these 
issues?
    Mr. Christiansen. I am not a physician like Dr. King. I 
would hate to comment. But we do work extensively to support 
and encourage research whenever possible. There is a number of 
areas where we're learning more and more about gut flora and 
the type of bacteria that is normally within the gut and how 
something like a GI infection or eating food or drinking water 
from a country or an area where health conditions aren't up to 
par may throw that balance off, allow things, pathogens, to 
leak deeper into the gut than they would normally be, and that 
would explain why the conditions are chronic as opposed to it 
just goes through your system and then you're okay a couple 
weeks later. So looking at the gut flora is becoming more and 
more of a promising area.
    I would also say--and this is a little bit off of 
functional gastrointestinal disorders directly, but it applies 
to this whole larger family of functional GI motility 
disorders, particularly as it applies to veterans and members 
of the military--that tremendous steps are being made in 
regenerative medicine, trying to actually regrow parts of the 
digestive system that may not be working. The anal sphincter is 
a perfect example. There is tremendous efforts underway to 
actually in a lab setting repair and regrow anal sphincters, 
and if this--for example, if there's a soldier who suffered an 
IED attack and significant pelvic floor damage, regenerative 
medicine could one day be at a point where he could get a new 
anal sphincter and return to a normal quality of life. So those 
are two areas I'd acknowledge off the top.
    Senator Shelby. Have there been studies to show that this 
is a higher rate of problems with military service personnel as 
opposed to the general population?
    Mr. Christiansen. Yes. The IOM report I previously cited, 
there was actually two IOM studies that looked at this. I'd be 
happy to share the results of those studies with the 
subcommittee. But it is--they had a very high threshold for 
acknowledging service connection and they found that the 
incidence was higher than it would be in the general population 
as a result of military service.
    Senator Shelby. Thank you.
    Chairman Inouye. I thank you very much. I'd like to thank 
the panel.
    Our next panel consists of: Ms. Kathleen Moakler, National 
Military Family Association; Chief Master Sergeant John R. 
``Doc'' McCauslin, Air Force Sergeants Association; Captain 
Charles D. Connor, U.S. Navy retired, American Lung 
Association; Mr. Rick Jones, National Association for Uniformed 
Services.
    Our first witness, Ms. Kathleen Moakler. Welcome.

STATEMENT OF KATHLEEN B. MOAKLER, GOVERNMENT RELATIONS 
            DIRECTOR, NATIONAL MILITARY FAMILY 
            ASSOCIATION
    Ms. Moakler. Thank you, Chairman Inouye, Senator Cochran, 
Senator Shelby, for allowing us to speak with you this morning 
about military families, our Nation's families. We continue to 
share the concerns of military families with policymakers, as 
we have for over 40 years.
    In the past several years, the National Military Family 
Association has done informal surveys with military families on 
our web site. In our most recent survey, when 1,200 family 
members responded on their top priorities, over 84 percent felt 
it was important that Congress and DOD focus on ensuring 
support programs meet the needs of families experiencing 
multiple deployments. Almost 80 percent felt that helping 
wounded service members and their families should be a top 
priority, and 78 percent felt that helping surviving families 
was an important priority.
    We applaud the words of Defense Secretary Gates and 
Chairman Mullen before this subcommittee last week when they 
stressed the need for continued funding for military family 
programs and support of the wounded. Our association agrees 
that we will be dealing with the costs of these wars for years 
to come and we cannot afford to shortchange our wounded 
warriors and our military families, who have sacrificed so much 
and will continue to sacrifice.
    We also agree with Admiral Mullen that communities must 
join with DOD and the services to support service members, 
veterans, and military families in their midst. To help with 
that effort, our association has developed ``Finding Common 
Ground,'' a toolkit for communities supporting military 
families that includes easily achievable action items and 
useful resources to guide anyone who wants to support military 
families, but doesn't know where to start. It can be downloaded 
for free at our website, militaryfamily.org.
    Child care remains a concern for military families, as 
evidenced by a recent Pew Center on the States survey. We are 
pleased that, in addition to building new child development 
centers, DOD and the services are taking innovative steps to 
address these concerns by working to improve capacity in 
private child care agencies within States. But the need 
remains, especially for the families of the deployed National 
Guard and Reserve.
    At our Operation Purple Healing Adventures Camp for 
families of the wounded, ill, and injured, families continue to 
tell us there is a tremendous need for child care services at 
or near military treatment facilities. Families need child care 
to attend medical appointments, especially mental healthcare 
appointments. Our association urges Congress to sustain funding 
and resources to meet the child care needs of military 
families, to include hourly, drop-in, and increased respite 
care across all services, for families of deployed service 
members and the wounded, ill, and injured, as well as those 
with special needs family members.
    Our association also feels that funding to provide more 
dedicated resources, such as youth or teen centers, and 
enhanced partnerships with national youth-serving 
organizations, would be important ways to better meet the needs 
of our older youth and teens during deployment.
    In 2009 the policy concerning the attendance of the media 
at the dignified transfer of remains at Dover Air Force Base 
was changed. Family members are now given the option of flying 
to Dover. In previous years only about 3 percent of family 
members attended this ceremony. Since the policy change, over 
90 percent of families are sending members to Dover to attend. 
This is provided by the--the money for this is provided by the 
services and none of the costs have been funded. We would ask 
that funds be appropriated to cover the costs of this 
extraordinary expense.
    Thank you for your long-term interest in support of--and 
support for military families. I look forward to any questions 
you may have.
    [The statement follows:]

               Prepared Statement of Kathleen B. Moakler

    The National Military Family Association is the leading nonprofit 
organization committed to improving the lives of military families. Our 
over 40 years of accomplishments have made us a trusted resource for 
families and the Nation's leaders. We have been at the vanguard of 
promoting an appropriate quality of life for active duty, National 
Guard, Reserve, retired service members, their families and survivors 
from the seven uniformed services: Army, Navy, Air Force, Marine Corps, 
Coast Guard, Public Health Service and the National Oceanic and 
Atmospheric Administration.
    Association Volunteers and Representatives in military communities 
worldwide provide a direct link between military families and the 
Association staff in the Nation's capital. These volunteers are our 
``eyes and ears,'' bringing shared local concerns to national 
attention.
    The Association does not have or receive Federal grants or 
contracts.
    Chairman Inouye and Distinguished Members of the Subcommittee, the 
National Military Family Association would like to thank you for the 
opportunity to present testimony for the record concerning the quality 
of life of military families--the Nation's families. In the 10th year 
of war, we continue to see the impact of repeated deployments and 
separations on our service members and their families. We appreciate 
your recognition of the service and sacrifice of these families. Your 
response through legislation to the increased need for support as 
situations have arisen has resulted in programs and policies that have 
helped sustain our families through these difficult times.
    We recognize, too, the emphasis that the Administration is placing 
on supporting military families. The work of Mrs. Obama and Dr. Biden 
through the Joining Forces initiative in raising awareness of the 
sacrifices military families are making has been well received by the 
Nation and appreciated by our families. The American people are 
beginning to understand how 1 percent of our population in the United 
States is being called upon to bear 100 percent of the burden of 
defending our Nation, giving up years of family life together, and how 
they need the support of the other 99 percent of Americans to continue 
carrying that burden.
    The recent Presidential Study Directive-9, which called on Federal 
agencies to outline how they are presently or could in the future 
support military families, reinforced Administration support as well. 
The vision of the study, as contained in the report Strengthening Our 
Military Families, Meeting America's Commitment, is, ``to ensure that:
  --The U.S. military recruits and retains the highest-caliber 
        volunteers to contribute to the Nation's defense and security;
  --Service members can have strong family lives while maintaining the 
        highest state of readiness;
  --Civilian family members can live fulfilling lives while supporting 
        their service member(s); and
  --The United States better understands and appreciates the 
        experience, strength, and commitment to service of our military 
        families.
    This vision resonates with all that our Association has tried to 
work for during our 42 year history. We believe policies and programs 
should provide a firm foundation for families challenged by the 
uncertainties of deployment and transformation. Our Association cares 
about the health and resilience of military families. Innovative and 
evidence based approaches are essential to address the needs of 
military children. Families promote a service member's well-being. We 
realize support for service members and their families is not solely 
provided by the government. Communities also uphold the families.
    Our Nation did not expect to be involved in such a protracted 
conflict. Our military families continue to require effective tools and 
resources to remain strong. We ask Congress, policymakers, non-
government organizations, and communities to remain vigilant and 
respond in a proactive manner. Our Nation can express recognition for 
their sacrifices by promoting the well-being of military families.
    In this statement, the National Military Family Association will 
expand on several issues of importance to military families: Family 
readiness, family health, and family transitions.
Family Readiness
    Policies, programs and services must adapt to the changing needs of 
service members and families. Standardization in delivery, 
accessibility, and funding are essential. Educated and resourced 
families are able to take greater responsibility for their own 
readiness. Recognition should be given to the unique challenges facing 
families with special needs. Support should provide for families of all 
components, in every phase of military life, no matter where they live.
    We appreciate provisions in the National Defense Authorization Acts 
and Appropriations legislation in the past several years that 
recognized many of these important issues. Excellent programs exist 
across the Department of Defense (DOD) and the Services to support our 
military families. There are redundancies in some areas and times when 
a new program was initiated before anyone looked to see if an existing 
program could be adapted to answer an evolving need. We realize all 
Americans will be asked to tighten their belts in this time of tighter 
budgets and some military family programs may need to be downsized or 
eliminated. We ask your support for programs that do work when looking 
for efficiencies, rewarding best practices and programs that are truly 
meeting the needs of families. While we understand that communities and 
non-government organizations may fill gaps in areas where government 
programs are lacking, we maintain DOD and the Department of Veterans 
Affairs (VA) still have a responsibility to provide an appropriate 
level of support for our service members, veterans, their families, and 
survivors. In this section we will highlight some of these best 
practices and identify needs.
            Child Care
    Child care remains a concern for military families, as evidenced by 
a recent Pew Center on the States survey (http://www.preknow.org/
documents/2011_MilitaryFamiliesSurvey.pdf). We are pleased that in 
addition to building new Child Development Centers, DOD and the 
Services are taking innovative steps to address these concerns.
    In December, DOD announced a new pilot initiative in 13 States 
aimed at improving the quality of child care within communities, which 
should translate into increased child care capacity for military 
families living in geographically dispersed areas. Last year, DOD 
contracted with SitterCity.com to help military families find 
caregivers and military subsidized child care providers. The military 
Services and the National Association of Child Care Resource and 
Referral Agencies (NACCRRA) continue to partner to provide subsidized 
child care to families who cannot access installation based child 
development centers.
    At our Operation Purple Healing Adventures camp for families of 
the wounded, ill and injured, families continue to tell us there is a 
tremendous need for child care services at or near military treatment 
facilities. Families need child care to attend medical appointments, 
especially mental health appointments. Our Association encourages the 
expansion of drop-in child care for medical appointments on the DOD or 
VA premises or partnerships with other organizations to provide this 
valuable service.
    We appreciate the requirement in the fiscal year 2010 National 
Defense Authorization Act calling for a report on financial assistance 
provided for child care costs across the Services and Components to 
support the families of service members deployed in support of a 
contingency operation and we look forward to the results.
    Our Association urges Congress to sustain funding and resources to 
meet the child care needs of military families to include hourly, drop-
in, and increased respite care across all Services for families of 
deployed service members and the wounded, ill, and injured, as well as 
those with special needs family members.
            Working with Youth
    Older children and teens must not be overlooked. School personnel 
need to be educated on issues affecting military students and must be 
sensitive to their needs. To achieve this goal, schools need tools. 
Parents need tools, too. Military parents constantly seek more 
resources to assist their children in coping with military life, 
especially the challenges and stress of frequent deployments. Parents 
tell us repeatedly they want resources to ``help them help their 
children.'' Support for parents in their efforts to help children of 
all ages is increasing, but continues to be fragmented. New Federal, 
public-private initiatives, increased awareness, and support by DOD and 
civilian schools educating military children have been developed. 
However, many military parents are either not aware such programs exist 
or find the programs do not always meet their needs.
    Through our Operation Purple camps, our Association has begun to 
identify the cumulative effects multiple deployments are having on the 
emotional growth and well-being of military children and the challenges 
posed to the relationship between deployed parent, caregiver, and 
children in this stressful environment. Understanding a need for 
qualitative analysis of this information, we commissioned the RAND 
Corporation to conduct a longitudinal study on the experience of 1,500 
families. RAND followed these families for 1 year, and interviewed the 
non-deployed caregiver/parent and one child per family between 11 and 
17 years of age at three time points over the year. Recruitment of 
participants was extremely successful because families were eager to 
share their experiences. The research addressed three key questions:
  --How are school-age military children faring?
  --What types of issues do military children face related to 
        deployment?
  --How are non-deployed caregivers handling deployment and what 
        challenges do they face?
    In January 2011, RAND released the report, ``Views from the 
Homefront: The Experience of Youth and Spouses from Military Families'' 
(http://www.rand.org/pubs/technical_reports/TR913.html), detailing the 
longitudinal findings. The research showed:
  --Older teens reported more difficulties during deployment and 
        reintegration.
  --Girls reported more difficulties during reintegration.
  --There were few differences on military characteristics, but reserve 
        component youth reported more difficulties during deployment.
  --Reserve component caregivers reported more challenges with 
        deployment and reintegration.
  --The total number of months away mattered more than the number of 
        deployments.
  --There is a direct correlation between the mental health of the 
        caregiver and the well-being of the child.
  --Quality of family communication mattered to both children and 
        caregiver well-being.
    What are the implications of these findings? Families facing longer 
deployments need targeted support--especially for older teens, girls 
and the reserve component. Support needs to be in place across the 
entire deployment cycle, including reintegration, and some non-deployed 
parents may need targeted mental health support. One way to address 
these needs would be to create a safe, supportive environment for older 
youth and teens. Dedicated installation Youth Centers with activities 
for our older youth would go a long way to help with this. Since many 
military families, especially those with older children, live off the 
installation, enhanced partnerships between DOD and national youth-
serving organizations are also essential. DOD's current work with the 
4-H program is an example of this outreach and support of military 
children in the community. DOD can encourage other organizations to 
share outreach strategies and work together to strengthen a network of 
support for military youth in their civilian communities. We must 
ensure, however, that, once we have encouraged these community 
organizations and services to engage with families, we also encourage 
installations and installation services to be collaborative and not set 
up roadblocks to interaction and support.
    To address the issues highlighted by our research, our Association 
hosted a summit in May 2010, where we engaged with experts to develop 
research-based action items. Our Blue Ribbon Panel outlined innovative 
and pragmatic ideas to improve the well-being of military families, 
recognizing it is imperative solutions involve a broad network of 
government agencies, community groups, businesses, and concerned 
citizens.
    We've published the recommendations from the summit in Finding 
Common Ground: A Toolkit for Communities Supporting Military Families. 
The toolkit is organized in a format similar to our Association's well-
received Military Kids and Teens Toolkits. It contains cards for each 
of the intended communities--including Educators, Friends and Family, 
Senior leaders, Employers, and Health Care Providers--whose help is so 
important to military families. It also contains the summary document 
with the recommendations formulated by our Blue Ribbon Panel and summit 
participants.
    Our goal was to create a user-friendly resource, with easily 
achievable action items and pertinent resources to guide everyone who 
wants to support military families, but may not know how. The toolkit 
lists concrete actions individuals, organizations, and communities can 
take to assist and support our military families. We hope that when 
someone receives a copy, they will go first to the card that most fits 
their relationship to military families and look for ideas and 
resources. We would like them to then take the time to explore other 
cards and the summit summary. While many of the suggested actions are 
simple, we've also presented some of the tougher things that require 
the building of partnerships and a longer-term focus. These actions are 
not exhaustive. It is our hope this toolkit will start conversations 
and stimulate action. Everyone can contribute--it doesn't need to be 
complicated or expensive. Just remembering to include military families 
in outreach is the beginning.
    Our Association feels that funding to provide more dedicated 
resources, such as youth or teen centers and enhanced partnerships with 
national youth-serving organizations, would be important ways to better 
meet the needs of our older youth and teens during deployment.
            Military Housing
    In our recent study conducted by RAND, researchers found that 
living in military housing was related to fewer caregiver-reported 
deployment-related challenges. Fewer caregivers who lived in military 
housing reported their children had difficulties adjusting to parent 
absence (e.g., missing school activities, feeling sad, or not having 
peers who understand what their life is like) as compared to caregivers 
who rented homes. The study team explored the factors that determine a 
military family's housing situation in more detail. Among the list of 
potential reasons provided for the question, ``Why did you choose to 
rent?'' researchers found that the top three reasons parents/caregivers 
cited for renting included: military housing was not available (31 
percent), renting was most affordable (28 percent), and preference to 
not to invest in the purchase of a home (26 percent).
    Privatized housing expands the opportunity for families to live on 
the installation and is a welcome change for military families. We are 
pleased with the annual report that addresses the best practices for 
executing privatized housing contracts. As privatized housing evolves, 
the Services are responsible for executing contracts and overseeing the 
contractors on their installations. With more joint basing, more than 
one Service often occupies an installation. The Services must work 
together to create consistent policies not only within their Service, 
but across the Services as well. Pet policies, deposit requirements, 
and utility policies are some examples of differences across 
installations and across Services. How will Commanders address these 
variances under joint basing? Military families face many transitions 
when they move, and navigating the various policies and requirements of 
each contractor is frustrating and confusing. It's time for the 
Services to increase their oversight and work on creating seamless 
transitions by creating consistent policies across the Services.
    In the GAO Report ``Military Housing: Enhancements Needed to 
Housing Allowance Process and Information Sharing among Services'' GAO 
published in May 2011, GAO highlighted the military Services have 
consistently underestimated the amount needed to pay the basic 
allowance of housing by $820 million to $1.3 billion each year since 
2006. Since the Services have underestimated the amount needed to pay 
the allowance, DOD has had to shift funds budgeted from other 
programs--which disrupts the funding to these program.
    The key factor to underestimation is the timing of developing the 
budget process--it takes nearly 1 year to determine the rates. While 
this process is needed, it causes the Services to underestimate the 
true cost of the housing allowance. Rates are set in December--10 
months after the President's budget is submitted to Congress and 2 
months after the new fiscal year begins. In addition, changes in 
planned force structure (i.e. grow the force initiatives), and the 
increased use of mobilized reserve personnel (more personnel eligible 
to receive a housing allowance) present other challenges.
    The same GAO report highlighted housing deficits ranging from 1 
percent to 20 percent of the total demand at growth installations. 
While Military construction does not fall under the purview of this 
Committee, this Committee can help address the housing deficient by 
extending the use of the Temporary Lodging Expense Allowance. This 
allowance is designed to partially offset expenses when the service 
member occupies temporary quarters while relocating from one 
installation to another. Generally payable for up to 10 days--the Army 
has extended it up to 60 days at growth installations, such as Fort 
Drum and Fort Bliss.
    We ask Congress to consider the importance of family well-being by 
addressing Basic Allowance for Housing (BAH) inequities.
    We also ask for additional money to cover the housing allowance 
shortage.
    We recommend that DOD provide the Services with the flexibility to 
extend the Temporary Lodging Expense Allowance at growth installations 
where there is a shortage of available housing.
            Commissaries and Exchanges
    The Military Personnel Subcommittee of the House Armed Services 
Committee (HASC) held two hearings this year to discuss the importance 
of sustaining Morale, Welfare, and Recreation (MWR) programs and the 
commissary and exchange systems. We maintain that these programs must 
not become easy targets for the budget cutters. The military resale 
hearing reinforced the importance of the commissary and exchange and 
stressed the need for them to remain fiscally sound without reducing 
the benefit to military families. Our Association feels strongly that 
these quality programs for military families should be preserved, 
especially during this era of increased budget austerity.
    Our Association is concerned about one issue raised at the recent 
HASC resale hearing: the potential negative repercussions of the Tax 
Increase Prevention and Reconciliation Act of 2005 (TIPRA) on the 
military community. This legislation included a provision, Section 511, 
mandating Federal, State, and local governments to withhold 3 percent 
from payments for goods and services to contractors after December 31, 
2010. While the implementation has been delayed until December 31, 
2011, we believe this withholding requirement will have a direct impact 
on military families. We believe vendors who provide products sold in 
exchanges and commissaries will end up passing on the implementation 
costs to patrons and will be less willing to offer deals, allowances, 
promotions, and prompt payment discounts, which will thus diminish the 
value of the benefit for military families. The implementation costs 
for the exchange systems may also result in reduced dividends for MWR 
programs, which already operate on tight budgets. Although our 
Association realizes this tax issue does not fall under the Senate 
Appropriations Committee's jurisdiction, we ask Congress to repeal 
Section 511 of TIPRA in order to protect this important benefit for 
military families. If full repeal is not possible, we urge Congress to 
exempt the Defense Commissary Agency, Exchanges and MWR programs from 
the withholding requirement. Military families, who have borne the 
burden of this war for nearly 10 years, should not have to incur 
additional costs at commissaries and exchanges due to the effects of 
this law, which will compromise their quality of life programs when 
they need them most.
    The commissary benefit is a vital part of the compensation package 
for service members and retirees, and is valued by them, their 
families, and survivors. Our surveys and those conducted by DOD 
indicate that military families consider the commissary one of their 
most important benefits. In addition to providing average savings of 
more than 30 percent over local supermarkets, commissaries provide a 
sense of community. Commissary shoppers gain an opportunity to connect 
with other military families and are provided with information on 
installation programs and activities through bulletin boards and 
publications. Commissary shoppers also receive nutritional information 
through commissary promotions and campaigns, as well as the opportunity 
for educational scholarships for their children.
    Active duty and reserve component families have benefitted greatly 
from the addition of case lot sales. Our Association thanks Congress 
for allowing the use of proceeds from surcharges collected at these 
sales to help defray their costs. Case lot sales continue to be 
extremely well received and attended by family members not located near 
an installation. According to Army Staff Sgt. Jenny Mae Pridemore, 
quoted in the Charleston Daily Mail, ``We don't have easy access to a 
commissary in West Virginia and with the economy the way it is everyone 
is having a tough time. The soldiers and the airmen really need this 
support.'' On average, case lot sales save families between 40 and 50 
percent compared to commercial prices. This provides tremendous 
financial support for our remote families, and is a tangible way to 
thank them for their service to our Nation.
    In addition to commissary benefits, the military exchange system 
provides valuable cost savings to members of the military community, 
while reinvesting their profits in essential MWR programs. Our 
Association strongly believes that every effort must be made to ensure 
that this important benefit and the MWR revenue is preserved, 
especially as facilities are down-sized or closed overseas.
    Our Association urges Congress to continue to protect the 
commissary and exchange benefits, and preserve the MWR revenue all of 
which are vital to maintaining a health military community.
    We also ask Congress to repeal Section 511 of TIPRA. If full repeal 
is not achievable, we urge Congress to exempt the Defense Commissary 
Agency, Exchanges and MWR programs from this withholding requirement.
            National Guard and Reserve
    Our Association has long recognized the unique challenges our 
National Guard and Reserve families face and their need for additional 
support. Reserve component families are often geographically dispersed, 
live in rural areas, have service members deployed as individual 
augmentees, and do not consistently have the same family support 
programs as their active duty counterparts. According to the research 
conducted for us by the RAND Corporation, spouses of service members in 
the National Guard and Reserves reported poorer emotional well-being 
and greater household challenges than their full-time active duty 
peers. Our Association believes that greater access to resources 
supporting National Guard and Reserve caregivers is needed to further 
strengthen our reserve component families.
    We appreciate the great strides that have been made in recent years 
by both Congress and the Services to help support our reserve component 
families. Our Association would like to thank Congress for the fiscal 
year 2011 NDAA provision authorizing travel and transportation for 
members of the Uniformed Services and up to three designees to attend 
Yellow Ribbon Reintegration Program events, and for the provision 
enhancing the Yellow Ribbon Reintegration Program by authorizing 
service and State-based programs to provide access to all service 
members and their families. We appreciate your ongoing support of the 
Yellow Ribbon Reintegration Program and ask that you continue funding 
this quality of life program for reserve component families.
    Our Association is gratified that family readiness is now seen as a 
critical component to mission readiness. We have long believed that 
robust family programs are integral to maintaining family readiness, 
for both our active duty and reserve component families. We are pleased 
the Department of Defense Reserve Family Readiness Award recognizes the 
top unit in each of the Reserve Components that demonstrate superior 
family readiness and outstanding mission readiness.
    Our Association asks Congress to continue funding the Yellow Ribbon 
Reintegration Program and stresses the need for greater access to 
resources supporting our Reserve Component caregivers.
            Flexible Spending Accounts
    Congress has provided the Armed Forces with the authority to 
establish Flexible Spending Accounts (FSA), yet the Service Secretaries 
have not established these important tax savings accounts for service 
members. We are pleased H.R. 791 and S. 387 have been introduced to 
press each of the seven Service Secretaries to create a plan to 
implement FSAs for uniformed service members. FSAs were highlighted as 
a key issue presented to the Army Family Action Plan at their 2011 
Department of the Army level conference. FSAs would be especially 
helpful for families with out-of-pocket dependent care and healthcare 
expenses. It is imperative that FSAs for uniformed service members take 
into account the unique aspects of the military lifestyle, such as 
Permanent Change of Station (PCS) moves and deployments, which are not 
compatible with traditional FSAs. We ask that the flexibility of a 
rollover or transfer of funds to the next year be considered.
    Our Association supports Flexible Spending Accounts for uniformed 
service members that account for the unique aspects of military life 
including deployments and Permanent Change of Station moves.
            Financial Readiness
    Ongoing financial literacy and education is critically important 
for today's military families. Military families are not a static 
population; new service members join the military daily. For many, this 
may be their first job with a consistent paycheck. The youthfulness and 
inexperience of junior service members makes them easy targets for 
financial predators. Financial readiness is a crucial component of 
family readiness. The Department of Defense Financial Readiness 
Campaign brings financial literacy to the forefront and it is important 
that financial education endeavors include military families.
    Our Association looks forward to the establishment of the Office of 
Service Member Affairs this July. We encourage Congress to monitor the 
implementation of this office to ensure it provides adequate support to 
service members and their families. Military families should have a 
mechanism to submit a concern and receive a response. The new office 
must work in partnership with DOD.
    Military families are not immune from the housing crisis. We 
applaud Congress for expanding the Homeowners' Assistance Program to 
wounded, ill, and injured service members, survivors, and service 
members with Permanent Change of Station orders meeting certain 
parameters. We have heard countless stories from families across the 
Nation who have orders to move and cannot sell their home. Due to the 
mobility of military life, military homeowners must be prepared to be a 
landlord. We encourage DOD to continue to track the impact of the 
housing crisis on military families.
    We appreciate the increase to the Family Separation Allowance (FSA) 
that was made at the beginning of the war. In more than 10 years, 
however, there has not been another increase. We ask that the Family 
Separation Allowance be indexed to the Cost of Living Allowance (COLA) 
to better reflect rising costs for services.
    Our Association asks Congress to increase the Family Separation 
Allowance by indexing it to COLA.

Family Health
    When considering changes to the healthcare benefit, our Association 
urges policymakers to recognize the unique conditions of service and 
the extraordinary sacrifices demanded of military members and families. 
Repeated deployments, caring for the wounded, and the stress of 
uncertainty create a need for greater access to professional behavioral 
healthcare for all military family members.
    Family readiness calls for access to quality healthcare and mental 
health services. Families need to be assured the various elements of 
their military health system are coordinated and working as a 
synergistic system. The direct care system of Military Treatment 
Facilities (MTFs) and the purchased care segment of civilian providers 
under the TRICARE contracts must work in tandem to meet military 
readiness requirements and ensure they meet access standards for all 
military beneficiaries.
    Congress must provide timely and accurate funding for healthcare. 
DOD healthcare facilities must be funded to be ``world class,'' 
offering state-of-the-art healthcare services supported by evidence-
based research and design. Funding must also support the renovation of 
existing facilities or complete replacement of out-of-date DOD 
healthcare facilities. As we close Walter Reed Army Medical Center and 
open the new Fort Belvoir Community Hospital and the new Walter Reed 
National Military Medical Center, as part of the National Capitol 
Region BRAC process, we must be assured these projects are properly and 
fully funded. We encourage Congress to provide any additional funding 
recommended by DOD and the Defense Health Board's BRAC Subcommittee's 
report.
    Our Association recommends that DOD be funded to ``world class'', 
offering state-of-the-art healthcare services. Funding must also 
support renovation of existing facilities or replacement of out-of-date 
DOD healthcare facilities.
            TRICARE Reimbursement
    Our Association is concerned that continuing pressure to lower 
Medicare reimbursement rates will create a hollow benefit for TRICARE 
beneficiaries. We are appreciative Congress passed the Medicare and 
Medicaid Extenders Act of 2010 (Public Law 111-309), which provided a 
1-year extension of current Medicare physician payment rates until 
December 31, 2011. As the 112th Congress takes up Medicare legislation 
this year, we ask you to consider how this legislation will impact 
military healthcare, especially our most vulnerable populations, our 
families living in rural communities, and those needing access to 
mental health services.
    While we have been impressed with the strides TMA and the TRICARE 
contractors are making in adding providers, especially mental health 
providers to the networks, we believe more must be done to persuade 
healthcare and mental healthcare providers to participate and remain in 
the TRICARE system, even if that means DOD must raise reimbursement 
rates. We frequently hear from providers who will not participate in 
TRICARE because of what they believe are time-consuming requirements 
and low reimbursement rates. National provider shortages in the mental 
health field, especially in child and adolescent psychology, are 
exacerbated in many cases by low TRICARE reimbursement rates, TRICARE 
rules, or military-unique geographic challenges, such as large military 
beneficiary populations in rural or traditionally underserved areas. 
Many mental health providers are willing to see military beneficiaries 
on a voluntary status. We need to do more to attract mental health 
providers to join the TRICARE network. Increasing reimbursement rates 
is just one way of enticing them.
    Since TRICARE payments are linked to Medicare payments, we need 
Medicare reimbursement rates to be increased to improve access to 
providers.
    DOD will need additional funding to offset proposed TRICARE savings 
through increasing TRICARE Prime Retiree enrollment fees and changes to 
the Pharmacy copays enacted by Congress.
            Cost Saving Strategies in the 2012 Budget
    We appreciate DOD's continued focus on cost savings strategies in 
the 2012 budget. DOD's proposed TRICARE changes include a change in 
enrollment fees for TRICARE Prime for under age 65 retirees and a 
change in pharmacy co-pays. DOD should also incur savings through 
better management of healthcare costs. Our Association has always 
supported a mechanism to provide for modest increases to TRICARE Prime 
enrollment fee for retirees under age 65. TRICARE Prime, the managed 
care option for military beneficiaries, provides guaranteed access, low 
out of pocket costs, additional coverage, and more continuity of care 
than the basic military health benefit of TRICARE Standard. The annual 
enrollment fee of $230 per year for an individual retiree or $460 for a 
family has not been increased since the start of TRICARE Prime in 1995.
    We agree that DOD's proposed fiscal year 2012 increase of $5 per 
month per family and $2.50 per month per individual plan is indeed 
modest. We applaud DOD for deciding not to make any changes to the 
TRICARE benefit for active duty, active duty family members, medically 
retired service members, and survivors of service members and for not 
making any changes to the TRICARE Standard and TRICARE for Life (TFL) 
benefit.
    We have some concerns regarding DOD's selection of a civilian-based 
index in determining TRICARE Prime retiree enrollment fee increases 
after 2012. Our Association has always supported the use of Cost of 
Living Allowance (COLA) as a yearly index tied to TRICARE Prime retiree 
enrollment fee increases. We believe if DOD thought the rate of $230 
for individual and $460 for family was appropriate in 1995, then yearly 
increases tied to COLA would maintain that same principle. Our 
objection to the utilization of a civilian index is based on our 
concern that civilian healthcare experts cannot agree on an accurate 
index on which to base civilian healthcare yearly cost increases. The 
Task Force on the Future of Military Health Care ``strongly recommended 
that DOD and Congress accept a method for indexing that is annual and 
automatic.'' However, the Task Force recommended ``using a civilian-
only rather than total cost (including civilian and MTF costs for Prime 
beneficiaries) because the Task Force and DOD have greater confidence 
in the accuracy of the civilian care data and its auditability.'' We 
ask Congress to adopt the Task Force's DOD accountability 
recommendation and require DOD to become more accurate and establish a 
common cost accounting system across the MHS. Until it can do so, 
however, we believe increases tied to COLA are the most fair to 
beneficiaries and predictable for DOD.
    We do not support DOD's budget proposal to change the U.S. Family 
Health Plan (USFHP) eligibility, asking newly enrolled beneficiaries to 
transition from USFHP once they become Medicare/TRICARE for Life 
eligible. Our Association believes USFHP is already providing TMA's 
medical home model of care, maintaining efficiencies, capturing 
savings, and improving patient outcomes. Every dollar spent in 
preventative medicine is captured later when the onset of beneficiary 
co-morbid and chronic diseases are delayed. It is difficult to quantify 
the long-term savings not only in actual cost to the healthcare plan--
and thus to the government--but to the improvement in the quality of 
life for the beneficiary. Removing beneficiaries from USFHP at a time 
when they and the system will benefit the most from their preventative 
and disease management programs would greatly impact the continuity and 
quality of care to our beneficiaries and only cost shift the cost of 
their care from one government agency to another. Almost all USFHP 
enrollees already purchase Medicare Part B in case they decide to leave 
the plan or spend long periods of time in warmer parts of the country. 
There must be another mechanism in which beneficiaries would be allowed 
to continue in this patient-centered program. USFHP also meets the 
Patient Protection and Accountability Care Act's definition of an 
Accountable Care Organization. They certainly have the model of care 
desired by civilian healthcare experts and should be used by DOD as a 
method to test best-practices that can be implemented within the direct 
care system.
    Our Association understands the need for TRICARE to align itself 
with Medicare reimbursement payments. DOD's proposal to implement 
reimbursement payment for Sole Community Hospitals is another example 
of its search for efficiencies. According to TMA, 20 hospitals that 
serve military beneficiaries could be affected by this change. We 
appreciate the 4-year phased-in approach. However, our Association 
recommends Congress encourage TMA to reach out to these hospitals and 
provide waivers if warranted and provide oversight to ensure 
beneficiaries aren't unfairly impacted by this proposal.
    Our Association approves of DOD's modest increase to TRICARE Prime 
enrollment fees for working age retirees.
    We recommend that future increases to TRICARE Prime enrollment fees 
for working age retirees be indexed to retired pay cost of living 
adjustments and support legislative language in the House NDAA fiscal 
year 2012.
    We recommend that Medicare-eligible beneficiaries using the USFHP 
be allowed to remain in the program and Congress should continue to 
fund this TRICARE option for beneficiaries.
    We recommend Congress encourage TMA to reach out to Sole Community 
hospitals serving large numbers of military beneficiaries and provide 
waivers if warranted. Congress may need to provide additional funding 
to help offset this proposed reimbursement change by TMA.
            Other Cost Saving Proposals
    We ask Congress to establish better oversight for DOD's 
accountability in becoming more cost-efficient. We recommend:
  --Requiring the Comptroller General to audit MTFs on a random basis 
        until all have been examined for their ability to provide 
        quality healthcare in a cost-effective manner.
  --Creating a committee, similar in nature to the Medicare Payment 
        Advisory Commission, to provide oversight of the DOD Military 
        Health System (MHS) and make annual recommendations to 
        Congress. The Task Force on the Future of Military Health Care 
        often stated it was unable to address certain issues not within 
        their charter or within the timeframe in which they were 
        commissioned to examine the issues. This Commission would have 
        the time to examine every issue in an unbiased manner.
  --Establishing a Unified ``Joint'' Medical Command structure. This 
        was recommended by the Defense Health Board in 2006 and 2009 
        and included in the U.S. House Armed Service Committee's fiscal 
        year 2011 NDAA proposal and passed by the House of 
        Representatives.
    We are supportive of TMA's movement toward a medical home model of 
patient and family centered care within the direct and purchase care 
systems. An integrated healthcare model, where beneficiaries will be 
seen by the same healthcare team focused on well-being and prevention, 
is a well-known cost saver for healthcare expenditures. Our concern is 
with the individual Services' interpretation of the medical home model 
and its ability to truly function as designed. Our MTFs are still 
undergoing frequent provider deployments; therefore, the model must be 
staffed well enough to absorb unexpected deployments to theater, normal 
staff rotation, and still maintain continuity of providers within the 
medical home.
    Our Association believes right-sizing to optimize MTF capabilities 
through innovating staffing methods; adopting coordination of care 
models, such as medical home; timely replacement of medical facilities 
utilizing ``world class'' and ``unified construction standards;'' and 
increased funding allocations, would allow more beneficiaries to be 
cared for in the MTFs. This would be a win-win situation because it 
increases MTF capabilities, which DOD asserts is the most cost 
effective. It also allows more families, who state they want to receive 
care within the MTF, the opportunity to do so. The Task Force made 
recommendations to make the DOD MHS more cost-efficient, which we 
support. They conclude the MHS must be appropriately sized, resourced, 
and stabilized and make changes in its business and healthcare 
practices. We encourage Congress to include the recommendations of the 
Task Force on the Future of Military Health Care in this year's fiscal 
year 2012 NDAA. These include:
  --Restructuring TMA to place greater emphasis on its acquisition 
        role.
  --Examining and implementing strategies to ensure compliance with the 
        principles of value-driven healthcare.
  --Incorporating health information technology systems and 
        implementing transparency of quality measures and pricing 
        information throughout the MHS. (This is also a civilian 
        healthcare requirement in the recently passed Patient 
        Protection and Affordable Care Act.)
  --Reassessing requirements for purchased care contracts to determine 
        whether more cost effective strategies can be implemented.
  --Removing systemic obstacles to the use of more efficient and cost-
        effective contracting strategies.
            Wounded Service Members Have Wounded Families
    Our Association asserts that behind every wounded service member 
and veteran is a wounded family. It is our belief the government, 
especially the DOD and VA, must take a more inclusive view of military 
and veterans' families. Those who have the responsibility to care for 
the wounded, ill, and injured service member must also consider the 
needs of the spouse, children, parents of single service members and 
their siblings, and the caregivers. DOD and VA need to think 
proactively as a team and one system, rather than separately; and 
addressing problems and implementing initiatives upstream while the 
service member is still on active duty status.
    Reintegration programs become a key ingredient in the family's 
success. For the past 3 years, we have piloted our Operation Purple 
Healing Adventures camp to help wounded, ill, and injured service 
members and their families learn to play again as a family. We hear 
from the families who participate in this camp, as well as others 
dealing with the recovery of their wounded service members, that, even 
with Congressional intervention and implementation of the Services' 
programs, many issues still create difficulties for them well into the 
recovery period. Families find themselves having to redefine their 
roles following the injury of the service member. They must learn how 
to parent and become a spouse/lover with an injury. Each member needs 
to understand the unique aspects the injury brings to the family unit. 
Parenting from a wheelchair brings a whole new challenge, especially 
when dealing with teenagers. Parents need opportunities to get together 
with other parents who are in similar situations and share their 
experiences and successful coping methods. Our Association believes all 
must focus on treating the whole family, with DOD and VA programs 
offering skill based training for coping, intervention, resiliency, and 
overcoming adversities. Injury interrupts the normal cycle of 
deployment and the reintegration process. DOD, the VA, and non-
governmental organizations must provide opportunities for the entire 
family and for the couple to reconnect and bond, especially during the 
rehabilitation and recovery phases.
    DOD and the VA must do more to work together both during the 
treatment phase and the wounded service member's transition to ease the 
family's burden. They must break down regulatory barriers to care and 
expand support through the Vet Centers the VA medical centers, and the 
community-based outpatient clinics (CBOCs). We recommend DOD partner 
with the VA to allow military families access to mental health services 
throughout the VA's entire network of care using the TRICARE benefit. 
Before expanding support services to families, however, VA facilities 
must establish a holistic, family centered approach to care when 
providing mental health counseling and programs to the wounded, ill, 
and injured service member or veteran.
    We remain concerned about the transition of wounded, injured, and 
ill service members and their families from active duty status to that 
of the medically retired. While we are grateful, DOD has proposed to 
exempt medically retired service members, survivors, and their families 
from the TRICARE Prime enrollment fee increases, we believe wounded 
service members need even more assistance in their transition. We 
continue to recommend that a legislative change be made to create a 3-
year transition period in which medically retired service members and 
their families would be treated as active duty family members in terms 
of TRICARE fees, benefits, and MTF access. This transition period would 
mirror that currently offered to surviving spouses and would allow the 
medically retired time to adjust to their new status without having to 
adjust to a different level of TRICARE support.
    Case Management.--Our Association still finds families trying to 
navigate a variety of complex healthcare systems alone, trying to find 
the right combination of care. Our most seriously wounded, ill, and 
injured service members, veterans, and their families are often 
assigned multiple case managers. Families often wonder which one is the 
``right'' case manager. We believe DOD and the VA must look at whether 
the multiple, layered case managers have streamlined the process or 
have only aggravated it. We know the goal is for a seamless transition 
of care between DOD and the VA. However, we continue to hear from 
families, whose service member is still on active duty and meets the 
Federal Recovery Coordinator (FRC) requirement, who have not been told 
FRCs exist or that the family qualifies for one. We are awaiting the 
Government Accountability Office's (GAO) FRC report to determine how 
that program is working in caring for our most seriously wounded, ill, 
and injured service members and veterans and what can be done to 
improve the case management process.
            Caregivers of the Wounded
    Caregivers need to be recognized for the important role they play 
in the care of their loved one. Without them, the quality of life of 
the wounded service members and veterans, such as physical, psycho-
social, and mental health, would be significantly compromised. They are 
viewed as an invaluable resource to DOD and VA healthcare providers 
because they tend to the needs of the service members and the veterans 
on a regular basis. And, their daily involvement saves DOD, VA, and 
State agency healthcare dollars in the long run. Their long-term 
psychological care needs must be addressed. Caregivers of the severely 
wounded, ill, and injured service members who are now veterans have a 
long road ahead of them. In order to perform their job well, they will 
require access to mental health services.
    The VA has made a strong effort in supporting veterans' caregivers. 
DOD should follow suit and expand its definition, which still does not 
align with Public Law 111-163. We appreciate the inclusion in fiscal 
year 2010 NDAA of compensation for service members with assistance in 
everyday living and the refinement in fiscal year 2011 NDAA. The VA 
recently released their VA Caregiver Implementation Plan. Our 
Association had the opportunity to testify at a recent House Veterans' 
Affairs Committee hearing Implementation of Caregiver Assistance: Are 
we getting it right? about our concerns related to the VA's caregiver 
implementation plan. We believe the VA is waiting too long to provide 
valuable resources to caregivers of our wounded and injured service 
members and veterans who had served in Operation Iraqi Freedom/
Operation Enduring Freedom/Operation New Dawn (OIF/OEF/OND). The intent 
of the law was to allow caregivers to receive value-added benefits in a 
timely manner in order to improve the caregiver's overall quality of 
life and train them to provide quality of care to their service member 
and veteran. The VA's interpretation also has the potential to impact 
the DOD's Special Compensation for Service Members law passed as part 
of fiscal year 2010 NDAA and modified in fiscal year 2011. The one area 
of immediate concern is the potential gap in financial compensation 
when the service member transitions to veteran status. The VA's 
application process and caregiver validation process appear to be very 
time intensive. The DOD compensation benefit expires at 90-days 
following separation from active duty. Other concerns include:
  --Narrower eligibility requirements than what the law intended;
  --Lack of illness being covered, such as cancer from a chemical 
        exposure;
  --Delay in the caregiver's receipt of healthcare benefits if 
        currently uninsured, respite care, and training; and
  --Exclusion of non-medical care from the VA's caregiver stipend.
    The VA's decision to delay access to valuable training may force 
each Service to begin its own training program. Thus, each Service's 
training program will vary in its scope and practice and may not meet 
VA's training objectives. This disconnect could force the caregiver to 
undergo two different training programs in order to provide and care 
and receive benefits.
    Our Association also believes the current laws do not go far 
enough. Compensation of caregivers should be a priority for DOD and the 
Secretary of Homeland Security. Non-medical care should be factored 
into DOD's compensation to service members. The goal is to create a 
seamless transition of caregiver benefit between DOD and the VA. We ask 
Congress to assist in meeting that responsibility. Congress will need 
to be ready to fully fund both DOD and VA caregiver benefit programs.
    The VA currently has eight caregiver assistance pilot programs to 
expand and improve healthcare education and provide needed training and 
resources for caregivers who assist disabled and aging veterans in 
their homes. DOD should evaluate these pilot programs to determine 
whether to adopt them for caregivers of service members still on active 
duty. Caregivers' responsibilities start while the service member is 
still on active duty. Congress will need to fund these pilot programs.
    Relocation Allowance and Housing for Medically-Retired Single 
Service Members.--Active Duty service members and their spouses qualify 
through the DOD for military orders to move their household goods when 
they leave the military service. Medically retired service members are 
given a final PCS move. Medically retired married service members are 
allowed to move their family; however, medically retired single service 
members only qualify for moving their own personal goods.
    Our Association suggests that legislation be passed to allow 
medically retired single service members the opportunity to have their 
caregiver's household goods moved as a part of the medical retired 
single service member's PCS move. This should be allowed for the 
qualified caregiver of the wounded service member and the caregiver's 
family (if warranted), such as a sibling who is married with children, 
or mom and dad. This would allow for the entire caregiver's family to 
move, not just the caregiver. The reason for the move is to allow the 
medically retired single service member the opportunity to relocate 
with their caregiver to an area offering the best medical care, rather 
than the current option that only allows for the medically retired 
single service member to move their belongings to where the caregiver 
currently resides. The current option may not be ideal because the area 
in which the caregiver lives may not be able to provide all the 
healthcare services required for treating and caring for the medically 
retired service member. Instead of trying to create the services in the 
area, a better solution may be to allow the medically retired service 
member, their caregiver, and the caregiver's family to relocate to an 
area where services already exist.
    The decision on where to relocate for optimum care should be made 
with the FRC (case manager), the service member's medical physician, 
the service member, and the caregiver. All aspects of care for the 
medically retired service member and their caregiver shall be 
considered. These include a holistic examination of the medically 
retired service member, the caregiver, and the caregiver's family for, 
but not limited to, their needs and opportunities for healthcare, 
employment, transportation, and education. The priority for the 
relocation should be where the best quality of services is readily 
available for the medically retired service member and his/her 
caregiver.
    The consideration for a temporary partial shipment of caregiver's 
household goods may also be allowed, if deemed necessary by the case 
management team.
    We ask Congress to allow medically retired service members and 
their families to maintain the active duty family TRICARE benefit for a 
transition period of 3 years following the date of medical retirement, 
comparable to the benefit for surviving spouses.
    Service members medically discharged from service and their family 
members should be allowed to continue for 1 year as active duty for 
TRICARE and then start the Continued Health Care Benefit Program 
(CHCBP) if needed.
    Congress will need to fully fund training, compensation and other 
support programs for caregivers of the wounded, ill and injured because 
of the important role they play in the successful rehabilitation and 
care of the service member and veteran.
    We request legislation funding medically retired single service 
members to have their caregiver's household goods moved as a part of 
their final PCS move.
    Congress will need to fully fund DOD's Caregiver Compensation 
benefit for military service members and the VA's caregiver benefit for 
caregivers.
            Senior Oversight Committee
    Our Association is appreciative of the provision in the fiscal year 
2009 NDAA continuing the DOD and VA Senior Oversight Committee (SOC) 
until December 2010. The DOD established the Office of Wounded Warrior 
Care and Transition Policy to take over the SOC responsibilities. The 
Office has seen frequent leadership and staff changes and a narrowing 
of its mission. We urge Congress to put a mechanism in place to 
continue to monitor this Office for its responsibilities in maintaining 
DOD and VA's partnership and making sure joint initiatives create a 
seamless transition of services and benefits for our wounded, ill, and 
injured service members, veterans, their families, and caregivers.
            Defense Centers of Excellence
    A recent GAO report found the Defense Centers of Excellence (DCoE) 
for Psychological Health and Traumatic Brain Injury has been challenged 
by a mission that lacked clarity and by time-consuming hiring 
practices. DCoE has experienced a lack of adequate funding hampering 
their ability to hire adequate staff and begin to provide care for the 
patient population as they were created to address. These include the 
Vision Center of Excellence, Hearing Center of Excellence, and the 
Traumatic Extremity Injury and Amputation Center of Excellence. We 
recommend Congress immediately fund these Centers and require DOD to 
provide resources to effectively establish these Centers and meet DOD's 
definition of ``world class'' facilities.
    The Defense Centers of Excellence is providing a transition benefit 
for mental health services for active duty service members, called 
inTransition. Our Association recommends this program be expanded to 
provide the same benefit to active duty spouses and their children. 
Families often complain about the lack of seamless transition of care 
when they PCS. This program will not only provide a warm hand-off 
between mental health providers when moving between and within Regions, 
but more importantly, enable mental health services to begin during the 
move, when families are between duty stations and most venerable.
    We must educate those who care for our service members and veterans 
about the effects of Traumatic Brain Injury (TBI), Post-Traumatic 
Stress (PTS), Post-Traumatic Stress Disorder (PTSD), and suicide in 
order to help accurately diagnose and treat the service member/
veteran's condition. These families are on the ``sharp end of the 
spear'' and are more likely to pick up on changes attributed to either 
condition and relay this information to their healthcare providers. 
Families need tools to help them deal with the daily issues that arise 
when living with and caring for a service member or veteran with TBI 
and/or PTS/PTSD. Programs are being developed by each Service. However, 
they are narrow in focus targeting line leaders and healthcare 
providers, but not broad enough to capture our military family members 
and the communities they live in. As Services roll out suicide 
prevention programs, we need to fund programs that include our 
families, communities, and support personnel. The Deployment Health 
Clinical Center (DHCC), an umbrella organization to DCoE, offers a 3 
week PTSD course for service members and a separate 1-week course for 
their family members. These programs are making a difference in the 
quality of the service members and their families lives. Currently, the 
family member PTSD program is funded by a nonprofit organization. These 
programs need to continue; therefore, they need to be fully funded by 
Congress.
    Our Association encourages all Congressional Committees with 
jurisdiction over military personnel and veterans matters to talk on 
these important issues. Congress, DOD, and VA can no longer continue to 
create policies in a vacuum and focus on each agency separately because 
our wounded, ill, and injured service members and their families need 
seamless, coordinated support from each.
    We recommend Congress immediately fund the Vision Center of 
Excellence, Hearing Center of Excellence, and the Traumatic Extremity 
Injury and Amputation Center of Excellence and require DOD to provide 
resources to effectively establish these Centers and meet DOD's 
definition of ``world class'' facilities.
    We recommend Congress fully fund DHCC's PTSD programs for service 
members and their family members s they may continue uninterrupted.
    We recommend the ``inTransition'' program be expanded to provide 
the same benefit to active duty family members. This program would need 
to be funded to be expanded to include them.

Family Transitions
    Policies and programs must provide training and support for 
families during the many transitions military families experience. 
Quality education for spouses and children, financial literacy, and 
spouse career progression need attention. When families experience a 
life-changing event, they require a responsive system to support them. 
Our Nation must continue to ensure our surviving family members receive 
the support they deserve.
            Survivors
    The Services continue to improve their outreach to surviving 
families. In particular, the Army's SOS (Survivor Outreach Services) 
program makes an effort to remind these families they are not 
forgotten. We most appreciate the special consideration, sensitivity, 
and outreach to the families whose service members have committed 
suicide. We would like to acknowledge the work of the Tragedy 
Assistance Program for Survivors (TAPS) in this area as well. They have 
developed unique outreach to these families and held support 
conferences to help surviving family members navigate what is a very 
difficult time with many unanswered questions. DOD and the VA must work 
together to ensure surviving spouses and their children can receive the 
mental health services they need, through all of VA's venues. We 
believe Congress must grant authority to allow coverage of bereavement 
or grief counseling under the TRICARE behavioral health benefit. The 
goal is the right care at the right time for optimum treatment effect.
    In 2009, the policy concerning the attendance of the media at the 
dignified transfer of remains at Dover AFB was changed. Primary next-
of-kin (PNOK) of the service member who dies in theater is asked to 
make a decision shortly after they are notified of the loss as to 
whether or not the media may film the dignified transfer of remains of 
their loved one during this ceremony. Family members are also given the 
option of flying to Dover themselves to witness this ceremony. In 
previous years, only about 3 percent of family members attended this 
ceremony. Since the policy change, over 90 percent of families send 
some family members to Dover to attend. The travel of up to 3 family 
members and the casualty assistance officer on a commercial carrier are 
provided for. In the NDAA fiscal year 2010, eligible family member 
travel to memorial services for a service member who dies in theater 
was authorized. This is in addition to travel to the funeral of the 
service member. None of the costs associated with this travel has been 
funded for the Services. We would ask that funds be appropriated to 
cover the costs of this extraordinary expense.
    Our Association recommends that grief counseling be more readily 
available to survivors as a TRICARE benefit.
    We ask that funding be appropriated for the travel costs for 
surviving family members to attend the dignified transfer of remains in 
Dover and for eligible surviving family members to attend memorial 
services for service members who die in theater.
    Our Association still believes the benefit change that will provide 
the most significant long-term advantage to the financial security of 
all surviving families would be to end the Dependency and Indemnity 
Compensation (DIC) offset to the Survivor Benefit Plan (SBP). Ending 
this offset would correct an inequity that has existed for many years. 
Each payment serves a different purpose. The DIC is a special indemnity 
(compensation or insurance) payment paid by the VA to the survivor when 
the service member's service causes his or her death. The SBP annuity, 
paid by DOD, reflects the longevity of the service of the military 
member. It is ordinarily calculated at 55 percent of retired pay. 
Military retirees who elect SBP pay a portion of their retired pay to 
ensure that their family has a guaranteed income should the retiree 
die. If that retiree dies due to a service-connected disability, their 
survivor becomes eligible for DIC.
    Surviving active duty spouses can make several choices, dependent 
upon their circumstances and the ages of their children. Because SBP is 
offset by the DIC payment, the spouse may choose to waive this benefit 
and select the ``child only'' option. In this scenario, the spouse 
would receive the DIC payment and the children would receive the full 
SBP amount until each child turns 18 (23 if in college), as well as the 
individual child DIC until each child turns 18 (23 if in college). Once 
the children have left the house, this choice currently leaves the 
spouse with an annual income of $13,848, a significant drop in income 
from what the family had been earning while the service member was 
alive and on active duty. The percentage of loss is even greater for 
survivors whose service members served longer. Those who give their 
lives for their country deserve more fair compensation for their 
surviving spouses.
    We believe several other adjustments could be made to the Survivor 
Benefit Plan. Allowing payment of the SBP benefits into a Special Needs 
Trust in cases of disabled beneficiaries will preserve their 
eligibility for income based support programs. The government should be 
able to switch SBP payments to children if a surviving spouse is 
convicted of complicity in the member's death.
    We believe there needs to be DIC equity with other Federal survivor 
benefits. Currently, DIC is set at $1,154 monthly (43 percent of the 
Disabled Retirees Compensation). Survivors of Federal workers have 
their annuity set at 55 percent of their Disabled Retirees 
Compensation. Military survivors should receive 55 percent of VA 
Disability Compensation. We are awaiting the overdue report. We support 
raising DIC payments to 55 percent of VA Disability Compensation. When 
changes are made, we ask Congress to ensure that DIC eligibles under 
the old system receive an equivalent increase.
    Imagine that you have just experienced the death of your spouse, a 
retired service member. In your grief, you navigate all the gates you 
must, fill out paperwork, notify all the offices required. Then, the 
overdrawn notices start showing up in your mailbox. Bills that you 
thought had been paid at the beginning of the month suddenly appear 
with ``overdue'' on them. Retirees are paid proactively, that is, they 
receive retired pay for the upcoming month i.e. on May 31, a retiree 
receives retired pay for the month of June. Presently, the government 
has the authority to take back the full month's pay from the retiree's 
checking account when that retiree dies. Payment for the number of days 
the retiree was alive in the month is subsequently returned to the 
surviving spouse. The VA, on the other hand, allows the surviving 
spouse to keep the last month of disability pay. We support H.R. 493, 
which would allow the surviving spouse or family to keep the last month 
of retired pay to avoid financial penalties caused by the decrease of 
funds in a checking account.
    We ask the DIC offset to SBP be eliminated to recognize the length 
of commitment and service of the career service member and spouse. We 
support H.R. 178 and S. 260, which both provide for that elimination.
    We also request that SBP benefits be allowed to be paid to a 
Special Needs Trust in cases of disabled family members.
    We ask that DIC be increased to 55 percent of VA Disability 
Compensation.
    We support H.R. 493, ``The Military Retiree Survivor Comfort Act'', 
to provide for forgiveness of overpayments of retired pay paid to 
deceased retired members of the Armed Forces following their death.
            Education of Military Children
    Military families place a high value on the quality of their 
children's education. It is a leading factor in determining many 
important family decisions, such as volunteering for duty assignments, 
choosing to accompany the service member or staying behind, selecting 
where a family lives within their new community, deciding whether to 
spend their financial resources on private school, or considering 
homeschooling options. It can even impact a families' decision to 
remain in the Service.
    Military families want quality education for their children just as 
their civilian counterparts do. It is important to remember that 
military families define ``quality of education'' differently. For 
military families, it is not enough for children to be doing well in 
their current schools they must also be prepared for the next location. 
Most military children will move at least twice during their high 
school years and most will attend six to nine different schools between 
kindergarten and 12th grade. Although the Interstate Compact on 
Educational Opportunity for Military Children is helping to alleviate 
many of the transition issues our families face when moving, it does 
not address the quality of education in our schools. Though many of our 
civilian schools are already doing an excellent job of educating and 
supporting our military children, we believe military children deserve 
a quality education wherever they may live. That is why our Association 
has spent over 40 years working to improve education for our military 
children and empowering parents to become their children's best 
advocate.
    With more than 90 percent of military-connected students now 
attending civilian schools, our Association is pleased that the 
Department of Defense has completed a 90-day preliminary assessment of 
how to provide a world-class education for all of the 1.2 million 
school-aged children, not just those under the Department of Defense 
Education Activity's (DODEA) purview. Our Association was invited by 
Dr. Clifford L. Stanley, Under Secretary of Defense for Personnel and 
Readiness, to participate in the Education Review Debriefing and to 
offer our insights on the way ahead. We look forward to the final 
report and to working with DOD to support its implementation. We thank 
the Department of Defense for the educational support programs already 
available to military children, such as the tutoring program for 
deployed service member families, and DODEA's virtual high schools. Our 
Association believes these programs are making a difference and would 
be beneficial to all military families.
    We were also pleased the President's landmark directive, 
``Strengthening Our Military Families,'' listed as one of its top 
priorities the need to ensure excellence in military children's 
education and their development. We greatly appreciate the Department 
of Education committing to making military families one of its 
priorities for its discretionary grant programs and for including our 
Association as a military stakeholder in finding ways to strengthen 
military families within the Reauthorization of the Elementary and 
Secondary Education Act.
    Our Association thanks Congress for providing additional funding to 
civilian school districts educating military children through DODEA's 
Educational Partnership Grant Program. We are aware that DODEA's 
expanded authority to shares its expertise, experience and resources to 
assist military children during transitions, to sharpen the expertise 
of teachers and administrators in meeting the needs of military 
children, and to provide assistance to local education agencies on 
deployment support for military children is set to expire in 2013. We 
ask Congress to extend the authority for the Educational Partnership 
Grant Program past 2013.
    We strongly urge Congress to ensure it is providing appropriate and 
timely funding of Impact Aid through the Department of Education. We 
also ask that you allow school districts experiencing high levels of 
growth, due to military base realignment, to apply for Impact Aid funds 
using current student enrollment numbers rather than the previous year. 
In addition, we call on Congress to increase DOD Supplemental Impact 
Aid funding for schools educating large numbers of military connected 
students. Our Association has long believed that both Impact Aid 
programs are critical to ensuring that school districts can provide 
quality education for our military children.
    We strongly urge Congress to ensure it is providing appropriate 
funding of Impact Aid through the Department of Education at authorized 
levels and to allow school districts experiencing high growth due to 
base realignments to apply for Impact Aid funds using current student 
enrollment numbers.
    We ask Congress to increase the DOD supplement to Impact Aid to $60 
million.
    We also ask Congress to extend the authority for the DODEA 
Educational Partnership Grant Program.
            Spouse Education and Employment
    We are pleased the NDAA fiscal year 2011 calls for a report on 
military spouse education programs. Our recent surveys and feedback we 
have received from military families indicates they appreciate in-state 
tuition and the Post 9/11 G.I. Bill transferability. Our Association 
would like to thank Congress for the enhancements made to the Post 9/11 
G.I. Bill last session. We are especially pleased that spouses of 
active duty service members are now eligible for the book stipend and 
the authority to grant transferability has been extended to families of 
the Commissioned Corps of NOAA and the U.S. Public Health Service.
    DOD's most-cited program success for military spouses is the 
Military Spouse Career Advance Account (MyCAA)--in its original form. 
In October 2010, MyCAA was significant revised and seasoned spouses who 
are no longer eligible feel their education pursuits are not supported 
by the Department of Defense. Many military spouses delay their 
education to support the service member's career. Since 2004, our 
Association has been fortunate to sponsor our Joanne Holbrook Patton 
Military Spouse Scholarship Program, with the generosity of donors who 
wish to help military families. Of particular interest, 33.5 percent of 
applicants from our 2011 scholarship applicant pool stated their 
education was interrupted because of the military lifestyle (frequent 
moves, TDYs, moving expenses, etc.) and 12.2 percent of those directly 
attributed the interruption to deployment of the service member. 
Military spouses remain committed to their education and need 
assistance from Congress to fulfill their educational pursuits. We ask 
Congress to push DOD to fully reinstate the MyCAA program to include 
all military spouses, regardless of their service member's rank and to 
ensure the funding is available for this reinstatement. We also ask 
Congress to work with the appropriate Service Secretaries to extend the 
MyCAA program to spouses of the Coast Guard, the Commissioned Corps of 
NOAA, and the U.S. Public Health Service.
    The fiscal year 2011 NDAA report on military spouse education 
programs only addresses one aspect--education. In order to determine if 
the education programs are working, we recommend a report on spouse 
employment programs. The NDAA fiscal year 2010 created a pilot program 
to secure internships for military spouses with Federal agencies. 
Funding for the program continues through fiscal year 2011. A report on 
military spouse employment programs should include an assessment of the 
military spouse Federal internship program. Military spouses want more 
Federal employment opportunities. Should the pilot become a permanent 
program? We urge Congress to monitor the pilot to ensure spouses are 
able to access the program and eligible spouses are able to find 
Federal employment after successful completion of the internship. Our 
Association recommends Congress requests a report on military spouse 
employment programs.
    To further spouse employment opportunities, we recommend an 
expansion to the Work Opportunity Tax Credit for employers who hire 
spouses of active duty and reserve component service members as 
proposed through the Military Spouse Employment Act, H.R. 687. This 
employer tax credit is one way to encourage corporate America to hire 
military spouses.
    We also recommend providing a tax credit to military spouses to 
offset the expense of obtaining a career license or credential when the 
service member is relocated to a new duty station. Military spouses are 
financially disadvantaged by government ordered moves when they are 
required to obtain a career license in a new State to practice in their 
profession. Many military spouses must maintain a career license in 
multiple States, costing hundreds of dollars. For example, a pharmacist 
can only reciprocate to another State from their original license, 
which requires a military spouse pharmacist to maintain a license in 
more than one State. When our Association asked military spouses to 
share their employment challenges with us, a military spouse of 26 
years stated, ``The very most frustrating part about the process, is 
that obtaining a license does not guarantee that I will find 
employment. I have been licensed in [Kentucky] for a full year and in 
that time have gotten one 6-hour shift of work. That one shift does not 
even begin to recover the expense of obtaining my license here.'' We 
recommend that Congress pass the Military Spouse Job Continuity Act or 
similar legislation to reduce the financial barrier licensed military 
spouses must overcome with each move in order to find employment.
    Our Association urges Congress to recognize the value of military 
spouses by fully funding the MyCAA program for all military spouses, 
expand the Work Opportunity Tax Credit to include military spouses, and 
provide a tax credit to offset state license and credential fees.
            Support for Special Needs Families
    The NDAA fiscal year 2010 established the Office of Community 
Support for Military Families with Special Needs to enhance and improve 
DOD support around the world for military families with special needs, 
whether medical or educational. Our Association remains concerned that 
the Office has not received the proper resources to address the 
medical, educational, relocation, and family support resources our 
special needs families often require. This Office must address these 
various needs in a holistic manner in order to effectively implement 
change. The original intent of the legislation was to have the office 
reside in the Office of the Under Secretary of Defense for Personnel 
and Readiness in order to bring together all entities having 
responsibility for the medical, educational, relocation, and family 
support needs of special needs military family member. At present, 
however, the office comes under the jurisdiction of the Deputy 
Assistant Secretary of Defense for Military Community and Family 
Policy.
    Case management for military beneficiaries with special needs is 
not consistent across the Services or the TRICARE Regions because the 
coordination care for the military family is being done by a non-
synergistic healthcare system. Beneficiaries try to obtain an 
appointment and then find themselves getting partial healthcare within 
the MTF, while other healthcare is referred out into the purchased care 
network. Thus, military families end up managing their own care. 
Incongruence in the case management process becomes more apparent when 
military family members transfer from one TRICARE Region to another and 
when transferring within the same TRICARE Region. This incongruence is 
further exacerbated when a special needs family member is involved and 
they require not only medical intervention, but non-medical care as 
well. Families need a seamless transition and a warm hand-off between 
and within TRICARE Regions and a universal case management process 
across the MHS. Each TRICARE Managed Care Support Contractor (MCSC) has 
created different case management processes. TRICARE leaders must work 
closely with their family support counterparts through the Office of 
Community Support for Military Families with Special Needs to develop a 
coordinated case management system that takes into account other 
military and community resources.
    We applaud the attention Congress and DOD have given to our special 
needs family members in the past 2 years and their desire to create 
robust healthcare, educational, and family support services for special 
needs family members. But, these robust services do not follow them 
when they retire. We encourage the Services to allow these military 
families the opportunity to have their final duty station be in an area 
of their choice, preferably in the same State in which they plan to 
live after the service member retires, to enable them to begin the 
process of becoming eligible for State and local services while still 
on active duty. We also suggest the Extended Care Health Option (ECHO) 
be extended for 1 year after retirement for those family members 
already enrolled in ECHO prior to retirement. More importantly, our 
Association recommends if the ECHO program is extended, it must be for 
all who are eligible for the program because we should not create a 
different benefit simply based on medical diagnosis.
    The Office of Community Support is beginning a study on Medicaid 
availability for special needs military family members. Our Association 
is anxiously awaiting this report's findings. We will be especially 
interested in the types of value-added services individual State 
Medicaid waivers offer their enrollees and whether State budget 
difficulties are making it more difficult for military families to 
qualify for and participate in waiver programs. This information will 
provide yet another avenue to identify additional services ECHO may 
include in order to help address our families' frequent moves and their 
inability to often qualify for these additional value-added benefits in 
a timely manner.
    There has been discussion over the past several years by Congress 
and military families regarding the ECHO program. The ECHO program was 
originally designed to allow military families with special needs to 
receive additional services to offset their lack of eligibility for 
State or federally provided services impacted by frequent moves. We 
suggest that before making any more adjustments to the ECHO program, 
Congress should request a GAO report to determine if the ECHO program 
is working as it was originally designed and if it has been effective 
in addressing the needs of this population. We also hear from our ECHO 
eligible families that they could benefit from additional programs and 
healthcare services to address their special needs. We request a DOD 
pilot study to identify what additional service(s), if any, our special 
needs families need to improve their quality of life, such as cooling 
vests, diapers, and some nutritional supplements. We recommend families 
have access to $3,000 of additional funds to purchase self-selected 
items, programs, and/or services not already covered by ECHO. DOD would 
be required to authorize each purchase to verify the requested item, 
program, or service is appropriate. The pilot study will identify gaps 
in coverage and provide DOD and Congress with a list of possible extra 
ECHO benefits for special needs families. We need to make the right 
fixes so we can be assured we apply the correct solutions. Our 
Association believes the Medicaid waiver report, the GAO report, along 
with the pilot study will provide DOD and Congress with the valuable 
information needed to determine if the ECHO program needs to be 
modified in order to provide the right level of extra coverage for our 
special needs families. We also recommend a report examining the impact 
of the war on special needs military families.
    We ask Congress to request a GAO report to determine if the ECHO 
program is working as it was originally designed and if it has been 
effective in addressing the needs of this population.
    We request Congress fund a DOD pilot study to identify what 
additional service(s), if any, our special needs families need to 
improve their quality of life.
    We recommend that the Extended Care Health Option (ECHO) program be 
extended for 1 year after retirement for those already enrolled in ECHO 
prior to retirement.
    We also recommend a report examining the impact of the war on our 
special needs families.
            Families on the Move
    A Permanent Change of Station (PCS) move to an overseas location 
can be especially stressful for our families. Military families are 
faced with the prospect of being thousands of miles from extended 
family and living in a foreign culture. At many overseas locations, 
there are insufficient numbers of government quarters resulting in the 
requirement to live on the local economy away from the installation. 
Family members in these situations can feel extremely isolated; for 
some the only connection to anything familiar is the local military 
installation. Unfortunately, current law permits the shipment of only 
one vehicle to an overseas location, including Alaska and Hawaii. Since 
most families today have two vehicles, they sell one of the vehicles.
    Upon arriving at the new duty station, the service member requires 
transportation to and from the place of duty leaving the military 
spouse and family members at home without transportation. This lack of 
transportation limits the ability of spouses to secure employment and 
the ability of children to participate in extracurricular activities. 
While the purchase of a second vehicle alleviates these issues, it also 
results in significant expense while the family is already absorbing 
other costs associated with a move. Simply permitting the shipment of a 
second vehicle at government expense could alleviate this expense and 
acknowledge the needs of today's military family.
    Travel allowances and reimbursement rates have not kept pace with 
the out-of-pocket costs associated with today's moves. In a recent PCS 
survey conducted by our Association, more than 50 percent of survey 
respondents identified uncovered expenses related to the move as their 
top moving challenge. Military families are authorized 10 days for a 
housing hunting trip, but the cost for trip is the responsibility of 
the service member. Families with two vehicles may ship one vehicle and 
travel together in the second vehicle. The vehicle will be shipped at 
the service member's expense and then the service member will be 
reimbursed funds not used to drive the second vehicle to help offset 
the cost of shipping it. Or, families may drive both vehicles and 
receive reimbursement provided by the Monetary Allowance in Lieu of 
Transportation (MALT) rate. MALT is not intended to reimburse for all 
costs of operating a car but is payment in lieu of transportation on a 
commercial carrier. Yet, a TDY mileage rate considers the fixed and 
variable costs to operate a vehicle. Travel allowances and 
reimbursement rates should be brought in line with the actually out-of-
pocket costs borne by military families.
    Our Association supports the Service Members Permanent Change of 
Station Relief Act, S. 472 and believes it will reduce some of the 
additional moving expenses incurred by many military families.
    Our Association requests that Congress authorize the shipment of a 
second vehicle to an overseas location (at least Alaska and Hawaii) on 
accompanied tours, and that Congress address the out-of-pocket expenses 
military families bear for government ordered moves.
            Military Families--Our Nation's Families
    Military families have been supporting their warriors in time of 
war for 10 years. DOD and the military Services, with the help and 
guidance of Congress have developed programs and policies to respond to 
their changing and developing needs over this time. Families have come 
to rely on this support. They appreciate the spotlight of recognition 
that has been shone on their experience by the First Lady and Dr. 
Biden. They are heartened by the new sense of cooperation between 
government agencies in coordinating support. They know that it is up to 
them to make use of the tools and programs provided to become more 
resilient with each deployment. Congress provides the authorization and 
funding for these tools and programs. Even in a time of austere 
budgets, our Nation needs to sustain this support in order to maintain 
readiness. Our military families deserve no less.

    Chairman Inouye. I thank you very much, Ms. Moakler.
    Senator Cochran.
    Senator Cochran. I'm curious, what's the estimated cost of 
the reimbursement if the Congress desired to or decided to 
respond to that request?
    Ms. Moakler. I don't know, because it depends on how long, 
how far the family is coming from. But right now the units 
themselves are taking that money out of hide, out of their 
family support funds.
    Senator Cochran. Thank you.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Mr. Chairman, just an observation. I know 
Ms. Moakler is her as an advocate and she's got a great record 
of family support. I believe this subcommittee has a good 
record of support for our military through the appropriation, 
and their families, which we think are very important to the 
wellbeing and the readiness of our soldiers.
    Ms. Moakler. We agree.
    Senator Shelby. Thank you.
    Chairman Inouye. Thank you very much.
    Our next witness, Chief Master Sergeant John McCauslin, Air 
Force Sergeants Association.

STATEMENT OF CHIEF MASTER SERGEANT JOHN R. ``DOC'' 
            McCAUSLIN, CHIEF EXECUTIVE OFFICER, AIR 
            FORCE SERGEANTS ASSOCIATION
    Sergeant McCauslin. Good morning, Chairman Inouye, Ranking 
Member Cochran, Senator Shelby, and other members of this 
subcommittee. On behalf of the 110,000 members of the Air Force 
Sergeants Association, thanks for this opportunity to offer our 
views of our members on the fiscal year 2012 priorities. This 
morning I will briefly cover some specific areas we urge your 
subcommittee to provide funding for.
    Let me begin with healthcare. In coordination with the 
Military Coalition and governmental agencies, we want to ensure 
that our military members and their families continue to 
receive a cost-effective sustainable healthcare benefit, and we 
greatly appreciate the past efforts of you and this 
subcommittee to make that happen.
    Last week the Senate Armed Services Committee marked the 
National Defense Authorization Act and we were greatly 
disappointed that the bill permits TRICARE fee increases. 
Before seeking increases in military healthcare, we would urge 
that you consider all funding options relative to adequate and 
sustainable healthcare for our military and their families and 
get full detailed justification for the raise of such from DOD.
    The care of those who have borne the horrors and hazards of 
battle needs your constant attention. More than 42,000 service 
members have been wounded in action since the conflicts began. 
Thousands more suffer from the unseen wounds of war. We support 
full funding for the care of wounded warriors, including moneys 
for research and treatment of traumatic brain injuries, post-
traumatic stress disorder, and all those other war-related 
issues.
    On a related matter, this Nation owes those heroes an 
everlasting gratitude and compensation that extends well beyond 
their time in the military. It calls attention to the 
importance of proper documentation of care received on the 
battlefield and their recovery afterward. DOD and VA have made 
great strides in recent years developing a joint electronic 
health record. But it's imperative that this work continue 
until that job is done. This is one that actually saves the 
taxpayers money.
    We also urge continued funding of military base pay, so 
that annual military pay raises exceed the ECI index by at 
least one-half of 1 percent, and we support targeted pay raises 
for midgrade enlisted personnel who have recently assumed 
increased responsibility. The bottom line here is regular 
military pay raises must be maintained by DOD so that we can 
continue to recruit and retain the very best and brightest.
    Another hot button issue is the homelessness and 
unemployment of our veterans. The VA has estimated that 25 
percent of all homeless individuals in the United States are 
veterans. According to the Bureau of Labor Statistics, the 
estimated jobless rate among male veterans ages 18 to 24 was 
more than 30 percent just last month, compared to 18 percent 
among civilians of the same age and gender group. This is an 
absolute shame. DOD and VA recently agreed to tackle this issue 
jointly, so we encourage you to provide enough resources to 
make that happen.
    Caring for survivors of military members is always a matter 
of concern. Those with military survivor plan annuities should 
be able to also receive VA's dependency and indemnity 
compensation payments without offset. The special survivors 
indemnity allowance created by Congress in 2008 to minimize 
those losses is appreciated, but it only restores a fraction of 
the nearly $1,200 surviving spouses lose each month. We as a 
Nation must be able to do better than that.
    We would like to thank Senator Bill Nelson for introducing 
S. 260 and the 38 Senators, 8 of which are on your 
subcommittee, sir, who have co-sponsored this important 
legislation. You may recall that in the 111th Congress there 
were 62 co-sponsors in the Senate to fix this. It's high time 
we act.
    Another precious asset is, the National Guard and Air Force 
Reserve currently have to wait until they reach age 60 before 
they draw their retirement pay. They are currently over 50 
percent of our mission completion, yet subject to this holding 
situation. A provision in last year's NDAA allows the reserve 
components to shave off some time of their minimum retired age 
in exchange for equal periods of active duty service in combat 
zones. We are nowhere near resolving this issue and appreciate 
your continued attention.
    Mr. Chairman, that's all I have today. On behalf of our 
association, I thank you and the members of your subcommittee 
for their dedication to those of us who serve.
    [The statement follows:]

            Prepared Statement of John R. ``Doc'' McCauslin

    Chairman Inouye, Ranking Member Cochran, and distinguished members 
of the Defense subcommittee, on behalf of the 111,000 members of the 
Air Force Sergeants Association, thank you for this opportunity to 
offer the views of our members on the military personnel programs that 
affect those serving (and who have served) our Nation. This hearing 
will address issues critical to those serving and who have served our 
Nation.
    AFSA represents active duty, guard, reserve, retired, and veteran 
enlisted Air Force members and their families, and this year marks our 
50th Anniversary in doing so. Your continuing efforts toward improving 
the quality of their lives make a real difference, and our members are 
grateful. In this statement, I will list several specific goals that we 
hope this committee will consider funding in fiscal year 2012 on behalf 
of current and past enlisted members and their families. The content of 
this statement reflects the views of our members as they have 
communicated them to us. As always, we are prepared to present more 
details and to discuss these issues with your staffs.

                           BASIC MILITARY PAY

    Tremendous progress has been made in recent years to close the gap 
between civilian sector and military compensation. AFSA appreciates 
these steady efforts and we hope they will continue. We believe linking 
pay raises to the employment cost index (ECI) is essential to 
recruiting and retaining the very best and brightest volunteers.
    The President's fiscal year 2012 budget proposal calls for a 1.6 
percent pay increase for active duty service members--the minimum 
amount by law. AFSA believes that the formula for determining annual 
pay increases to be ECI + 0.5 percent until the gap is completed 
eliminated. If we want to continue having an all volunteer force, we 
must continue on the path to close the aforementioned pay gap!

                            QUALITY OF LIFE

    Our Nation's military should not be considered a financial burden 
but considered a national treasure as they preserve our national 
security for all that live here. If we expect to retain this precious 
resource, we must provide them and their families, with decent and safe 
work centers, family housing and dormitories, healthcare, child care 
and physical fitness centers, and recreational programs and facilities. 
These areas are a prime recruitment and retention incentive for our 
Airmen and their families. This directly impacts their desire to 
continue serving through multiple deployments and extended separations 
from family and friends.
    This Nation devotes considerable resources to train and equip 
America's sons and daughters--a long term investment--and that same 
level of commitment should be reflected in the facilities and equipment 
they use and in where they live, work, and play.
    We urge extreme caution in deferring these costs, especially at 
installations impacted by base realignment and closure (BRAC) decisions 
and mission-related shifts.
    We applaud congressional support for military housing privatization 
initiatives. This has provided housing at a much faster pace than would 
have been possible through military construction alone.
    AFSA urges Congress to fully fund appropriate accounts to ensure 
our installations eliminate substandard housing and work centers as 
quickly as possible. Those devoted to serving this Nation deserve 
better.
    Tremendous strides have been made to improve access to quality 
child care and fitness centers on military installations, and we are 
grateful to the Department of Defense and Congress for these collective 
efforts. However, there is still much more work to be done. I have 
personally visited over 125 Air Force installations in the States and 
overseas these past 3 years and I can assure you that the demand for 
adequate child care is a top priority among our Airmen and their 
families. The availability of on base Child Development Centers (CDC) 
plays a critical role in each military family's decision whether or not 
to remain in the service. So I urge Congress to dedicate the funding 
necessary to build more CDCs and eliminate the space deficit that 
exists today.

                               HEALTHCARE

    Like many Military and Veterans Service Organizations (MSO/VSO's), 
AFSA wants to ensure that past, present and future service members and 
families receive the inexpensive, high quality healthcare benefit that 
they so richly deserve. And we are concerned with repeated attempts by 
DOD to shift healthcare costs onto the back of retirees--particularly 
how they are perceived by active duty service members, many of whom 
have fought in Iraq and Afghanistan over the past 10 years.
    As Abraham Lincoln correctly observed, ``The willingness with which 
our young people are likely to serve in any war, no matter how 
justified, shall be directly proportional to how they perceive the 
Veterans of earlier wars were treated and appreciated by their 
nation.''
    To date, Congress has rejected the Pentagons proposed raids on 
earned medical benefits, and we greatly appreciate your work which 
allowed that to happen.
    This year the Pentagon is once again asking for higher fees and 
their current plan would raise enrollment fees for ``working age'' 
retirees and their families who use TRICARE Prime would increase by 13 
percent in fiscal year 2012. The National Health Expenditure index, 
produced by the Centers for Medicare and Medicaid Services, would be 
used beginning in fiscal year 2013, to determine annual enrollment fee 
increases thereafter.
    Co-pays for prescription drugs obtained at retail pharmacies would 
also rise under DOD's plan--from $3 to $5 for generics, $9 to $12 for 
brand name, and $22 to $25 for non-formulary medications at retail 
pharmacies. Non-formulary medications obtained through TRICARES Home 
Delivery would also increase to $25 from $22.
    At first glance, the increases DOD is proposing appear modest but 
we view them as the ``foot in the door'' which will provide the impetus 
for a long line of future TRICARE program changes. Regrettably, the 
House recently chose to include, or rather exclude, language in its 
version of the fiscal year 2012 National Defense Authorization Act 
(H.R. 1540) which would allow DOD's plan to move forward. It does 
however, limit increases in fiscal year 2013 and beyond to the rate of 
the annual COLA.
    AFSA does not discount the country's current fiscal dilemma, or the 
need to get the Federal budget under control. Nor is it is an issue of 
sacrificing a little more so everyone shares a greater portion of the 
load. The question is should they pay more before lesser priority 
programs are cut first? No one has sacrificed more then the men and 
women who have worn or are wearing the Nation's uniform. We simply 
believe it is unwise to raise TRICARE fees at a time when we have 
thousands of men and women in harms way overseas. What kind of message 
are we sending to them? Many of the individuals that would be affected 
by the proposed increases were promised free lifetime healthcare by 
DOD's recruiters to entice them to enlist, and career counselors to 
induce them to reenlist. Right, wrong, or indifferent, a decision to 
increase fees at this time would likely be viewed as another breech of 
promises made by the government. This in turn could adversely affect 
the services quality recruiting and retention efforts.
    I urge this Subcommittee to ensure continued, full funding for 
Defense Health Program. Before seeking increases in enrollment fees, 
deductibles or co-payments, DOD should pursue any and all options to 
contain the growth of healthcare spending in ways that do not 
disadvantage beneficiaries and provide incentives to promote healthy 
lifestyles.
    Again, we appreciate your consistent support in recent years to 
protect beneficiaries from disproportional healthcare fee increases.
Support Judicious VA-DOD Sharing Arrangements
    We encourage this Subcommittee to fund programs that eliminate 
waste and increase efficiency between DOD and VA.
    AFSA supports the judicious use of VA-DOD sharing arrangements 
involving network inclusion in the DOD healthcare program, especially 
when it includes consolidating physical examinations at the time of 
separation. It makes no sense to order a full physical exam on your 
retirement from the military and then within 30 days the VA has ordered 
their own complete physical exam with most of the same exotic and 
expensive exams.
    The decision to begin this process represents a good, common-sense 
approach that should eliminate problems of inconsistency, save time, 
and take care of veterans in a timely manner. These initiatives will 
save funding dollars. AFSA recommends that Congress closely monitor the 
collaboration process to ensure these sharing projects actually improve 
access and quality of care for eligible beneficiaries. DOD beneficiary 
participation in VA facilities must never endanger the scope or 
availability of care for traditional VA patients, nor should any VA-DOD 
sharing arrangement jeopardize access and/or treatment of DOD health 
services beneficiaries. One example of a successful joint sharing 
arrangement is the clinic with ambulatory care services being in 
Colorado Springs, Colorado. This will aid the large number of veterans 
remaining in the area and support the increases in Colorado Springs as 
a result of BRAC initiatives. The VA and DOD each have a lengthy and 
comprehensive history of agreeing to work on such projects, but follow-
through is lacking. ``We urge these committees to encourage joint VA-
DOD efforts, but ask you to exercise close oversight to ensure such 
arrangements are implemented properly.''

                          CARING FOR SURVIVORS

    Support of Survivors.--AFSA commends this committee for previous 
legislation, which allowed retention of Dependency and Indemnity 
Compensation (DIC), burial entitlements, and VA home loan eligibility 
for surviving spouses who remarry after age 57. However, we strongly 
recommend the age 57 DIC remarriage provision be reduced to age 55 to 
make it consistent with all other Federal survivor benefit programs.
    We also endorse the view that surviving spouses with military 
Survivor Benefit Plan (SBP) annuities should be able to concurrently 
receive earned SBP benefits and DIC payments related to their sponsor's 
service-connected death.
    We strongly recommend the Subcommittee fund Senator Bill Nelson's 
(D-FL) bill, S. 260 which would eliminate this unfair offset.
    Survivors of retirees who draw the final full month's retired pay 
for the month in which retirees die should not have to pay this 
compensation back. This is however, what current law requires.
    At a time when the surviving spouse and family members are trying 
to put their lives back together, DOD comes and takes the money back. 
Not some of it; all of it. The entire month. Weeks later, the 
proportionate amount of retired pay may be returned to the spouse but 
the damage has already been done.
    AFSA believes it is wrong to subject survivors to this kind of 
``financial nit-picking'' at a tragic time lives. If there's ever a 
time for the Government to give a military beneficiary a tiny break, 
surely this is it. And we encourage this subcommittee to provide 
sufficient funding to remove this requirement from the books.
    Other Survivor issues included in our Top Priorities are:
  --Permit the member to designate multiple SBP beneficiaries with a 
        presumption that such designations and related allocations of 
        SBP benefits must be proportionate to the allocation of retired 
        pay.
  --Provide for eligibility for housing loans guaranteed by the 
        Department of Veterans Affairs for the surviving spouses of 
        certain totally disabled veterans.

                       DEBT COMMISSION PROPOSALS

    Oppose the following Debt commission recommendations:
  --Freeze Federal salaries, bonuses and other comp for 3 years 
        including military non-combat pay;
  --Reduce spending on base support and facility maintenance;
  --Integrate military kids into local schools in the United States;
  --Use highest 5 years for civil svc and military retiree pay;
  --Reform military retiree system to vest after 10 years and defer 
        collection to age 60; and
  --Full 20+ years of military retired pay starts age 57.
    Work Toward a Consistent Funding Formula and Program Permanence.--
This association believes that the parameters of who will be served, 
what care will be provided, the facilities needed, and the full funding 
to accomplish those missions should be stabilized as mandatory 
obligations. If that were so, and Congress did not have to go through 
redefinition drills as economic philosophies change, the strength of 
the economy fluctuates, and the numbers of veterans increases or 
decreases--these committees and this Nation would not have to re-debate 
obligations and funding each year. We believe that these important 
programs should be beyond debate and should fall under mandatory rather 
than discretionary spending.
    The following are a few of the Debt Commission issues recognized in 
our Top Priorities:
  --Make adjustments to the Household Goods (HHG) weight allowances 
        that take into consideration the number of family members;
  --If advantageous to the Government, reimburse transportation 
        expenses for PCSing members to take their POVs to a location 
        other than a commercial storage facility;
  --Resist DOD/DECA efforts to reduce the benefit that negatively alter 
        current pricing policies, or provide the benefit to non-
        military beneficiaries;
  --Resist the Base Exchange merger process to prevent degradation of 
        the benefit; and
  --Monitor/scrutinize housing privatization efforts to preclude 
        adverse impact on all military members.

               AIR NATIONAL GUARD AND RESERVE RETIREMENT

    Reduce the earliest Guard and Reserve retirement compensation age 
from 60 to 55.--Legislation was introduced in previous years to provide 
a more equitable retirement for the men and women serving in the Guard 
and Reserves. This proposed legislation would have reduced the age for 
receipt of retirement pay for Guard and Reserve retirees from 60 to 55. 
Active duty members draw retirement pay the day after they retire. Yet, 
Guard and Reserve retirees currently have to wait until they reach age 
60 before they can draw retirement pay.
    Provide Concurrent Retirement and Disability Pay (CRDP) For Service 
Incurred Disabilities.--National Guard and Reserve with 20 or more good 
years are currently able to receive CRDP, however, they must wait until 
they are 60 years of age and begin to receive their retirement check. 
This policy must be changed, and along with the reduction in retirement 
age eligibility, is a benefit our Guard and Reserve deserve. They have 
incurred a service connected disability and we must provide concurrent 
retirement and disability pay to them.
    Many Guard/Reserve retirees have spent more time in a combat zone 
than their active duty counterparts. The DOD has not supported 
legislation to provide Guard/Reserve men and women more equitable 
retirement pay in the past. Additional requirements and reliance has 
been placed on the Guard/Reserve in recent years. It is time to 
recognize our men and women in uniform serving in the Guard and Reserve 
and provide them a more equitable retirement system.
    Provide employer and self-employed tax credits and enhance job 
security.--AFSA supports legislation to allow the work opportunity 
credit to small businesses, which hire members of the Reserve 
Components. We encourage this Subcommittee to provide the funding 
necessary to make this happen.
    Award Full Veterans Benefit Status to Guard and Reserve Members.--
It is long overdue that we recognize those servicemembers in the Guard 
and Reserve who have sustained a commitment to readiness as veterans 
after 20 years of honorable service to our country. Certain Guard and 
Reserve members that complete 20 years of qualifying service for a 
reserve (non-regular) retirement have never been called to active duty 
service during their careers. At age 60, they are entitled to start 
receiving their reserve military retired pay, Government healthcare, 
and other benefits of service including some veterans' benefits. But, 
current statutes deny them full standing as a ``veteran'' of the armed 
forces and as a result they are not entitled to all veteran benefits. 
Our goal, along with our TMC partners, is to support pending 
legislation that will include in the definition(s) of ``veteran'' 
retirees of the Guard/Reserve components who have completed 20 years or 
more of qualifying service, but are not considered to be veterans under 
the current statutory definitions.

                           EDUCATION PROGRAMS

    There's no escaping the fact that college costs are rising. As the 
gap between the cost of an education and value of the Montgomery GI 
Bill (MGIB) widened, the significance of the benefit became less 
apparent. For that reason, the Post-9/11 GI Bill is a giant step 
forward. However, we must make sure that the new Post-9/11 GI Bill 
stays current at all times, so that this benefit will not lose its 
effectiveness when it comes to recruiting this Nation's finest young 
men and women into service. As a member of The Military Coalition and 
the Partnership for Veterans' Education, we strongly recommend you make 
the remaining technical corrections to the Post-9/11 GI Bill. Examples 
that standout are active duty not receiving the $1,000 annual book 
stipend, Title 32 credit for Guard and Reserve service, and BAH for 
those veterans or retirees taking on-line college courses full-time.
    Providing in-State tuition rates at federally supported State 
universities and colleges.--Regardless of residency requirements, is an 
important goal for AFSA due to the rise in servicemembers and their 
families returning to institutions to further their education and other 
numerous PCS moves involved with the CONUS.
    Ensure full funding for the mission of the Impact Aid Program.--
Impact Aid Program is to disburse payments to local educational 
agencies that are financially burdened by Federal activities and to 
provide technical assistance and support services.
    Preserve Tuition Assistance.--The discretionary Air Force Tuition 
Assistance (TA) Program is an important quality of life program that 
provides tuition and fees for courses taken by active duty personnel. 
The program is one of the most frequent reasons given for enlisting and 
re-enlisting in the Air Force.
    Implement the Interstate Compact!.--The Interstate Compact on 
Educational Opportunity for Military Children works to correct the 
inequalities that military children face as they transfer from one 
school (system) to another due to deployments or permanent change of 
station moves by their servicemember parent.
    By implementing this Compact, States can work together to achieve 
cohesive education goals and assure military students are well prepared 
for success after high school graduation. We encourage your strong 
support for those who serve this Nation and ask that you take necessary 
measures to pass this Act in your State and implement this important 
program. The States that thus far are absent from supporting the 
``sense of the Senate'' are Nebraska, Massachusetts, Vermont, West 
Virginia, Minnesota, New Hampshire, and Wyoming.
    Repeal or Greatly Modify the Uniformed Services Former Spouses 
Protection Act (USFSPA--Public Law 97-252).--AFSA urges this 
Subcommittee to support some fairness provisions for the USFSPA. While 
this law was passed with good intentions in the mid 1980s, the 
demographics of military service and their families have changed. As a 
result, military members are now the only U.S. citizens who are put at 
a significant disadvantage in divorce proceedings.
    Because of the USFSPA, the following situations now exist:
  --A military member is subject to giving part of his/her military 
        retirement pay (for the rest of his/her life) to anyone who was 
        married to him/her during the military career regardless of the 
        duration of the marriage.
  --The divorce retirement pay separation is based on the military 
        member's retirement pay--not what the member's pay was at the 
        time of divorce (often many years later).
  --A military retiree can be paying this ``award'' to multiple former 
        spouses.
  --It takes a military member 20 years to earn a retirement; it takes 
        a former spouse only having been married to the member (for any 
        duration, no matter how brief) to get a portion of the member's 
        retirement pay.
  --Under this law, in practice judges award part of the member's 
        retirement pay regardless of fault or circumstances.
  --There is no statute of limitations on this law; i.e., unless the 
        original divorce decree explicitly waived separation of future 
        retirement earnings, a former spouse who the military member 
        has not seen for many years can have the original divorce 
        decree amended and ``highjack'' part of the military member's 
        retirement pay.
  --The former spouse's ``award'' does not terminate upon remarriage of 
        the former spouse.
  --The ``award'' to a former spouse under this law is above and beyond 
        child support and alimony.
  --The law is considered unfair, illogical, and inconsistent. The 
        member's military retired pay which the Government refers to as 
        ``deferred compensation'' is, under this law, treated as 
        property rather than compensation. Additionally, the law is 
        applied inconsistently from State to State.
  --In most cases, the military retiree has no claim to part of the 
        former spouse's retirement pay.
  --Of all U.S. citizens, it is unconscionable that military members 
        who put their lives on the line are uniquely subjected to such 
        an unfair and discriminatory law.
  --While there may be unique cases (which can be dealt with by the 
        court on a case-by-case basis) where a long-term, very 
        supported former spouse is the victim, in the vast majority of 
        the cases we are talking about divorces that arise which are 
        the fault of either or both parties--at least half of the time 
        not the military member. In fact, with the current levels of 
        military deployments, more and more military members are 
        receiving ``Dear John'' and ``Dear Jane'' letters while they 
        serve.
  --This is not a male-vs.-female issue. More and more female military 
        members are falling victim to this law. These are just a few of 
        the inequities of this law. We believe this law needs to be 
        repealed or, at the least, greatly modified to be fairer to 
        military members. We urge the Subcommittee to support any 
        funding requirement that may be necessary to take action on 
        this unfair law--for the benefit of those men and women who are 
        currently defending the interests of this nation and its 
        freedom.

                               CONCLUSION

    Chairman Inouye, Ranking Member Cochran, in conclusion, I want to 
thank you again for this opportunity to express the views of our 
members on these important issues as you consider the fiscal year 2012 
budget. We realize that those charged as caretakers of the taxpayers' 
money must budget wisely and make decisions based on many factors. As 
tax dollars dwindle, the degree of difficulty deciding what can be 
addressed, and what cannot, grows significantly.
    AFSA contends that it is of paramount importance for a nation to 
provide quality healthcare and top-notch benefits in exchange for the 
devotion, sacrifice, and service of military members. So, too, must 
those making the decisions take into consideration the decisions of the 
past, the trust of those who are impacted, and the negative 
consequences upon those who have based their trust in our Government? 
We sincerely believe that the work done by your committees is among the 
most important on the Hill. On behalf of all AFSA members, we 
appreciate your efforts and, as always, are ready to support you in 
matters of mutual concern.
    The Air Force Sergeants Association looks forward to working with 
you in this 112th Congress.

    Chairman Inouye. I can assure you that the matter of the 
unemployed and homeless will be a very high priority. Thank you 
very much.
    Sergeant McCauslin. Thank you, Senator.
    Chairman Inouye. Senator Cochran.
    Senator Cochran. Thank you for bringing these facts and 
figures to our attention. It occurs to me that we need to give 
this our best consideration. I think you can be assured that 
that will happen.
    Sergeant McCauslin. Thank you, sir.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Mr. Chairman, just an observation. 
Sergeant, Mr. McCauslin----
    Sergeant McCauslin. Yes, sir.
    Senator Shelby [continuing]. You speak well for the 
Sergeants Association. There are a lot of you, but you had a 
distinguished military record yourself. I was just reading 
that. You're to be commended. You're a good spokesman for them. 
Thank you. We respect that.
    Sergeant McCauslin. Thank you, sir.
    Chairman Inouye. Thank you very much, Sergeant.
    Our next witness is Captain Connor, American Lung 
Association. Captain.

STATEMENT OF CAPTAIN CHARLES D. CONNOR, UNITED STATES 
            NAVY (RETIRED), PRESIDENT AND CHIEF 
            EXECUTIVE OFFICER, AMERICAN LUNG 
            ASSOCIATION
    Captain Connor. Thank you very much, Senator. It's a 
pleasure to be here. Mr. Chairman, with your permission, I 
would like to pass on the greetings of two of your admirers in 
Honolulu I met with last week, Dr. Michael Chun and Aaron Mahi. 
I'm passing on their greetings to you this morning.
    I'm, as you said, a retired Navy captain. I'm President and 
CEO of the American Lung Association. The American Lung 
Association has been around for more than 100 years and our 
mission is to save lives by improving lung health and fighting 
lung disease. We do this through three big things: research, 
advocacy, and educational programs.
    I'd like to take a few seconds of the subcommittee's time 
to talk about three big things today: the terrible burden on 
the military caused by tobacco use and the need for DOD to 
start combatting it; to ask your consideration for restoring 
funding for the peer-reviewed lung cancer research program to 
$20 million; and third, to discuss briefly what you've heard 
about this morning already, which is the threat posed by our 
soldiers in Iraq and Afghanistan to toxic pollutants in the 
air.
    Firstly, let me address tobacco use if I may. Tobacco use, 
as you well know, is the leading cause of preventable death in 
the United States today. Not surprisingly, it is also a very 
significant problem in our military as well. DOD has made some 
small progress, but much, much more needs to be done. Currently 
the smoking rate for civilians in America is about 20 percent. 
It's about 30 percent in the military, 30.5 exactly, and we 
think the combat arms people in deployed status, it's probably 
much higher than that. The highest smoking rates in the 
military are for those people between 18 and 25, especially 
soldiers and marines.
    More than one in seven active duty personnel begin smoking 
after they join the military. So it's a very, very severe 
problem.
    The use of tobacco is a severe compromiser of readiness and 
performance. Studies have shown that smoking is the best 
predictor of training failure and it's also been shown to 
increase soldiers' chances of physical injury and 
hospitalization. Now, you may have been surprised, as I was, to 
see the Secretary of Defense in the last year for the first 
time in my recollection complain about the cost of military 
healthcare. The biggest driver of healthcare is tobacco use. So 
the Pentagon spends over $1.6 billion of appropriated funds in 
treating tobacco-related medical care, increased 
hospitalization, and lost days of work.
    Just 2 years ago, the Institute of Medicine issued a big 
thick report I could have brought today entitled ``Tobacco Use 
in the Military and Veterans Population.'' The panel found that 
tobacco control does not have a very high priority in the 
military--that's what we think as well--and that it will take a 
long time to get the military off tobacco. They suggested as 
long as 20 years.
    So the American Lung Association believes now is the time 
to attack this problem if it's going to take that long, and DOD 
is overdue in announcing how it intends to implement those 
recommendations.
    Two other things briefly in the minute I have left. We 
strongly support the lung cancer research program in the 
congressionally directed medical research program. We urge you 
to restore it to its original intent and the $20 million. The 
original intent was for competitive research grants and 
priority given to deployment of integrated components to 
identify, treat, and manage early curable lung cancer.
    Last, I will not repeat what you've heard already today, 
but we are extremely concerned about the respiratory disease of 
soldiers and marines coming back from theater. We recommend DOD 
immediately begin to find alternatives to burning trash for 
waste disposal and to make burn pits more efficient. We also 
urge DOD to take steps to minimize troop exposure to pollutants 
and to further monitor pollution efforts. We think military 
people should be measured for respiratory illness before they 
go to theater and then coming back, so that we can compare 
apples to apples, so to speak, without comparing military 
respiratory disease with the civilian population. So I think 
there's some attention that needs to be paid to that.
    Thank you very much.
    [The statement follows:]

                Prepared Statement of Charles D. Connor

    Mr. Chairman and members of the Committee, the American Lung 
Association is honored to present this testimony to the Senate 
Appropriations Subcommittee on Defense. The American Lung Association 
was founded in 1904 to fight tuberculosis and today, our mission is to 
save lives by improving lung health and preventing lung disease. We 
accomplish this through research, advocacy and education.
    The American Lung Association wishes to call your attention to 
three issues for the Department of Defense's (DOD) fiscal year 2012 
budget: the terrible burden on the military caused by tobacco use and 
the need for the Department to aggressively combat it; the importance 
of restoring funding for the Peer-Reviewed Lung Cancer Research Program 
to $20 million; and the health threat posed by soldiers' exposure to 
toxic pollutants in Iraq and Afghanistan.
    First, the American Lung Association is concerned about the use of 
tobacco products by the troops. The effects of both the health and 
performance of our troops are significantly hindered by the prevalence 
of smoking and use of smokeless tobacco products. As a result, we urge 
the Department of Defense to immediately implement the recommendations 
in the Institute of Medicine's 2009 Report, Combating Tobacco Use in 
Military and Veteran Populations.
    Next, the American Lung Association recommends and supports 
restoring funding to $20 million for the Peer-Reviewed Lung Cancer 
Research Program (LCRP) within the Department of Defense 
Congressionally Directed Medical Research Program (CDMRP). Finally, the 
American Lung Association is deeply concerned about the respiratory 
health of our soldiers in Iraq and Afghanistan. We urge the DOD to 
immediately find alternatives to using burn pits, to track the 
incidence of respiratory disease related to service, and to take other 
steps that will improve the lung health of soldiers.
Combating Tobacco Use
    Tobacco use remains the leading cause of preventable death in the 
United States and not surprisingly, is a significant problem within the 
military as well. The DOD has made some small progress, including its 
recent smokefree policy on submarines, but significantly more will need 
to be done to reduce the billion dollar price tag that comes with 
military personnel using tobacco products.
    The 2008 Department of Defense Survey of Health Behaviors among 
Active Duty Personnel found that smoking rates among active duty 
personnel have essentially remained steady since 2002. However, smoking 
rates among deployed personnel are significantly higher and, 
alarmingly, more than one in seven (15 percent) of active duty 
personnel begin smoking after joining the service.
    Currently, the smoking rate for active duty military is 30.5 
percent, with smoking rates highest among personnel ages 18 to 25--
especially among soldiers and Marines. The Department of Veterans 
Affairs estimates that more than 50 percent of all active duty 
personnel stationed in Iraq smoke.\1\ The use of tobacco compromises 
military readiness and the performance of our men and women in the 
armed forces. Studies have found that smoking is one of the best 
predictors of training failure, and it has also been shown to increase 
soldiers' chances of physical injury and hospitalization.\2\ Tobacco 
use not only costs the DOD in troop readiness and health--it also costs 
the DOD money. The Pentagon spends over $1.6 billion on tobacco-related 
medical care, increased hospitalization and lost days of work.\3\
---------------------------------------------------------------------------
    \1\ Hamlett-Berry, KW, as cited in Beckham, JC et al. Preliminary 
findings from a clinical demonstration project for veterans returning 
from Iraq or Afghanistan. Military Medicine. May 2008; 173(5):448-51.
    \2\ Institute of Medicine. Combating Tobacco Use in Military and 
Veteran Populations. 2009; 3-4.
    \3\ Institute of Medicine. Combating Tobacco Use in Military and 
Veteran Populations. 2009; 56.
---------------------------------------------------------------------------
    In 2009, the prestigious Institute of Medicine (IOM) issued a 
report entitled, Combating Tobacco Use in Military and Veteran 
Populations. The panel found ``tobacco control does not have a high 
priority in DOD or VA.'' This report, which was requested by both 
departments, issued a series of recommendations, which the American 
Lung Association fully supports and asks this Committee to ensure are 
implemented.
    The IOM recommendations include commonsense approaches to 
eliminating the use of tobacco in the U.S. military. Some of the IOM's 
recommendations include:
  --Phase in tobacco-free policies by starting with military academies, 
        officer-candidate training programs, and university-based 
        reserve officer training corps programs. Then the IOM 
        recommends new enlisted accessions be required to be tobacco-
        free, followed by all active-duty personnel;
  --Eliminate tobacco use on military installations using a phased-in 
        approach;
  --End the sales of tobacco products on all military installations. 
        Personnel often have access to cheap tobacco products on base, 
        which can serve to start and perpetuate addictions;
  --Ensure that all DOD healthcare and health promotion staff are 
        trained in the standard cessation treatment protocols;
  --Ensure that all DOD personnel and their families have barrier-free 
        access to tobacco cessation services.
    A recent investigation conducted by American Public Media \4\ 
highlights that the discount price for tobacco products on base is 
significantly more--in some cases 20 percent--than the 5 percent 
permitted under law. The easiest way to end this problem is to end 
tobacco sales on all military installations.
---------------------------------------------------------------------------
    \4\ Herships, Sally. ``Military underprices tobacco more than law 
allows.'' American Public Media. http://marketplace.publicradio.org/
display/web/2011/06/01/pm-military-underprices-tobacco-more-than-law-
allows/. Accessed June 3, 2011.
---------------------------------------------------------------------------
    The American Lung Association recommends that the Department of 
Defense implement all recommendations called for in the 2009 IOM 
report. The IOM has laid out a very careful, scientifically based road 
map for the DOD to follow and the American Lung Association strongly 
urges the Committee to ensure that the report's recommendations be 
implemented without further delay.

Peer Reviewed Lung Cancer Research Program
    The American Lung Association strongly supports the Lung Cancer 
Research Program (LCRP) in the Congressionally Directed Medical 
Research Program (CDMRP) and its original intent to research the scope 
of lung cancer in our military.
    In fiscal year 2011, LCRP received $12.8 million. We urge this 
Committee to restore the funding level to the fiscal year 2009 level of 
$20 million. In addition to the reduced funding, the American Lung 
Association is troubled by the change in governance language of the 
LCRP authorized by the Congress in fiscal year 2010. We request that 
the 2012 governing language for the LCRP be returned to its original 
intent, as directed by the 2009 program: ``These funds shall be for 
competitive research . . . . Priority shall be given to the development 
of the integrated components to identify, treat and manage early 
curable lung cancer''.

Troubling Lung Health Concerns in Iraq and Afghanistan
    The American Lung Association is extremely troubled by reports of 
soldiers and civilians who are returning home from Iraq and Afghanistan 
with lung illnesses including asthma, chronic bronchitis and sleep 
apnea. Several new studies discussed below show that the airborne 
particle pollution our troops breathe in these areas may cause or 
contribute to these problems.
    A recent DOD study found that air in several Middle East locations 
contained high concentrations of desert sand, as well as particles that 
likely came from human-generated sources--especially trash burned in 
open pits and diesel exhaust. Breathing particulate matter causes heart 
attacks, asthma attacks, and even early death. People most at risk from 
particulate matter include those with underlying diseases such as 
asthma, but the health impact of particle pollution is not limited to 
individuals with pre-existing chronic conditions. Healthy, young adults 
who work outside--such as our young men and women in uniform--are also 
at higher risk. Data from a 2009 study of soldiers deployed in Iraq and 
Afghanistan found that 14 percent of them suffered new-onset 
respiratory symptoms, a much higher rate than their non-deployed 
colleagues. In a review of the DOD studies, the National Academy of 
Sciences National Research Council (NRC) concluded that troops deployed 
in the Middle East are ``exposed to high concentrations'' of 
particulate matter associated with harm ``affecting troop readiness 
during service'' and even ``occurring years after exposure.'' \5\
---------------------------------------------------------------------------
    \5\ National Academy of Sciences, National Research Council. Review 
of the Department of Defense Enhanced Particulate Matter Surveillance 
Program Report. 2010. http://www.nap.edu/catalog/12911.html. Accessed 
June 7, 2011.
---------------------------------------------------------------------------
    Several studies, released in May at the American Thoracic Society 
2011 International Conference, show mounting evidence for the 
importance of solving these problems. One large study showed that 
asthma rates in soldiers deployed to Iraq are higher than in soldiers 
deployed elsewhere. The study also showed that soldiers who served in 
Iraq had more serious asthma--i.e., lower lung function--than non Iraq 
personnel. In fact, records show that 14 percent of medic visits in 
Iraq are for respiratory issues, which is a higher percentage than from 
the previous Iraq war.\6\
---------------------------------------------------------------------------
    \6\ Szema, Anthony M. Overview of Exposures And New Onset Asthma In 
Soldiers Serving In Iraq And Afghanistan. As presented at American 
Thoracic Society 2011 International Conference, May 18, 2011.
---------------------------------------------------------------------------
    There are several probable causes for this alarming prevalence of 
respiratory disease in our current war arenas. The most obvious cause 
is exposure to dust. There are multiple kinds of dust from multiple 
sources in the Middle East. Measurements show that the amount of 
harmful particles in the air is over 600 percent higher than the levels 
considered acceptable for public health in the United States. More 
significant sources of toxic air pollution are burn pits, which are lit 
with jet fuel and sometimes burn continuously for years. This method of 
disposing of trash can be incredibly harmful to soldiers who work in 
the pits' vicinity. Major explosions, IEDs, and fungus can also cause 
harmful respiratory effects.\7\
---------------------------------------------------------------------------
    \7\ Szema, Anthony M. Overview Of Exposures And New Onset Asthma In 
Soldiers Serving In Iraq And Afghanistan. As presented at American 
Thoracic Society 2011 International Conference, May 18, 2011.
---------------------------------------------------------------------------
    While we know these problems exist, it is also clear that the DOD 
needs to do a better job at identifying and tracking them. Respiratory 
disease is difficult to detect, especially in personnel who are 
younger, healthier and more athletic than the general population. 
Military personnel need to be tested for respiratory and lung function 
pre-deployment so that doctors can make useful comparison with post-
deployment results, instead of comparing soldiers to the population 
average. Another possible solution is to use non-traditional measures 
to detect problems--such as ability to complete a 2-mile run, as 
suggested by one researcher.\8\
---------------------------------------------------------------------------
    \8\ Miller, Robert. Constrictive Bronchiolitis Among Soldiers 
Exposed To Burn Pits, Desert Dust And Fires In Southwest Asia. As 
presented at American Thoracic Society 2011 International Conference, 
May 18, 2011.
---------------------------------------------------------------------------
    To protect the troops from the hazards discussed and resulting lung 
disease, the American Lung Association recommends that DOD begin 
immediately to find alternatives to burning trash for waste disposal 
and/or make burn pits more efficient. We also strongly urge DOD to take 
steps to minimize troop exposure to pollutants and to further monitor 
pollution levels. Military doctors also must develop better ways to 
measure and track lung disease in military personnel, including taking 
baseline measures prior to deployment and creating a national registry 
to track all veterans who were exposed to these pollutants while in 
Iraq and Afghanistan. These problems are pervasive throughout the 
military, and DOD officials need to take leadership roles in creating 
positive change.

Conclusion
    Mr. Chairman, in summary, our Nation's military is the best in the 
world and we should do whatever necessary to ensure that the lung 
health needs of our armed services are fully met. Our troops must be 
protected from tobacco and unsafe air pollution and the severe health 
consequences. Thank you for this opportunity.

    Chairman Inouye. I thank you very much, Captain. I'm one of 
the one out of seven. I began smoking after I got in, but I 
quit. But all of us received in our K rations a pack of four 
cigarettes free. That's how we learned.
    Senator Cochran.
    Senator Cochran. We appreciate very much your being here 
today and bringing this reminder to our attention. It's 
something that we need to work hard on and I hope we can be 
successful. It seems to me that this is probably the most 
preventable kind of medical problem that we can work on and the 
chairman has certainly indicated a willingness to cooperate, so 
I think you can look forward to cooperation from this 
subcommittee.
    Captain Connor. Thank you.
    Mr. Vice Chairman, if I may, I'd like to leave behind a 
very recent article from the American Journal of Public Health, 
which fully reveals the extent to which the tobacco industry 
has got its hands in the Senate and the House. We actually have 
enshrined into law, if you can believe it, obstacles to DOD 
attacking the smoking problem. So with your permission, I'd 
like to leave that behind.
    Chairman Inouye. Without objection, it will be made part of 
the record.
    [The information follows:]

        [From the American Journal of Public Health, March 2011]

Forcing the Navy to Sell Cigarettes on Ships: How the Tobacco Industry 
             and Politicians Torpedoed Navy Tobacco Control

   (Naphtali Offen, Sarah R Arvey, Elizabeth A Smith, Ruth E Malone)

    In 1986, the U.S. Navy announced the goal of becoming smoke-free by 
2000. However, efforts to restrict tobacco sales and use aboard the USS 
Roosevelt prompted tobacco industry lobbyists to persuade their allies 
in Congress to legislate that all naval ships must sell tobacco. 
Congress also removed control of ships' stores from the Navy. By 1993, 
the Navy abandoned its smoke-free goal entirely and promised smokers a 
place to smoke on all ships. Congressional complicity in promoting the 
agenda of the tobacco industry thwarted the Navy's efforts to achieve a 
healthy military workforce. Because of military lobbying constraints, 
civilian pressure on Congress may be necessary to establish effective 
tobacco control policies in the armed forces. (Am J Public Health. 
2011;101:404-411. doi: 10.2105/AJPH.2010.196329)
    At more than 30 percent,\1\ \2\ the prevalence of smoking in the 
military is 50 percent higher than is the civilian rate, with a 40 
percent prevalence among those aged 18 to 25 years \3\ and nearly 50 
percent among those who have been in a war 
zone.\2\ \4\ From 1998 to 2005, tobacco use in the military increased 
7.7 percent, from 29.9 percent to 32.2 percent, reversing the decline 
of prior decades.\4\ A tobacco-friendly military culture persists, 
including the availability of cheap tobacco products,\5\ liberal 
smoking breaks,\6\ and easily accessible smoking areas.\6\ \7\ Smoking 
damages health and readiness \8\ \9\ \10\ \11\ and increases medical 
and training 
costs.\12\ \13\ \14\ \15\ In addition to short-term effects, such as 
impairment to vision and hearing, long-term consequences include lung 
and other cancers, cardiovascular disease, chronic obstructive 
pulmonary disease, and problematic wound healing.\4\ The U.S. 
Department of Defense spends more than $1.6 billion annually on 
tobacco-related health care and absenteeism.\4\
---------------------------------------------------------------------------
    \1\ Bray RM, Hourani LL. Substance use trends among active duty 
military personnel: findings from the United States Department of 
Defense Health Related Behavior Surveys, 1980-2005. Addiction. 
2007;102(7):1092-1101.
    \2\ Volkow ND. Director's perspective: substance abuse among 
troops, veterans, and their families. NIDA Notes. 2009; 22(5):1092-
1101.
    \3\ Bray RM, Hourani LL, Olmsted DLR, et al. 2005 Department of 
Defense survey of health related behaviors among active duty military 
personnel: a component of the Defense Lifestyle Assessment Program 
(DLAP). December 2006. Prepared by RTI International. Report No. DAMD 
17-00-2-0057. Available at: http://www.ha.osd.mil/special_reports/
2005_Health_Behaviors_Survey_1-07.pdf. Accessed May 10, 2010.
    \4\ Institute of Medicine. Combating Tobacco Use in Military and 
Veteran Populations. Washington, DC: National Academic Press; 2009.
    \5\ Smith EA, Blackman VS, Malone RE. Death at a discount: how the 
tobacco industry thwarted tobacco control policies in U.S. military 
commissaries. Tob Control 2007;16(1):38-46.
    \6\ Haddock CK, Hoffman KM, Peterson A, et al. Factors which 
influence tobacco use among junior enlisted in the United States Army 
and Air Force: a formative research study. Am J Health Promot. 
2009;23(4):241-246.
    \7\ Jahnke SA, Haddock CK, Poston WS, Hoffman KM, Hughey J, Lando 
HA. A qualitative analysis of the tobacco control climate in the U.S. 
military. Nicotine Tob Res. 2010;12(2):88-95.
    \8\ Dept of the Navy, Office of the Secretary. SECNAV instruction 
5100.13E, Navy and Marine Corps tobacco policy. Available at: http://
www. mccsmiramar.com/pdfs/5100_13E.pdf. Accessed March 3, 2010.
    \9\ Conway T, Cronan T. Smoking, exercise, and physical fitness. 
Prev Med. 1992;21(6):723-734.
    \10\ Zadoo V, Fengler S, Catterson M. The effects of alcohol and 
tobacco use on troop readiness. Mil Med. 1993;158(7): 480-484.
    \11\ Conway TL. Tobacco use and the United States military: a 
longstanding problem. Tob Control. 1998;7(3):219-221.
    \12\ Helyer AJ, Brehm WT, Perino L. Economic consequences of 
tobacco use for the Department of Defense, 1995. Mil Med. 
1998;163(4):217-221.
    \13\ Klesges RC, Haddock CK, Chang CF, Talcott GW, Lando HA. The 
association of smoking and the cost of military training. Tob Control. 
2001;10(1):43-47.
    \14\ Dall TM, Zhang Y, Chen YJ, et al. Cost associated with being 
overweight and with obesity, high alcohol consumption, and tobacco use 
within the military health system's TRICARE prime-enrolled population. 
Am J Health Promot. 2007; 22(2):120-139.
    \15\ Woodruff SI, Conway TL, Shillington AM, Clapp JD, Lemus H, 
Reed MB. Cigarette smoking and subsequent hospitalization in a cohort 
of young U.S. Navy female recruits. Nicotine Tob Res. 2010; 12(4):365-
373.
---------------------------------------------------------------------------
    In addition to compromised military readiness and Department of 
Defense expenses, a tobacco-friendly military culture takes a societal 
toll--economic and human--long after military personnel return to 
civilian life. The Department of Veterans Affairs spent $5 billion in 
2008 treating veterans with chronic obstructive pulmonary disease, a 
diagnosis most often associated with smoking.\4\ Lifelong smokers have 
a 50 percent chance of dying prematurely.\4\ Most costs must be borne 
by the veteran: in 1998, Congress denied disability pensions to 
tobacco-sickened veterans who began to smoke during their service, 
initially labeling smoking in the military as ``willful misconduct.'' 
\16\
---------------------------------------------------------------------------
    \16\ Offen N, Smith EA, Malone RE. ``Willful misconduct'': how the 
U.S. government prevented tobacco-disabled veterans from obtaining 
disability pensions. Am J Public Health. 2010;100(7):1166-1173.
---------------------------------------------------------------------------
    Department of Defense Directive 1010.10, issued in 1986, 
established a baseline ``policy on smoking in the DOD [Department of 
Defense] occupied buildings and facilities.'' \17\ The policy 
emphasized a healthy military that discouraged smoking and designated 
authority to the services and to individual commanders to set specific 
policies.\18\ However, subsequent attempts to set such policies 
achieved limited results,\19\ \20\ in part because of the tobacco 
industry's influence on Congress.\5\ \18\
---------------------------------------------------------------------------
    \17\ Taft WH. Department of Defense Directive 1010.10 Health 
Promotion. March 11, 1986. Philip Morris collection. Bates no. 
2047563159/3166. Available at: http://legacy.library.ucsf.edu/tid/
des52e00. Accessed October 23, 2006.
    \18\ Arvey S, Malone RE. Advance and retreat: tobacco control 
policy in the U.S. military. Mil Med. 2008;173(10):985-991.
    \19\ Smith EA, Malone RE. Tobacco targeting of military personnel: 
``The plums are here to be plucked.'' Mil Med. 2009;174(8):797-806.
    \20\ Smith EA, Malone RE. ``Everywhere the soldier will be'': 
wartime tobacco promotion in the U.S. military. Am J Public Health. 
2009;99(9):1595-1602.
---------------------------------------------------------------------------
    The industry successfully lobbied Congress to prevent the military 
from raising the prices of tobacco products sold in military stores,\5\ 
and to ensure that in-store tobacco promotions would not be 
prohibited.\18\ Congress also prevented the army from implementing a 
stronger tobacco control policy than that set by Directive 1010.10, 
although the directive was intended to be a policy floor upon which the 
services could expand.\18\ To achieve its goals, Congress privately 
pressured military tobacco control advocates,\18\ publicly scolded 
them,\5\ interfered with funding for military programs,\5\ and passed 
laws preventing the establishment of recommended tobacco control 
policies.\5\ \16\
    We examined an attempt by a former captain of the USS Theodore 
Roosevelt to ban smoking on the aircraft carrier and showed how tobacco 
industry lobbyists, working through their allies in the U.S. Congress, 
were successful in stymieing his efforts and forcing the Navy to sell 
cigarettes on all ships.

                                METHODS

    As part of a larger project examining tobacco industry influence on 
the U.S. military, we searched internal tobacco industry documents 
released following the Master Settlement Agreement.\21\ Data were 
collected from the University of California, San Francisco Legacy 
Tobacco Documents Library (available at: http://legacy. 
library.ucsf.edu) and Tobacco Documents Online (available at: http://
tobaccodocuments.org). Initial search terms included ``Navy/smokefree'' 
and ``Navy/cigarettes''; we used a snowball approach to locate 
additional material.\22\ We also searched the LexisNexis database for 
media coverage,\23\ the Library of Congress Thomas database of 
legislative history,\24\ and the U.S. Code collection at Cornell 
University Law School,\25\ and conducted Internet searches for 
supplemental documents. We attempted to interview all principals in 
this case study and spoke with the former captain of the USS Roosevelt, 
Admiral Stanley Bryant (November 9, 2009) and former Navy Master Chief 
Petty Officer James Herdt (January 14, 2010), both of whom advocated 
for the USS Roosevelt policy change. We also interviewed former 
Secretary of the Navy John Dalton (October 22, 2009), who opposed the 
policy. Otherwise unattributed quotations from these individuals are 
taken from the interviews. Our inability to secure other interviews is 
a limitation of this study. We analyzed approximately 340 industry 
documents and 80 documents from other sources using an interpretive 
approach, chronologically organizing our findings as a descriptive case 
study.\26\ \27\
---------------------------------------------------------------------------
    \21\ National Association of Attorneys General. Master Settlement 
Agreement. Available at: http://www.naag.org/upload/
1109185724_1032468605_cigmsa.pdf. Accessed July 7, 2009.
    \22\ Malone RE, Balbach ED. Tobacco industry documents: treasure 
trove or quagmire? Tob Control. 2000;9(3):334-338.
    \23\ LexisNexis Academic Web site. Available at: http://
www.lexisnexis.com/us/lnacademic. Accessed September 20, 2008.
    \24\ Library of Congress Thomas Web page. Available at: http://
thomas.loc.gov/home/multicongress/multicongress.html. Accessed 
September 20, 2008.
    \25\ Cornell University Law School US Code collection. Available 
at: http://www.law.cornell.edu/uscode. Accessed September 13, 2008.
    \26\ Hill MR. Archival Strategies and Techniques. Newbury Park, CA: 
Sage Publications; 1993.
    \27\ Yin RK. Case Study Research Design and Methods. Thousand Oaks, 
CA: Sage Publications; 1994.
---------------------------------------------------------------------------
                                RESULTS

    Following Directive 1010.10, some Navy leaders began to propose 
policies to reduce smoking among their personnel. As early as 1986, 
Chief of Naval Operations James Watkins (1982-1986) proposed a tobacco-
free Navy,\28\ a goal reiterated in 1990 by the Navy surgeon general, 
Vice-Admiral James Zimble (1987-1990).\29\ In February 1992, the Navy 
issued Instruction 6100.2, emphasizing tobacco-use prevention, 
cessation, and the protection of nonsmokers from secondhand smoke.\30\ 
As a result, a number of ships restricted tobacco sales by limiting the 
number of brands carried, raising prices, or not selling tax-free 
cigarettes.\31\ Some ships restricted smoking to limited venues,\31\ 
tobacco-related promotional activities were curtailed at one Navy 
exchange,\32\ and naval hospitals ashore went smoke-free.\33\ In early 
1993, Navy Surgeon General Donald Hagen (1991-1995) asked the Office of 
the Secretary of Defense to end tobacco product price subsidies in 
commissaries and exchanges in all service branches, arguing that low 
cigarette prices contributed to high rates of smoking in the 
military.\34\ By late 1993, the Office of the Secretary of Defense had 
not responded.\35\ \36\ (Cigarette prices in commissaries remained low, 
and only in 1996 were they marginally increased, at the instigation of 
an Assistant Secretary of Defense.) \5\
---------------------------------------------------------------------------
    \28\ Taylor M, Stump D. Sailors are under the ``smoking gun.'' 
September 6, 1995. Philip Morris collection. Bates no. 2048895176/5180. 
Available at: http://legacy.library.ucsf.edu/tid/yre35c00. Accessed 
January 16, 2008.
    \29\ Zimble JA. I am writing to strongly object to Camel cigarette 
advertising that includes naval vessels and aircraft in the background. 
June 11, 1990. RJ Reynolds collection. Bates no. 507471512. Available 
at: http://legacy.library.ucsf.edu/action/document/view?tid=eso24d00. 
Accessed January 24, 2007.
    \30\ Dept of the Navy, Office of the Chief of Naval Operations. 
OPNAV Instruction 6100.2, Health Promotion Program. Available at: 
http://www-nehc.med.navy.mil/bumed/tcat/tobacco/opnav%206100.2.pdf. 
Accessed March 3, 2010.
    \31\ Glennie L. Navy ship smoking restrictions. May 18, 1992. 
Philip Morris collection. Bates no. 2023176786. Available at: http://
legacy.library.ucsf.edu/tid/trs95e00. Accessed April 15, 2008.
    \32\ O'Rourke R. Dept of the Navy, Sale and use of tobacco 
products. June 19, 1992. Philip Morris collection. Bates no. 
2076220349/0350. Available at: http://legacy.library.ucsf.edu/tid/
bqc62c00. Accessed April 28, 2009.
    \33\ Navy News & Undersea Technology. First steps to a smoke-free 
Navy are under way. May 14, 1990. Philip Morris collection. Bates no. 
2023175502. Available at: http://legacy.library.ucsf.edu/tid/oqx83e00. 
Accessed April 8, 2008.
    \34\ Hagen DF. Tobacco use reduction. March 24, 1993. Philip Morris 
collection. Bates no. 2023172986. Available at: http://
legacy.library.ucsf.edu/tid/iuc85e00. Accessed December 6, 2006.
    \35\ Juliana J. Key issues: DOD smoking policies. May 6, 1993. 
Available at: http://tobaccodocuments.org/nysa_ti_s1/TI03081755.html. 
Accessed April 8, 2008.
    \36\ Linehan K. Washington outlook for 1994. December 29, 1993. 
Philip Morris collection. Bates no. 2025774681/4698. Available at: 
http://legacy.library.ucsf.edu/tid/vho14e00. Accessed January 5, 2008.
---------------------------------------------------------------------------
USS Roosevelt Bans Smoking
    Shortly after assuming command of the aircraft carrier Theodore 
Roosevelt, Captain Stanley W. Bryant announced that the ship would 
become entirely smoke-free by July 1993, including an end to cigarette 
sales in the ship's store. Motivated by a recently released report that 
secondhand smoke caused cancer in nonsmokers, Bryant felt obliged to 
act. He said, ``I'm the commanding officer of these kids and I can't 
have them inhaling secondhand smoke. I wouldn't put them in the line of 
fire. I'm not going to put them in the line of smoke.'' Navy Surgeon 
General Hagen and Chief of Naval Operations Admiral Frank B. Kelso 
(1990-1994) supported Bryant's efforts.\37\ \38\
---------------------------------------------------------------------------
    \37\ Law Offices of Shook. Hardy & Bacon. Report on recent ETS and 
IAQ developments. August 6, 1993. Lorillard collection. Bates no. 
87806034/6062. Available at: http://legacy.library.ucsf.edu/tid/
tzb40e00. Accessed April 15, 2008.
    \38\ Tobacco Institute. Executive summary. August 6, 1993. Tobacco 
Institute collection. Bates no. TICT0004527/4528. Available at: http://
legacy.library.ucsf.edu/tid/lgc42f00. Accessed April 28, 2009.
---------------------------------------------------------------------------
    The Roosevelt left port in March 1993 for 6 months at sea, having 
informed the crew in advance of the impending policy change. Cigarettes 
were removed from the ship's store, but chew tobacco was available 
because, according to Bryant, ``although it's bad for the person, it 
doesn't adversely affect the other crew members.'' Crewmen were allowed 
to bring cigarettes aboard and would be able to smoke them in the few 
lavatories set aside for that purpose until the ban went into effect 
July 4. Thereafter, they would be able to smoke only in ports of call. 
Those lavatories were among the only spaces on board where the air was 
vented directly to the outside and not recirculated; however, 
maintaining smoking in the lavatories was untenable because 
measurements of the air quality in the lavatories showed high levels of 
toxicity and the smoke strayed to nearby berths.
    According to Bryant, crew reaction was mixed: many nonsmokers 
expressed support, and some smokers complained. Command Master Chief 
James Herdt, who served as the highest-ranking enlisted person under 
Bryant, said the new policy was opposed by an ``incredibly small group 
of people.'' When a crew member asked Bryant how he could take away his 
right to smoke, Bryant told him the military regulates the length of 
hair and fingernails, how one dresses, and other such matters that many 
things, such as conjugal privileges and alcohol consumption, are 
prohibited on ship; and that smoking cigarettes, like drinking alcohol 
and smoking marijuana, affected the health and welfare of the rest of 
the crew. Bryant reported that few infractions occurred and that he 
received many letters from his crew's family members thanking him for 
protecting their loved ones from smoke and making it easier for smokers 
to quit.

Tobacco Industry Reaction
    Philip Morris and the Tobacco Institute, the industry's lobbying 
arm, observed that Navy Instruction 6100.2 represented a policy shift 
from accommodating both smokers and nonsmokers to privileging 
nonsmokers. One Philip Morris military sales executive said, ``We are 
very concerned that the Navy appears to be getting to the point where 
they are mandating non-smoking.'' \31\ His colleague, Rita O'Rourke, 
noted that Instruction 6100.2 established that ``where conflicts arise 
between the rights of smokers and rights of the nonsmokers, those of 
the nonsmokers shall prevail.'' \39\ She called attention to permission 
given to commanders to punish violations, and argued that the provision 
forced smokers to quit.\39\ With the emergence of stricter policies 
than Department of Defense Directive 1010.10, O'Rourke wondered whether 
to suggest that the Department of Defense revisit the issue, although 
that would risk a decision that ``all Services . . . become smoke-
free.'' \40\
---------------------------------------------------------------------------
    \39\ O'Rourke R. Department of the Navy violations of Department of 
Defense Directive 1010.10. March 6, 1993. Philip Morris collection. 
Bates no. 2023172961/2965. Available at: http://
legacy.library.ucsf.edu/tid/ouc85e00. Accessed November 17, 2006.
    \40\ O'Rourke R. DOD-sale and use of tobacco products. March 16, 
1993. Philip Morris collection. Bates no. 2023172957/2959. Available 
at: http://legacy.library.ucsf.edu/tid/muc85e00. Accessed October 17, 
2006.
---------------------------------------------------------------------------
    Bryant's tobacco control measures on the Roosevelt elicited 
particular industry concern. In a list of suggested talking points, 
Tobacco Institute counsel Jim Juliana told colleagues that the policy 
constituted ``discrimination,'' a denial of freedom of choice, and a 
breach of contract. He argued,

    People are recruited and granted certain privileges and rights 
which now seem to be denied in the middle of their service to their 
country.\35\

    (Bryant noted that when recruits ledge an oath to the Constitution, 
``it doesn't say a damn thing about smoking.'') Juliana argued that the 
Roosevelt was home as well as workplace and suggested that tobacco 
products would be smuggled aboard and ``used illegally and unwarranted 
and unnecessary punitive actions'' would result.\35\

Congressional Hearing
    Only a month after the Roosevelt went smoke-free, the Morale, 
Welfare, and Recreation (MWR) Panel of the House Armed Services 
Committee (HASC) took up the issue of tobacco control in the Navy, and 
the USS Roosevelt in particular.\41\ The panel had oversight of MWR 
activities offered to sailors, such as entertainment and sports 
programs. MWR was funded by profits from the ships' stores. Tobacco-
friendly politicians challenged Rear Admiral Commander John Kavanaugh 
of Navy Exchange Command on the Navy's tobacco control policies, using 
many of the arguments suggested in a memo prepared by Juliana. For 
example, Representative Herbert Bateman (R-VA) characterized not being 
able to smoke aboard ship as a ``trauma'' for crew.\41\ He likened Navy 
smoking restrictions to the failed national policy of Prohibition 
(although alcohol use is prohibited on Navy ships).\42\ Representative 
John Tanner (D-TN), thought it was ``entirely appropriate to perhaps 
restrict smoking for the convenience of those who object violently.'' 
\41\ ``But,'' he added, ``somebody is banning a legal commodity.'' \41\ 
He wondered if lottery tickets or hair spray might be next.\41\ 
Representative Solomon Ortiz (D-TX), chair of the panel, assured 
Kavanaugh that forcing sailors to remain smoke-free for months-long 
deployments would ``cause problems.'' \41\
---------------------------------------------------------------------------
    \41\ Exchange operations and activities: hearing before the Morale, 
Welfare, and Recreation Panel of the Committee on Armed Services, House 
of Representatives, 103rd Congress (1993).
    \42\ Moore RS, Ames GM, Cunradi CB. Physical and social 
availability of alcohol for young enlisted naval personnel in and 
around home port. Subst Abuse Treat Prev Policy. 2007;2:17.
---------------------------------------------------------------------------
    The panel was most concerned about eliminating cigarette sales in 
the ship's store. Will Cofer, MWR Panel staff member and long-time 
tobacco industry ally,\43\ contended that the Roosevelt policy 
prohibiting sales had ``created a black market within the Navy of 
selling cigarettes from one ship to another ship.'' He said, ``[S]ome 
GIs are selling cigarettes at inflated prices to guys on the ship that 
can't buy cigarettes.'' \41\ (Bryant and Herdt acknowledged there was 
some profiteering on the Roosevelt when cigarettes were removed from 
the ship's store, but said that it was minimal.)
---------------------------------------------------------------------------
    \43\ Gaillard RC. Project Breakthrough. March 24, 1994. RJ Reynolds 
collection. Bates no. 509721550/1552. Available at: http://
legacy.library.ucsf.edu/tid/ofz63d00. Accessed February 17, 2010.
---------------------------------------------------------------------------
    The real question about sales, however, involved the profits from 
the ship's stores. These profits supported MWR activities, and 
eliminating tobacco sales would reduce funding for them. Representative 
Bateman found it ``incredible'' that implementing a smoke-free base 
policy wouldn't ``impact revenues generated from the sale of tobacco 
products on that base.'' Kavanaugh acknowledged that ``profits and 
sales will be reduced,'' assuring the panel that there had been ``no 
move to take cigarettes out of Navy exchanges,'' and that only 2 out of 
the Navy's ``500 some ships'' had banned sales.\41\ Representative 
Martin Lancaster (D-NC) questioned Kavanaugh about allowing local-level 
leaders to implement site-specific policy, expressing concern about how 
MWR funds would be equitably distributed among units that profited from 
tobacco sales and those that did not.\41\
    Under congressional pressure, Kavanaugh said that he would report 
the panel's concerns to the Office of the Secretary of the Navy and the 
Chief Naval Officer.\41\ After Kavanaugh delivered the message that the 
MWR Panel was very disturbed by Captain Bryant's decision, the Navy 
sent the panel an official response, stating, ``The Navy's smoking 
policy, for both afloat and ashore commands, is under review by Navy 
leadership.'' \41\
    During the first 3 Congresses of the 1990s, the percentage of 
members of the MWR Panel who accepted contributions from the tobacco 
industry was higher than the congressional average. Although MWR Panel 
members received about 15 percent more industry money than other 
members during the first 2 Congresses of the 1990s, they accepted 93 
percent more than all House members during the 103rd Congress (1993-
1994), when this issue was considered (Table 1). In total, the tobacco 
industry contributed at least $4.4 million to members of the House 
during these 3 Congresses.\44\
---------------------------------------------------------------------------
    \44\ Center for Responsive Politics. Tobacco: Money to Congress. 
Available at: http://www.opensecrets.org/industries/
summary.php?cycle=1990&ind=A02. Accessed May 12, 2010.

  TABLE 1.--CAMPAIGN CONTRIBUTIONS FROM THE TOBACCO INDUSTRY TO MEMBERS OF THE MORALE, WELFARE AND RECREATIONAL
                    (MWR) PANEL OF THE HOUSE OF REPRESENTATIVES' COMMITTEE ON ARMED SERVICES
                                              [Amounts in dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                 Contributions
                                                             ---------------------------------------------------
                                                                1990 \1\     1992 \2\     1994 \3\      Career
----------------------------------------------------------------------------------------------------------------
MWR Panel recipient:
    Neil Abercrombia (D-HI).................................  ...........          500        1,500        9,500
    Herbert H. Bateman (R-VA)...............................        8,100        8,450        5,260       41,548
    Earl Hutto (D-FL).......................................  ...........  ...........  ...........  ...........
    John R. Kasich (R-OH)...................................          500          500        1,500        9,500
    H. Martin Lancaster (D-NC)..............................       18,200       22,198       44,720       85,118
    Donald H. Machtley (R-RI)...............................        1,750  ...........  ...........        1,750
    Solomon P. Ortiz (D-TX).................................        1,000          500        6,000       33,000
    Owen B. Pickett (D-VA...................................        2,850        2,000        6,500       25,750
    Bob Stump (R-AZ)........................................        2,000        3,500        2,500       15,250
    John S. Tanner (D-TN)...................................        5,700        4,700        5,500      157,700
    Robert A. Underwood (D-GU)..............................  ...........  ...........  ...........  ...........
                                                             ---------------------------------------------------
      Total contributions received..........................       40,100       42,348       73,480      379,116
                                                             ===================================================
Average donation received by all MWR Panel members..........        3,645        3,850        6,680  ...........
Average donation received by all House members..............        3,118        3,393        3,458  ...........
----------------------------------------------------------------------------------------------------------------
\1\ MWR Panel members received on average 16.9 percent more than all House members.
\2\ MWR Panel members received on average 13.5 percent more than all House members.
\3\ MWR Panel members received on average 93.2 percent more than all House members.

Congress Retaliates
    Tobacco industry observers interpreted the outcome of the HASC MWR 
Panel hearing as favorable to the industry. Internal industry 
communique's described various members of the panel as supportive of 
the industry's position and noted that ``the military commanders who 
appeared before the panel stated that they would not support 
eliminating sales of tobacco products and would make their opposition 
known to officials.'' \45\
---------------------------------------------------------------------------
    \45\ [Philip Morris.] House panel voices opposition to DOD efforts 
to establish ``smoke-free'' military. August 9, 1993. Philip Morris 
collection. Bates no. 2047992778/2785. Available at: http://
legacy.library.ucsf.edu/tid/rgi57d00. Accessed January 25, 2008.
---------------------------------------------------------------------------
    However, industry reports were overly optimistic. Just 3 days after 
the hearing, the Tobacco Institute learned that Admiral Kelso had 
endorsed Bryant's decision to ban smoking and cigarette sales aboard 
the USS Roosevelt. The Institute reported to tobacco companies that

    Several Members of Congress believe they were betrayed by this 
decision and intend to take legislative action including the removal of 
all Naval ship stores from the commissary system, thus eliminating the 
subsidy and forcing price increases on all other products.\38\

    Command Master Chief Herdt of the USS Roosevelt received a 
shipboard call from the highestranking enlisted person in the Navy, 
Master Chief Petty Officer John Hagan, urging a reversal of the ban. 
Hagan had been summoned to the office of a HASC MWR congressman, who 
chastised him severely about the nosmoking policy. Hagan reportedly 
said he had never been treated so abusively in his role as Master Chief 
Petty Officer. Nonetheless, Herdt and Bryant decided to continue the 
no-smoking policy.
    A month after the hearing, in September 1993, Representative Owen 
Pickett (D-VA) and Representative Ortiz sponsored an amendment to the 
Defense Authorization Act for Fiscal Year 1994, stripping Federal 
subsidies from Navy ships' stores and requiring that they all sell 
tobacco products.\46\ The amendment did not contain obviously pro-
tobacco language, but merely revised the applicable section to replace 
the word ``may'' with ``shall,'' thus reading: ``(c) Items Sold.--
Merchandise sold by ship stores afloat shall include items in the 
following categories . . .'' and listed ``tobacco products'' as one 
among many items that must be made available.\47\ The law does not 
mention specific tobacco products.
---------------------------------------------------------------------------
    \46\ Tobacco Institute. Executive summary. September 17, 1993. 
Lorillard collection. Bates no. 87686227/6228. Available at: http://
legacy.library.ucsf.edu/tid/txt21e00. Accessed April 15, 2008.
    \47\ Cornell University Law School U.S. Code collection. Title 10, 
Subtitle C, Part IV, Chapter 651, Sec. 7604 ships' stores: sale of 
goods and services. Available at: http://www.law.cornell.edu/uscode/
html/uscode10/usc_sec_10_00007604--000-.html. Accessed August 14, 2009.
---------------------------------------------------------------------------
    The amendment also transferred ``the authority over all ships [sic] 
stores from ship captains to the Navy Exchange Command (NEXCOM).'' \48\ 
This transfer meant that oversight would now reside in ``the Morale 
Welfare, and Recreation (MWR) Panel of the House Armed Services 
Committee.'' \49\
---------------------------------------------------------------------------
    \48\ Scott GR. Sale of tobacco products on ships stores. April 7, 
1994. Philip Morris collection. Bates no. 2073010489. Available at: 
http://legacy.library.ucsf.edu/tid/xps57c00. Accessed January 16, 2008.
    \49\ [Philip Morris.] Washington Report: Defense Authorization Bill 
conferees adopt provision requiring ship stores to sell tobacco 
products. November 29, 1993. Philip Morris collection. Bates no. 
2046215439/5445. Available at: http://legacy.library.ucsf.edu/tid/
vuh92e00. Accessed January 16, 2008.
---------------------------------------------------------------------------
    The tobacco industry reported that the legislation was prompted by 
the Navy's tobacco control efforts. Philip Morris observed that 
``Congressional intervention reversed the imposition of a `smokefree' 
policy aboard Navy ships.'' \36\ The Tobacco Institute noted that the 
Chief of Naval Operations angered Congressman Pickett and others by 
``reneging on his promise to reverse the order by the Commanding 
Officer of the USS Roosevelt banning smoking and tobacco sales aboard 
ship.'' \46\

Navy Response
    Before the Defense Authorization Act had been approved and signed 
by the President, the Navy implemented a new service-wide policy that 
prevented local-level personnel from banning smoking entirely.\50\ On 
October 21, 1993, Secretary of the Navy John Dalton issued the 
``Smoking policy for Department of Navy controlled spaces,'' effective 
January 1, 1994, which described exactly where designated smoking 
spaces would be established on ships or submarines.\50\
---------------------------------------------------------------------------
    \50\ Dept of the Navy. Smoking policy for Department of the Navy 
(DoN) controlled spaces. October 22, 1993. Philip Morris collection. 
Bates no. 2023172656/2658. Available at: http://
legacy.library.ucsf.edu/tid/jtt14e00. Accessed December 1, 2006.
---------------------------------------------------------------------------
    Dalton sent Ortiz a copy of the policy.\51\ He wrote, 
``Appreciating your interest in the issue of smoking aboard Navy ships, 
I am pleased to advise you that . . . I have approved a policy that 
will be applicable to all Navy ships.'' \51\ He continued, ``Tobacco 
products will be sold in ship's stores and will be priced similarly to 
those sold in Navy Exchanges ashore.'' The new policy addressed only 
smoking regulations and not sales, suggesting that Dalton may have 
raised the sales issue in his cover letter and implemented the policy 
in an effort to forestall the adoption of the Pickett-Ortiz amendment. 
Ortiz immediately shared the victory with his tobacco industry allies, 
faxing the documents to Philip Morris just ``minutes after'' receiving 
Dalton's letter and policy memo.\52\
---------------------------------------------------------------------------
    \51\ Dalton JH. Letter from John Dalton to Solomon Ortiz. October 
21, 1993. Philip Morris collection. Bates no. 2023172654. Available at: 
http://legacy.library.ucsf.edu/tid/suc85e00. Accessed December 7, 2006.
    \52\ Scott G. Navy smoking policy. October 22, 1993. Philip Morris 
collection. Bates no. 2023172653. Available at: http://
legacy.library.ucsf.edu/tid/ruc85e00. Accessed January 25, 2008.
---------------------------------------------------------------------------
    A naval press release characterized the policy as protecting people 
from ``involuntary exposure to environmental tobacco smoke'' \53\ 
rather than reinstating smoking areas on ships that had eliminated 
them. The media thus reported Dalton's policy as a crackdown on 
smoking, as opposed to a capitulation to members of the HASC MWR 
Panel.\54\ When interviewed, Dalton was unable to recall additional 
details of the incident.
---------------------------------------------------------------------------
    \53\ Navy announces new smoking policy [press release]. Washington, 
DC: U.S. Navy; October 21, 1993. Available at: http://www.navy.mil/
navydata/news/mednews/med93/med93041.txt. Accessed November 9, 2009.
    \54\ Morris P. Navy cracks down on smoking with uniform new 
regulations. November 17, 1993. Philip Morris collection. Bates no. 
2048159074/9146. Available at: http://legacy.library.ucsf.edu/tid/
xrs65e00. Accessed April 24, 2008.
---------------------------------------------------------------------------
    Despite Dalton's policy, the Pickett-Ortiz amendment passed. The 
Navy tried to argue for amending it, contending that it would 
``increase the cost of merchandise to sailors, reduce funding for their 
ship's morale, welfare, and recreation (MWR) programs and result in a 
less efficient program.'' \55\ In response, Pickett inserted language 
into the act delaying the date of implementation for 1 year, which 
successfully thwarted the Navy's attempt to repeal the law.\56\
---------------------------------------------------------------------------
    \55\ Roark D. Impact on afloat sailors by converting ships stores 
from appropriated to non-appropriated funding. April 6, 1994. Philip 
Morris collection. Bates no. 2073010490. Available at: http://
legacy.library.ucsf.edu/tid/wps57c00. Accessed April 10, 2008.
    \56\ U.S. Congress. Sec. 382. Ships' stores. May 4, 1994. Philip 
Morris collection. Bates no. 2073010557. Available at: http://
legacy.library.ucsf.edu/tid/fps57c00. Accessed April 15, 2008.
---------------------------------------------------------------------------
    In September 1995, the Navy newspaper Soundings reported that the 
Navy had ``thrown in the towel'' and abandoned plans to become smoke-
free by 2000.\28\ The Navy was reported to have ``conceded'' that the 
goal was ``unrealistic.'' \28\ Instead, it established a goal to reduce 
smoking rates to 35 percent, the equivalent civilian rate at the 
time.\28\ As of 2005, the smoking prevalence in the Navy was 32 
percent,\4\ still more than 50 percent above the corresponding civilian 
rate of 21 percent.

Tobacco Industry Confidence
    Internal industry communique's with wording such as ``the provision 
we put through last year'' \57\ reveal the extent to which the industry 
was confident of the power it wielded. At the end of 1993, one Philip 
Morris executive wrote, ``We are continuing to stimulate congressional 
opposition to efforts to restrict the sale of tobacco products in the 
military.'' \36\ Another Philip Morris employee wrote in 1994, ``We 
will be working with the MWR Panel to attempt to ensure that the 
Pickett-Ortiz provision is not repealed.'' \48\ Industry lobbyists 
enjoyed access to key committee members.\40\
---------------------------------------------------------------------------
    \57\ Scott GR. DOD--cigarettes. May 5, 1994. Philip Morris 
collection. Bates no. 2073010555. Available at: http://
legacy.library.ucsf.edu/tid/hps57c00. Accessed April 10, 2008.
---------------------------------------------------------------------------
    Kelso visited the Roosevelt when it was deployed in the 
Mediterranean in August 1993 and told Bryant he was doing the right 
thing in banning smoking. However, when the Roosevelt returned to port 
in September 1993, Kelso told Bryant he was taking ``immense heat'' 
from every corner, including Congress and the Secretary of the Navy, 
for Bryant's actions and that all ships, including the Roosevelt, would 
have to accommodate smokers by providing a dedicated smoking area. In 
retrospect, Bryant was grateful that Kelso had put off overriding the 
Roosevelt's smokefree policy until after its deployment. Bryant said, 
``I'm taking care of my crew. Who's going to take me to task for that? 
And in fact, the military did not.'' He added, ``You've got to do what 
you think is right. For the most part, the media and Congress respect 
that, but then you've got big money and the tobacco industry that work 
against it.''

                               DISCUSSION

    In this case, the tobacco industry's influence over Congress 
clearly has harmed sailors in 2 ways. Foremost, sailors have been left 
exposed to secondhand smoke while deployed, compromising their safety 
and health. Congressional action mandating cigarette sales also ensured 
that this exposure would continue; the Navy could not in the future 
adopt strong tobacco control policies without congressional approval, 
since doing so would likely be difficult--and obviously hypocritical--
to enforce a smokefree ship while still selling cigarettes. For 
instance, smoking on submarines continued to be allowed until it was 
prohibited at the end of 2010.\58\ \59\ Second, an opportunity to 
denormalize smoking was lost, and a tobacco-friendly atmosphere was 
maintained.
---------------------------------------------------------------------------
    \58\ U.S. Navy. Smoking to be extinguished on submarines. Available 
at: http://www.navy.mil/search/display.asp?story_id=52488. Accessed May 
12, 2010.
    \59\ Shanker T. To protect health of nonsmokers, Navy bans tobacco 
use on its submarine fleet. The New York Times. June 21, 2010:A16. 
Available at: http://www.nytimes.com/2010/06/21/us/21smoking.html. 
Accessed June 24, 2010.
---------------------------------------------------------------------------
    The tobacco industry appears to have had significant influence on 
Navy tobacco control efforts. Between 1988 and 1994, nearly 70 percent 
of Members of Congress received tobacco industry money,\44\ which has 
been found to be associated with legislative support for tobacco 
industry positions.\60\ \61\ \62\ House MWR Panel members, many of whom 
represented tobacco States, accepted on average more and larger 
campaign contributions than other Housemembers. Certainly the industry 
and its consultants believed their actions resulted in reversing the 
smoke-free policies aboard the USS Roosevelt.
---------------------------------------------------------------------------
    \60\ Luke DA, Krauss M. Where there's smoke there's money: tobacco 
industry campaign contributions and U.S. Congressional voting. Am J 
Prev Med. 2004; 27(5):363-72.
    \61\ Glantz SA, Begay ME. Tobacco industry campaign contributions 
are affecting tobacco control policymaking in California. Journal of 
the American Medical Association. 1994;272(15):1176-82.
    \62\ Monardi F, Glantz SA. Are tobacco industry campaign 
contributions influencing State legislative behavior? Am J Public 
Health. 1998;88(6):918-23.
---------------------------------------------------------------------------
    The U.S. military is one of the most powerful institutions in the 
world. Its mission, the protection of the country, requires personnel 
at peak readiness and performance; hence, military training stresses 
physical and mental fitness. The ultimate responsibility for 
maintaining this force lies with Congress, which retains essential 
civilian oversight of the military. Such oversight, however, leaves 
military policy vulnerable to other interests.
    A consistent pattern of congressional interference with military 
tobacco control efforts suggests several lessons for advocates. First, 
the industry-scripted response to military tobacco control policy that 
positions tobacco use as a ``right'' to be defended by Congress must be 
countered. Military readiness requires restrictions on activities or 
characteristics that interfere with fitness. All branches of the 
military, for example, set healthy weight parameters for recruits \63\; 
restricting tobacco use is no more a violation of rights than is 
requiringmaintenance of appropriate weight.
---------------------------------------------------------------------------
    \63\ 10 Steps to joining the military: height and weight charts. 
Available at: http://www.military.com/Recruiting/Content/
0,13898,rec_step07_hw,00.html. Accessed May 3, 2010.
---------------------------------------------------------------------------
    Second, congressional intervention has largely taken place out of 
public view; the MWR Panel's actions ultimately took the form of small, 
seemingly technical changes to a comprehensive and necessary piece of 
legislation. It is likely that most Members of Congress were unaware of 
these amendments and their long-term impact on the health of Navy 
personnel. Such action is in keeping with other pro-tobacco legislative 
efforts, such as the passage of an amendment to the 1986 defense 
authorization bill requiring military commissaries to sell tobacco and 
forbidding them to raise prices.\5\ Directing public attention to such 
legislation, and making its proponents justify it in public, will 
likely be a necessary part of changing military tobacco control policy.
    Finally, civilian public health organizations must play a stronger 
role in these efforts. The public may believe that the military is 
resistant to tobacco control; however, multiple studies have 
demonstrated that advocates at all levels of tobacco control in the 
military find themselves or their services to be the target of 
political attacks.\5\ \18\ Because all active-duty military personnel 
are constrained by the structural controls on their lobbying activity, 
their ability to respond to these attacks is limited. A coalition of 
public health, tobacco control, and veterans' service groups and 
health-focused congressional allies needs to organize to achieve 
effective military tobacco control policies. Such a coalition could 
shine a light on congressional actions that thwart military tobacco 
control efforts and facilitate those that help the military achieve the 
goal recently called for by the Institute of Medicine: a tobacco-free 
military.\4\
    This coalition could reframe military tobacco control issues. 
Veterans might be particularly effective at debunking the idea that 
military personnel deserve the freedom to smoke by talking about years 
of postservice addiction that began in a tobaccofriendly military.\16\ 
Similar reframing should be used in advocating for clean indoor air for 
all military personnel. Tobacco-sickened veterans could help drive home 
the point that military policy lags behind civilian policy in the 
percentages of people fully protected by proven, effective tobacco 
control policies recommended for use globally,\64\ including smoke-free 
spaces and high tobacco taxes. Members of the services assume 
unavoidable risks as part of the military mission, but exposure to 
cigarette smoke should not be one of them.
---------------------------------------------------------------------------
    \64\ World Health Organization. WHO Framework Convention on Tobacco 
Control. Available at: http://www.who.int/tobacco/framework/en. 
Accessed February 26, 2010.

    Senator Cochran. Thank you.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Have there been studies comparing, say, the 
returning veterans' respiratory and lung problems, say, with 
the ones that came out of the Gulf in 1991?
    Captain Connor. Senator Shelby, I would like to research 
that and get right back to you with a full answer to that.
    Senator Shelby. Would you do that for the record?
    Captain Connor. We certainly will get right back to you on 
that.
    [The information follows:]

    I wanted to thank you and the Senate Appropriations 
Subcommittee on Defense for allowing me the opportunity to 
testify on June 22 about lung health and the military. I also 
wanted to follow up with some information regarding questions 
you asked me about lung health problems in veterans and steps 
the Department of Defense (DOD) has taken regarding tobacco.
    First, you asked me if there were any data comparing the 
lung health of veterans of the 1991 gulf war to veterans of the 
current conflict. Researchers and doctors are beginning to 
address this question. The evidence thus far shows that 
veterans of the first gulf war had a variety of respiratory 
problems, which we are likely to find in veterans of the 
current war. However, there are also differences in the toxins 
personnel were exposed to, and in length of time they were 
exposed. As you know, the first gulf war was much shorter than 
the current one. We are still learning how these differences 
affect the lung health of today's troops.
    There is certainly enough evidence to warrant concern for 
our current troops and action from DOD. One study conducted by 
Vanderbilt University suggests that certain exposures during 
the current conflict have caused serious cases of constrictive 
bronchiolitis, a condition associated with damage or 
destruction of over 50 percent of small airways.\1\ In a review 
of DOD studies, the National Academy of Sciences' National 
Research Council (NRC) concluded that troops deployed in the 
Middle East are ``exposed to high concentrations'' of 
particulate matter associated with harm ``affecting troop 
readiness during service'' and even ``occurring years after 
exposure.'' \2\ Much more surveillance and research is needed, 
which is why I urged in my testimony that DOD be required to 
develop better ways to measure and track lung disease in 
military personnel, including taking baseline measures prior to 
deployment and creating a national registry to track all 
veterans who were exposed to pollutants while in Iraq and 
Afghanistan.
---------------------------------------------------------------------------
    \1\ Robert F. Miller, MD. Vanderbilt University Medical Center. 
Testimony before the United States Senate Committee on Veterans' 
Affairs. ``Airway injury in U.S. soldiers following service in Iraq and 
Afghanistan'' October 8, 2009.
    \2\ National Academy of Sciences, National Research Council. Review 
of the Department of Defense Enhanced Particulate Matter Surveillance 
Program Report. 2010. http://www.nap.edu/catalog/12911.html. Accessed 
June 7, 2011.
---------------------------------------------------------------------------
    I also wanted to follow-up with you regarding your question 
about what the DOD has done so far to help tobacco users in the 
military quit. As I shared in my testimony, the Institute of 
Medicine (IOM) found that the Pentagon spends $1.6 billion 
annually on tobacco-related medical care, increased 
hospitalization and lost days of work. While there have been 
some efforts--notably the ``Quit Tobacco, Make Everyone Proud'' 
website \3\--they have not been enough, especially in light of 
the severity of the problem. Access to tobacco cessation 
programs and medication varies among bases and military 
branches. And despite urgings from the Institute of Medicine 
report on the subject,\4\ and a requirement in the Duncan 
Hunter National Defense Authorization for Fiscal Year 2009,\5\ 
TRICARE still does not cover treatments to help tobacco users 
quit.
---------------------------------------------------------------------------
    \3\ www.ucanquit2.org.
    \4\ Institute of Medicine. Combating Tobacco Use in Military and 
Veteran Populations. 2009. http://www.nap.edu/
catalog.php?record_id=12632.
    \5\ http://www.dod.gov/dodgc/olc/docs/2009NDAA_PL110-417.pdf.
---------------------------------------------------------------------------
    The American Lung Association recommends that the 
Department of Defense implement all recommendations called for 
in the 2009 IOM report Combating Tobacco Use in Military and 
Veterans Populations that I discussed in my testimony. The IOM 
has laid out a very careful, scientifically based road map for 
the DOD to follow and the American Lung Association strongly 
urges the Committee to ensure that the report's recommendations 
be implemented without further delay.

    Senator Shelby. Second, what is the Department of Defense 
doing to discourage smoking? As the chairman noted, they used 
to promote smoking, I guess, or help, aid, and abet it. What 
are they doing to discourage it, because a lot of the young 
people, not just soldiers but in our college campuses, a lot of 
them smoke. A lot of them quit. A lot of them quit too late.
    Captain Connor. Right. It's a two-part question, what are 
they doing to prevent it and stop it; and then what are they 
doing to help people get off cigarettes.
    Senator Shelby. Right.
    Captain Connor. There are some smoking cessation efforts 
which we believe could be better resourced. We don't feel 
they're doing nearly enough to prevent it. The study that I 
referred to has very excellent concrete recommendations, like 
let's suggest all officers not smoke. When kids come into boot 
camp, they can't smoke. So we could start by grandfathering 
that starting today, saying, okay, when you get through boot 
camp, guess what, you can't go back smoking.
    So there's a number of things that could be done to attack 
this problem over time. Nobody's suggesting that the knife come 
down tomorrow and say no smoking. But I think steps could be 
taken to arrest this problem and stop it from growing.
    Senator Shelby. I think all of us know that the more you 
smoke the less you're going to run, probably the fewer miles 
you're going to march, the fewer minutes you can do exercise, 
too. That's just common sense.
    Captain Connor. That's right. The other thing, you've got 
the military exchanges are making money from the cigarettes. 
That's a big issue, too. Then there's a reluctance of combat 
commanders that we hear about from the health people in DOD, a 
reluctance to deprive troops of something that they say affects 
their morale and things like that.
    Senator Shelby. Thank you.
    Chairman Inouye. Thank you very much, Captain.
    The next witness is Mr. Rick Jones, National Association 
for Uniformed Services.

STATEMENT OF RICK JONES, LEGISLATIVE DIRECTOR, NATIONAL 
            ASSOCIATION FOR UNIFORMED SERVICES
    Mr. Jones. Chairman Inouye, Vice Chairman Cochran, Senator 
Shelby: Thank you very much.
    The National Association for Uniformed Services is 
concerned about the investment we're making in our defense. As 
hard as you work, too often we still depend on aging fleets of 
aircraft, ships, and vehicles across the services. We must 
continue to drive toward modernization and that means 
investment.
    The message our members ask me to bring is simple and 
direct: Anyone who goes into harm's way under the flag of the 
United States needs to be deployed with the best our Nation can 
provide. Our troops in the field depend on America's support. 
Critical funding provides them the margins they need for 
success.
    TRICARE, the provision of quality, timely healthcare, is 
considered one of the most important non-cash earned benefits 
afforded those who serve a career in the military. Our service 
members and their families make great sacrifices for all of us. 
The TRICARE benefit reflects the commitment of a Nation to 
those who serve, and it deserves your wholehearted support.
    Our fiscal situation, of course, requires shared sacrifice. 
But our military and our military retirees should bear no more 
than their share. For those who give their career to a 
uniformed service, our organization asks you to provide full 
funding for the securing of their earned benefit.
    It's our understanding that certain leaders in Congress 
have agreed with the Department of Defense regarding a 13 
percent increase in TRICARE fees paid by military retirees. 
NAUS does not agree and, after hearing for more than a year the 
Secretary of Defense and the Chairman of the Joint Chiefs say 
that rising costs of retiree healthcare was crippling our 
Nation's national security, we read that the House 
Appropriations Committee intends to use $330 million of 
unexecuted money in the TRICARE health program for funding 
additional congressionally directed medical research programs, 
many of which are outside traditional battlefield medicine and/
or duplicate subjects covered by the National Institutes of 
Health. It's not appropriate. Our folks might be outraged when 
they hear this, that their healthcare they'll have to pay more 
for, but the money's going for additional research in areas 
unrelated to the military.
    My association urges you to provide adequate funding for 
military construction and family housing accounts. The funds 
for base allowance and housing should ensure that those serving 
our country are able to afford to live in quality housing.
    Walter Reed. Another matter of great interest to our 
members is the plan to realign the National Capital area's 
military health programs. While we herald this development, 
we're hearing that things may not be quite in order or ready by 
the September BRAC deadline. The deadline may have to be 
extended and we hope that you'll take a look at that to make 
sure that our wounded warriors don't fall through the cracks in 
this transfer from the old Walter Reed to the new Bethesda 
facility.
    DOD prosthetic research. My organization and association 
encourages the subcommittee to ensure that funding for DOD 
prosthetic research is adequate to support the full range of 
programs needed to meet current and future challenges facing 
wounded warriors.
    Post-traumatic stress and traumatic brain injury are indeed 
signature injuries and they deserve your support.
    We would also ask that the Armed Forces Retirement Home 
receive your attention. We encourage both the home in 
Washington, DC, and the home in Gulfport, Mississippi, give 
your attention to both of those for adequate funding. The 
Gulfport home has been open now for about 9 months, the new 
one, and we're encouraged to read what's going on down there 
with regard to care. But we're also concerned about some of the 
investigations regarding employees.
    The Uniformed Services Health System deserves your support 
and we thank you very much for the opportunity to testify.
    [The statement follows:]

                    Prepared Statement of Rick Jones

    Chairman Inouye, Vice Chairman Cochran, and members of the 
Subcommittee: It is a pleasure to appear before you today to present 
the views of The National Association for Uniformed Services on the 
fiscal year 2012 Defense Appropriations bill.
    My name is Rick Jones, Legislative Director of the National 
Association for Uniformed Services (NAUS). And for the record, NAUS has 
not received any Federal grant or contract during the current fiscal 
year or during the previous 2 fiscal years in relation to any of the 
subjects discussed today.
    As you know, the National Association for Uniformed Services, 
founded in 1968, represents all ranks, branches and components of 
uniformed services personnel, their spouses and survivors. The 
Association includes personnel of the active, retired, Reserve and 
National Guard, disabled veterans, veterans community and their 
families. We love our country and our flag, believe in a strong 
national defense, support our troops and honor their service.
    Mr. Chairman, the first and most important responsibility of our 
government is the protection of our citizens. As we all know, we are at 
war. That is why the defense appropriations bill is so very important. 
It is critical that we provide the resources to those who fight for our 
protection and our way of life. We need to give our courageous men and 
women everything they need to prevail. And we must recognize as well 
that we must provide priority funding to keep the promises made to the 
generations of warriors whose sacrifice has paid for today's freedom.
    We simply must have a strong investment in the size and capability 
of our air, land and naval forces. And we must invest in fielding new 
weapons systems today to meet the challenges of tomorrow.
    We cannot depend on aging fleets of aircraft, ships and vehicles 
across the services. We must continue to drive toward modernization and 
make available the resources we will need to meet and defeat the next 
threats to our security.
    Our Nation is protected by the finest military the world has ever 
seen. The message our members want you to hear is simple and direct: 
Any one who goes into harm's way under the flag of the United States 
needs to be deployed with the best our Nation can provide. We need to 
give our brave men and women everything they need to succeed. And we 
must never cut off or unnecessarily delay critical funding for our 
troops in the field.
    The National Association for Uniformed Services is very proud of 
the job this generation of Americans is doing to defend America. Every 
day they risk their lives, half a world away from loved ones. Their 
daily sacrifice is done in today's voluntary force. What they do is 
vital to our security. And the debt we owe them is enormous.
    Our Association also carries concerns about a number of related 
matters. Among these is the provision of a proper healthcare for the 
military community and recognition of the funding requirements for 
TRICARE for retired military. Also, we will ask for adequate funding to 
improve the pay for members of our armed forces and to address a number 
of other challenges including TRICARE Reserve Select and the Survivor 
Benefit Plan.
    We also have a number of related priority concerns such as the 
diagnosis and care of troops returning with post traumatic stress 
disorder (PTSD) and traumatic brain injury (TBI), the need for enhanced 
priority in the area of prosthetics research, and providing improved 
seamless transition for returning troops between the Department of 
Defense (DOD) and the Department of Veterans Affairs (VA). In addition, 
we would like to ensure that adequate funds are provided to defeat 
injuries from the enemy's use of improvised explosive devices (IEDs).
TRICARE and Military Quality of Life: Health Care
    Quality healthcare is a strong incentive to make military service a 
career. The provision of quality, timely care is considered one of the 
most important benefits afforded the career military. The TRICARE 
benefit, earned through a career of service in the uniformed services, 
reflects the commitment of a Nation, and it deserves your wholehearted 
support.
    It should also be recognized that discussions have once again begun 
on increasing the retiree-paid costs of TRICARE earned by military 
retirees and their families. We remember the outrageous statement of 
Dr. Gail Wilensky, a co-chair of the Task Force on the Future of 
Military, calling congressional passage of TRICARE for Life ``a big 
mistake.''
    And more recently, we heard Admiral Mike Mullen, the current 
Chairman of Joint Chiefs of Staff, call for increases in TRICARE fees. 
Mullen said, ``It's a given as far as I'm concerned.''
    Our Association does not believe those who have given so much to 
their country in service and sacrifice should again be placed at the 
head of the line for budget reductions. We have testified before the 
authorizing committee to ``hold the line'' on fee increases. However, 
with comments like these from those in military leadership positions, 
there is little wonder that retirees and active duty personnel are 
concerned.
    Seldom has NAUS seen such a lowing in confidence about the 
direction of those who manage the program. Faith in our leadership 
continues, but it is a weakening faith. And unless something changes, 
it is bound to affect recruiting and retention, even in a down economy.

Fraud and Criminal Activity Costs Medicare and TRICARE Billions of 
        Dollars
    Reports continue from the Government Accountability Office (GAO), 
the investigative arm of the United States Congress, and related 
government agencies that show us that multi-billions of Medicare money 
is being ripped off every year. While those in government responsible 
for the management of Medicare and TRICARE tell us that their 
investigations into these matters are working, the clear sign suggests 
otherwise. Our Medicare and TRICARE programs are desperately in need of 
improved management to stop the loss of billions of dollars.
    Here are a couple of examples. GAO reports that one company billed 
Medicare for $170 million for HIV drugs. In truth, the company 
dispensed less than $1 million. In addition, the company billed $142 
million for nonexistent delivery of supplies and parts and medical 
equipment.
    In another example, fake Medicare providers billed Medicare for 
prosthetic arms on people who already have two arms. The fraud amounted 
to $1.4 billion of bills for people who do not need prosthetics.
    We need action to corral fraud and bring it to an end. What we've 
seen, however, is delay and second-hand attention with insufficient 
resources dedicated to TRICARE fraud conviction and recovery of money 
paid wrongly to medical care thieves.
    Last year, we cited the lack of information on TRICARE fraud 
activities. We suggested that one need only view the TRICARE Program 
Integrity Office web site to see a reflection of this inactivity. At 
that time the most recent Fraud Report was dated 2008 there were only 
two items listed under ``News'' for 2010 and no items for 2009.
    This year, it's good, though hardly adequate, to see the TRICARE 
Program Integrity Office update its information on its activities. The 
report for 2010 indicates that a TRICARE Anti-Fraud Conference took 
place last April. While these is no related ``News'' on this conference 
as there was in 2007, the report notes, ``the education, information 
sharing and networking that takes place during and after each 
conference creates a surge in fraud case identification and referrals 
from attendees.'' Yet there is nothing in the ``News'' that supports 
such a surge of beneficial activity took place. It seems more gloss 
than fact.
    Our members tire of hearing they should pay more for the healthcare 
earned in honorable service to country when they hear stories about or 
see little evidence of our government doing anything but sitting on its 
hands, often taking little to no action for years on this type of 
criminal activity, with the exception of an annual conference.
    NAUS urges the Subcommittee to challenge DOD and TRICARE 
authorities to put some guts behind efforts to drive fraud down and out 
of the system. If left unchecked, fraud will increasingly strip away 
resources from government programs like TRICARE. And unless Congress 
directs the Administration to take action, we all know who will be left 
holding the bag and paying higher fees to cover fraud losses--the law-
abiding retiree and family.
    We urge the Subcommittee to take the actions necessary for honoring 
our obligation to those men and women who have worn the Nation's 
military uniform. Use your spending power to move TRICARE to root out 
the corruption, fraud and waste. And help confirm America's solemn, 
moral obligation to support our troops, our military retirees, and 
their families. They have kept their promise to our Nation, now it's 
time for us to keep our promise to them.
Military Quality of Life: Pay
    For fiscal year 2012, the Administration recommends a 1.6 percent 
across-the-board pay increase for members of the Armed Forces. The 
proposal is designed, according to the Pentagon, to keep military pay 
in line with civilian wage growth.
    The National Association for Uniformed Services commends Congress 
and the Administration for its attention to troops pay. A good job has 
been done over the recently past years to narrow the gap between 
civilian-sector and military pay. The differential, which was as great 
as 14 percent in the late 1990s, has been reduced to just below 3 
percent with the January 2011 pay increase.
    The National Association for Uniformed Services applauds you, Mr. 
Chairman, for the strides you have made, and we encourage you to 
continue your efforts to ensure DOD manpower policy maintains a 
compensation package that is attractive and competitive to our fighting 
men and women.
    We also encourage your review of providing bonus incentives to 
entice individuals with certain needed skills into special jobs that 
help supply our manpower for critical assets. These packages can also 
attract ``old hands'' to come back into the game with their skills.
    The National Association for Uniformed Services asks you to do all 
you can to fully compensate these brave men and women for being in 
harm's way, we should clearly recognize the risks they face and make 
every effort to appropriately compensate them for the job they do.
Military Quality of Life: Family Housing Accounts
    The National Association for Uniformed Services urges the 
Subcommittee to provide adequate funding for military construction and 
family housing accounts used by DOD to provide our service members and 
their families quality housing. The funds for base allowance and 
housing should ensure that those serving our country are able to afford 
to live in quality housing whether on or off the base. The current 
program to upgrade military housing by privatizing Defense housing 
stock is working well. We encourage continued oversight in this area to 
ensure joint military-developer activity continues to improve housing 
options. Clearly, we need to be particularly alert to this challenge as 
we implement BRAC and related rebasing changes.
    The National Association for Uniformed Services also asks special 
provision be granted the National Guard and Reserve for planning and 
design in the upgrade of facilities. Since the terrorist attacks of 
September 11, 2001, our Guardsmen and reservists have witnessed an 
upward spiral in the rate of deployment and mobilization. The mission 
has clearly changed, and we must recognize that Reserve Component 
Forces account for an increasing role in our national defense and 
homeland security responsibilities. The challenge to help them keep 
pace is an obligation we owe for their vital service.

Increase Force Readiness Funds
    The readiness of our forces is in decline. The long war fought by 
an overstretched force tells us one thing: there are simply too many 
missions and too few troops. Extended and repeated deployments are 
taking a human toll. Back-to-back deployments means, in practical 
terms, that our troops face unrealistic demands. To sustain the service 
we must recognize that an increase in troop strength is needed and it 
must be resourced.
    In addition, we ask you to give priority to funding for the 
operations and maintenance accounts where money is secured to reset, 
recapitalize and renew the force. The National Guard, for example, has 
virtually depleted its equipment inventory, causing rising concern 
about its capacity to respond to disasters at home or to train for its 
missions abroad.
    The deficiencies in the equipment available for the National Guard 
to respond to such disasters include sufficient levels of trucks, 
tractors, communication, and miscellaneous equipment. If we have 
another overwhelming storm, tornado, hurricane or, God forbid, a large-
scale terrorist attack, our National Guard is not going to have the 
basic level of resources to do the job right.

Walter Reed Army Medical Center
    Another matter of great interest to our members is the plan to 
realign and consolidate military health facilities in the National 
Capital Region. The proposed plan includes the realignment of all 
highly specialized and sophisticated medical services currently located 
at Walter Reed Army Medical Center in Washington, DC, to the National 
Naval Medical Center in Bethesda, Maryland, and the closing of the 
existing Walter Reed by September 15, 2011.
    Our members are concerned about recent reports that the newly 
expanded medical center in Bethesda, Maryland, and the new community 
hospital at Fort Belvoir in Fairfax County, Virginia, are unready for 
the move. According to these reports, a number of operating rooms and 
patient services are not in conditions to allow transferring patients 
and staff from Walter Reed.
    The National Association for Uniformed Services believes that 
Congress must continue to provide adequate resources for WRAMC to 
maintain its base operations' support and medical services required for 
uninterrupted care of our catastrophically wounded soldiers and Marines 
as they move through needed treatment in this premier medical center.
    We request that funds be in place to ensure that Walter Reed 
remains open, fully operational and fully functional, until the planned 
facilities at both Bethesda and Fort Belvoir are in place, fully 
functional and ready to give appropriate care and treatment to the men 
and women wounded in armed service. A 9-month delay would make a world 
of difference for our retirees and for the wounded warriors and their 
families.
    Our wounded warriors deserve our Nation's best, most compassionate 
healthcare and quality treatment system. They earned it the hard way. 
And with application of the proper resources, we know the Nation will 
continue to hold the well being of soldiers and their families as our 
number one priority.

Department of Defense, Seamless Transition Between the DOD and VA
    The development of electronic medical records remains a major goal. 
It is our view that providing a seamless transition for recently 
discharged military is especially important for servicemembers leaving 
the military for medical reasons related to combat, particularly for 
the most severely injured patients.
    The National Association for Uniformed Services is pleased to 
receive the support of President Obama and the forward movement of 
Secretaries Gates and Shinseki toward this long-supported goal of 
providing a comprehensive e-health record.
    The National Association for Uniformed Services calls on the 
Appropriations Committee to continue the push for DOD and VA to follow 
through on establishing a bi-directional, interoperable electronic 
medical record. Since 1982, these two departments have been working on 
sharing critical medical records, yet to date neither has effectively 
come together in coordination with the other.
    Taking care of soldiers, sailors, airmen and marines is a national 
obligation, and doing it right sends a strong signal to those currently 
in military service as well as to those thinking about joining the 
military.
    DOD must be directed to adopt electronic architecture including 
software, data standards and data repositories that are compatible with 
systems in use at the Department of Veterans Affairs. It makes absolute 
sense and it would lower costs for both organizations.
    If our seriously wounded troops are to receive the care they 
deserve, the departments must do what is necessary to establish a 
system that allows seamless transition of medical records. It is 
essential if our Nation is to ensure that all troops receive timely, 
quality healthcare and other benefits earned in military service.
    To improve the DOD/VA exchange, the transfer should include a 
detailed history of care provided and an assessment of what each 
patient may require in the future, including mental health services. No 
veteran leaving military service should fall through the bureaucratic 
cracks.

Defense Department Force Protection
    The National Association for Uniformed Services urges the 
Subcommittee to provide adequate funding to rapidly deploy and acquire 
the full range of force protection capabilities for deployed forces. 
This would include resources for up-armored high mobility multipurpose 
wheeled vehicles and add-on ballistic protection to provide force 
protection for soldiers in Iraq and Afghanistan, ensure increased 
activity for joint research and treatment effort to treat combat blast 
injuries resulting from improvised explosive devices (IEDs), rocket 
propelled grenades, and other attacks; and facilitate the early 
deployment of new technology, equipment, and tactics to counter the 
threat of IEDs.
    We ask special consideration be given to counter IEDs, defined as 
makeshift or ``homemade'' bombs, often used by enemy forces to destroy 
military convoys and currently the leading cause of casualties to 
troops deployed in Iraq. These devices are the weapon of choice and, 
unfortunately, a very effective weapon used by our enemy. The Joint 
Improvised Explosive Device Defeat Organization (JIEDDO) is established 
to coordinate efforts that would help eliminate the threat posed by 
these IEDs. We urge efforts to advance investment in technology to 
counteract radio-controlled devices used to detonate these killers. 
Maintaining support is required to stay ahead of our enemy and to 
decrease casualties caused by IEDs.

Defense Health Program--TRICARE Reserve Select
    Mr. Chairman, another area that requires attention is reservist 
participation in TRICARE. As we are all aware, National Guard and 
Reserve personnel have seen an upward spiral of mobilization and 
deployment since the terrorist attacks of September 11, 2001. The 
mission has changed and with it our reliance on these forces has risen. 
Congress has recognized these changes and begun to update and upgrade 
protections and benefits for those called away from family, home and 
employment to active duty. We urge your commitment to these troops to 
ensure that the long overdue changes made in the provision of their 
heathcare and related benefits is adequately resourced. We are one 
force, all bearing a critical share of the load.

Department of Defense, Prosthetic Research
    Clearly, care for our troops with limb loss is a matter of national 
concern. The global war on terrorism in Iraq and Afghanistan has 
produced wounded soldiers with multiple amputations and limb loss who 
in previous conflicts would have died from their injuries. Improved 
body armor and better advances in battlefield medicine reduce the 
number of fatalities, however injured soldiers are coming back 
oftentimes with severe, devastating physical losses.
    In order to help meet the challenge, Defense Department research 
must be adequately funded to continue its critical focus on treatment 
of troops surviving this war with grievous injuries. The research 
program also requires funding for continued development of advanced 
prosthesis that will focus on the use of prosthetics with 
microprocessors that will perform more like the natural limb.
    The National Association for Uniformed Services encourages the 
Subcommittee to ensure that funding for Defense Department's prosthetic 
research is adequate to support the full range of programs needed to 
meet current and future health challenges facing wounded veterans. To 
meet the situation, the Subcommittee needs to focus a substantial, 
dedicated funding stream on Defense Department research to address the 
care needs of a growing number of casualties who require specialized 
treatment and rehabilitation that result from their armed service.
    We would also like to see better coordination between the 
Department of Defense Advanced Research Projects Agency and the 
Department of Veterans Affairs in the development of prosthetics that 
are readily adaptable to aid amputees.

Post Traumatic Stress Disorder (PTSD) and Traumatic Brain Injury (TBI)
    The National Association for Uniformed Services supports a higher 
priority on Defense Department care of troops demonstrating symptoms of 
mental health disorders and traumatic brain injury.
    It is said that traumatic brain injury (TBI) is the signature 
injury of the Iraq war. Blast injuries often cause permanent damage to 
brain tissue. Veterans with severe TBI will require extensive 
rehabilitation and medical and clinical support, including neurological 
and psychiatric services with physical and psycho-social therapies.
    We call on the Subcommittee to fund a full spectrum of TBI care and 
to recognize that care is also needed for patients suffering from mild 
to moderate brain injuries, as well. The approach to this problem 
requires resources for hiring caseworkers, doctors, nurses, clinicians 
and general caregivers if we are to meet the needs of these men and 
women and their families.
    The mental condition known as Post Traumatic Stress Disorder (PTSD) 
has been well known for over a hundred years under an assortment of 
different names. For example more than 60 years ago, Army psychiatrists 
reported, ``That each moment of combat imposes a strain so great that . 
. . psychiatric casualties are as inevitable as gunshot and shrapnel 
wounds in warfare.''
    PTSD is a serious psychiatric disorder. While the government has 
demonstrated over the past several years a higher level of attention to 
those military personnel who exhibit PTSD symptoms, more should be done 
to assist service members found to be at risk.
    Pre-deployment and post-deployment medicine is very important. Our 
legacy of the gulf war demonstrates the concept that we need to 
understand the health of our service members as a continuum, from pre- 
to post-deployment.
    The National Association for Uniformed Services applauds the extent 
of help provided by the Defense Department, however, we encourage that 
more resources be made available to assist. Early recognition of the 
symptoms and proactive programs are essential to help many of those who 
must deal with the debilitating effects of mental injuries, as 
inevitable in combat as gunshot and shrapnel wounds.
    We encourage the Members of the Subcommittee to provide these 
funds, to closely monitor their expenditure and to see they are not 
redirected to other areas of defense spending.

Armed Forces Retirement Home
    The National Association for Uniformed Services is pleased to note 
the Subcommittee's continued interest in providing funds for the Armed 
Forces Retirement Home (AFRH). We urge the Subcommittee to meet the 
challenge in providing adequate funding for the facilities in 
Washington, DC, and Gulfport, Mississippi.
    And we thank the Subcommittee for the provision of funding that has 
led to the successful reopening of the Armed Forces Retirement Home in 
Gulfport, destroyed in 2005 as a result of Hurricane Katrina. The 
Gulfport facility has the capacity to provide independent living, 
assisted living and long-term care to more than 500 residents.
    Regarding Gulfport, members of our association are seriously 
concerned about a recent investigation into healthcare and related 
operations at the Mississippi Retirement Home. According to published 
reports five employees have resigned as a result of the investigation 
initiated by the AFRH acting chief operating officer. We ask that you 
ensure that residents' care and health is not put at risk by the 
reported troubles at Gulfport.
    The National Association for Uniformed Services applauds the 
Subcommittee's clear recognition of the Washington AFRH as a historic 
national treasure. And we look forward to working with the Subcommittee 
to continue providing a residence for and quality-of-life enhancements 
to these deserving veterans. We ask that continued care and attention 
be given to the mixed-use development to the property's southern end, 
as approved.
    The AFRH homes are historic national treasures, and we thank 
Congress for its oversight of this gentle program and its work to 
provide for a world-class care for military retirees.

Improved Medicine with Less Cost at Military Treatment Facilities
    The National Association for Uniformed Services is also seriously 
concerned over the consistent push to have Military Health System 
beneficiaries age of 65 and over moved into the civilian sector from 
military care. That is a very serious problem for the Graduate Medical 
Education (GME) programs in the MHS; the patients over 65 are required 
for sound GME programs, which, in turn, ensure that the military can 
retain the appropriate number of physicians who are board certified in 
their specialties.
    TRICARE/HA policies are pushing these patients out of military 
facilities and into the private sector where the cost per patient is at 
least twice as expensive as that provided within Military Treatment 
Facilities (MTFs). We understand that there are many retirees and their 
families who must use the private sector due to the distance from the 
closest MTF; however, where possible, it is best for the patients 
themselves, GME, medical readiness, and the minimizing the cost of 
TRICARE premiums if as many non-active duty beneficiaries are taken 
care of within the MTFs. As more and more MHS beneficiaries are pushed 
into the private sector, the cost of the MHS rises. The MHS can provide 
better medicine, more appreciated service and do it at improved medical 
readiness and less cost to the taxpayers.

Uniformed Services University of the Health Sciences
    As you know, the Uniformed Services University of the Health 
Sciences (USUHS) is the Nation's Federal school of medicine and 
graduate school of nursing. The medical students are all active-duty 
uniformed officers in the Army, Navy, Air Force and U.S. Public Health 
Service who are being educated to deal with wartime casualties, 
national disasters, emerging diseases and other public health 
emergencies.
    The National Association for Uniformed Services supports the USUHS 
and requests adequate funding be provided to ensure continued 
accredited training, especially in the area of chemical, biological, 
radiological and nuclear response. In this regard, it is our 
understanding that USUHS requires funding for training and educational 
focus on biological threats and incidents for military, civilian, 
uniformed first responders and healthcare providers across the nation.
    Our members would also like to recognize the high quality of the 
medical education and training provided at the Uniformed Services 
University of the Health Sciences. The care given Congresswomen 
Gabrielle Giffords offers a clear example.
    USUHS trained three of the key physicians who performed life-saving 
procedures in the hours following the tragedy in Tucson. Retired Navy 
Captain Peter Rhee relied on more than 20 years of military medical 
experience to provide experienced trauma care to the Congresswoman. 
Interim Chief of Neurology Army Colonel Geoffrey Ling assisted and Dr. 
Jim Ecklund, another highly regarded neurosurgeon, was also part of the 
brain injury team. All are graduates of the military university, and by 
the way, Dr. Ecklund was a classmate of Dr. Rhee's at USUHS.

Joint POW/MIA Accounting Command (JPAC)
    We also want the fullest accounting of our missing servicemen and 
ask for your support in DOD dedicated efforts to find and identify 
remains. It is a duty owed to the families of those still missing as 
well as to those who served and who currently serve.
    NAUS supports the fullest possible accounting of our missing 
servicemen. It is a duty we owe the families, to ensure that those who 
wear our country's uniform are never abandoned. We request that 
appropriate funds be provided to support the JPAC mission for fiscal 
year 2012.

Appreciation for the Opportunity to Testify
    As a staunch advocate for our uniformed service men and women, The 
National Association for Uniformed Services recognizes that these brave 
men and women did not fail us in their service to country, and we, in 
turn, must not fail them in providing the benefits and services they 
earned through honorable military service.
    Mr. Chairman, The National Association for Uniformed Services 
appreciates the Subcommittee's hard work. We ask that you continue to 
work in good faith to put the dollars where they are most needed: in 
strengthening our national defense, ensuring troop protection, 
compensating those who serve, providing for DOD medical services 
including TRICARE, and building adequate housing for military troops 
and their families, and in the related defense matters discussed today. 
These are some of our Nation's highest priority needs, and we are 
confident you will give them the level of attention they deserve.
    The National Association for Uniformed Services is confident you 
will take special care of our Nation's greatest assets: the men and 
women who serve and have served in uniform. We are proud of the service 
they give to America every day. They are vital to our defense and 
national security. The price we pay as a Nation for their service and 
their earned benefits is a continuing cost of war, and it will never 
cost more nor is it ever likely to equal the value of their service.
    Again, the National Association for Uniformed Services deeply 
appreciates the opportunity to present the Association's views on the 
issues before the Defense Appropriations Subcommittee.

    Chairman Inouye. Mr. Jones, your concerns will be seriously 
considered, I guarantee you, sir.
    Senator Cochran. Mr. Chairman, I can't help but compliment 
the witness for mentioning the retirement home in Gulfport. I'm 
happy to report the last time I drove by the facility it looked 
like it was on the road to full recovery. Residents who had 
lived there before Hurricane Katrina are returning and happy to 
be back home. So thank you for the support that you've given to 
that initiative.
    Mr. Jones. Great to hear that report. Thank you, Senator.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Mr. Chairman, I just want to thank the 
whole panel, and add Mr. Jones's testimony to that. Thank you 
very much.
    Chairman Inouye. Thank you very much.
    May I thank the panel on behalf of the subcommittee.
    Our next panel: Ms. Fran Visco, National Breast Cancer 
Coalition; Ms. Mary Hesdorffer, Mesothelioma Applied Research 
Foundation; Major General David Bockel, Reserve Officers 
Association; Captain Mike Smith, National Military and Veterans 
Alliance.

STATEMENT OF FRAN VISCO, PRESIDENT, NATIONAL BREAST 
            CANCER FOUNDATION
    Ms. Visco. Thank you very much. Thank you, Chairman Inouye, 
Ranking Member Cochran, and Senator Shelby, for inviting me to 
testify today. I'm Fran Visco, a 23-year breast cancer survivor 
and President of the National Breast Cancer Coalition, which is 
a coalition of hundreds of organizations from across the 
country.
    I also want to thank you so very much for launching and 
supporting the DOD peer-reviewed breast cancer research 
program. It's meant so much to women and men across the 
country, both within the military and without. You know that 
you created something innovative, something very special, that 
has saved lives, and it's given hope to very many.
    But there are still too many women and men who die of 
breast cancer. Like you may remember Lieutenant Colonel Karen 
Moss of the U.S. Air Force, who spoke to the subcommittee many 
times about the importance of this program. Lieutenant Colonel 
Yvonne Andejeski of the U.S. Army, who died of breast cancer in 
her 30s while she was a director of the peer-reviewed program. 
And just yesterday, at a meeting of the DOD program we took a 
moment to remember Lieutenant Commander Yowanna Maria Collins 
Wilson of the U.S. Navy, who died of breast cancer in her 30s 
while on active duty.
    The partnership that has developed over the years between 
the military, the public, and the scientists who are involved 
in this program is extremely important and helpful to all of 
us. I cannot say enough about the dedication and passion the 
military has brought to this program. The breast cancer 
research program is the only government program focused solely, 
funding program focused solely, on ending breast cancer. It is 
a program that leverages years of this Nation's investment in 
biomedical research and in breast cancer and applies the 
results of that investment to women and men everywhere. It is 
known and respected worldwide and it expands this Nation's 
preeminence in scientific research.
    Ninety percent of the funds appropriated go to research. 
The administrative costs of this program are minimal and that 
is because of the military and how well they operate this 
program. It is a transparent program. It's accountable to the 
taxpayers, and it is complementary and not duplicative of other 
programs.
    Because of the way it is structured and because of the fact 
that it is in the Army, it is able to rapidly respond to 
scientific discoveries and quickly fill gaps in scientific and 
patient needs. I recall General Martinez Lopez, who led these 
efforts a number of years ago, telling us how important this 
program was to the military, not just because of the morale 
that it brought, but also because of the relationships that had 
been created between DOD and a part of the scientific community 
that is important to their work, but not typically engaged with 
the military, and also because of the models that the program 
created that have been replicated elsewhere within the military 
and actually even in other countries.
    This program has been a resounding success, and I'm here to 
express our appreciation for your leadership in getting this 
program started and in making certain that it continues.
    Thank you very much.
    [The statement follows:]

                    Prepared Statement of Fran Visco

    Thank you, Mr. Chairman and members of the Appropriations 
Subcommittee on Defense, for the opportunity to submit testimony today 
about a program that has made a significant difference in the lives of 
women and their families.
    I am Fran Visco, a 22-year breast cancer survivor, a wife and 
mother, a lawyer, and President of the National Breast Cancer Coalition 
(NBCC). My testimony represents the hundreds of member organizations 
and thousands of individual members of the Coalition. NBCC is a 
grassroots organization dedicated to ending breast cancer through 
action and advocacy. Since its founding in 1991, NBCC has been guided 
by three primary goals: to increase Federal funding for breast cancer 
research and collaborate with the scientific community to implement new 
models of research; improve access to high quality healthcare and 
breast cancer clinical trials for all women; and expand the influence 
of breast cancer advocates wherever breast cancer decisions are made. 
Last September, in order to change the conversation about breast cancer 
and restore the sense of urgency in the fight to end the disease, NBCC 
launched Breast Cancer Deadline 2020--a deadline to end breast cancer 
by January 1, 2020.
    Chairman Inouye and Ranking Member Cochran, we appreciate your 
longstanding support for the Department of Defense peer reviewed Breast 
Cancer Research Program. As you know, this program was born from a 
powerful grassroots effort led by NBCC, and has become a unique 
partnership among consumers, scientists, Members of Congress and the 
military. You and your Committee have shown great determination and 
leadership in funding the Department of Defense (DOD) peer reviewed 
Breast Cancer Research Program (BCRP) at a level that has brought us 
closer to ending this disease. I am hopeful that you and your Committee 
will continue that determination and leadership.
    I know you recognize the importance of this program to women and 
their families across the country, to the scientific and healthcare 
communities and to the Department of Defense. Much of the progress in 
the fight against breast cancer has been made possible by the 
Appropriations Committee's investment in breast cancer research through 
the DOD BCRP. To support this unprecedented progress moving forward, we 
ask that you support a separate $150 million appropriation, level 
funding, for fiscal year 2012. In order to continue the success of the 
Program, you must ensure that it maintain its integrity and separate 
identity, in addition to level funding. This is important not just for 
breast cancer, but for all biomedical research that has benefited from 
this incredible government program.

Vision and Mission
    The vision of the Department of Defense peer reviewed Breast Cancer 
Research Program is to ``eradicate breast cancer by funding innovative, 
high-impact research through a partnership of scientists and 
consumers.'' The meaningful and unprecedented partnership of scientists 
and consumers has been the foundation of this model program from the 
very beginning. It is important to understand this collaboration: 
consumers and scientists working side by side, asking the difficult 
questions, bringing the vision of the program to life, challenging 
researchers and the public to do what is needed and then overseeing the 
process every step of the way to make certain it works. This unique 
collaboration is successful: every year researchers submit proposals 
that reach the highest level asked of them by the program and every 
year we make progress for women and men everywhere.
    And it owes its success to the dedication of the U.S. Army and 
their belief and support of this mission. And of course, to you. It is 
these integrated efforts that make this program unique.
    The Department of the Army must be applauded for overseeing the DOD 
BCRP which has established itself as a model medical research program, 
respected throughout the cancer and broader medical community for its 
innovative, transparent and accountable approach. This program is 
incredibly streamlined. The flexibility of the program has allowed the 
Army to administer it with unparalleled efficiency and effectiveness. 
Because there is little bureaucracy, the program is able to respond 
quickly to what is currently happening in the research community. Its 
specific focus on breast cancer allows it to rapidly support innovative 
proposals that reflect the most recent discoveries in the field. It is 
responsive, not just to the scientific community, but also to the 
public. The pioneering research performed through the program and the 
unique vision it maintains has the potential to benefit not just breast 
cancer, but all cancers as well as other diseases. Biomedical research 
is literally being transformed by the DOD BCRP's success.

Consumer Participation
    Advocates bring a necessary perspective to the table, ensuring that 
the science funded by this program is not only meritorious, but that it 
is also meaningful and will make a difference in people's lives. The 
consumer advocates bring accountability and transparency to the 
process. They are trained in science and advocacy and work with 
scientists willing to challenge the status quo to ensure that the 
science funded by the program fills important gaps not already being 
addressed by other funding agencies. Since 1992, more than 600 breast 
cancer survivors have served on the BCRP review panels.
    Two years ago, Carolina Hinestrosa, a breast cancer survivor and 
trained consumer advocate, chaired the Integration Panel and led the 
charge in challenging BCRP investigators to think outside the box for 
revelations about how to eradicate breast cancer. Despite the fact that 
her own disease was progressing, she remained steadfast in working 
alongside scientists and consumers to move breast cancer research in 
new directions. Unwilling to give up, she fought tirelessly until the 
end of her life for a future free of breast cancer.
    Carolina died in June 2009 from soft tissue sarcoma, a late side 
effect of the radiation that was used to treat her breast cancer. She 
once eloquently described the unique structure of the DOD BCRP:

    ``The Breast Cancer Research Program channels powerful synergy from 
the collaboration of the best and brightest in the scientific world 
with the primary stakeholder, the consumer, toward bold research 
efforts aimed at ending breast cancer.''

    No one was bolder than Carolina, who was fierce and determined in 
her work on the DOD BCRP and in all aspects of life she led as a 
dedicated breast cancer advocate, mother to a beautiful daughter, and 
dear friend to so many. Carolina's legacy reminds us that breast cancer 
is not just a struggle for scientists; it is a disease of the people. 
The consumers who sit alongside the scientists at the vision setting, 
peer review and programmatic review stages of the BCRP are there to 
ensure that no one forgets the women who have died from this disease, 
and the daughters they leave behind, and to keep the program focused on 
its vision.
    For many consumers, participation in the program is ``life 
changing'' because of their ability to be involved in the process of 
finding answers to this disease. In the words of one advocate:

    ``Participating in the peer review and programmatic review has been 
an incredible experience. Working side by side with the scientists, 
challenging the status quo and sharing excitement about new research 
ideas . . . it is a breast cancer survivor's opportunity to make a 
meaningful difference. I will be forever grateful to the advocates who 
imagined this novel paradigm for research and continue to develop new 
approaches to eradicate breast cancer in my granddaughters' 
lifetime.''------Marlene McCarthy, two-time breast cancer ``thriver'', 
Rhode Island Breast Cancer Coalition

    Scientists who participate in the Program agree that working with 
the advocates has changed the way they do science. Let me quote Greg 
Hannon, the fiscal year 2010 DOD BCRP Integration Panel Chair:

    ``The most important aspect of being a part of the BCRP, for me, 
has been the interaction with consumer advocates. They have currently 
affected the way that I think about breast cancer, but they have also 
impacted the way that I do science more generally. They are a constant 
reminder that our goal should be to impact people's lives.''------Greg 
Hannon, PhD, Cold Spring Harbor Laboratory

Unique Structure
    The DOD BCRP uses a two-tiered review process for proposal 
evaluation, with both steps including scientists as well as consumers. 
The first tier is scientific peer review in which proposals are weighed 
against established criteria for determining scientific merit. The 
second tier is programmatic review conducted by the Integration Panel 
(composed of scientists and consumers) that compares submissions across 
areas and recommends proposals for funding based on scientific merit, 
portfolio balance and relevance to program goals.
    Scientific reviewers and other professionals participating in both 
the peer review and the programmatic review process are selected for 
their subject matter expertise. Consumer participants are recommended 
by an organization and chosen on the basis of their experience, 
training and recommendations.
    The BCRP has the strictest conflict of interest policy of any 
research funding program or institute. This policy has served it well 
through the years. Its method for choosing peer and programmatic review 
panels has produced a model that has been replicated by funding 
entities around the world.
    It is important to note that the Integration Panel that designs 
this Program has a strategic plan for how best to spend the funds 
appropriated. This plan is based on the state of the science--both what 
scientists and consumers know now and the gaps in our knowledge--as 
well as the needs of the public. While this plan is mission driven, and 
helps ensure that the science keeps to that mission of eradicating 
breast cancer in mind, it does not restrict scientific freedom, 
creativity or innovation. The Integration Panel carefully allocates 
these resources, but it does not predetermine the specific research 
areas to be addressed.

Distinctive Funding Opportunities
    The DOD BCRP research portfolio includes many different types of 
projects, including support for innovative individuals and ideas, 
impact on translating research from the bench to the bedside, and 
training of breast cancer researchers.
            Innovation
    The Innovative Developmental and Exploratory Awards (IDEA) grants 
of the DOD program have been critical in the effort to respond to new 
discoveries and to encourage and support innovative, risk-taking 
research. Concept Awards support funding even earlier in the process of 
discovery. These grants have been instrumental in the development of 
promising breast cancer research by allowing scientists to explore 
beyond the realm of traditional research and unleash incredible new 
ideas. IDEA and Concept grants are uniquely designed to dramatically 
advance our knowledge in areas that offer the greatest potential. They 
are precisely the type of grants that rarely receive funding through 
more traditional programs such as the National Institutes of Health and 
private research programs. They therefore complement, and do not 
duplicate, other Federal funding programs. This is true of other DOD 
award mechanisms as well.
    Innovator awards invest in world renowned, outstanding individuals 
rather than projects, by providing funding and freedom to pursue highly 
creative, potentially groundbreaking research that could ultimately 
accelerate the eradication of breast cancer. For example, in fiscal 
year 2008, Dr. Mauro Ferrari of the University of Texas Health Science 
Center at Houston was granted an Innovator Award to develop novel 
vectors for the optimal delivery of individualized breast cancer 
treatments. This is promising based on the astounding variability in 
breast cancer tumors and the challenges presented in determining which 
treatments will be most effective and how to deliver those treatments 
to each individual patient. In fiscal year 2006, Dr. Gertraud 
Maskarinec of the University of Hawaii received a synergistic IDEA 
grant to study effectiveness of the Dual Energy X-Ray Absorptiometry 
(DXA) as a method to evaluate breast cancer risks in women and young 
girls.
    The Era of Hope Scholar Award supports the formation of the next 
generation of leaders in breast cancer research, by identifying the 
best and brightest scientists early in their careers and giving them 
the necessary resources to pursue a highly innovative vision of ending 
breast cancer. Dr. Shiladitya Sengupta from Brigham and Women's 
Hospital, Harvard Medical School, received a fiscal year 2006 Era of 
Hope Scholar Award to explore new strategies in the treatment of breast 
cancer that target both the tumor and the supporting network 
surrounding it. In fiscal year 2007, Dr. Gene Bidwell of the University 
of Mississippi Medical Center received an Era of Hope Postdoctoral 
Award to study thermally targeted delivery of inhibitor peptides, which 
is an underdeveloped strategy for cancer therapy.
    One of the most promising outcomes of research funded by the DOD 
BCRP was the development of the first monoclonal antibody targeted 
therapy that prolongs the lives of women with a particularly aggressive 
type of advanced breast cancer. Researchers found that over-expression 
of HER-2/neu in breast cancer cells results in very aggressive biologic 
behavior. The same researchers demonstrated that an antibody directed 
against HER-2/neu could slow the growth of the cancer cells that over-
expressed the gene. This research, which led to the development of the 
targeted therapy, was made possible in part by a DOD BCRP-funded 
infrastructure grant. Other researchers funded by the DOD BCRP are 
identifying similar targets that are involved in the initiation and 
progression of cancer.
    These are just a few examples of innovative funding opportunities 
at the DOD BCRP that are filling gaps in breast cancer research.
            Translational Research
    The DOD BCRP also focuses on moving research from the bench to the 
bedside. DOD BCRP awards are designed to fill niches that are not 
addressed by other Federal agencies. The BCRP considers translational 
research to be the process by which the application of well-founded 
laboratory or other pre-clinical insight result in a clinical trial. To 
enhance this critical area of research, several research opportunities 
have been offered. Clinical Translational Research Awards have been 
awarded for investigator-initiated projects that involve a clinical 
trial within the lifetime of the award. The BCRP has expanded its 
emphasis on translational research by also offering five different 
types of awards that support work at the critical juncture between 
laboratory research and bedside applications.
    The Multi Team Award mechanism brings together the world's most 
highly qualified individuals and institutions to address a major 
overarching question in breast cancer research that could make a 
significant contribution toward the eradication of breast cancer. Many 
of these Teams are working on questions that will translate into direct 
clinical applications. These Teams include the expertise of basic, 
epidemiology and clinical researchers, as well as consumer advocates.
            Training
    The DOD BCRP is also cognizant of the need to invest in tomorrow's 
breast cancer researchers. Dr. J. Chuck Harrell, Ph.D. at the 
University of Colorado, Denver and the University of North Carolina at 
Chapel Hill, for example, received a Predoctoral Traineeship Award to 
investigate hormonal regulation of lymph node metastasis, the majority 
of which retain estrogen receptors (ER) and/or progesterone receptors. 
Through his research, Dr. Harrell determined that lymph node 
microenvironment alters ER expression and function in the lymph nodes, 
effecting tumor growth. These findings led Dr. Harrell to conduct 
further research in the field of breast metastasis during his 
postdoctoral work. Jim Hongjun of the Battelle Memorial Institute 
received a postdoctoral award for the early detection of breast cancer 
using post-translationally modified biomarkers.
    Dr. John Niederhuber, former Director of the National Cancer 
Institute (NCI), said the following about the Program when he was 
Director of the University of Wisconsin Comprehensive Cancer Center in 
April, 1999:

    ``Research projects at our institution funded by the Department of 
Defense are searching for new knowledge in many different fields 
including: identification of risk factors, investigating new therapies 
and their mechanism of action, developing new imaging techniques and 
the development of new models to study [breast cancer] . . . Continued 
availability of this money is critical for continued progress in the 
nation's battle against this deadly disease.''

    Scientists and consumers agree that it is vital that these grants 
continue to support breast cancer research. To sustain the Program's 
momentum, $150 million for peer reviewed research is needed in fiscal 
year 2012.

Outcomes and Reviews of the DOD BCRP
    The outcomes of the BCRP-funded research can be gauged, in part, by 
the number of publications, abstracts/presentations, and patents/
licensures reported by awardees. To date, there have been more than 
12,241 publications in scientific journals, more than 12,000 abstracts 
and nearly 550 patents/licensure applications. The American public can 
truly be proud of its investment in the DOD BCRP. Scientific 
achievements that are the direct result of the DOD BCRP grants are 
undoubtedly moving us closer to eradicating breast cancer.
    The success of the DOD peer reviewed Breast Cancer Research Program 
has been illustrated by several unique assessments of the Program. The 
Institute of Medicine (IOM), which originally recommended the structure 
for the Program, independently re-examined the Program in a report 
published in 1997. They published another report on the Program in 
2004. Their findings overwhelmingly encouraged the continuation of the 
Program and offered guidance for program implementation improvements.
    The 1997 IOM review of the DOD peer reviewed Breast Cancer Research 
Program commended the Program, stating, ``the Program fills a unique 
niche among public and private funding sources for cancer research. It 
is not duplicative of other programs and is a promising vehicle for 
forging new ideas and scientific breakthroughs in the Nation's fight 
against breast cancer.'' The 2004 report spoke to the importance of the 
program and the need for its continuation.
    The DOD peer reviewed Breast Cancer Research Program not only 
provides a funding mechanism for high-risk, high-return research, but 
also reports the results of this research to the American people every 
2 to 3 years at a public meeting called the Era of Hope. The 1997 
meeting was the first time a federally funded program reported back to 
the public in detail not only on the funds used, but also on the 
research undertaken, the knowledge gained from that research and future 
directions to be pursued.
    Sixteen hundred consumers and researchers met for the fifth Era of 
Hope meeting in June, 2008. As MSNBC.com's Bob Bazell wrote, this 
meeting ``brought together many of the most committed breast cancer 
activists with some of the Nation's top cancer scientists. The 
conference's directive is to push researchers to think `out of the box' 
for potential treatments, methods of detection and prevention . . .'' 
He went on to say ``the program . . . has racked up some impressive 
accomplishments in high-risk research projects . . ..''
    One of the topics reported on at the meeting was the development of 
more effective breast imaging methods. An example of the important work 
that is coming out of the DOD BCRP includes a new screening method, 
molecular breast imaging, which helps detect breast cancer in women 
with dense breasts--which can be difficult using a mammogram alone. I 
invite you to log on to NBCC's website http://
influence.breastcancerdeadline2020.org/ to learn more about the 
exciting research reported at the 2008 Era of Hope. The next Era of 
Hope meeting will occur this August.
    The DOD peer reviewed Breast Cancer Research Program has attracted 
scientists across a broad spectrum of disciplines, launched new 
mechanisms for research and facilitated new thinking in breast cancer 
research and research in general. A report on all research that has 
been funded through the DOD BCRP is available to the public. 
Individuals can go to the Department of Defense website and look at the 
abstracts for each proposal at http://cdmrp.army.mil/bcrp/.
Commitment of the National Breast Cancer Coalition
    The National Breast Cancer Coalition is strongly committed to the 
DOD BCRP in every aspect, as we truly believe it is one of our best 
chances for reaching Breast Cancer Deadline 2020's goal of ending the 
disease by the end of the decade. The Coalition and its members are 
dedicated to working with you to ensure the continuation of funding for 
this Program at a level that allows this research to forge ahead. From 
1992, with the launch of our ``300 Million More Campaign'' that formed 
the basis of this Program, until now, NBCC advocates have appreciated 
your support.
    Over the years, our members have shown their continuing support for 
this Program through petition campaigns, collecting more than 2.6 
million signatures, and through their advocacy on an almost daily basis 
around the country asking for support of the DOD BCRP.
    Consumer advocates have worked hard over the years to keep this 
program free of political influence. Often, specific institutions or 
disgruntled scientists try to change the program though legislation, 
pushing for funding for their specific research or institution, or try 
to change the program in other ways, because they did not receive 
funding through the process, one that is fair, transparent and 
successful. The DOD BCRP has been successful for so many years because 
of the experience and expertise of consumer involvement, and because of 
the unique peer review and programmatic structure of the program. We 
urge this Committee to protect the integrity of the important model 
this program has become.
    There are nearly 3 million women living with breast cancer in this 
country today. This year, more than 40,000 will die of the disease and 
more than 260,000 will be diagnosed. We still do not know how to 
prevent breast cancer, how to diagnose it in a way to make a real 
difference or how to cure it. It is an incredibly complex disease. We 
simply cannot afford to walk away from this program.
    Since the very beginning of this Program in 1992, Congress has 
stood with us in support of this important approach in the fight 
against breast cancer. In the years since, Chairman Inouye and Ranking 
Member Cochran, you and this entire Committee have been leaders in the 
effort to continue this innovative investment in breast cancer 
research.
    NBCC asks you, the Defense Appropriations Subcommittee, to 
recognize the importance of what has been initiated by the 
Appropriations Committee. You have set in motion an innovative and 
highly efficient approach to fighting the breast cancer epidemic. We 
ask you now to continue your leadership and fund the Program at $150 
million and maintain its integrity. This is research that will help us 
win this very real and devastating war against a cruel enemy.
    Thank you again for the opportunity to submit testimony and for 
giving hope to all women and their families, and especially to the 
nearly 3 million women in the United States living with breast cancer 
and all those who share in the mission to end breast cancer.

    Chairman Inouye. I thank you very much, Ms. Visco. My wife 
of 57 years died of cancer, so I'm constantly reminded.
    Ms. Visco. Yes.
    Chairman Inouye. Senator Cochran.
    Senator Cochran. Thank you very much for your presence. We 
appreciate the information that you've provided to the 
subcommittee.
    Ms. Visco. You're welcome.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Mr. Chairman, I appreciate the testimony 
and her commitment to finding a cure. We all are supporting 
this on the subcommittee.
    Mr. Chairman, I would be interested--and the subcommittee 
may have done some work in this, because we all support this 
because this is the right thing to do, connected to our service 
people, we all benefit. What connection and how does this 
correlate with, what we're doing in DOD, to what they're doing 
in NIH? Because I serve on that subcommittee, as all of you do, 
and that would be interesting, to make sure that we're spending 
all we can and getting the bang that we can with the taxpayers' 
money and make sure that there's not a lot of overlap there.
    I don't know this, but as an appropriator with all of us--
and you're the chair--we're going to have to look at this, 
because we're all committed to helping you.
    Ms. Visco. Yes. Actually, Senator, the program is 
structured in a way to make certain that there is no overlap. I 
know that members of the military have been and are perfectly 
willing and capable of briefing you on exactly how that works.
    Senator Shelby. Thank you.
    Ms. Visco. Thank you.
    Chairman Inouye. Thank you very much.
    Ms. Hesdorffer.

STATEMENT OF MARY HESDORFFER, MS, CRNP, MEDICAL 
            LIAISON, MESOTHELIOMA APPLIED RESEARCH 
            FOUNDATION
    Ms. Hesdorffer. Thank you, Chairman Inouye and Ranking 
Member Cochran and members of the subcommittee. Thank you for 
the opportunity to discuss mesothelioma and its connection to 
the military service. Your support is critical to our mission 
and I look forward to continuing our relationship with the 
committee.
    My name is Mary Hesdorffer. I'm a nurse practitioner with 
over a decade's experience in mesothelioma treatment and 
research, and I serve as the medical liaison to the 
Mesothelioma Applied Research Foundation, as well as being on 
staff at Johns Hopkins Medical Institution.
    The Mesothelioma Applied Research Foundation is a national 
nonprofit dedicated to eradicating mesothelioma as a life-
ending disease by funding research, providing education and 
support for patients, and leading advocacy for the national 
commitment to end this tragedy.
    Mesothelioma, as many of you know, is an aggressive cancer. 
It's directly caused by asbestos. It's one of the most painful 
and fatal of cancers. It invades the chest, destroys vital 
organs, and crushes the lungs. Long-term survivors of 
mesothelioma are described as 3-year survivors, so you know the 
seriousness of what we are facing.
    It disproportionately affects our service men and women and 
their families. As you may know, until its fatal toxicity 
became fully recognized it was considered a magic mineral. It 
was used extensively in the Navy right up until the 1970s. It 
was used in engines, nuclear reactors, conditioners, packing, 
brakes, clutches, winches. In fact, it was used all over Navy 
ships, even in living spaces, where pipes were overhead, and in 
kitchens, where asbestos was used in the ovens. It was used in 
wiring of appliances. Aside from the Navy ships, it was used on 
military planes extensively, on military vehicles, insulating 
materials on quonset huts, and in living quarters.
    As a result, millions of Navy--millions of defense 
personnel, servicemen and shipyard workers, have been exposed 
to asbestos. A study at a Groton, Connecticut, shipyard found 
that over 100,000 workers have been exposed to asbestos over 
the years at just this one shipyard.
    Following the time of exposure, the disease can manifest 
itself any time from 10 to 50 years. So we still have many, 
many, many patients who were diagnosed or who were exposed to 
asbestos in the 70s who will still be developing this disease 
in future years.
    As the daughter of a merchant marine and the mother of a 
veteran of the war in Iraq, it's an issue that's very close to 
my heart. These are the people who have defended our country 
and built its fleet. They're heroes like former Chief Naval 
Officer Admiral Elmo Zumwalt, who led the Navy during Vietnam. 
He was diagnosed in the year 2000 and just 3 months after his 
diagnosis he was dead from this disease.
    Lewis Deets was another one of our Navy veterans. He was 
serving on a ship where a fire broke out. He was exposed to 
asbestos during the burning and then he was also exposed as he 
replaced the burned asbestos blocks. In 1999 he was diagnosed 
with mesothelioma and died 4 months later at the age of 55.
    Bob Tregget, another retired sailor, was diagnosed in 2008. 
He was exposed as a sailor.
    I can go on and talk to you about all of these military 
personnel, but I think we all understand the connection between 
asbestos and this disease.
    Since 1992 the Department of Defense has been charged with 
promoting research on diseases related to military service. 
Since then it has funded over $5.4 billion for a range of 
diseases, some only tangentially related to military service, 
but overlooked mesothelioma research for 16 years, even though 
asbestos was used all over military installations and vehicles, 
especially Navy ships. This is an injustice to the estimated 
one-third of mesothelioma patients who were exposed to asbestos 
on U.S. Navy ships and shipyards.
    Currently there are about 3,500 patients a year diagnosed 
with mesothelioma and 3,000 patients a year die from the 
disease. If we look at one-third of the patients having been 
Navy vets, we're looking at about 1,000 patients a year of 
former people who were exposed on the Navy ships.
    In fiscal year 2009 the DOD took responsibility more 
seriously and made awards totaling $2.7 million for two 
mesothelioma projects. In January of this year, we had two 
people awarded technology development awards. We have many 
people applying for the awards, but we're giving less than 2.6 
percent of these awards out.
    We feel that all of these research areas warrant attention, 
but since mesothelioma is a rapidly fatal, excruciating and 
painful cancer, we ask the subcommittee to appropriate to DOD 
for fiscal year 2012 $5 million for a dedicated mesothelioma 
research program. I'm asking for your help. We can't do this 
alone.
    Thank you.
    [The statement follows:]

                 Prepared Statement of Mary Hesdorffer

    Chairman Inouye, Ranking Member Cochran, and Members of the 
Committee, thank you for the opportunity to discuss the Mesothelioma 
connection to military service. Your support is critical to our 
mission, and I look forward to continuing our relationship with this 
committee.
    My name is Mary Hesdorffer, I am a nurse practitioner with over a 
decade's experience in mesothelioma treatment and research, and serve 
as the Medical Liaison to the Mesothelioma Applied Research Foundation. 
The Mesothelioma Applied Research Foundation is the national nonprofit 
dedicated to eradicating mesothelioma as a life-ending disease by 
funding research, providing education and support for patients, and 
leading advocacy efforts for a national commitment to end the 
mesothelioma tragedy.
    Mesothelioma is an aggressive cancer caused by asbestos. It is 
among the most painful and fatal of cancers, as it invades the chest, 
destroys vital organs, and crushes the lungs. Mesothelioma 
disproportionally affects our service men and women and their families.
    As you may know, until its fatal toxicity became fully recognized, 
asbestos was regarded as the magic mineral. It has excellent 
fireproofing, insulating, filling and bonding properties. By the late 
1930's and through at least the late 70's the Navy was using it 
extensively. It was used in engines, nuclear reactors, decking 
materials, pipe covering, hull insulation, valves, pumps, gaskets, 
boilers, distillers, evaporators, conditioners, rope packing, and 
brakes and clutches on winches. In fact it was used all over Navy 
ships, even in living spaces where pipes were overhead and in kitchens 
where asbestos was used in ovens and in the wiring of appliances. Aside 
from Navy ships, asbestos was also used on military planes extensively, 
on military vehicles, and as insulating material on Quonset huts and 
living quarters.
    As a result, millions of military defense personnel, servicemen and 
shipyard workers, were heavily exposed. A study at the Groton, 
Connecticut shipyard found that over 100,000 workers had been exposed 
to asbestos over the years at just one shipyard. The disease takes 10 
to 50 years to develop, so many of these veterans and workers are now 
being diagnosed. As the daughter of a merchant marine and the mother of 
a veteran of the war in Iraq, this is an issue close to my heart.
    These are the people who defended our country and built its fleet. 
They are heroes like former Chief Naval Officer Admiral Elmo Zumwalt, 
Jr., who led the Navy during Vietnam and was renowned for his concern 
for enlisted men. Despite his rank, prestige, power, and leadership in 
protecting the health of Navy servicemen and veterans, Admiral Zumwalt 
died at Duke University in 2000, just 3 months after being diagnosed 
with mesothelioma.
    Lewis Deets was another of these heroes. Four days after turning 
the legal age of 18, Lewis joined the Navy. He was not drafted. He 
volunteered, willingly putting his life on the line to serve his 
country in Vietnam. He served in the war for over 4 years, from 1962 to 
1967, as a ship boilerman. For his valiance in combat operations 
against the guerilla forces in Vietnam he received a Letter of 
Commendation and The Navy Unit Commendation Ribbon for Exceptional 
Service. In December 1965, while Lewis was serving aboard the USS Kitty 
Hawk in the Gulf of Tonkin, a fierce fire broke out. The boilers, 
filled with asbestos, were burning. Two sailors were killed and 29 were 
injured. Lewis was one of the 29 injured; he suffered smoke inhalation 
while fighting the fire. After the fire, he helped rebuild the boilers, 
replacing the burned asbestos blocks. In 1999 he was diagnosed with 
mesothelioma, and died 4 months later at age 55.
    Bob Tregget was a 57 year old retired sailor who was diagnosed with 
mesothelioma in 2008. Bob was exposed to asbestos as a sailor in the 
U.S. Navy from 1965 to 1972, proud to serve his country aboard a 
nuclear submarine whose mission was to deter a nuclear attack upon the 
United States. To treat his disease, Bob had the state of the art 
treatment. He had 3 months of systemic chemotherapy with a new, and 
quite toxic, drug combination. Then he had a grueling surgery, to open 
up his chest, remove his sixth rib, amputate his right lung, remove the 
diaphragm and parts of the linings around his lungs and his heart. 
After 2 weeks of postoperative hospitalization to recover and still 
with substantial postoperative pain, he had radiation, which left him 
with second degree burns on his back, in his mouth, and in his airways. 
Less than 1 year later, in 2009, he lost his battle with Mesothelioma.
    Admiral Zumwalt's, Boilerman Deets' and Sailor Tregget's stories 
are not atypical. Many more meso patients were exposed in the Navy, or 
working in a shipyard. Almost 3,000 Americans die each year of meso, 
and one study found that one-third of patients were exposed on U.S. 
Navy ships or shipyards. That's 1,000 U.S. veterans and shipyard 
workers per year, lost through service to country, just as if they had 
been on a battlefield.
    I am currently working with Mike Clements, who was diagnosed with 
Mesothelioma in 2005 at the age of 59. Mike served in active duty for 6 
years, at which time he worked in 3 different shipyards and spent time 
on a submarine. While he cannot pinpoint this exposure to asbestos, he 
is certain there is a correlation between his service and diagnosis. 
Further, he lost his father to Mesothelioma, who was also a Navy 
veteran.
    Asbestos exposure among naval personnel was widespread from the 
1930s through the 1980s, and exposure to asbestos still occurred after 
the 1980s during ship repair, overhaul, and decommissioning. We have 
not yet seen the end of exposures to asbestos. Asbestos exposures have 
been reported among the troops in Iraq and Afghanistan. On July 14, 
2004, members of the 877th Engineer Battalion of Alabama's Army 
National Guard were exposed to asbestos in their camp in Mosul, Iraq. 
Soldiers in wars that extend into third world countries, where asbestos 
use is increasing without stringent regulations, may also be at risk 
for exposure during tours of duty. Even low-dose, incidental exposures 
cause mesothelioma. For all those who will develop mesothelioma as a 
result of these past or ongoing exposures, the only hope is that we 
will develop effective treatment.
    Since 1992, the Department of Defense (DOD) has been charged with 
promoting research on diseases related to military service. Since then 
it has funded over $5.4 billion for a range of diseases--some only 
tangentially related to military service, but overlooked mesothelioma 
research for 16 years even though asbestos was used all over military 
installations and vehicles, especially Navy ships. This is an injustice 
to the estimated one-third of mesothelioma patients were exposed to 
asbestos on U.S. Navy ships and shipyards.
    There are brilliant researchers are dedicated to mesothelioma. The 
Food and Drug Administration (FDA) has now approved one drug which has 
some effectiveness, proving that the tumor is not invincible. 
Biomarkers are being identified. Two of the most exciting areas in 
cancer research--gene therapy and biomarker discovery for early 
detection and treatment--look particularly promising in mesothelioma. 
The Meso Foundation has funded $7.1 million to support research in 
these and other areas. Now we need the Federal Government's partnership 
to develop the promising findings into effective treatments.
    Your subcommittee has recognized the need and taken the lead. For 
the past 3 years a budget has been passed (fiscal years 2008, 2009 and 
2010), you have directed DOD to spur research for this service-related 
cancer by including it as an area of emphasis in the Peer Reviewed 
Medical Research Program.
    As a result, in early 2008 the DOD awarded its first mesothelioma 
research grant ever, a $1.4 million award to Courtney Broaddus, M.D. 
for exciting work to understand the role of macrophage induced 
inflammation in mesothelioma.
    The mesothelioma community greatly appreciated this important first 
step. Thirty-eight mesothelioma researchers applied for support in 
2008. The single award represents only a 2.6 percent success rate for 
mesothelioma applications. This does not comply with the Senate's 
directive that DOD begin to seriously address this critical disease. 
Thirty-seven other researchers put in the time, effort and expense to 
gather preliminary data and apply, and then were rejected. Such a low 
success rate of 2.6 percent will discourage top researchers from 
interest in mesothelioma; they will direct their effort and expertise 
into other, better funded cancers. Mesothelioma research will not 
advance, effective treatments will not be found, and veterans and 
current members exposed to asbestos through their military service will 
be left without hope.
    In fiscal year 2009, the DOD took its responsibility more 
seriously, and made awards totaling $2,750,549 for two important 
mesothelioma projects: Harvey Pass, M.D. and Margaret E. Huflejt, Ph.D. 
to investigate new markers for early detection of mesothelioma and 
identify new therapeutic targets. Lee Krug, M.D. received an award to 
lead a multi-site clinical trial of a promising new therapy based on 
the WT-1 vaccine, which will directly impact patients and offers them 
new hope. For the 2009 grants, two mesothelioma projects were awarded, 
out of 56 applications submitted. This is slightly better, but still an 
awards-to-applications ratio of only 4 percent.
    In January of this year, Michel Sadelain, M.D., Ph.D., and Prasad 
Adusumilli, M.D. were awarded a $2.6 million Technology/Therapeutic 
Development Award to translate mesothelin-targeted immunotherapy for 
fiscal year 2010. This is a reduction of $150,000 from fiscal year 2009 
funding levels for mesothelioma.
    Such low success rates will not encourage top young researchers to 
move into mesothelioma, or experienced researchers to stay in meso. 
Rather than mere eligibility, mesothelioma needs to be one of the 
diseases that is assigned a specific appropriation.
    Since the Committee's intent to spur mesothelioma research is not 
being executed through the PRMRP, we believe the Committee must respond 
by directing DOD to establish a dedicated mesothelioma program. For 
2009, Congress added dedicated funding for all of the following as new 
programs, in addition to the DOD's existing programs for Breast Cancer, 
Prostate Cancer, Ovarian Cancer, Neurofibromatosis, Tuberous Sclerosis 
Complex, and the Peer Reviewed Medical Research Program:
  --Autism Research Program--$8 million;
  --Gulf War Illness Research Program--$8 million;
  --Amyotrophic Lateral Sclerosis Research Program--$5 million;
  --Bone Marrow Failure Research Program--$5 million;
  --Multiple Sclerosis Research Program--$5 million;
  --Peer Reviewed Lung Cancer Research Program--$20 million; and
  --Peer Reviewed Cancer Research Program--$16 million.
    The Peer Reviewed Cancer Research Program funds are restricted as 
follows: $4 million for research of melanoma and other skin cancers as 
related to deployments of service members to areas of high exposure; $2 
million for research of pediatric brain tumors within the field of 
childhood cancer research; $8 million for genetic cancer research and 
its relation to exposure to the various environments that are unique to 
a military lifestyle; and $2 million for non-invasive cancer ablation 
research into non-invasive cancer treatment including selective 
targeting with nano-particles.
    In 2010, Congress added dedicated funding for the following as new 
programs:
  --Chiropractic Clinical Trial--$8.2 millionl; and
  --Defense Medical Research and Development $275 million.
    All of these research areas warrant attention, but mesothelioma is 
a rapidly fatal, excruciatingly painful cancer directly related to 
military service. We ask the Committee to appropriate to DOD for fiscal 
year 2012 $5 million for a dedicated Mesothelioma Research Program or 
as a specific restriction within the Peer Reviewed Cancer Research 
Program. This will boost the long-neglected field of mesothelioma 
research, enabling mesothelioma researchers to build a better 
understanding of the disease and develop effective treatments. This 
will translate directly to saving lives and reducing suffering of 
veterans battling mesothelioma.
    We look to the Senate Defense Appropriations Subcommittee to 
provide continued leadership and hope to the servicemen and women and 
veterans who develop this cancer after serving our Nation. Thank you 
for the opportunity to provide testimony before the Subcommittee and we 
hope that we can work together to develop life-saving treatments for 
mesothelioma. We thank you for considering our fiscal year 2012 request 
for $5 million for Mesothelioma research.

    Chairman Inouye. Thank you very much, Ms. Hesdorffer.
    Senator Cochran.
    Senator Cochran. Thank you very much. I think your 
testimony has added to our understanding of how devastating 
some of these physical problems and life and death issues are, 
particularly for those of us who served in the Navy. As you 
were reciting that list of names, I couldn't help but remember 
my service in the Navy aboard a ship out of Boston, 
Massachusetts--a wonderful opportunity for me, growing up in 
the Deep South, to get to know about things around the world 
that I would have never been exposed to. But to find out I was 
also exposed to some of these life-threatening situations 
brings to me the realization of how lucky so many of us are who 
have led healthy lives in spite of the fact that we've been 
exposed to these dangerous situations.
    But I think we have a definite obligation to do everything 
we can to try to save lives now and improve the quality of life 
of those who have been more unfortunate than I was.
    Ms. Hesdorffer. Thank you.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    I appreciate your testimony here. We know this is a 
horrible situation. I've known people--I had a former 
congressional colleague of mine from Alabama who worked one 
summer, who's dead now, as an asbestos worker, because it was a 
great insulator, as you point out. They didn't know then or, if 
they knew, the workers didn't know what danger they were 
playing with.
    I guess my question--we know that a lot of this lies 
dormant for years and years and years. I guess we've all been 
exposed, but some to more degree than others, to a lot of this 
and didn't even know it. We used to--oh, gosh, all over America 
we used to have asbestos siding on homes, asbestos everywhere, 
because it was, as you pointed out, the so-called perfect 
mineral for insulation. It had great qualities, but a big 
danger.
    What is the real danger today of our troops as they are in 
harm's way, posted everywhere in the world? Is it third world 
countries using asbestos because it's there and it's available 
and maybe they don't appreciate the danger to it?
    Ms. Hesdorffer. Well, I think part of the problem is life 
is cheap, it's expendable. Canada is still mining asbestos and 
still exporting it. So we have India, we have so many patients 
are dying of mesothelioma, probably before they're diagnosed 
because it's mistaken often for tuberculosis.
    Our troops have been exposed in Afghanistan, Iraq, in many 
of the third world countries. An epidemic now is occurring in 
Japan, because Japan probably has used asbestos now for a 
number of years, where they're just beginning to see diagnosed 
cases.
    Senator Shelby. Are they still using--a lot of countries in 
the world, like you mentioned Japan, are they still using 
asbestos because of the properties of a great insulator?
    Ms. Hesdorffer. Yes.
    Senator Shelby. Irrespective of the danger?
    Senator Shelby. Slumdog Millionaire, if you look at that 
movie and you saw those huts that those children were running 
over, those were asbestos huts. Those roofs were all made of 
asbestos. We're using it as a fire retardant in many countries.
    Senator Shelby. My last question: Briefly, tell us what 
drug, pharmaceutical breakthroughs, other things, methods of 
treatment, either help alleviate some of the problems, or is 
that just too far away?
    Ms. Hesdorffer. Well, I'd like to just briefly--we had 
Olympta was approved in 2004. Prior to that, there was no 
approved agent. Patients who get Olympta now--without 
treatment, the life expectancy is 9.2 months. With Olympta, the 
life expectancy is 12.3 months. Surgery where----
    Senator Shelby. It's a killer, period.
    Ms. Hesdorffer. It's a uniformly fatal disease. That's how 
every research article starts out.
    Senator Shelby. Thank you.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Ms. Hesdorffer. Thank you.
    Chairman Inouye. Major General Bockel.

STATEMENT OF MAJOR GENERAL DAVID BOCKEL, UNITED STATES 
            ARMY (RETIRED), EXECUTIVE DIRECTOR, RESERVE 
            OFFICERS ASSOCIATION
    General Bockel. Mr. Chairman, Mr. Vice Chairman, Senator 
Shelby: The Reserve Officers Association thanks you for the 
invitation to appear and give testimony. I'm Major General 
David Bockel, Executive Director of the Reserve Officers 
Association. I'm also authorized to speak in behalf of the 
Reserve Enlisted Association.
    As both the Congress and the Pentagon are looking at 
reducing defense expenses, ROA finds itself again confronted 
with protecting one of America's greatest assets, the reserve 
components. The National Guard and the other Reserve components 
are proud members of the total force who fully understand their 
duty and are proudly serving operationally. Not only have they 
contributed to the war effort, but they have made a difference 
in maintaining an all-volunteer military force and providing 
the active force more time at home.
    Yet, as discussions occur in both Congress and the Pentagon 
on how to reduce the budget and the deficit, the peril of lower 
defense spending is that the Reserve components will become the 
billpayer. As seen in the past, the risk exists where defense 
planners may be tempted to put the National Guard and title 10 
reserve on the shelf by providing them hand-me-down outmoded 
equipment and underfunded training.
    With over 800,000 Guard and Reserve members having been 
mobilized, this Nation has a generation of warfighters who have 
the knowledge and experience that hasn't existed in the Reserve 
component since the end of the Vietnam war. Almost every 
officer and enlisted leader is a combat-tested veteran. To 
waste this capability is a poor return on the investment of 
money already spent. Only by establishing parity in training, 
equipment, pay, and compensation will permit us to keep them 
available for use as an enduring operational force.
    ROA and REA's written testimony includes a list of unfunded 
requirements that we hope this subcommittee will fund, but we 
also urge the subcommittee to specifically identify funding for 
both the National Guard and other Reserve components 
exclusively to train and equip the Reserve components by 
providing funds for the National Guard and Reserve equipment 
appropriation. Dedicating funds to Guard and Reserve equipment 
provides Reserve chiefs and National Guard directors with the 
flexibility of prioritizing their funding.
    But some in the active component would cut National Guard 
and Reserve pay for the active duty, undermining the concept of 
the total force. Some would have you believe that the National 
Guard and Reserve are more expensive to maintain than the 
active duty forces. However, when citizen warriors are recalled 
for an extended period the cost is about the same as for an 
active duty member. It's the lower overhead in the years when 
the National Guard and Reserve member is not on active duty 
that provides the economy. The citizen warrior cost over a life 
cycle is far less than the cost of an active component 
warfighter.
    Additional cost savings are found when civilian knowledge 
and proficiencies can be called upon at no cost to the military 
for training. DOD officials have admitted that many Reserve 
component members are working in state-of-the-art industries as 
civilian employees, an asset that the Pentagon can't match.
    Another concern ROA and REA share is legal support for 
veterans and Guard and Reserve members returning from 
deployment to face ever-increasing challenges of reemployment. 
On June 1, 2009, ROA established the Servicemembers Law Center. 
This is a service to provide active, Guard, and Reserve, as 
well as separated veterans. The center is averaging over 5,000 
inquiries a year, with the majority of them about employment 
and reemployment rights.
    This is a no-fee service and it does not provide legal 
representation. But such a service does cost money. Currently, 
through ROA's financial support it allows this center to be a 
one-man shop. Our vision is to grow this, to increase the staff 
and services provided to our veteran and Reserve component 
community, which will take additional funding.
    ROA would love to meet with your staff to discuss how this 
subcommittee can provide monetary support, and it appears that 
the language may be included in the Senate NDAA that would 
provide an authorizing source for such funding.
    Another concern that I personally have been working for is 
on the treatment for the victims of traumatic brain injury. 
Anecdotal evidence of hyperbaric oxygen therapy as well as 
other alternative treatments have shown significant success and 
needs to be better funded.
    Thank you again for your consideration of our testimony. 
I'm available to answer any questions.
    [The statement follows:]

            Prepared Statement of Major General David Bockel

    The Reserve Officers Association of the United States (ROA) is a 
professional association of commissioned and warrant officers of our 
Nation's seven uniformed services, and their spouses. ROA was founded 
in 1922 during the drawdown years following the end of World War I. It 
was formed as a permanent institution dedicated to National Defense, 
with a goal to teach America about the dangers of unpreparedness. When 
chartered by Congress in 1950, the act established the objective of ROA 
to: ``. . . support and promote the development and execution of a 
military policy for the United States that will provide adequate 
National Security.''
    The Association's 65,000 members include Reserve and Guard 
Soldiers, Sailors, Marines, Airmen, and Coast Guardsmen who frequently 
serve on Active Duty to meet critical needs of the uniformed services 
and their families. ROA's membership also includes officers from the 
U.S. Public Health Service and the National Oceanic and Atmospheric 
Administration who often are first responders during national disasters 
and help prepare for homeland security.
    The Reserve Enlisted Association is an advocate for the enlisted 
men and women of the United States Military Reserve Components in 
support of National Security and Homeland Defense, with emphasis on the 
readiness, training, and quality of life issues affecting their welfare 
and that of their families and survivors. REA is the only Joint Reserve 
association representing enlisted reservists--all ranks from all five 
branches of the military.

                               PRIORITIES

    CY 2011 Legislative Priorities are:
  --Recapitalize the Total force to include fully funding equipment and 
        training for the National Guard and Reserves.
  --Ensure that the Reserve and National Guard continue in a key 
        national defense role, both at home and abroad.
  --Provide adequate resources and authorities to support the current 
        recruiting and retention requirements of the Reserves and 
        National Guard.
  --Support citizen warriors, families and survivors.
Issues to help fund, equip, and train
    Advocate for adequate funding to maintain National Defense during 
times of war and peace.
    Regenerate the Reserve Components (RC) with field compatible 
equipment.
    Improve and implement adequate tracking processes on Guard and 
Reserve appropriations and borrowed Reserve Component equipment needing 
to be returned or replaced.
    Fully fund Military Pay Appropriation to guarantee a minimum of 48 
drills and 2 weeks training.
    Sustain authorization and appropriation to National Guard and 
Reserve Equipment Account (NGREA) to permit flexibility for Reserve 
Chiefs in support of mission and readiness needs.
    Optimize funding for additional training, preparation and 
operational support.
    Keep Active and Reserve personnel and Operation and Maintenance 
funding separate.
Issues to assist recruiting and retention
    Support continued incentives for affiliation, reenlistment, 
retention and continuation in the Reserve Component.
            Pay and Compensation
    Simplify the Reserve duty order system without compromising drill 
compensation.
    Offer Professional pay for Reserve Component medical professionals, 
consistent with the Active Component's pay.
    Eliminate the one-thirtieth rule for Aviation Career Incentive Pay, 
Career Enlisted Flyers Incentive Pay, Diving Special Duty Pay, and 
Hazardous Duty Incentive Pay.
            Education
    Continue funding the GI Bill for the 21st Century.
            Health Care
    Provide Medical and Dental Readiness through subsidized preventive 
healthcare.
    Extend military coverage for restorative dental care for up to 90 
days following deployment.
            Spouse Support
    Repeal the Survivor Benefits Plan--Dependency Indemnity Clause 
(DIC) offset.
             national guard and reserve equipment accounts
    It is important to maintain separate equipment and personnel 
accounts to allow Reserve Component Chiefs the ability to direct 
dollars to vital needs.
    Key Issues facing the Armed Forces concerning equipment:
  --Developing the best equipment for troops fighting in overseas 
        contingency operations.
  --Procuring new equipment for all U.S. Forces.
  --Modernize by upgrading the equipment already in the inventory.
  --Replacing the equipment deployed from the homeland to the war.
  --Making sure new and renewed equipment gets into the right hands, 
        including the Reserve Component.
    Reserve Component Equipping Sources:
  --Procurement.
  --Cascading of equipment from Active Component.
  --Cross-leveling.
  --Recapitalization and overhaul of legacy (old) equipment.
  --Congressional add-ons.
  --National Guard and Reserve Appropriations (NGREA).
  --Supplemental appropriation, such as OCO funding.
           national guard and reserve equipment appropriation
    Once a strategic force, the Reserve Components are now also being 
employed as an operational asset; stressing an ever greater need for 
procurement flexibility as provided by the National Guard and Reserve 
Equipment Appropriations (NGREA). Much-needed items not funded by the 
respective service budget are frequently purchased through NGREA. In 
some cases, it is used to procure unit equipment to match a state of 
modernizations that aligns with the battlefield.
    The Reserve and Guard are faced with the ongoing challenges of how 
to replace worn out equipment, equipment lost due to combat operations, 
legacy equipment that is becoming irrelevant or obsolete, and, in 
general, replacing what is lost in combat, or aged through the abnormal 
wear and tear of deployment. The Reserve Components benefit greatly 
from a National Military Resource Strategy that includes a National 
Guard and Reserve Equipment Appropriation.
    Congress has provided funding for the NGREA for over 30 years. At 
times, this funding has made the difference in a unit's abilities to 
carry out vital missions.
    ROA thanks Congress for approving $850 million for NGREA for fiscal 
year 2011, but more dollars continue to be needed. ROA urges Congress 
to appropriate into NGREA an amount that is proportional to the 
missions being performed, which will enable the Reserve Component to 
meet its readiness requirements.
End Strength
    The ROA would like to place a moratorium on any potential 
reductions to the Guard and Reserve manning levels. Manpower numbers 
need to include not only deployable assets, but individuals in the 
accession pipeline. ROA urges this subcommittee to fund the support of:
  --Army National Guard of the United States, 358,200.
  --Army Reserve, 206,000.
  --Navy Reserve, 66,200.
  --Marine Corps Reserve, 39,600.
  --Air National Guard of the United States, 106,700.
  --Air Force Reserve, 71,400.
  --Coast Guard Reserve, 10,000.
    In a time of war and force rebalancing, it is wrong to make cuts to 
the end strength of the Reserve Components. We need to pause to permit 
force planning and strategy to catch-up with budget reductions.

               NONFUNDED ARMY RESERVE COMPONENT EQUIPMENT

    While General Martin E. Dempsey, U.S. Army Chief of Staff, has said 
that the Army is not going forward with any unfunded requirements in 
his letter to Congress, this is not the case for the Army Reserve or 
the Army National Guard.

Army Reserve (USAR) Unfunded Requirements
    While the Army Reserve has 80 percent of its equipment on-hand, 
only 65 percent of it modernized. Further, the USAR remains short in 
several areas of critical equipment. Around 35 percent of its required 
equipment lines are at less than 65 percent on hand. A percentage of 
the USAR equipment is deployed.
    An enduring operational force cannot be fully effective if it is 
underfunded and has to borrow personnel and equipment from one unit to 
shore up another to meet mission requirements. Currently in the basic 
budget, the USAR is funded at strategic levels rather than for its 
operational contributions.
    Top USAR Equipping Challenges of an Operational Reserve:
  --Equip USAR formations to optimal operational levels for full 
        spectrum operations.
  --Maintain USAR equipment at the Army standard of 90 percent fully 
        mission capable.
  --Increase equipment modernization in an era of decreasing resources.
  --Increase facility and manpower capabilities to sustain modernized 
        and emerging equipment.
  --Modernize the Army Reserve Tactical Wheeled Vehicle (TWV) fleet.
  --Increase Resourcing for logistics automation technology required 
        refresh.
  --Increase Funding for state-of-the-art maintenance facilities.
  --Gain full transparency for equipment procurement through unit level 
        receipt.

                          [Dollars in millions]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
Ground Vehicles:
    Heavy Expanded Mobility Tactical Truck (HEMTT-LET),           $161
     1086 req'd...........................................
    Rough Terrain Container Handler, 215 req'd............         192
    Truck, Forklift, ATLAS, 71 req'd......................          11.8
    Tractor Line Haul M915, 169 req'd.....................          29
    HEMTT Common Bridge Transporter, M1977, 69 req'd......          15.4
Command Post of the Future (CPOF), 49 req'd...............          16
Soldier Weapons...........................................          15.7
    Machine Gun, 7.62 mm, M240B, req'd 1,000..............
    Carbine, 5.56 mm, M4, req'd 3,233 $1,329 20,058 23,291
    Machine Gun, Grenade, 40 mm, MK19 MOD III,............
Helicopter, Utility, UH-60L, 8 req'd......................          38.4
Power Plants and Generators:
    100KW Distribution System, 1,062 req'd................          15.5
    Power Plant, 5kW, TM, AN/MJQ-35, 250 req'd............          11.6
    Generator Set, 10kW, MEP-803A TQG, 445 req'd..........           6.4
    Generator Set, 10kW, PU-798 TQG, 242..................           6.2
------------------------------------------------------------------------

    Simulators.--The use of simulations and simulators minimizes 
turbulence for USAR Soldiers and their families caused by training 
demands during the first 2 years of the ARFORGEN process by enabling 
individuals and units to train at their home station and during 
exercises in a safe environment without the increased wear and tear on 
equipment.

Army National Guard (ARNG) Unfunded Equipment Requirements
    Even though Congress has provided $37 billion in equipment to the 
Army National Guard (ARNG) in the past 6 years, the on-hand percentage 
for all equipment is currently at 92 percent, there is a need for 
modernization and restoration. The Army National Guard provides more 
than 40 percent of the Army's rotary wing assets. With the increased 
optemp there is an increase in need for aircraft modernization. 
Required land force maintenance results in shortages as the ARN does 
not have a quantity of selected end-items authorized for use by units 
as immediate replacements when critical equipment is sent to depots for 
repair.
    Top ARNG Equipping Challenges:
  --Improve interoperability with AC forces.
  --Equip units for pre-mobilization training and deployment.
  --Equip units for their Homeland Missions.
  --Modernize ARNG helicopter fleet.
  --Modernize ARNG Tactical Wheeled Vehicle (TWV) fleet.

                          [Dollars in millions]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
Ground Transportation:
    Light, Med, and Heavy Tactical Trailers, 6,675 req'd..        $200
    Armored Security Vehicle (ASV), M1117.................          91
    Bradley Fighting Vehicle, Infantry, M2A2, 95 req'd....         123
    HMMWV Shelter Carrier, Heavy, M1097, 707 req'd........          43.6
Aviation:
    Helicopter, Utility, UH-60L, 30 req'd.................         145.7
    Light Utility Helicopter, UH-72A, 44 req'd............         171.6
    Helicopter, Cargo CH-47F, 3 req'd.....................          90
Medical Field Systems, 2,249 req'd........................          11
------------------------------------------------------------------------

    The Assistant Secretary of the Army (Acquisitions, Logistics & 
Technology) recently directed the Program Executive Office--Aviation to 
divest the C-23 Sherpa aircraft not later than December 31, 2014 as the 
Army had decided that it shouldn't be in the fixed wing business. Yet 
these aircraft are needed in the ARNG because the assets would be 
utilized in state missions, if not Federal.

           AIR FORCE RESERVE COMPONENTS EQUIPMENT PRIORITIES

Air Force Reserve Unfunded Requirements
    The Air Force Reserve (AFR) is focused on rebalancing its force, 
recapitalizing its equipment and infrastructure, and supporting its 
Reservists. Sustaining operations on five continents, the resulting 
wear and tear weighs heavily on aging equipment. When Legacy aircraft 
are called upon to support operational missions, the equipment is 
stressed at a greater rate. Since the start of combat, the majority of 
AFR equipment requirements have been aircraft upgrades.
    Top AFR Equipping Challenges:
  --Defensive Systems.--LAIRCM, ADS, and MWS: equip aircraft lacking 
        adequate infrared missile protection for combat operations.
  --Data Link and Secure Communications.--Data link network supporting 
        image/video, threat updates, and SLOS/BLOS communications for 
        combat missions.

                          [Dollars in millions]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
F-16 Systems, CDU, Combined AIFF w/Mode 5/S, Sim Trainer           $10
 Upgrade..................................................
C-130 Systems, New Armor, RWR, TAWS, VECTS, LED posit               92.8
 Lights...................................................
LAIR Countermeasures KC-135 (15)..........................         118.4
Infra-Red Counter Measures C-17s..........................          60
Security Forces Weapons & Tactical Equipment..............           3.2
Guardian Angel Weapon System (GAWS):
    Tactical Communication Headset........................           5
    HC-130 Wireless Intercom..............................           6
    CSAR Common Data Link.................................           6
------------------------------------------------------------------------

Air National Guard Unfunded Equipment Requirements
    Given adequate equipment and training, the Air National Guard (ANG) 
will continue to fulfill its Total Force obligations. As the Nation's 
first military responder, the Air Force has increased reliance on its 
Reserve Components, requiring equipment and training comparable to the 
active component Air Force. The Air National Guard's support to civil 
authorities is based upon the concept of ``dual use,'' equipment 
purchased by the Air Force for the Air National Guard's Federal combat 
mission, which can be adapted and used domestically when not needed 
overseas.
    Shortfalls in equipment will impact the Air National Guard's 
ability to support the National Guard's response to disasters and 
terrorist incidents in the homeland.
    ANG Equipping Challenges:
  --Modernize aging aircraft and other weapons systems for both dual-
        mission and combat deployments.
  --Equipment to satisfy requirements for domestic operations in each 
        Emergency.
  --Support Function (ESF).
  --Maintain C-5: Failing major fuselage structures and funding for 
        depot maintenance.
  --Define an Air Force validation process for both Federal and state 
        domestic response needs.
  --Program aging ANG F-16 aircraft for the Service Life Extension 
        Program (SLEP).
    An ANG wing contains not only aircraft but fire trucks, forklifts, 
portable light carts, emergency medical equipment including ambulances, 
air traffic control equipment, explosives ordinance equipment, etc., as 
well as well trained experts--valuable in response to civil 
emergencies.

                          [Dollars in millions]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
C-27J Airlift, 4 req'd....................................        $124
C-40C Airlift, 1 req'd....................................          98
C-38 Replacement Aircraft, 4 req'd........................         254
C-5 Structural Repair.....................................         310
C-17 Next Generation Threat Detection System..............          59
MC-130 Integrated BLOS/LOS/Data Link/VDL, 167, req'd......          66.8
F-16 Advanced Targeting Pod Upgrades......................         260
------------------------------------------------------------------------

                    NAVY RESERVE UNFUNDED PRIORITIES

    Active Reserve Integration (ARI) aligns Active and Reserve 
component units to achieve unity of command. Operationally, the Navy 
Reserve is fully engaged across the spectrum of Navy, Marine Corps, and 
joint operations, from peace to war. It has been the primary provider 
of Individual Augmentees for the overseas contingency operations 
filling Army, and Air Force assignments.
    Top U.S. Navy Reserve Equipping Challenges:
  --Aircraft procurement (C-40A, P-8, KC-130J, C-37B and F/A-18E).
  --Expeditionary equipment procurement (MESF, EOD, NCF, NAVELSG, 
        MCAST, EXPCOMBATCAM, and NEIC).

                          [Dollars in millions]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
C-40 A Combo cargo/passenger Airlift, 5 req'd.............        $425
    Aircraft recapitalization is necessary due to the C-
     9B's increasing operating and depot costs, decreasing
     availability and inability to meet future avionics/
     engine mandates required to operate worldwide. The C-
     40A has twice the range, payload, days of
     availability of the C-9B, and also has the unique
     capability of carrying hazardous cargo and passengers
     simultaneously with no restrictions. C-40 replaces an
     aging fleet of C-9, C-12 and C-20.
Maritime Expeditionary Security Force.....................          20
    Navy Expeditionary Combat Command has 17,000 Navy
     Reservists and requires $3.1 billion in Reserve
     Component Table of Allowance equipment. Force Utility
     Boat MPF-UB, 3 req'd $3 million.
KC-130J Super Hercules Aircraft tankers, 2 req'd..........         168
    Aircraft needed to fill the shortfall in Navy Unique
     Fleet Essential Airlift. Procurement price close to
     upgrading existing C-130Ts with the benefit of a
     longer life span. 24 req'd.
Helicopter, Combat SAR, HH-60H (Seahawk), 1 req'd.........          15.5
C-37 B (Gulf Stream) Aircraft (1).........................          64
    The Navy Reserve helps maintain executive transport
     airlift to support the Depart. of the Navy.
Civil Engineering Support Equipment--Tactical Vehicles....           4.4
------------------------------------------------------------------------

                MARINE CORPS RESERVE UNFUNDED PRIORITIES

    Marine Forces Reserve (MFR) has two primary equipping priorities--
outfitting individuals who are preparing to deploy and sufficiently 
equipping units to conduct home station training. Individuals receive 
100 percent of the necessary warfighting equipment. MFR units are 
equipped to a level identified by the Training Allowance (TA). MFR 
units are equipped with the same equipment that is utilized by the 
Active Component, but in quantities tailored to fit Reserve training 
center needs. It is imperative that MFR units train with the same 
equipment they will utilize while deployed.
    Top MCR Equipping Challenges:
  --Providing units the ``right amount'' of equipment to effectively 
        train in a pre-activation environment.
  --Achieving USMCR goal that the Reserve TA contains the same 
        equipment as the active component.
  --Resetting and modernizing the MRF to prepare for future challenges.

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
KC-130J Super Hercules Aircraft tankers, 21 remaining...    $1.5 billion
    The ``T'' and ``J'' aircraft are very different
     airframes, requiring different logistical,
     maintenance, and aircrew requirements. The longer
     both airframes are maintained, the longer twice the
     cost for logistics, maintenance training, and
     aircrew training will be spent.
Light Armored Vehicles--LAV-25, procure 27 remaining,...     $68 million
    Completing modernization of Light Armored Vehicle
     (LAV) family filling a shortfall in a USMCR light
     armor reconnaissance company. It provides strategic
     mobility to reach and engage the threat, tactical
     mobility for effective use of fire power.
Logistics Vehicle System Replacement (LVSR) 108 required   $650,000 each
    Supports accelerated modernization and rapid
     fielding.
Simulators: KC-130J Weapons System Trainer..............     $25 million
    Training transformation remains the cutting-edge
     arena of simulation and simulators.
Training Allowance (T/A) Shortfalls.....................    $145 million
    Shortfalls consist of over 300 items needed for
     individual combat clothing and equipment, including
     protective vests, ponchos, liners, gloves, cold
     weather clothing, environmental test sets, tool
     kits, tents, camouflage netting, communications
     systems, engineering equipment, combat and
     logistics vehicles and weapon systems.
------------------------------------------------------------------------

                       SERVICE MEMBERS LAW CENTER

    The Reserve Officers Association developed a Service Members Law 
Center, advising Active and Reserve service members who are subject to 
legal problems that occur during deployment.
    In the last year, the Service Members Law Center has received over 
6,000 calls and e-mails with legal questions. Eighty percent of them 
deal with the issue of employment and reemployment of veterans. Of 
those who have contacted us, the ROA Service Members Law Center has 
referred about 5 percent to attorneys.
    The American Bar Association supports legislation S. 1106, Justice 
for the Troops, to support programs on pro bono legal assistance for 
members of the Armed Forces. The Service Members Law Center has already 
been educating the law community on just that, and provides over 700 
case studies for online use by law offices.
    The Law Center refers names of attorneys who work on related legal 
issues, encouraging law firms to represent service members. The Center 
also educates and trains lawyers, especially active and reserve judge 
advocates, on service member protection cases. It is also a resource to 
Congress. Last year, the Supreme Court gave judgment on its first 
USERRA case. The Service Members Law Center filed an amicus curiae 
(friend of the court) brief on this case.
    ROA sets aside office spaces and staffs a lawyer to answer 
questions of serving members and veterans. Legal services, as suggested 
by S. 1106, could be sought by the Service Members Law Center if it 
expanded its staff. This would require additional financial support.
    Anticipated overall cost for expansion in fiscal year 2012: 
$150,000.
Military Voting
    The Service Members Law Center also answers questions about 
Military Voting. Its director works with the Federal Voting Assistance 
Program staff to help communicate information to improve military voter 
participation in Federal elections. FVAP announced a $16 million grant 
program to expand those online voting support tools at the State and 
local level, all of which will be linked to the voter through the FVAP 
website portal.
    ROA and REA fully support additional funding of DOD's Federal 
Voting Assistance Program for $35.107 million.

                       CIOR/CIOMR FUNDING REQUEST

    The Interallied Confederation of Reserve Officers (CIOR) was 
founded in 1948, and the Interallied Confederation of Medical Reserve 
Officers (CIOMR) was founded in 1947. These organizations are 
nonpolitical, independent confederations of national reserve 
associations of the signatory countries of the North Atlantic Treaty 
Organization (NATO). Presently, there are 16 member nation delegations 
representing over 800,000 reserve officers. CIOR supports several 
programs to improve professional development and international 
understanding. The Reserve Officers Association of the United States 
represents the United States as its official member to CIOR.
    Military Competition.--The CIOR Military Competition is a strenuous 
3 day contest on warfighting skills among Reserve Officers teams from 
member countries. The contest emphasizes combined and joint military 
actions relevant to the multinational aspects of current and future 
Alliance operations.
    Language Academy.--The two official languages of NATO are English 
and French. As a non-government body operating on a limited budget, it 
is not in a position to afford the expense of providing simultaneous 
translation services. The Academy offers intensive courses in English 
and French as specified by NATO Military Agency for Standardization, 
which affords international junior officer members the opportunity to 
become fluent in English as a second language.
    Young Reserve Officers Workshop.--The workshops are arranged 
annually by the NATO International Staff (IS). Selected issues are 
assigned to joint seminars through the CIOR Defense and Security Issues 
(SECDEF) Commission. Junior grade officers work in a joint seminar 
environment to analyze Reserve concerns relevant to NATO.
    Dues do not cover the workshops, and individual countries help fund 
the events. Presently no service has Executive Agency for CIOR, so 
these programs aren't being funded.
    Military Competition funding needs at $150,000 per fiscal year.

                               CONCLUSION

    The impact of operations in Iraq and Afghanistan is affecting the 
very nature of the Guard and Reserve, not just the execution of Roles 
and Missions. It makes sense to fully fund the most cost efficient 
components of the Total Force, its Reserve Components.
    At a time of war, we are expending the smallest percentage of GDP 
in history on National Defense. Funding now reflects close to 4 percent 
of GDP including supplemental dollars. ROA has a resolution urging that 
defense spending should be 5 percent to cover both the war and homeland 
security. While these are big dollars, the President and Congress must 
understand that this type of investment is what it will take to equip, 
train and maintain an all-volunteer force for adequate National 
Security.
    The Reserve Officers Association, again, would like to thank the 
subcommittee for the opportunity to present our testimony. We are 
looking forward to working with you and supporting your efforts in any 
way that we can.

    Chairman Inouye. Thank you very much, General Bockel.
    Senator Cochran.
    Senator Cochran. Thank you, General Bockel. We appreciate 
your coming here today and giving us your observations and your 
service, too, to veterans who have served in our military. When 
you mentioned the hyperbaric chamber, I just recalled the use 
of that in rehabilitating horses, thoroughbreds for racing. The 
fellow who really put the biggest bit of attention and his own 
personal funds into that had a horse that finally won the 
Kentucky Derby a couple of years ago.
    General Bockel. There it is.
    Senator Cochran. It didn't make him run any faster, but it 
showed the capabilities of treatment for damaged tissues, and 
it led to the use by men and women who had been in the service. 
Out at our Bethesda Naval Hospital, I think they have planned 
for a unit to be installed for trial, and we now will have an 
opportunity for a higher rate of recovery from a lot of things 
because of that initiative.
    General Bockel. In the case of traumatic brain injury, 
there is no uniform understanding of the condition and the 
treatment. It is also a continuity of care issue. From DOD 
healthcare through Veterans Affairs into the private healthcare 
arena, there is no continuity, no common understanding. The 
treatment does work. It's been proven anecdotally. There's a 
doctor at LSU by the name of Paul Harch who's the leader in the 
treatment, and I personally know of a retired Army Reserve 
brigadier general who's a judge in Fort Walton Beach, Florida, 
who spent 2 years in Walter Reed, most of that time suffering 
from traumatic brain injury, who received the hyperbaric 
therapy at George Washington University Hospital, and he's back 
on the bench practicing today.
    Senator Shelby. That's remarkable.
    Well, thank you very much for being here. Your testimony 
will be given very careful consideration.
    General Bockel. Thank you.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Mr. Chairman, I appreciate the General's 
testimony and his advocacy here through the paper. He had a 
distinguished military career before he came to that. We share 
one thing in common: We both are graduates of the University of 
Alabama. When he was there he was a distinguished student, but 
he was also a distinguished graduate of their ROTC program, 
which served him well in his career.
    General Bockel. They never thought I would get this far, 
Senator.
    Senator Shelby. But you have.
    Chairman Inouye. Thank you very much.
    Captain Smith.

STATEMENT OF CAPTAIN MIKE SMITH, UNITED STATES NAVY 
            (RETIRED), NATIONAL MILITARY AND VETERANS 
            ALLIANCE
    Captain Smith. Chairman Inouye, Senator Cochran, and 
Senator Shelby: The National Military and Veterans Alliance, or 
NMVA, is honored to again testify. The alliance represents 
military retiree veterans and survivor associations with over 
3.5 million members. The NMVA supports a strong national 
security.
    The challenges of the deficit and an adequately funded 
defense are at the forefront of discussions in Congress and, 
while the alliance is well aware that the subcommittee faces 
certain budget constraints, the NMVA continues to urge the 
President and Congress to increase defense spending to 5 
percent of gross domestic product during times of high 
utilization of the military to cover procurement, prevent 
unnecessary personnel cuts, and afford needed benefits for 
serving members and retirees. With the U.S. military taking 
action in four different countries, no one can deny that it is 
being decidedly used.
    It is crucial that military healthcare is funded. NMVA is 
concerned that as new programs are initiated they won't receive 
the funding that they need. Treating PTS and TBI shouldn't be 
on the cheap and alternative treatments should be explored so 
that our serving members can return to a normal life.
    The alliance is concerned that the President's DOD 
healthcare budget continues to undercut the military's 
beneficiaries' needs. We ask that you continue to fully fund 
military healthcare in fiscal year 2012.
    It is also important that we have parity in equipment and 
training for the new operational Guard and Reserve. Cuts in the 
strength of the Reserve component seem counterintuitive to 
prevent any unforeseen strategic event. The willingness of our 
young people today to serve in future conflicts will relate to 
their perception of how the veterans of this war are being 
treated.
    The NMVA thanks this subcommittee for funding the phased-in 
survivor benefit plan dependency and indemnity compensation 
offset. But widows of members who were killed in the line of 
service are continuing to be penalized. Even under the present 
offset, the vast majority of our enlisted families receive 
little benefit from this new program because SBP is almost 
completely offset by DIC. The NMVA respectfully requests that 
this subcommittee find excess funding to expand this provision.
    The alliance also hopes that this subcommittee will fully 
fund the $67.7 million authorized by the Senate Armed Services 
Committee for the two armed forces retirees homes.
    As the overseas contingency operations wind down, the 
challenges faced by our active and Reserve serving members will 
not go away. The alliance is confident of your ongoing support 
of national security and that you will keep the budgeting 
burden off the shoulders of the warriors, the retirees, their 
families, and survivors.
    The NMVA would like to thank the subcommittee for its 
efforts and, of course, this morning's opportunity to testify. 
Thank you.
    [The statement follows:]

                Prepared Statement of Captain Mike Smith

                               MEMBERSHIP

American Logistics Association
American Military Retirees Association
American Military Society
American Retirees Association
American Veterans (AMVETS)
American WWII Orphans Network
Armed Forces Marketing Council
Armed Forces Top Enlisted Association
Army Navy Union
Association of the U.S. Navy
Catholic War Veterans
Gold Star Wives of America
Hispanic War Veterans Association
Japanese American Veterans Association
Korean War Veterans Foundation
Legion of Valor
Military Order of Foreign Wars
Military Order of the Purple Heart
Military Order of the World Wars
National Association for Uniformed Services
National Gulf War Resource Center
Naval Enlisted Reserve Association
Paralyzed Veterans of America
Reserve Enlisted Association
Reserve Officers Associations
Society of Military Widows
TREA Senior Citizen League
The Flag and General Officers' Network
The Retired Enlisted Association
Tragedy Assistance Program for Survivors
Uniformed Services Disabled Retirees
Veterans of Foreign Wars of the U.S.
Veterans of Modern Warfare
Vietnam Veterans of America
Women in Search of Equity

                              INTRODUCTION

    Mister Chairman and distinguished members of the Committee, the 
National Military and Veterans Alliance (NMVA) is very grateful to 
submit testimony to you about our views and suggestions concerning 
defense funding issues. The overall goal of the National Military and 
Veterans Alliance is a strong National Defense. In light of this 
overall objective, we would request that the committee examine the 
following proposals.
    The ``Alliance'' is made up of 35 organizations, which provide it 
with a scope of expertise in military, veteran, family, and survivor 
issues.
    While the NMVA highlights the funding of benefits, we do this 
because it supports National Defense. A often quoted phrase, ``The 
willingness with which our young people are likely to serve in any war, 
no matter how justified, shall be directly proportional as to how they 
perceive the Veterans of earlier wars were treated and appreciated by 
their country,'' has been frequently attributed to General George 
Washington. Yet today, many of the programs that have been viewed as 
being veteran or retiree are viable programs for the young serving 
members of this war and shouldn't be discounted.
    The NMVA is very concerned over comments made by the leadership at 
the Pentagon that pay and compensation of serving members should be 
cut. This is very short sighted, based on a false premise that 
recruiting and retention successes will continue. To make such cuts 
will just hasten a hollowing of the force.
    The young men and women who serve do so under enormous pressures. 
Telltale signs of this strain include growing post traumatic stress, 
upsetting suicide rates, and increasing divorce rates. The impact goes 
beyond just the serving member and affects extended families and 
communities with further unintended consequences and sometimes tragic 
results.
    The National Military and Veterans Alliance, through this 
testimony, hopes to address funding issues that apply to the current 
and future veterans who have defended this country.

                        FUNDING NATIONAL DEFENSE

    NMVA is pleased to observe that the Congress continues to discuss 
how much should be spent on National Defense, but the baseline defense 
budget is now 3.5 percent of America's Gross Domestic Product (GDP). 
The Alliance urges the President and Congress to maintain defense 
spending at 5 percent of GDP during times of war to cover procurement 
and prevent unnecessary personnel end strength cuts.

                          PAY AND COMPENSATION

    Our serving members are patriots willing to accept peril and 
sacrifice to defend the values of this country. All they ask for is 
fair recompense for their actions. At a time of war, compensation 
rarely offsets the risks.
    The NMVA requests funding so that the annual enlisted military pay 
raise exceeds the Employment Cost Index (ECI) by at least half of 1 
percent.
    If unable to provide a pay raise higher than the President's 
request, this committee should target pay raises for the mid-grade 
members, who have increased responsibility in relation to the overall 
service mission, are also at the highest risk of leaving the service.
    NMVA supports applying the same allowance standards to both Active 
and Reserve when it comes to Aviation Career Incentive Pay, Career 
Enlisted Flyers Incentive Pay, Diving Special Duty Pay, Hazardous Duty 
Incentive Pay and other special pays. Guard and Reserve members are 
performing more specialized hours, but are currently being paid less.
    The Service chiefs have admitted one of the biggest retention 
challenges is to recruit and retain medical professionals. NMVA urges 
the inclusion of bonus/cash payments (Incentive Specialty Pay) into the 
calculations of Retirement Pay for military healthcare providers. NMVA 
has received feedback that this would be incentive to many medical 
professionals to stay in longer.
    G-R Bonuses.--Guard and Reserve component members may be eligible 
for one of three bonuses, Prior Enlistment Bonus, Reenlistment Bonus 
and Reserve Affiliation Bonuses for Prior Service Personnel. These 
bonuses are used to keep men and woman in mission critical military 
occupational specialties (MOS) that are experiencing falling numbers or 
are difficult to fill. This point cannot be understated. The operation 
tempo, financial stress and competition with Active Duty recruiting 
necessitate continuing incentives. The NMVA supports expanding and 
funding bonuses to the Reserve Components.
    Reserve/Guard Funding.--NMVA is concerned about a possible 
recommendation from the 11th Quadrennial Review of Military 
Compensation to end ``2 days pay for 1 days work,'' and replace it with 
a plan to provide one-thirtieth of a month's pay model, which would 
include both pay and allowances.
    Even with allowances, pay would be less than the current system, 
and the accounting would be far more complex. Allowances differ between 
individuals and can be affected by commute distances and even zip 
codes. Certain allowances that are unlikely to be uniformly paid 
include geographic differences, housing variables, tuition assistance, 
travel, and adjustments to compensate for missing healthcare.
    Additionally there have been DOD suggestions that pay should differ 
for those in the Guard and Reserve who are in strategic units and 
operational units. This concept would undermine the Force Generation 
Plan, which would have the readiness of a Reserve Component unit 
increase over a 5 year cycle, favored by both the Army and the Marine 
Reserve. In the early years a unit would be in a strategic status, and 
for the final 2 years be in an operational mode. Pay should not differ 
during different stages of FORCGEN.
    The NMVA strongly recommends that the reserve pay system continue 
on a ``2 days pay for two drills in a day,'' be funded and be retained, 
as is.

                           EDUCATIONAL ISSUES

    Practically all active duty and Selected Reserve enlisted 
accessions have a high school diploma or equivalent. A college degree 
is the basic prerequisite for service as a commissioned officer, and is 
now expected of most enlisted as they advance beyond E-6.
    Officers to promote above O-4 are expected to have a post graduate 
degree. The ever-growing complexity of weapons systems and support 
equipment requires a force with far higher education and aptitude than 
in previous years.
Post 9/11 GI Bill
    According to a survey conducted by military.com, 36 percent of 
individuals on active duty want to transfer the benefit to their spouse 
and 48 percent would transfer it to their children. The Post 9/11 GI 
Bill provides the much desired transferability option to spouses and 
children in exchange for an agreement from the serving member that they 
will continue to serve another 4 years in military service.
    The National Military and Veterans Alliance supports future funding 
to continue the transferability of the Post 9/11 GI Bill, as it is an 
important retention and recruiting resource.
MGIB-SR Enhancements
    The Montgomery G.I. Bill for Selective Reserves (MGIB-SR) will 
continue to be an important recruiting and retention tool for the 
Reserve Components. With massive troop rotations, the Reserve forces 
can expect to have retention shortfalls, unless the government provides 
enhanced education incentives as well.
    The problem with the current MGIB-SR is that the Selected Reserve 
MGIB has failed to maintain a creditable rate of benefits with those 
authorized in Title 38, Chapter 30. MGIB-SR has not even been increased 
by cost-of-living increases since 1985. In that year MGIB rates were 
established at 47 percent of active duty benefits. The MGIB-SR rate is 
28 percent of the Chapter 30 benefits. Overall the allowance has inched 
up by only 7 percent since its inception, as the cost of education has 
climbed significantly.
    The NMVA requests appropriations funding to raise the MGIB-SR and 
lock the rate at 50 percent of the active duty benefit. Cost: $25 
million/first year, $1.4 billion over 10.

                       FORCE POLICY AND STRUCTURE

End Strength
    The NMVA is concerned about cuts in the end strength boosts of the 
Active Duty Component of the Army and Marine Corps as have been 
recommended by Defense Authorizers. The goal for active duty dwell time 
is 1:3. This has yet to be achieved under current operations tempo, and 
end strength cuts will only further impact dwell time. Trying to pay 
the defense bills by premature manpower reductions will have 
consequences.

Manning Cut Moratorium
    The NMVA would also like to put a freeze on reductions to the Guard 
and Reserve manning levels. A moratorium on reductions to End Strength 
is needed until the impact of rebalancing of the force is understood. 
The Alliance is pleased to see a recommended increase in the Navy and 
Air Force Reserves. NMVA urges this subcommittee to at least fund to 
last year's levels for other Reserve Components.
         survivor benefit plan (sbp) and survivor improvements
    The Alliance wishes to deeply thank this Subcommittee for your 
funding of improvements in the myriad of survivor programs, including 
funding the Special Survivor Indemnity Allowance.
    However, there is still an issue remaining to deal with:
    Providing funds to end the SBP/DIC offset.
    SBP is a purchased annuity, available as an elected earned employee 
benefit. This program provides a guaranteed income payable to survivors 
of retired military upon the member's death. Dependency and Indemnity 
Compensation (DIC) is an indemnity program to compensate a family for 
the loss of a loved one due to a service connected death. They are 
different benefits created to fulfill different purposes and needs. At 
this time the SBP annuity the service member has paid for is offset 
dollar for dollar for the DIC survivor benefits paid through the 
Department of Veteran Affairs.
    SBP/DIC Offset affects several groups. The first is the family of a 
medically retired member of the uniformed services. If the service 
member is leaving the service disabled it is only wise to enroll in the 
Survivor Benefit Plan (perhaps being uninsurable in the private 
sector). If a later death is service connected then the survivor loses 
their SBP annuity to DIC.
    A second group affected by this offset is families whose service 
member died on active duty. Recently Congress created active duty SBP. 
These service members never had the chance to pay into the SBP program. 
But clearly Congress intended to give these families a benefit. With 
the present offset in place, the vast majority of families receive no 
benefit from this new program, because the vast numbers of our losses 
are young men or women in the lower paying ranks.
    Other affected families are service members who have already served 
a substantial time in the military. Their surviving spouse is left in a 
worse financial position that a younger widow. The older widows will 
normally not be receiving benefits for her children from either Social 
Security or the VA and will normally have more substantial financial 
obligations (mortgages etc). This spouse is very dependent on the SBP 
and DIC payments and should be able to receive both.
    The NMVA respectfully requests that this Subcommittee fund the SBP/
DIC offset.

          CURRENT AND FUTURE ISSUES FACING UNIFORMED SERVICES

Healthcare
    The National Military and Veterans Alliance once again thanks this 
Committee for the great strides that have been made over the last few 
years to improve the healthcare provided to the active duty members, 
their families, survivors and Medicare eligible retirees of all the 
Uniformed Services. The improvements have been historic. TRICARE for 
Life and the Senior Pharmacy Program have improved the life and health 
of Medicare Eligible Military Retirees, their families, and survivors. 
Yet many serious problems need to be addressed:

Wounded Warrior Programs
    The Alliance supports continued funding for the wounded warriors, 
including monies for research and treatment on Traumatic Brain Injuries 
(TBI), Post Traumatic Stress Disorder (PTSD), the blinded, and our 
amputees. The Nation owes these heroes an everlasting gratitude and 
recompense that extends beyond their time in the military. These 
casualties only bring a heightened need for a DOD/VA electronic health 
record accord to permit a seamless transition from being in the 
military to being a civilian.

Full Funding for the Military Health Program
    The Alliance applauds the Subcommittee's role in providing adequate 
funding for the Defense Health Program (DHP) in the past several budget 
cycles. As the cost of healthcare has risen throughout the country, you 
have provided adequate increases to the DHP to keep pace with these 
increases.
    Full funding for the defense health program is a top priority for 
the NMVA. With the additional costs that have come with the deployments 
to Southwest Asia, Afghanistan and Iraq, we must all stay vigilant 
against future budgetary shortfalls that would damage the quality and 
availability of military healthcare. NMVA is confident that this 
subcommittee will continue to fund the DHP so that there will be no 
budget shortfalls.
    The National Military and Veterans Alliance urges the Subcommittee 
to continue to ensure full funding for the Defense Health Program 
including the full costs of all new programs.

TRICARE Pharmacy Programs
    NMVA supports the continued expansion of use of the TRICARE Mail 
Order pharmacy.
    To truly motivate beneficiaries to a shift from retail to mail 
order adjustments need to be made to both generic and brand name drugs 
co-payments. NMVA recommends that both generic and brand name mail 
order prescriptions be reduced to zero dollar co-payments to align with 
military clinics.
    Ideally, the NMVA would like to see the reduction in mail order co-
payments without an increase in co-payments for Retail Pharmacy.
    The National Military and Veterans Alliance urges the Subcommittee 
to adequately fund adjustments to co-payments in support of 
recommendations from Defense Authorizers.

TRICARE Standard Improvements
    TRICARE Standard grows in importance with every year that the 
global war on terrorism continues. A growing population of mobilized 
and demobilized Reservists depends upon TRICARE Standard. A growing 
number of younger retirees are more mobile than those of the past, and 
likely to live outside the TRICARE Prime network.
    An ongoing challenge for TRICARE Standard involves creating 
initiatives to convince healthcare providers to accept TRICARE Standard 
patients. Healthcare providers are dissatisfied with TRICARE 
reimbursement rates that are tied to Medicare reimbursement levels. The 
Alliance is pleased by Congress' plan to prevent near-term reductions 
in Medicare reimbursement rates, which will help the TRICARE Program.
    Yet this is not enough. TRICARE Standard is hobbled with a 
reputation and history of low and slow payments as well as what still 
seems like complicated procedures and administrative forms that make it 
harder and harder for beneficiaries to find healthcare providers that 
will accept TRICARE. Any improvements in the rates paid for Medicare/
TRICARE should be a great help in this area. Additionally, any further 
steps to simplify the administrative burdens and complications for 
healthcare providers for TRICARE beneficiaries hopefully will increase 
the number of available providers.
    The Alliance asks the Defense Subcommittee to include language 
encouraging continued increases in TRICARE/Medicare reimbursement 
rates.

TRICARE Retiree Dental Plan (TRDP)
    The focus of the TRICARE Retiree Dental Plan (TRDP) is to maintain 
the dental health of Uniformed Services retirees and their family 
members. With ever increasing premium costs, NMVA feels that the 
Department should assist retirees in maintaining their dental health by 
providing a government cost-share for the retiree dental plan. With 
many retirees and their families on a fixed income, an effort should be 
made to help ease the financial burden on this population and promote a 
seamless transition from the active duty dental plan to the retiree 
dental plan in cost structure. Additionally, we hope the Congress will 
enlarge the retiree dental plan to include retired beneficiaries who 
live overseas.
    The NMVA would appreciate this Committee's consideration of both 
proposals.

                 NATIONAL GUARD AND RESERVE HEALTHCARE

Mobilized Healthcare--Dental Readiness of Reservists
    The number one problem faced by Reservists being recalled has been 
dental readiness. A model for healthcare would be the TRICARE Dental 
Program, which offers subsidized dental coverage for Selected 
Reservists and self-insurance for SELRES families.
    In an ideal world, this would be universal dental coverage. 
However, reality is that the services are facing challenges. Premium 
increases to the individual Reservist have caused some junior members 
to forgo coverage. Dental readiness has dropped. The Military services 
are trying to determine how best to motivate their Reserve Component 
members but feel compromised by mandating a premium program if 
Reservists must pay a portion of it.
    Services have been authorized to provide dental treatment as well 
as examination, but have no funding to support this service. By the 
time many Guard and Reserve are mobilized, their schedule is so short 
fused that the processing dentists don't have time for extensive 
repair.
    The National Military Veterans Alliance supports funding for 
utilization of Guard and Reserve Dentists to examine and treat 
Guardsmen and Reservists who have substandard dental hygiene. The 
TRICARE Dental Program should be continued, because the Alliance 
believes it has pulled up overall Dental Readiness.

Demobilized Dental Care
    Under the revised transitional healthcare benefit plan, Guard and 
Reserve, who were ordered to active duty for more than 30 days in 
support of a contingency, have 180 days of transition healthcare 
following their period of active service, but similar coverage is not 
provided for dental restoration.
    Dental hygiene is not a priority on the battlefield, and many 
Reserve and Guard are being discharged with dental readiness levels 
much lower than when they were first recalled. At a minimum, DOD must 
restore the dental state to an acceptable level that would be ready for 
mobilization, or provide a subsidy for 180 days after demobilization to 
permit restoration from a civilian source. Current policy is a 30 day 
window with dental care being space available at a priority less than 
active duty families.
    NMVA asks the committee for funding to support a DOD's 
demobilization dental care program. Additional funds should be 
appropriated to cover the cost of TRICARE Dental premiums and co-
payments for the 6 months following demobilization if DOD is unable to 
do the restoration.

                     OTHER GUARD AND RESERVE ISSUES

    Ensure adequate funding to equip Guard and Reserve at a level that 
allows them to carry out their mission. Do not turn these crucial 
assets over to the active duty force. In the same vein we ask that the 
Congress ensure adequate funding that allows a Guardsman/Reservist to 
complete 48 drills and 15 annual training days per member per year. DOD 
has been tempted to expend some of these funds on active duty support 
rather than personnel readiness.
    The NMVA strongly recommends that Reserve Program funding remain at 
sufficient levels to adequately train, equip and support the robust 
reserve force that has been so critical and successful during our 
Nation's recent major conflicts.
    While Defense Authorizers provided an early retirement benefit in 
fiscal year 2008, only those who have served in support of a 
contingency operation since January 28, 2008 are eligible, which is 
nearly 6 years and four months after Guard and Reserve members first 
were mobilized to support the active duty force in this conflict. Over 
725,000 Reservists, who have served during this period, were excluded 
from eligibility. The explanation given was lack of mandatory funding 
offset. To exclude a portion of our warriors is akin to offering the 
original GI Bill to those who served after 1944.
    NMVA hopes that this subcommittee can help identify excess funding 
that would permit an expanded early retirement benefit for those who 
have served.

                            MILITARY VOTING

    NMVA also feels that significant progress has been made in military 
voting rights in the past 2 years through passage of the MOVE Act of 
2009, and the new programs implemented by the Federal Voting Assistance 
Program. These new programs include such innovations as online tools to 
assist voters in filling out registration forms and back-up ballots, as 
well as the online ballot delivery tools developed by 17 States, with 
FVAP support, and fielded for the 2010 election. Recently, FVAP 
announced a $16 million grant program to expand those online voting 
support tools at the State and local level, all of which will be linked 
to the voter through the FVAP website portal.
    NMVA fully supports additional funding of DOD's Federal Voting 
Assistance Program for $35.107 million, and the budget PE Numbers are 
0901220SE and 0605803SE, Project 4.

                         REINTEGRATION PROGRAMS

    As overseas contingency operations wind down, a temptation will be 
to reduce funds to yellow ribbon and other reintegration programs, but 
young men and women will continue to leave active duty, and members 
serving and the Guard and Reserve will likely continue to be called up 
to active duty. NMVA supports continued funding to Yellow Ribbon and 
TAP programs.
    These programs must be further examined to enhance the resilience 
training. Resilience survival training prepares one to better adapt to 
life's misfortunes and setbacks. While programs are in place to focus 
on suicide, there are other challenges to be faced such as unemployment 
and military divorce that need to be addressed, including seminars to 
better understand the current laws.

                     ARMED FORCES RETIREMENT HOMES

    Dormitories and buildings at the AFRH--Washington, DC campus 
continue to need refurbishing. While the AFRJ--Gulfport facility has 
reopened, the Navy/Marine Corps residents continue to need funding for 
the finishing touches of the site.
    NMVA urges this subcommittee to continue funding upgrades at the 
Washington, DC facility and improvements at the Gulfport facility.

                               CONCLUSION

    Mr. Chairman and distinguished members of the Subcommittee, the 
Alliance again wishes to emphasize that we are grateful for and 
delighted with the large steps forward that the Congress has affected 
the last few years. We are aware of the continuing concern all of the 
subcommittee's members have shown for the health and welfare of our 
service personnel and their families. Therefore, we hope that this 
subcommittee can further advance these suggestions in this committee or 
in other positions that the members hold. We are very grateful for the 
opportunity to submit these issues of crucial concern to our collective 
memberships. Thank you.

    Chairman Inouye. Thank you very much, Captain Smith.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    Let me again reiterate our appreciation for the 
participation of those of you who have served in the military 
and through your experience have direct knowledge of a lot of 
these issues that we are now confronting. The information that 
you're providing and the suggestions are deeply appreciated. 
Thank you.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. I thank Captain Smith and the whole panel. 
I was looking at your membership. You represent the umbrella of 
all these groups, so you do it well.
    So thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    I'd like to thank the panel. Now the next panel: Captain 
Ike Puzon, U.S. Navy retired, Associations for America's 
Defense; Dr. Donald Jenkins, National Trauma Institute; Rear 
Admiral Casey Coane, U.S. Navy retired, Association for the 
U.S. Navy; Ms. Karen Goraleski, American Society of Tropical 
Medicine and Hygiene.
    May I call on Captain Puzon.

STATEMENT OF CAPTAIN IKE PUZON, UNITED STATES NAVY 
            (RETIRED), ON BEHALF OF THE ASSOCIATIONS 
            FOR AMERICA'S DEFENSE
    Captain Puzon. Mr. Chairman, Senator Cochran, Senator 
Shelby: The Associations for America's Defense is very grateful 
to testify today. We would like to thank the subcommittee for 
your stewardship on the defense issues and setting an example 
through your nonpartisan leadership.
    The Associations for America's Defense is concerned that 
U.S. defense policy is sacrificing security due to budget 
pressures and readiness. Most concerning is the vigorous 
pursuit to cut existing programs. Chairman of the Joint Chiefs 
of Staff Admiral Mike Mullen in his testimony before the Senate 
Armed Services Committee in February recognized that: ``In the 
back end of previous conflicts, we were able to contract our 
equipment inventory by shedding our oldest capital assets, 
reducing the average age of our systems. We cannot do this 
today because of the high pace and duration of combat 
operations. We must actually recapitalize our systems to 
restore our readiness and avoid becoming a hollow force.''
    A4AD is in agreement, and in addition we are alarmed that 
the fiscal year 2012 unfunded program list submitted by the 
military services was not made publicly available and that the 
Army do not even have such a list this year. Moreover, the past 
2 years we saw significant reductions in the unfunded lists 
submitted, leading to a speculation that military services are 
no longer permitted to produce their full unfunded needs.
    Additionally, the results of such budgetary policy could 
again lead to a hollow force whose readiness and effectiveness 
has been subtly degraded and lessened efficiency will not be 
immediately evident.
    We support increasing defense spending to 5 percent of the 
gross domestic production during times of war to cover 
procurement and prevent unnecessary personnel end strength 
cuts. As always, our military will do everything possible to 
accomplish its missions, but response time is measured by 
equipment readiness and availability.
    Defense Secretary Robert Gates has warned against hollowing 
out the force from a lack of proper training, lack of proper 
maintenance and equipment and manpower. Also, U.S. Joint Forces 
Command General Ray Odierno said recently: ``We must avoid the 
trap of doing more with less, which is a recipe for creating a 
hollow force.'' He further qualified this by asking: ``What are 
we going to stop doing?''
    Ominously, both the 30-year shipbuilding and aviation plans 
are at risk of achieving their goals. The Navy's plan to build 
a 313-ship fleet doesn't match reality, in which funding is 
highly unlikely to meet this goal. In addition, there are plans 
to extend the service life of already 40-year-old ships another 
28 years. For the aviation plan, the original assumption 
forecasted a 3 percent average annual growth for aviation 
programs over the next decade. But now there are predicted a 
zero-growth aviation budget for 2017.
    As these plans are not bearing the fruit that was 
originally projected, it is imperative that until the new 
systems are acquired in sufficient quantities to replace legacy 
fleets, legacy systems must be sustained and kept operational.
    As the military continues to become more expeditionary, 
more airlifts are needed, such as C-17s, C-130Js, and C-40s. 
They will be required. Yet DOD has decided to shut down 
production of C-17. Procurement needs to be accelerated, 
modernized, and mobility requirements need to be acknowledged. 
We ask this subcommittee to continue to provide appropriations 
for unfunded National Guard and Reserve equipment requirements.
    Of great concern is the potential to revert the Reserve 
component back to a strategic reserve. Our national security 
demands both an operational and strategic reserve. We urge the 
subcommittee to study the comprehensive review of the future 
role of Reserve components, which calls for reserve equipment.
    We genuinely appreciate the support of the subcommittee, 
particularly at the time when there is growing pressure on the 
congressional members promoting further cuts. Thank you again. 
I look forward to your questions.
    [The statement follows:]

                Prepared Statement of Captain Ike Puzon

                   ASSOCIATIONS FOR AMERICA'S DEFENSE

    Founded in January 2002, the Association for America's Defense 
(A4AD) is an adhoc group of Military and Veteran Associations that have 
concerns about National Security issues that are not normally addressed 
by The Military Coalition (TMC) and the National Military Veterans 
Alliance (NMVA), but participants are members from each. Members have 
developed expertise in the various branches of the Armed Forces and 
provide input on force policy and structure. Among the issues that are 
addressed are equipment, end strength, force structure, and defense 
policy. A4AD, also, cooperatively works with other associations, who 
provide input while not including their association name to the 
membership roster.

                       PARTICIPATING ASSOCIATIONS

American Military Society
Army and Navy Union
Association of the U.S. Navy
Enlisted Assoc. of the National Guard of the U.S.
Hispanic War Veterans of America
Marine Corps Reserve Association
Military Order of World Wars
National Assoc. for Uniformed Services
Naval Enlisted Reserve Association
Reserve Enlisted Association
Reserve Officers Association
The Flag and General Officers' Network
The Retired Enlisted Association

                              INTRODUCTION

    Mister Chairman and distinguished members of the committee, the 
Associations for America's Defense (A4AD) is again very grateful for 
the invitation to testify before you about our views and suggestions 
concerning current and future issues facing the defense appropriations.
    The Association for America's Defense is an adhoc group of 13 
military and veteran associations that have concerns about national 
security issues. Collectively, we represent armed forces members and 
their families, who are serving our Nation, or who have done so in the 
past.

              CURRENT VERSUS FUTURE: ISSUES FACING DEFENSE

    The Associations for America's Defense would like to thank this 
subcommittee for the ongoing stewardship that it has demonstrated on 
issues of defense. While in a time of war, this subcommittee's pro-
defense and non-partisan leadership continues to set an example.

Force Structure: Erosion in Capability
    The 2010 Quadrennial Defense Review's (QDR) objectives include: 
further rebalance the Armed Force's capabilities to prevail in today's 
wars while building needed capabilities to deal with future threats; 
and reform Department of Defense's (DOD) institutions and processes to 
better support warfighters' urgent needs; purchase weapons that are 
usable, affordable, and needed; and ensure that taxpayer dollars are 
spent wisely and responsibly. The new QDR calls for DOD to continually 
evolve and adapt in response to the changing security environment.
    Retiring Secretary of Defense Robert Gates said that, ``It is 
vitally important to protect the military modernization accounts,'' and 
to, ``push ahead with new capabilities, from an air refueling tanker 
fleet to ballistic missile submarines.'' Additionally when referring to 
paying America's budget by defense Gates also stated that, ``If you cut 
the defense budget by 10 percent, which would be catastrophic in terms 
of force structure, that's $55 billion out of a $1.4 trillion 
deficit,'' further saying, ``We are not the problem.''
    The Chairman of the Joint Chiefs of Staff Admiral Mike Mullen well-
known for his saying that the ``national debt is the greatest threat to 
national security,'' in his testimony before the Senate Armed Services 
Committee in February 2011 also recognized the following regarding 
equipment:
    In the ``back end'' of previous conflicts, we were able to contract 
our equipment inventory by shedding our oldest capital assets, reducing 
the average age of our systems. We cannot do this today, because the 
high pace and durations of combat operations have consumed the 
equipment of all our Services much faster than our peacetime programs 
can recapitalize them. We must actually recapitalize our systems to 
restore our readiness and avoid becoming a hollow force.

Hollow Force
    A4AD strongly disagrees with placing budgetary constraints on 
defense especially in light of the fact that many have recommended 
cutting defense in order to pay off debt despite it only being 20 
percent of the overall budget. Member associations also question the 
current administration's spending priorities which place more 
importance on the immediate future rather than a short and long term 
approach. The result of such a budgetary policy again lead to a hollow 
force whose readiness and effectiveness has been subtly degraded and 
lessened efficiency will not be evident immediately. This process, 
echoing the past, raises no red flags and sounds no alarms, and the 
damage can go unnoticed and unremedied until a crisis arises 
highlighting readiness decay.
    Even Secretary Gates has ominously warned against ``. . . hollowing 
out of the force from a lack of proper training, maintenance and 
equipment--and manpower.'' But he's not the only one, the commander of 
U.S. Joint Forces Command General Raymond Odierno also has said 
recently, ``We must avoid the trap of doing more with less, which is a 
recipe for creating a hollow force,'' and further qualified this by 
asking, ``what are we going to stop doing?''

Emergent Risks
    Members of this group are concerned that U.S. defense policy is 
sacrificing future security for near term readiness. Our efforts are so 
focused to provide security and stabilization and then withdrawal in 
Afghanistan and Iraq. While risk is being accepted as an element of 
future force planning, current planning is driven by current overseas 
contingency operations, and progressively more on budget limitations.
    What seems to be overlooked is that the United States is involved 
in a Cold War in S.E. Asia as well as a Hot War with two theaters in 
S.W. Asia. Security issues in North Africa, the Middle East, North 
Korea, China, Iran, and Russia add to the growing areas of risk.

Arab Awakening
    The Middle East is in the midst of great turmoil in which multiple 
countries have and continue to see uprisings, there's a widening gap 
between Christians and Muslims in Egypt, Syria has seen numerous 
civilian deaths, Israel is increasingly defensive, Yemen edges closely 
to civil war, more attacks are surfacing in Iraq, Libya remains in a 
stalemate, in addition to other problems.
    It is concerning that while in the thick of continuing protests and 
instability numerous western nations are pledging significant funding 
for alleged ``Arab countries in transition to democracy''. The United 
States' best interest is to ensure that there is reliable leadership in 
Arab states, civil relations toward Israel, and reduced violence 
against civilians. Also any assistance given must be targeted to 
support the U.S. National Security Strategy and have detailed goals 
attached.

Korean Peninsula
    North Korea has 1.2 million active and 7.7 million reserve forces 
while South Korea had 653,000 active and 3.2 million reserve soldiers 
in 2010, and there are 28,500 U.S. troops stationed to the South. While 
not an immediate danger to the United States, North Korea is viewed as 
an increased threat to its neighbors, and is potentially a 
destabilizing factor in Asia. North Korea may be posturing, but it is 
still a failed state, where misinterpretation clouded by hubris could 
start a war.
    Recently South Korea has admitted that it has held secret 
discussions with North Korea in May, yet North Korea utilized the 
opportunity to embarrass the South. Some analysts actually believe that 
the two nations may be entering into a new dangerous phase. This is 
further emphasized by the cool relations of the past year in which 
North Korea committed attacks against South Korea on Yeonpyeong Island 
and the sinking of the navy vessel ROKS Cheonan, which resulted in 50 
deaths. In fact South Korea intends to increase its defense budget by 
nearly 5.8 percent in 2011, which is partially in response to these 
attacks.

China
    China has worked very hard to create a facade to the world to 
conceal its true strengths and weaknesses. According to Chief of Naval 
Operations Admiral Gary Roughead, at a SAC-D hearing, ``The Chinese 
Navy is the fastest-growing in the world today.''
    Of great concern is China's defense budget which `officially' will 
increase 12.7 percent, 600 billion Yuan or roughly $91 billion, for 
2011. Some of the increase will go toward the strategic nuclear force, 
the strategic missile unit, and the Navy. But this is not the whole 
budget and in fact it doesn't include the cost for procuring or 
building new weapons which could almost double the defense budget. 
What's more experts across the board estimate that China's actually 
spends far more than is reported, ranging from over $150 billion as DOD 
reported in 2010 (up to 250 percent higher than figures reported by the 
Chinese government ) to as much as $400 billion as estimated by 
GlobalSecurity.org based on ``a more appropriate purchasing power 
parity (PPP) basis''.
    In addition their cost of materials and labor is much lower. 
China's GDP climbed to 9.6 percent while the United States is at 2.6 
percent as of the third quarter for 2010. According to the CIA World 
Fact Book ``because China's exchange rate is determine by fiat, rather 
than by market forces, the official exchange rate measure of GDP is not 
an accurate measure of China's output; GDP at the official exchange 
rate substantially understates the actual level of China's output vis-
a-vis the rest of the world; in China's situation, GDP at purchasing 
power parity provides the best measure for comparing output across 
countries.''
    China's build-up of sea and air military power appears aimed at the 
United States, according to Admiral Michael Mullen. Furthermore China 
is reluctant to support international efforts in reproaching North 
Korea. China has stated that it will field its advanced new J-20 
stealth fighter in 2017-19.
    Furthermore there is also the aggressive behavior. Recently the 
Philippines deployed two warplanes when a ship searching for oil 
complained of being harassed by two Chinese patrol boats in the South 
China Sea, Japan deployed F-15 fighter jets when Chinese surveillance 
and anti-submarine aircraft flew near the East China Sea disputed 
islands, and at all times China pursues overtaking Taiwan. China also 
associates with adversarial nations, specifically Iran and Venezuela 
who both openly antagonize the United States.

Iran
    While Iran lobs petulant rhetoric toward the United States, the 
real international tension is between Israel and Iran, and Iran's 
handiwork in various Middle Eastern uprisings such as Bahrain which is 
already considered to be an Iranian quasi-satellite state.
    Israel views Tehran's atomic work as a threat, and would consider 
military action against Iran as it has threatened to ``eliminate 
Israel.'' Israeli leadership has warned Iran that any attack on Israel 
would result in the ``destruction of the Iranian nation.'' Israel is 
believed to have between 75 to 200 nuclear warheads with a megaton 
capacity.
    Two Iranian warships passed through the Suez Canal upon receiving 
approval from Egypt, which Israel called a provocation. Iran has also 
sent a submarine into the Red Sea.

Russia
    While the Obama Administration has been working on a ``reset'' 
policy toward Russia, including a new START treaty, there are areas of 
concern. A distressing issue is their ongoing relationship with Iran. 
Additionally Russia sells arms to countries like Syria and Venezuela.
    Prime Minister Vladimir Putin stated recently, ``Despite the 
difficult environment in which we are today, we still found a way to 
not only maintain but also increase the total amount of state defense 
order.'' Russia's defense budget rose by 34 percent in 2009, as 
reported by the International Institute of Strategic Study, and has 
plans for incremental defense spending increases starting 2011 with a 
$19.2 billion, $24.3 billion in 2012, and then $38.8 billion in 2013.

Funding for the Future
    Since Secretary Gates initiated the practice of reviewing all the 
services' unfunded requirements lists prior to testifying before 
Congress the unfunded lists have shown a dramatic reduction from $33.3 
billion for fiscal year 2008 and $31 billion for fiscal year 2009 to 
$3.8 billion for fiscal year 2010 and $2.6 billion for fiscal year 
2011.
    Secretary Gates instituted a plan to save $100 billion over 5 
years. Two-thirds of the savings are supposed to come from decreasing 
overhead and one-third from cuts in weapons systems and force 
structure. For the 2012 budget, the military services and defense 
agencies have been asked to find $7 billion in savings. In addition 
President Obama has ordered $400 billion in national security spending 
cuts over 10 years as the administration identifies ways to reduce the 
Federal deficit. These impending cuts are in addition to weapon systems 
cuts from the past couple years amounting to more than $330 billion.
    Secretary Gates stated, ``. . . sustaining the current force 
structure and making needed investments in modernization will require 
annual real growth of 2 (percent) to 3 percent, which is 1 (percent) to 
2 percent above current top line budget projections,'' in a briefing at 
DOD in Aug. 2010.

Defense as a Factor of GDP
    Secretary Gates has warned that that each defense budget decision 
is ``zero sum,'' providing money for one program will take money away 
from another. A4AD encourages the Appropriations Subcommittee on 
Defense to scrutinize the recommended spending amount for defense. Each 
member association supports defense spending at 5 percent of Gross 
Domestic Product during times of war to cover procurement and prevent 
unnecessary end strength cuts.

A Changing Manpower Structure
    The 2010 QDR reduces the number of active Army brigade combat teams 
to 45 and Air Force tactical fighter wings to 17, while maintaining the 
202,100 Marine Corps active manpower level. The Navy's fiscal year 2011 
budget keeps the goal of a 313 ship battle fleet, but its 30 year 
shipbuilding plan includes 276 ship, thus not reaching the goal. As a 
result of these planned cuts, the Heritage Foundation projects there 
will be a 5 percent decrease in manpower over the next 5 years.
    A4AD supports a moratorium on further cuts including the National 
Guard and Title 10 Reserve. We further suggest that a Zero Based Review 
(ZBR) be performed to evaluate the current manning requirements. 
Additionally, as the active force is cut, these manpower and equipment 
assets should be transferred into the Reserve Components.

Maintaining a Surge Capability
    The Armed Forces need to provide critical surge capacity for 
homeland security, domestic and expeditionary support to national 
security and defense, and response to domestic disasters, both natural 
and man-made that goes beyond operational forces. A strategic surge 
construct includes manpower, airlift and air refueling, sealift 
inventory, logistics, and communications to provide a surge-to-demand 
operation. This requires funding for training, equipping and 
maintenance of a mission-ready strategic reserve composed of active and 
reserve units.

Dependence on Foreign Partnership
    Part of the U.S. military strategy is to rely on long-term 
alliances to augment U.S. forces. As stated in a DOD progress report, 
``Our strategy emphasizes the capacities of a broad spectrum of 
partners . . .. We must also seek to strengthen the resiliency of the 
international system . . . helping others to police themselves and 
their regions.'' The fiscal year 2012 budget request included $500 
million for fiscal year 2012, which helps build capabilities of key 
partners. Yet many allies are cutting their forces.
    The risk of basing a national security policy on foreign interests 
and good world citizenship is increasingly uncertain because their 
national objectives can differ from our own. Alliances should be viewed 
as a tool and a force multiplier, but not the foundation of National 
Security.

Seapower Dominance
    The United States, as a maritime Nation, is on the cusp of losing 
it dominance at sea. The U.S. Navy has been incrementally depreciating 
through reductions and ever-more aging assets. Now, there are plans to 
extend the service life of already 40-year old ships another 28 years 
through 2039. While service life extension programs may cost effective 
in the short term, continual repairs and downgraded readiness will 
prove to be more expensive than replacing an asset in the long term.
    The cost will not just be defense based, but will impact the 
national and world economy. The United States has maintained its 
presence and strength throughout the world, attributing greatly to 
reducing aggressive behavior such as dealing with piracy, regional 
disorder, drug trade, human trafficking and much more. According to 
MacKenzie Eaglen of Heritage Foundation, ``The U.S. Navy's global 
presence has added immeasurably to U.S. economic vitality and to the 
economies of America's friends and allies, not to mention those of its 
enemies.''
    A4AD is particularly concerned that the Navy is no longer as of 
2011 required to submit a full plan each year to Congress, but rather 
ties it to the QDR which is only updated once every 4 years, causing 
the Navy to be slow to respond to changing threats. Once the U.S. 
seapower capability is lost, it will be extremely difficult to regain a 
dominant position in the world seas.

                         UNFUNDED REQUIREMENTS

    The Unfunded Program Lists submitted by the military services to 
Congress have been reduced significantly since fiscal year 2009 and 
A4AD has concerns that these requests continue to be driven more by 
budgetary factors than risk assessment. Of particular concern is the 
Army who officially has no unfunded requirements, in spite of the fact 
that its equipment has been the most highly utilized in overseas 
contingency operations in Iraq and Afghanistan, leading to high wear 
and tear. A4AD is distressed that by limiting the unfunded lists, 
Congress is unable to make informed decisions on appropriating for 
defense.

Aviation Plans
    Although the first long-term aviation plan was submitted to 
Congress in fiscal year 2011 forecasting a 3 percent average annual 
real growth for aviation programs over the next decade, in the fiscal 
year 2012 report investment assumptions changed and now predict a zero 
real growth aviation budget after 2017. Regrettably the aviation plan 
did not consider rotary wing, tilt-rotor, or trainer aircraft.
Tactical Aircraft
    The Air Force has accelerated a plan to retire 250 fighter jets 
including 112 F-15s and 134 F-16s. Also the Air Force plans to ground 
18 F-16s in the USANG due to the fiscal year 2012 presidential budget 
request that didn't include funding for three F-16s for six States 
each.
    The Air Force-Navy-Marine Corps fighter inventory will decline 
steadily from 3,264 airframes in fiscal year 2011 to 2,883 in fiscal 
year 2018, at which point the air fleet is supposed to have a slow 
increase.
    Until new systems are acquired in sufficient quantities to replace 
legacy fleets, legacy systems must be sustained and kept operationally 
relevant. The risk of the older aircraft and their crews and support 
personnel being eliminated before the new aircraft are on line could 
result in a significant security shortfall.

Airlift
    Hundreds of thousands of hours have been flown, and millions of 
passengers and tons of cargo have been airlifted. Air Force and Naval 
airframes and air crews are being stressed by these lift missions. As 
the military continues to be more expeditionary it will require more 
airlift. Procurement needs to be accelerated and modernized, and 
mobility requirements need to be reported upon.
    While DOD has decided to shut down production of C-17s, existing C-
17s are being worn out at a higher rate than anticipated. Congress 
should independently examine actual airlift needs, and plan for C-17 
modernization, a possible follow-on procurement. Furthermore shutting 
down production of C-17s or any equipment causes great difficulty for 
reopening such lines and will cause unnecessary delays in the future.
    The Navy and Marine Corps need C-40A replacements for the C-9B 
aircraft; only nine C-40s have been ordered since 1997 to replace 29 C-
9Bs. The Navy requires Navy Unique Fleet Essential Airlift. The C-40A, 
a derivative of the 737-700C a Federal Aviation Administration (FAA) 
certified, while the aging C-9 fleet is not compliant with either 
future global navigation requirements or noise abatement standards that 
restrict flights into European airfields.

NGREA
    A4AD asks this committee to continue to provide appropriations for 
unfunded National Guard and Reserve Equipment Requirements. The 
National Guard's goal is to make at least half of Army and Air assets 
(personnel and equipment) available to the Governors and Adjutants 
General at any given time. To appropriate funds to Guard and Reserve 
equipment provides Reserve Chiefs with a flexibility of prioritizing 
funding.

                     UNFUNDED EQUIPMENT REQUIREMENTS

  [The services and lists are not in priority order. Amounts are total
  cost, not individual. If item is preceded by a number in parentheses
                      that is the quantity needed.]
------------------------------------------------------------------------
                                                             Amount
------------------------------------------------------------------------
Air Force Active:
    F-35 Joint Strike Fighter.........................           Unknown
    Aircraft Training Simulators......................           Unknown
    F-16 SLEP.........................................           Unknown
Air Force Reserve (USAFR):
    C-130--requirement of LAIRCOM and SLOS/BLOS            $73.3 million
     capability.......................................
    A-10/F-16--requirement of Day/Night Helmet Mounted      $9.8 million
     Integrated Targeting (HMIT) (PA, SP).............
    ACS--requirement of Grissom R-12 Refuelers........      $0.9 million
    HC-130--requirement of Integrated EW suite (ALQ-          $6 million
     213) with VECTS..................................
    C-130--requirement of SAFIRE Look Out Capability       $19.3 million
     and MASS Spray System............................
Air Force Reserve (USAFR) Submitted MILCON
 Requirements:
    Airfield Control Tower/Base Ops, March, CA........    $16.39 million
    RED HORSE Readiness and Training Facility,            $9.593 million
     Charleston, SC...................................
    Unspecified Minor Construction--Reserve, Various      $5.434 million
     Locations........................................
    Planning and Design--Reserve, Various Locations...      $2.2 million
Air Force Reserve (USAFR) Significant Major Item
 Shortages Submitted:
    (21) C-130 Large Aircraft Infrared Countermeasures       $63 million
     (LAIRCOM)........................................
    (55) C-130 SLOS/BLOS Capability...................     $20.7 million
    (148) A-10/F-16 Mounted Cueing System (HMCS)......      $4.3 million
    (4) Grissom R-12 Refuelers........................      $0.9 million
    (5) HC-130 Integrated EW suite (ALQ-213) with             $3 million
     VECTS............................................
Air National Guard (USANG):
    F-15 AESA--Continues to be a high priority for               Unknown
     adds because it is too expensive to spend NGREA
     on. Some could be a purchased if NGREA is
     significantly increased..........................
    A-10 and F-16 HMIT................................           Unknown
    KC-135 IRCM.......................................           Unknown
    C-130 IRCM........................................           Unknown
    Guardian Angel (GA) Recovery Vehicles. This is               Unknown
     also called ``PJ recovery vehicles'', but GA is
     the weapon system encompassing PJs, Special
     Tactics Squadrons, and Combat Controllers and
     they all need recovery vehicles..................
Air National Guard (USANG) Significant Major Item
 Shortages Submitted:
    (322) A-10/F-16 Helmet Mounted Integrated             $38.64 million
     Targeting System.................................
    (77) Large Aircraft Infrared Countermeasures          $431.2 million
     (LAIRCOM) (C-140, C-17, C-5).....................
    (68,272) Security Force Mobility Bag Upgrades,        $86.15 million
     Personal Protective Equipment (PPE), and Wea-
     pons.............................................
    C-130 Loadmaster Lookout Windows and Crashworthy        $164 million
     Loadmaster Seats.................................
    (30) F-15 Active Electronically Scanned Array         $261.6 million
     (AESA) Radar.....................................
Army Active:
    Ground Combat Vehicle.............................           Unknown
    Mobile, Secure Wireless Network--Brigade Combat              Unknown
     Team Modernization (BCTM)........................
    HMWWV Modernization...............................           Unknown
    CH-47 Chinook Helicopter..........................           Unknown
    AH-64 Apache Longbow Block III upgrade............           Unknown
Army National Guard (USARNG) Significant Major Item
 Shortages Submitted:
    (30,442) Command Posts--Tactical Operations Center    $1.166 million
     (TOC) & Standardized Integrated Command Post
     System (SICPS)...................................
    (5,428) Family of Medium Tactical Wheeled Vehicles    $1.519 million
    (11) Shadow Tactical Unmanned Aircraft Systems....      $297 million
    (3,614) General Engineering Equipment--for            $366.7 million
     homeland response missions.......................
    (290) Chemical/Biological protective Shelter......    $208.8 million
Army National Guard (USARNG) Top Equipment MOD and
 Capability Shortfall List:
    Army Battle Command System (ABCS).................           Unknown
    Air & Missile Defense Systems (Avenger                       Unknown
     Modernization)...................................
    ATLAS (All Terrain Lifter-Army System I and II)...           Unknown
    Aviation Ground Support Equipment.................           Unknown
    Aviation Systems (CH-47F, UH60 A-A-L Mod, UH-60M,            Unknown
     AH64 MOD, LUH-72 MEP)............................
Army Reserve (USAR) Significant Major Item Shortages
 Submitted:
    (34) Command Post System and Integration (SICPS)..      $6.8 million
    (4,860) Medium Tactical Vehicles..................    $1.701 billion
    (63) HMMWV Ambulance..............................    $25.01 million
    (4,541) Light Medium Tactical Truck Cargo.........    $1.589 billion
    (98) Heavy Scraper--for Horizontal Construction       $30.58 million
     mission..........................................
Marine Corps Reserve (USMCR) Significant Major Item
 Shortages Submitted:
    (5) Light Armored Vehicle (LAV), 25 mm (LAV-25A2).       $16 million
    (5) LAV, Maint/Recovery (LAV-R)...................       $11 million
    (15) LAV, Logistics (LAV-L).......................       $30 million
    (3) LAV, Mortar (LAV-M)...........................      $7.5 million
    (14) LAV, Anti-tank (LAV-AT)......................     $44.8 million
Navy and Marine Corps Active \1\:
    F-35 Joint Strike Fighter.........................           Unknown
    Attack Submarines.................................           Unknown
    LPD-17............................................           Unknown
Navy Reserve (USNR) Significant Major Item Shortages
 Submitted:
    (5) C-40A.........................................    $408.5 million
    Naval Construction Force (NCF) Tactical Vehicles         $38 million
     and Support Equipment Table of Allowances (TOA)..
    Navy Expeditionary Logistics Support Group               $75 million
     (NAVELSG) TOA Equipment..........................
    Explosive Ordnance Disposal (EOD) TOA Equipment...    $58.89 million
    Maritime Expeditionary Security Force (MESF) TOA        $119 million
     Equipment........................................
------------------------------------------------------------------------
\1\ The Navy's fleet is the smallest it has been in almost 100 years.
  While the service has made plans to expand in the coming years; to 324
  ships by 2021; funding doesn't support this growth. Shipbuilding costs
  continue on an exponential path and at the same time domestic
  shipbuilding yards are beginning to close, putting a larger fleet at
  risk; the ship building budget needs to be increased.

Reserve Components (RCs)
    According to the National Guard and Reserve Equipment Report 
(NGRER) for fiscal year 2012 the aggregate equipment shortage for all 
of the RCs is about $54.2 billion as compared to $45 billion from last 
year. Common challenges for the RCs are ensuring that equipment is 
available for pre-mobilization training, transparency of equipment 
procurement and distribution, and maintenance.

                               CONCLUSION

    A4AD is a working group of military and veteran associations 
looking beyond personnel issues to the broader issues of National 
Defense. This testimony is an overview, and expanded data on 
information within this document can be provided upon request.
    Thank you for your ongoing support of the Nation, the Armed 
Services, and the fine young men and women who defend our country. 
Please contact us with any questions.

    Chairman Inouye. Thank you very much, Captain Puzon.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, I want to join you in 
welcoming and thanking this panel of witnesses for being here 
today. We have a copy of the testimony and background 
information that our staff has provided us. It's a shame that 
we have such a pressurized situation that we're facing here 
with many commitments all during the same day and at the same 
time we're supposed to be here. I was just looking at my 
schedule to see where I was supposed to be right about now and 
it was somewhere else.
    But that's something that you shouldn't have to suffer 
from, and that's why I wanted to simply say, because we are not 
spending 2 or 3 hours, which we probably ought to do, with this 
one panel because of the pressure of so many other activities 
and issues, we are forced to make decisions that are 
troublesome to us.
    So, having said that, I'm going to yield to my good friend 
from Alabama for specific questions that he may have of this 
witness. But thank you very much for taking time to provide us 
with your testimony.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    Thank you for your testimony and also your complete written 
testimony. I think one of your strong statements is in the 
record. You say members of this group--that's your group--``are 
concerned that the U.S. defense policy is sacrificing future 
security for near-term readiness.'' That is a concern of all of 
us. We've got to balance that, because if we have near-term 
readiness where are we going to be in 10 years, 5 years, 
because we've been on the cutting edge a long time, and it's 
served us well and we cannot give this up.
    The other point that you make in your written testimony, 
the Chinese navy is the fastest growing navy in the world 
today. I think we realize this on this Defense Appropriation 
Committee, and we've got to consider today, but we've also got 
to consider tomorrow, because if we're not prepared for 
tomorrow, as you pointed out, we've not served our country 
well, have we?
    Captain Puzon. That's correct, sir. Thank you.
    Senator Shelby. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Dr. Jenkins.

STATEMENT OF DONALD H. JENKINS, M.D., VICE CHAIRMAN, 
            NATIONAL TRAUMA INSTITUTE
    Dr. Jenkins. Mr. Chairman, Vice Chairman Cochran, Senator 
Shelby: Thank you for the opportunity to testify today on 
behalf of the National Trauma Institute, or NTI, to urge the 
subcommittee to invest a greater amount of Department of 
Defense medical research funds in the primary conditions which 
kill our soldiers.
    According to military medical officials, non-compressible 
hemorrhage is the leading cause of death among combatants whose 
deaths are considered potentially survivable. NTI believes an 
accelerated program of research into non-compressible 
hemorrhage will result in the first truly novel advances in 
treating this difficult problem, will save the lives of 
soldiers wounded in combat, and will have a tremendous impact 
on civilian casualties and costs as well.
    I'm currently the Chief of Trauma for the Mayo Clinic and 
serve on the Defense Health Board. Prior to retiring from the 
United States Air Force, I was Chairman of General Surgery and 
Chief of Trauma at Wilford Hall Air Force Medical Center, the 
Air Force flagship medical facility. I'm here today in my 
capacity as Vice Chairman of the nonprofit National Trauma 
Institute, which was formed in 2006 by leaders of America's 
trauma organizations in response to frustration over lack of 
trauma research funding.
    NTI advocates for trauma research and is a national 
coordinating center for trauma research and funding. Military 
officials estimate that 19 percent of combat deaths are 
potentially survivable. To put that in context of our current 
war operations, 1,100 warriors wounded in the current wars 
might have survived, but didn't because treatment strategies 
were lacking.
    Over 84 percent of those deaths were due to hemorrhage and 
about 600 potentially survivable deaths resulted from 
hemorrhage in regions of the body, such as the neck, chest, 
abdomen, groin, and back, that couldn't be treated by 
tourniquets or compression. New tourniquets and hemostatic 
bandages have had major impact on the decline in trauma combat 
deaths due to extremity hemorrhage, but compression is rarely 
effective for penetrating wounds to the torso, where major 
vessels can be damaged, resulting in massive hemorrhage. At 
present such wounds are normally only treatable through surgery 
and typically such patients do not survive to reach the 
operating table.
    Current combat casualty care guidelines for medics do not 
include strategies to stop bleeding from non-compressible 
hemorrhage, because there are none. There is not even a method 
to detect whether a soldier is bleeding internally or how much 
blood has been lost. It should be a priority to develop simple, 
rapid, and field-expedient techniques which can be used by 
medics on the battlefield or first responders in the civilian 
setting to detect and treat non-compressible hemorrhage.
    Turning to that civilian context, trauma is responsible for 
over 60 percent of deaths of Americans under the age of 44. 
That's more than all other causes of death combined in that age 
group. It's responsible for the deaths of nearly 180,000 
Americans and nearly 30 million injuries every year. And it's 
the second most expensive public health problem facing the 
United States. Hemorrhage is responsible for nearly 40 percent 
of deaths following traumatic injury in the civilian setting.
    Advances in research can be applied to both military and 
civilian casualties. It has been proven repeatedly that medical 
research saves lives. In 1950 a diagnosis of leukemia was a 
death sentence. Research led to chemotherapy and treatments 
such as bone marrow transplant, such that today 90 percent of 
those patients survive. Imagine even a 5 percent decrease in 
trauma-related death, injury, and economic burden. That would 
save the United States $35 billion a year, prevent 1.5 million 
injuries, and save nearly 9,000 American lives every year.
    NTI recommends the subcommittee fund research into the 
major cause of preventable death of our military and set aside 
at least $15 million for peer-reviewed research into non-
compressible hemorrhage for the fiscal year 2012 DOD 
appropriations bill.
    Mr. Chairman, Senator Cochran, Senator Shelby, thank you 
for the opportunity to present the views of the National Trauma 
Institute.
    [The statement follows:]

              Prepared Statement of Dr. Donald H. Jenkins

    Mr. Chairman, Vice Chairman Cochran and Members of the 
Subcommittee: Thank you for the opportunity to testify today to urge 
the subcommittee to invest a greater amount of DOD medical research 
funds in the primary conditions which kill our soldiers. According to 
military medical officials, non-compressible hemorrhage is the leading 
cause of death among combatants whose deaths are considered 
``potentially survivable.'' The National Trauma Institute (NTI) 
believes an accelerated program of research into non-compressible 
hemorrhage will result in the first truly novel advances in treating 
this difficult problem, will save the lives of soldiers wounded in 
combat, and will have tremendous impact on civilian casualties and 
costs.
    I am currently the Chief of Trauma for the Mayo Clinic and serve on 
the Defense Health Board. Prior to retiring from the Air Force in 2008, 
I was Director of the Joint Theater Trauma System, Chair of General 
Surgery and Chief of Trauma Services at Wilford Hall Medical Center, 
the Air Force's flagship medical facility. During my Air Force career, 
I also served as principal advisor to the Air Force Surgeon General on 
all surgery and trauma-related issues for first-strike deployable 
teams.
    I am here today in my capacity as vice chairman of the nonprofit 
National Trauma Institute which was formed in 2006 by leaders of 
America's trauma organizations in response to frustration over lack of 
funding of trauma research. With the support and participation of the 
national trauma community, NTI advocates and manages funding for trauma 
research and is a national coordinating center for trauma research 
funding. Since September 2009, NTI has issued two national calls for 
proposals and has received a total of 177 pre-proposals from 32 States 
and the District of Columbia. After rigorous peer-review, the 
organization awarded $3.9 million to 16 proposals--seven single-center 
studies and nine multi-center studies involving an additional 32 
centers. Studies are ongoing, and NTI expects the first research 
outcomes within 6 months. However, $3.9 million is a drop in the 
bucket, and these studies will barely begin to build the body of 
knowledge necessary for improved treatments and outcomes in the field 
of trauma in the United States.

                      NON COMPRESSIBLE HEMORRHAGE

    According to military documents and officials, the major cause of 
death from combat wounds is hemorrhage. Nineteen percent of combat 
deaths are judged to be potentially survivable \1\. In other words, 
1,100 warriors wounded in Iraq or Afghanistan might have survived to 
come home to their loved ones, but didn't because treatment strategies 
were lacking. Over 900 (84 percent) deaths were due to hemorrhage, and 
66 percent of these, about 600 potentially survivable deaths, resulted 
from hemorrhage in regions of the body such as the neck, chest, 
abdomen, groin, and back that couldn't be treated by a tourniquet or 
compression \1\.
---------------------------------------------------------------------------
    \1\ Kelly, J.F., Ritenour, A.E., McLaughlin, D.F., Bagg, K.A., 
Apodaca, A.N., Mallak, C.T., Pearse, L., Lawnick, M.M., Champion, H.R., 
Wade, C.E., and Holcomb, J.B. (2008) Injury severity and causes of 
death from Operation Iraqi Freedom and Operation Enduring Freedom: 
2003-2004 versus 2006. J Trauma 64, S21-26.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Extremity wounds are amenable to compression to stop bleeding, and 
new tourniquets and hemostatic bandages have had a major impact on the 
decline in combat deaths due to extremity hemorrhage. But compression 
is rarely effective for penetrating wounds to the torso and major 
vessels can be damaged resulting in massive hemorrhage. At present, 
such wounds are normally only treatable through surgical intervention 
and typically such patients do not survive to reach the operating room.
    Currently, there is no active intervention for noncompressible 
hemorrhage available to military medics, who along with civilian 
responders have only the tools their predecessors had in the early 20th 
century. There is not even a method to detect whether the wounded 
warrior is bleeding internally, and if so, how much blood has been 
lost. The current Tactical Combat Casualty Care guidelines for medics 
and corpsmen do not include strategies to stem bleeding from non-
compressible hemorrhage because no solutions are available \2\. NTI 
hopes to decrease the mortality of severely injured patients suffering 
from torso hemorrhage. This can only be accomplished through research 
into the development of simple, rapid and field-expedient techniques 
which can be used by medics on the battlefield or first responders in a 
civilian context to detect and treat non-compressible hemorrhage. 
Examples of current NTI research in non-compressible hemorrhage 
include:
---------------------------------------------------------------------------
    \2\ (2009) Tactical Combat Casualty Care Guidelines. http://
www.usaisr.amedd.army.mil/tccc/TCCC%20Guidelines%20091104.pdf. Accessed 
June 2, 2011.
---------------------------------------------------------------------------
  --The use of ultrasonography to measure the diameter of the vena cava 
        to determine whether this will give an accurate indication of 
        low blood volume.
  --An observational study to determine the incidence and prevalence of 
        clotting abnormalities in severely injured patients and to 
        study the complex biology of proteins to better understand, 
        predict, diagnose and treat bleeding after trauma.
  --Supplementation of hemorrhagic shock patients with vasopressin, a 
        hormone needed to support high blood pressure. Vasopressin at 
        high doses has been shown to improve blood pressure, decrease 
        blood loss and improve survival in animal models with lethal 
        blood loss. This study will investigate the use of vasopressin 
        in trauma patients.
    Another challenge in hemorrhage is resuscitation--the restoration 
of blood volume and pressure. Traditional resuscitation includes large 
volumes of intravenous fluids followed by blood and finally plasma. 
However, now this large intravenous fluid load is thought to worsen the 
trauma patient's coagulopathy (blood clotting problems), increasing 
bleeding. There is strong retrospective evidence that for patients 
requiring massive transfusion, a higher proportion of plasma and 
platelets, when compared to red cells, results in improved survival. 
Based on a 2004 research study \3\, the current Joint Theater Trauma 
Clinical Practice Guideline for Forward Surgical Teams and Combat 
Support Hospitals advocates a plasma, platelet, and red cell 
resuscitation regime in lieu of the standard intravenous fluids. 
Currently, there is no blood substitute available for in-theater use. 
The Army Medical Department/USA Institute of Surgical Research is 
working on a freeze dried plasma solution; however this product has not 
yet received FDA approval. Remarkably, current treatments used by 
military medics for restoration of blood volume are very similar to 
those originally used in 1831 when saline was first given as an 
intravenous fluid to cholera patients \4\.
---------------------------------------------------------------------------
    \3\ Holcomb, J.B., Jenkins, D., Rhee, P., Johannigman, J., Mahoney, 
P., Mehta, S., Cox, E.D., Gehrke, M.J., Beilman, G.J., Schreiber, M., 
Flaherty, S.F., Grathwohl, K.W., Spinella, P.C., Perkins, J.G., 
Beekley, A.C., McMullin, N.R., Park, M.S., Gonzalez, E.A., Wade, C.E., 
Dubick, M.A., Schwab, C.W., Moore, F.A., Champion, H.R., Hoyt, D.B., 
and Hess, J.R. (2007) Damage Control Resuscitation: Directly Addressing 
the Early Coagulopathy of Trauma. The Journal of Trauma 62, 307-310.
    \4\ Blackborne, L.H.C. (2011) 1831. The Army Department Medical 
Journal April-June 2011, 6-10.
---------------------------------------------------------------------------
              IMPACT OF TRAUMA ON UNITED STATES CIVILIANS

    Traumatic injury is the cause of death of nearly every soldier in 
combat. On the civilian front, trauma/injury is responsible for over 61 
percent of the deaths of Americans between the ages of 1 and 44 each 
year \5\. That's more than all forms of cancer, heart disease, HIV, 
liver disease, stroke and diabetes combined. An American dies every 3 
minutes due to trauma. That's 179,000 deaths in addition to 29.6 
million injuries every year \5\.
---------------------------------------------------------------------------
    \5\ CDC (2006) Centers for Disease Control/WISQARS. http://
webappa.cdc.gov/sasweb/ncipc/mortrate10_sy.html. Accessed March 16, 
2011.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Trauma is the second most expensive public health problem facing 
the United States. Data from the Agency for Healthcare Research and 
Quality (AHRQ) on the 10 most expensive health conditions puts the 
annual medical costs from trauma at $72 billion, second only to heart 
conditions at $76 billion, and ahead of cancer and all other diseases 
\6\. The National Safety Council estimates the true economic burden to 
be more than $690 billion per year, since trauma has an ongoing cost to 
society due to disability, and is the leading cause of years of 
productive life lost \7\.
---------------------------------------------------------------------------
    \6\ AHRQ (2008) Big Money: Cost of 10 Most Expensive Health 
Conditions Near $500 Billion. Agency for Healthcare Research and 
Quality http://www.ahrq.gov/news/nn/nn012308.htm. Accessed June 2, 
2011.
    \7\ NSC (2011) Summary from Injury Facts, 2011 Edition. National 
Safety Council http://www.nsc.org/news_resources/
injury_and_death_statistics/Documents/Summary%202011.pdf. Accessed 
March 16, 2011.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Advances in research can be applied to both military and civilian 
casualties. Many of the problems associated with hemorrhage of all 
kinds are potentially solvable and are transferable between military 
and civilian trauma care. The funding recommended by NTI could have a 
dramatic impact on civilian mortality in the U.S. Hemorrhage is 
responsible for 30 percent to 40 percent of deaths following a 
traumatic injury to civilians \8\.
---------------------------------------------------------------------------
    \8\ Holcomb, J.B. (2010) Optimal Use of Blood Products in Severely 
Injured Trauma Patients. Hematology, 465-469.
---------------------------------------------------------------------------
                 WHY TRAUMA RESEARCH IS SO CHALLENGING

    Trauma research is challenging for many reasons. Injury can be 
severe, and diagnosis of extent and location of injury can be 
difficult. Sometimes the patient is unconscious or unable to 
communicate, unable to give consent. Patients are often unaccompanied 
by next-of-kin to assist in decisionmaking. Enrolling patients in 
trauma studies sometimes requires community consent and involvement 
because treatments may need to be started en route to the hospital or 
military treatment facility. Placebos are not usually an option, 
because real treatment must be given to injured patients.
    In trauma, there is no time to try different treatments, consider 
alternatives or have multiple appointments to discuss care. We must arm 
medical personnel with the tools they need to make the right decisions 
quickly. Lives can be saved. Focused clinical research will provide 
knowledge, tools and answers.
    Often a single Level 1 Trauma Center can't recruit enough patients 
with specific enrollment criteria to conduct a statistically 
significant study that provides enough evidence to reach a conclusion 
that would alter clinical practice. Therefore large, multi-center 
studies are required, and these necessitate substantial funding. Due to 
limited funding, studies have often been narrow in size, sporadic, and/
or conducted on the basis of a physician's personal interest, rather 
than a cohesive approach borne from a national trauma research agenda.
    The majority of the funding added by Congress in fiscal year 2011 
did not go to trauma-related research \9\. The Congressionally Directed 
Medical Research Program did fund some research into areas that cause a 
high degree of disability in wounded warriors returning home, such as 
orthopaedic, eye, ear, craniofacial, and traumatic brain injury. NTI 
urges the subcommittee to equally fund the major cause of preventable 
death of our soldiers, sailors, airmen and marines.
---------------------------------------------------------------------------
    \9\ (2011) H.R.1473.
---------------------------------------------------------------------------
    For fiscal year 2011, Congress added over $700 million to the 
President's budget request for DOD medical research funding. 
Recognizing the need to reduce overall Federal spending, this sum is 
significantly less than Congress provided in fiscal year 2009 and 
fiscal year 2010 when over $1 billion was added each year.
    The National Trauma Institute believes that whatever additional sum 
Congress determines can be allocated to DOD medical research for fiscal 
year 2012 should be directed more specifically to research of the 
traumatic medical conditions which most severely affect our soldiers.

                             RESEARCH WORKS

    It has been proven repeatedly that medical research saves lives. 
For instance, in 1950 a diagnosis of leukemia was tantamount to a death 
sentence. Research led to chemotherapy treatments in the 1950s and bone 
marrow transplantations in the 1970s. A substantial investment in 
research has led to safer and more effective treatments, and today 
there is a 90 percent survival rate for leukemia \10\. Another example 
is breast cancer. Thirty years ago only 74 percent of women who were 
diagnosed lived for another 5 years. Due to research into early 
detection, chemotherapy and pharmaceuticals, the 10-year survival rate 
for breast cancer is now 98 percent \11\.
---------------------------------------------------------------------------
    \10\ (2011) Research Successes. Leukemia and Lymphoma Society 
http://www.lls.org/#/aboutlls/researchsuccesses/. Accessed June 2, 
2011.
    \11\ (2011) Our Work. Susan G. Komen For the Cure http://
ww5.komen.org/AboutUs/OurWork.html. Accessed June 2, 2011.
---------------------------------------------------------------------------
    Fifty years of dedicated research into proper diagnosis and 
treatment of leukemia has led to an 80 percent reduction in the death 
rate. Imagine even a 5 percent reduction in trauma deaths, injuries and 
economic burden--this would save the United States $35 billion, prevent 
1.5 million injuries, and save almost 9,000 lives every year.
    Recommendation.--Hence NTI recommends that Congress set aside a 
major portion of DOD medical research funding--at least $15 million--in 
the Defense Health Program account for a peer-reviewed research program 
to spur better technology to treat non-compressible hemorrhage.

    Chairman Inouye. I thank you very much, Dr. Jenkins.
    Senator Cochran. I may have missed it, but what 
specifically would you recommend that we do in terms of 
procedure or education requirements that would help address the 
problem that you've described in your testimony?
    Dr. Jenkins. Yes, sir. Hemorrhage from the extremities has 
been treated with a number of devices that have been developed, 
invented specifically for use in combat, that have now been 
translated over into the civilian setting, so that EMS agencies 
carry tourniquets and hemostatic bandages. There is no such 
device if your liver or spleen is damaged in a traumatic event. 
The soldiers on the battlefield when injured, cared for by 
medics, the medic has no tools to treat that non-compressible 
hemorrhage except to get him to surgery as soon as possible. 
These soldiers have died awaiting the opportunity to get to 
surgery.
    We need treatments that we can render to those soldiers on 
the battlefield, to those citizens in the field, by EMS 
agencies, so that we can stop that hemorrhage and stop that 
death.
    Senator Cochran. Thank you very much.
    Chairman Inouye. Thank you.
    Senator Shelby.
    Senator Shelby. Mr. Chairman, just a quick observation and 
question. We've learned a lot and we've also, with helicopters 
and medical treatment, which have changed a lot. We've learned 
a lot since Vietnam, certainly since Korea, since the Second 
World War, and so forth. What is the basic survival rate in 
combat, heavy combat, now compared to, say, Vietnam, Korea? Do 
you have some statistics on that, because I know from what I 
have observed at Walter Reed and Bethesda and talking to a lot 
of veterans they probably wouldn't have survived, a lot of 
them, even in Vietnam, in the Second World War, Korea, and so 
forth.
    You're doing a lot better that way, but also they're facing 
great challenges. The sooner you get to them and the sooner 
they get medical help and sometimes get to the hospital, the 
better.
    Have you got any comments on that? Am I right, on the right 
track here?
    Dr. Jenkins. You are on the right track, sir. The Joint 
Trauma Registry keeps very specific data on this and keeps a 
rolling number that they look at. We look specifically at what 
one would call the case fatality rate, if injured the risk of 
dying.
    Senator Shelby. Can you furnish this to the subcommittee? 
You may have, but as I said earlier, I serve on another 
committee, subcommittee, dealing with the NIH and everything, 
and we're all interested in all of it. Right now we're focused 
on the military. But trauma is everywhere and what goes on in 
the military translates to others too, does it not?
    Dr. Jenkins. Yes, sir. Survival is better because of 
advances in combat medicine, because of better body armor. 
We're at the point now where we have--we're looking 
specifically at casualties who should have survived had we only 
better tools and techniques to be able to get them to live 
through it.
    Senator Shelby. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you, Dr. Jenkins.
    Rear Admiral Coane.

STATEMENT OF REAR ADMIRAL CASEY COANE, UNITED STATES 
            NAVY (RETIRED), EXECUTIVE DIRECTOR, 
            ASSOCIATION FOR THE UNITED STATES NAVY
    Admiral Coane. Mr. Chairman, Senator Cochran, Senator 
Shelby: The Association for the United States Navy is once 
again very pleased to have this opportunity to testify. Our 
association focuses its legislative activity on both personnel 
issues and the equipment necessary for the Navy and Navy 
Reserve to accomplish its missions. It is only through the 
attention of Congress and SUBcommittees such as yours that we 
can be sure that their needs are met.
    We are grateful for this annual opportunity and, in a 
departure from many of my colleagues earlier this morning, I'm 
going to speak about equipping the Navy. The ships and aircraft 
of which I am speaking are vital to this war effort and 
directly support the thousands of Navy and other services' men 
and women serving on the ground in Iraq, Afghanistan, or other 
places ashore in operations worldwide, 53,000 sailors deployed 
today, including 5,300 mobilized reservists.
    I have a few general statements and then I will address 
specific programs. We are pleased with the increased emphasis 
that the House and Senate have shown toward Navy shipbuilding 
in order to fulfil the Nation's maritime strategy. To meet 
those requirements, the Navy needs your support for the current 
shipbuilding plans. The Navy is behind on the 313-ship plan due 
to funding shortages and the only means to achieve a realistic 
plan is through this subcommittee's efforts.
    As the current efforts in Iraq and Afghanistan wind down, 
the need for our Navy to protect our sea lines of 
communication, through which 90 percent of our commerce flows, 
will, as always, remain an issue of national security.
    Regarding the Navy Reserve, the irreversible transition 
from a strategic reserve to an operational reserve with 
predictable and periodic mobilization increases the need for 
these Reserve components to be properly resourced for 
equipment. The recent comprehensive review on Reserve component 
report stresses the need to ensure that these components have 
both the equipment necessary to do the job and also the 
equipment necessary to train for the mission.
    The Navy's 30-year aircraft program, the Naval Aviation 
Plan 2030, is well laid out and moving forward, but it still 
has significant challenges ahead in the areas of tactical 
fighters and logistics for out-CONUS operations. Aircraft 
programs of great concern are the C-40 replacement for the C-9s 
and the KC-130J tactical airlifters to replace the C-130s. Both 
of these aircraft are extensively used for intra-theater 
operations for Iraq, Afghanistan, and support Navy fleet 
movements worldwide, including disaster relief operations.
    The issue is not just newer aircraft. The C-40As are Navy-
unique fleet essential airlift, not VIP transport. The issue is 
that the current C-9 aircraft and C-20Gs have turned the 
maintenance expense curve to the extent that prudent business 
practices dictate replacement now. These aircraft in Hawaii, 
Fort Worth, and Maryland are scheduled to be decommissioned in 
fiscal year 2012 to 2014.
    The Navy needs five to six more C-40s to finish the program 
and it needs some of them this year. Anything that this 
subcommittee could do to fund and accelerate that program, 
perhaps by utilization of the National Guard and Reserve 
equipment accounts, would be most beneficial to the Navy and 
the Navy Reserve.
    The 30-year plan has the requirement for the replacement of 
the C-130Ts with the KC-130J aircraft. Currently this essential 
tactical intra-theater airlift is operating five aircraft short 
of requirement. Each year that the new aircraft is delayed will 
force the Navy to spend more money to upgrade worn-out aircraft 
to meet the new worldwide aviation equipment standards. We urge 
the committee to bring the KC-130J forward in the FYDP or by 
adding to the NGRE account.
    The P-8 aircraft is an on-time, on-budget program to 
replace the P-3 aircraft, the backbone of the Navy's 
reconnaissance effort in theater, as well as the Navy's current 
anti-submarine and anti-shipping combat aircraft, as 
demonstrated recently in Libyan operations. Unfortunately, P-8 
procurement was planned so far to the right that many, many P-
3s are already grounded with broken wings. Anything that this 
subcommittee could do to accelerate that program, perhaps again 
by use of the NGRE accounts, would be most beneficial.
    Again, the Association of the United States Navy thanks the 
subcommittee for their tireless efforts on behalf of the Navy 
and for providing this opportunity to be heard today.
    [The statement follows:]

             Prepared Statement of Rear Admiral Casey Coane

               THE ASSOCIATION OF THE UNITED STATES NAVY

    The Association of the United States Navy (AUSN) recently changed 
its name as of May 19, 2009. The association, formerly known as the 
Naval Reserve Association, traces its roots back to 1919 and is devoted 
solely to service to the Nation, Navy, the Navy Reserve and Navy 
Reserve officers and enlisted. It is the premier national education and 
professional organization for Active Duty Navy, Navy Reserve personnel, 
Veterans of the Navy, families of the Navy, and the Association Voice 
of the Navy and Navy Reserve.
    Full membership is offered to all members of the U.S. Navy and 
Naval Reserve. Association members come from all ranks and components.
    The Association has active duty, reserve, and veterans from all 50 
States, U.S. Territories, Europe, and Asia. Forty-five percent of AUSN 
membership is active reservists, active duty, while the remaining 55 
percent are made up of retirees, veterans, and involved DOD civilians. 
The National Headquarters is located at 1619 King Street Alexandria, 
Virginia. 703-548-5800.
    Mister Chairman and distinguished members of the Committee, the 
Association of the United States Navy is very grateful to have the 
opportunity to testify.
    Our transitioned VSO-MSO association works diligently to educate 
Congress, our members, and the public on Navy equipment, force 
structure, policy issues, personnel and family issues and Navy 
veterans.
    I thank this Committee for the ongoing stewardship on the important 
issues of national defense and, especially, the reconstitution and 
support of the Navy during wartime. At a time of war, non-partisan 
leadership sets the example.
    Your unwavering support for our deployed Service Members in Iraq 
and Afghanistan (of which over 14,000 Sailors are deployed at Sea in 
the AOR and over 10,000 are on the ground--Active and Reserve) and for 
the world-wide fight against terrorism is of crucial importance. 
Today's Sailors watch Congressional actions closely. AUSN would like to 
highlight some areas of emphasis.
    As a Nation, we need to supply our service members with the 
critical equipment and support needed for individual training, unit 
training and combat as well as humanitarian and peacekeeping 
operations. Additionally, we must never forget the Navy families, 
reserve members and the employers of these unselfish volunteers--Active 
and Reserve.
    In recent years, the Maritime Strategy has been highlighted, 
debated and disputed. We feel this is a time where the Total Navy force 
needs to be stabilized, strengthened, and be reconstituted--because of 
the consistent, constant, and increasing National Security crisis in a 
dangerous world--
  --Piracy is on the rise in many areas of the world, and especially in 
        the 5th Fleet AOR;
  --The flow of commerce still remains a top priority for our economy;
  --Naval engagement and support on the ground, in the air, and on the 
        seas for OIF and OEF has not decreased;
  --Ever increasing Middle East instability;
  --Ballistic missile threats (N Korea-Iran) and the Navy requirement 
        to be the front line of defense for missile defense threat;
  --U.S. Navy response to natural disasters; tsunami, Haiti, Chile, and 
        possible man made disasters (oil spill support);
  --Humanitarian assistance in the Philippines, Indonesia, and American 
        Samoa; and
  --Ever increasing and changing Arctic issues.
    In addition to equipment to accomplish assigned missions, the AUSN 
believes that the administration and Congress must make it a high 
priority to maintain, if not increase, but at least stabilize the end 
strengths of already overworked, and perhaps overstretched, military 
forces. This includes the Active Navy and the Navy Reserve.
  --Reductions in manpower are generally resource driven within the 
        Service, not because people are not needed, and the reductions 
        of their benefits are resource driven.
    Our current maritime history and strategy--requires that our Nation 
must achieve the 313+ Navy Ships, not decrease them, and there should 
be a balance between personnel end-strengths and equipment.
    As proven in recent events (Libya, Piracy, Osama Bin Laden, OCO 
operations) Naval Special Operations, U.S. Carriers, submarines, and 
Naval Aviation are more relevant than ever--as proven by constant 
actions in Iraq and Afghanistan and ongoing operations in OIF-OEF and 
throughout Southwest Asia. Additionally--Navy weapon systems and 
personnel play a critical role in Natural disasters around the world! 
Therefore, it is not a time--to cut back. Our adversaries are only 
waiting for the time for us to cut back or to stall. China is 
developing a peer Chinese Navy.
    We must fund the Navy for proper shipbuilding and aviation programs 
which the House this year authorized funds to accomplish.
    As you know, neither the Navy nor the Navy Reserve has ever been a 
garrisoned force--but, a deployed force. Nothing has changed in recent 
contingency operations or wars, except that the Navy's forces needs 
equipment as much as anyone. We have worn out current equipment and we 
need the manpower and infrastructure to ensure that current and future 
equipment stays ready.
    We recognize that there are many issues and priorities that need to 
be addressed by this Committee and this Congress. The Association of 
the United States Navy supports the Navy's fiscal year 2012 budget 
submission and the past years Unfunded Programs List provided by the 
Chief of Naval Operations that addressed an increased shipbuilding and 
increase aircraft procurement to relieve the documented shortages and 
maintenance requirements.
    Overwhelmingly, we have heard Service Chiefs, Reserve Chiefs and 
Senior Enlisted Advisors discuss the need and requirement for more 
equipment and unit equipment for training in order to be ready as well 
as combat equipment in the field. Navy needs to have equipment and unit 
cohesion to keep personnel trained. This means--Navy equipment and Navy 
Reserve equipment with units.

Equipment Ownership
    Issue: Sharing of equipment has been done in the past. However, 
nothing could be more of a personnel readiness issue and is ill 
advised. This issue needs to be addressed if the current National 
Security Strategy is to succeed.
    Position: The overwhelming majority of Navy and Navy Reserve 
members join to have hands-on experience on equipment. The training and 
personnel readiness of members depends on constant hands-on equipment 
exposure. History shows, this can only be accomplished through 
appropriate equipment, since the training cycles are rarely if ever--
synchronized with the training or exercise times or deployment times. 
Additionally, historical records show that units with unit hardware 
maintain equipment at higher than average material and often have 
better training readiness. This is especially true with Navy Reserve 
units. Current and future warfighting requirements will need these 
highly qualified units when the Combatant Commanders require fully 
ready units.
    Navy has proven its readiness. The personnel readiness, retention, 
and training of all members will depend on them having equipment that 
they can utilize, maintain, train on, and deploy with when called upon. 
AUSN recommends the Committee strengthen the Navy equipment 
appropriation as the House has done in the fiscal year 2012 NDAA in 
order to maintain optimally qualified and trained Navy and Navy Reserve 
forces.

Equipment Needs and Request
    AUSN respects the tremendous pressure on the U.S. budget. However, 
the Navy and the Navy Reserve where a deployed force prior to September 
11, 2001 and the Navy and the Navy Reserve will remain a deployed force 
for foreseeable future. Therefore we request that you give strong 
consideration to: Funding one C-40A in the fiscal year 2012 
appropriations bill for replacement of aged aircraft in Maryland and 
Hawaii; fund two C-130J aircraft for Navy and Navy Reserve in the 
fiscal year 2012 appropriations bill; and ensure the proper lead 
funding is available to maintain TACAIR aircraft for 11 Carrier Air 
Wings.

Manpower issues--Pay, and End-strength
    Pay needs to be competitive. If pay is too low, or expenses too 
high, a service member knows that time may be better invested 
elsewhere.
    The current discussions about changes in retirement and increases 
in healthcare is woefully inappropriate when the Nation considers what 
service members, Navy members, are doing in defense of this Nation, and 
in support of natural disasters. The risks and sacrifices of every 
service member, to defend this great Nation, make it illogical to 
formulate a policy change in retirement pay for military when they 
sacrifice so much. It just does not make common sense.
    End-strength is the core of any service accomplishing the mission. 
Navy and Navy Reserve has taken a fair share of budget driven end-
strength cuts in the previous 10 years. It is time to stop the cuts and 
ensure that we have the right number of people to conduct operations.
    Care must be taken that the current tremendous reservoir of 
operational capability be maintained and not lost due to resource 
shortages. Officers, Chief Petty Officers, and Petty Officers need to 
exercise leadership and professional competence to maintain their 
capabilities. In the current environment of Navy Individual Augmentee 
in support of ground forces, there is a risk that Navy mid-grade 
leadership will not be able to flourish due to the extended ground war 
of OIF and OEF. Having the right equipment is critical to our Maritime 
Strategy.
    In summary, we believe the Committee needs to address the following 
issues for Navy and Navy Reserve in the best interest of our National 
Security:
  --Fund one C-40A for the Navy, per the past years documented request;
    --Navy must replace the C-9s and replace the C-20Gs in Hawaii and 
            Maryland.
  --Fund the FA-18 E/F and FA-18 E/F Growlers per the House fiscal year 
        2011 NDAA and include unit assets for Navy Reserve units 
        currently in EA-6B aircraft.
  --Fund the Navy Ships provided for in the House fiscal year 2012 
        NDAA.
  --Just as other services are having difficulties with intra theater 
        C-130 assets, the Navy needs to replace their C-130 aircraft 
        with C-130J for the Navy and Navy Reserve.
    --Request you fund 2 C-130J Aircraft for Navy Reserve for combat 
            support for Navy and Navy Reserve assets in theater 
            operations for OCO.
  --Increase funding for Naval Reserve equipment in NGREA
    --Increase Navy Reserve NGREA by $100 million
    --Naval Expeditionary Combat Equipment
  --Ensure proper lead funding for TACAIR Navy Aircraft.
    For the foreseeable future, we must be realistic about what the 
unintended consequences are from a high rate of usage. History shows 
that an Active force and Reserve force are needed for any country to 
adequately meet its defense requirements, and to enable success in 
offensive operations. Our Active Duty Navy and the current operational 
Reserve members are pleased to be making a significant contribution to 
the Nation's defense as operational forces; however, the reality is 
that the added stress on Active Navy and the Reserve could pose long 
term consequences for our country in recruiting, retention, family and 
employer support. In a time of budget cut discussions, this is not the 
time to cut end-strengths on an already stressed force. We have already 
been down this road previously. This issue deserves your attention in 
pay, maintaining end-strengths, proper equipment, Family Support 
Programs, Transition Assistance Programs and for the Employer Support 
for the Guard and Reserve programs.
    Thank you for your ongoing support of the Nation, the Armed 
Services, the United States Navy, the United States Navy Reserve, their 
families, and Navy veterans, and the fine men and women who defend our 
country.

    Chairman Inouye. Thank you very much, Rear Admiral Coane.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, I was wondering about our 
other witness at the table here. We're to ask you questions 
now?
    Let me ask you. If the funding is added as you request, is 
this going to be additional funding that we'll have to come up 
with over and above the allocation of the subcommittee, or do 
you recommend any offsets in funding that would have to be 
undertaken?
    Admiral Coane. No, sir. I'm concerned--we have--in this 
year's budget there's one C-40, but in the 2012, 2013, and 2014 
budgets those have been zeroed out. The Navy's program is to 
buy 17 of them. There are still five more they've got to have. 
As I mentioned, the C-20Gs are falling off the table, 
literally.
    So this is additional National Guard and Reserve equipment 
funding that we're suggesting. The unfunded list, as has been 
mentioned before, for the Navy is virtually nonexistent. That's 
not because they don't need things. That's because of DOD 
policy. So we need to look further into supporting these 
aircraft.
    The C-20Gs in Hawaii and the ones here at Andrews have 
flown thousands of hours beyond what Gulfstream ever intended 
those airplanes to fly, because they were built as corporate 
jets. The Navy operates them with cargo doors, but they're used 
up and they're going to just simply go away. We've got to 
replace that asset.
    Senator Shelby. Do we run the risk of having accidents and 
failures if we don't replace those with other assets?
    Admiral Coane. Senator, I'm careful. I had a 34-year career 
in the airline world as well as an aviator, so I'm very careful 
to talk about--are we running the risk? Well, flying aircraft 
is always a risk-reward or risk-benefit business. Any time we 
get airborne, as you know, there's risk involved. Does the risk 
go up on the aircraft? I would say that our military people 
manage the aging of the aircraft. What goes up is the expense 
of operating the aircraft. In the case of broken-wing P-3s, 
they're simply worn out and you can't do anything about it.
    So I wouldn't suggest to you that--I wouldn't ring the 
safety bell and say that our military won't continue to be 
safe, because they're good at that. But the financial 
obligation--when an aircraft turns the maintenance curve, the 
dollars go significantly higher very, very quickly. Our C-9s 
and our C-20s and the C-130Ts are at that point.
    Senator Cochran. Thank you very much for your perspective. 
I think that's very helpful to our subcommittee.
    Admiral Coane. Yes, sir.
    Senator Cochran. Thank you.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Mr. Chairman, I'll try to be brief here. 
The Admiral here has gotten my attention on some things, and 
I'm sure the subcommittee.
    The survivability rate--well, the death rate of 
hemorrhage--hemorrhage is a big cause of death, right, 
battlefield, hemorrhaging?
    Admiral Coane. Senator, are you referring to my colleague 
here to my right?
    Senator Shelby. Yes, hemorrhaging; is that right, on the 
battlefield?
    Dr. Jenkins. Yes, sir.
    Senator Shelby. So what they're trying to do, you're trying 
to get into research whether you can deal with wounds to the 
torso, the neck, the blood vessels, all of this, because if you 
can do that you'll save lives, right?
    Dr. Jenkins. Yes, sir, precisely correct.
    Senator Shelby. But a lot of that is--you're using, a lot 
of it's the same treatment we've used for years. We haven't had 
a super-breakthrough there, have we?
    Dr. Jenkins. And that's directly related to the lack of 
research funding and why NTI exists, sir, yes, sir.
    Senator Shelby. Thank you.
    Chairman Inouye. Thank you very much.
    Ms. Goraleski.

STATEMENT OF KAREN A, GORALESKI, EXECUTIVE DIRECTOR, 
            AMERICAN SOCIETY OF TROPICAL MEDICINE AND 
            HYGIENE
    Ms. Goraleski. Chairman Inouye, Ranking Member Cochran, 
Senator Shelby, and subcommittee staff: My name is Karen 
Goraleski and I am the Executive Director of the American 
Society of Tropical Medicine and Hygiene. Thank you for the 
privilege of testifying before you today. We are the principal 
professional membership organization of scientists, physicians, 
clinicians, epidemiologists, and program professionals 
dedicated to the prevention and control of tropical diseases.
    We are here today to request that the subcommittee expand 
funding for the DOD's efforts to develop new preventions, 
treatments, vaccines, and diagnostics that will prevent--that 
will protect our service members and other Americans from 
tropical diseases and at the same time will reduce premature 
deaths and disability in the developing world.
    The central public policy priority of the Society is to 
reduce the burden of infectious disease in the developing 
world, areas of the world where many of our military serve. 
Many of our top health concerns align with the superbly 
executed and longstanding DOD research on tropical diseases and 
on what are also called the neglected tropical diseases. 
Mission success and readiness will be hampered without 
sustained efforts to reduce these no longer so-called 
``exotic'' health threats.
    Infectious disease is the ever-present enemy. The drugs and 
preventive measures used in earlier conflicts in tropical 
regions no longer are as reliable as they once were. Therefore, 
our task list for new and effective tools must not only focus 
on today, but on tomorrow.
    There are three particular DOD facilities working to 
strengthen mission readiness and success: The Army Medical 
Research Institute for Infectious Diseases, the Walter Reed 
Army Institute for Research, and the U.S. Naval Medical 
Research Center.
    First, USAMRID. Its mission is to protect our military from 
biological threats. Through its biosafety levels 3 and 4 labs 
and its world-class highly trained personnel, they are in the 
business of generating countermeasures to biological threats to 
our country. Like each of these facilities, their work delivers 
a return on investment that extends beyond our military to 
citizens.
    Next is WRAIR. A large part of the DOD investment in 
infectious disease research and development is facilitated 
through WRAIR. In addition to DOD funding, WRAIR has advanced 
infectious disease research and provided cost-effective 
solutions, in part by working smart through domestic and 
international public-private partnerships. Their portfolio 
includes work on a malaria vaccine and efforts to control its 
transmission, as well as that of other vector-borne diseases, 
drug developments for leishmaniasis, enteric disease research, 
and HIV/AIDS research.
    Through its collaborative efforts, WRAIR has developed 
several exciting vaccine candidates, including one that 
recently began the ever-large phase 3 trial for a malaria 
vaccine, RTSS. Is this encouraging? Yes. Do we need to find out 
more? Yes.
    Last, NMRC. The premier research facility includes a focus 
on malaria, enteric diseases, causes of traveler's diarrhea, 
dengue fever, now seen in southern Florida, and scrub typhus. 
In addition to its work accomplished in the United States, the 
Navy's three overseas medical research laboratories located in 
Peru, Egypt, and Indonesia offer outstanding scientific 
collaborations and equally productive relationships with their 
governments that in turn help the United States.
    In closing, all three facilities offer state-of-the-art 
technologies to protect our troops and can save millions of 
lives of people around the world. Closer to home, they also 
provide good-paying, quality jobs to American scientists, lab 
personnel, and ancillary businesses. ASTMH is confident that 
increased support for efforts to reduce these global and in 
some instances U.S. health threats is the smart thing to do for 
America and the right thing to do for the world.
    Thank you for this opportunity. The Society stands ready to 
serve as an expert resource to you. We are all in this 
together.
    [The statement follows:]

                Prepared Statement of Karen A. Goraleski

                           EXECUTIVE SUMMARY

    The American Society of Tropical Medicine and Hygiene (ASTMH)--the 
principal professional membership organization representing, educating, 
and supporting scientists, physicians, clinicians, researchers, 
epidemiologists, and other health professionals dedicated to the 
prevention and control of tropical diseases--appreciates the 
opportunity to submit written testimony to Senate Defense 
Appropriations Subcommittee.
    The central public policy priority of ASTMH is reducing the burden 
of infectious disease in the developing world. To that end, we advocate 
implementation and funding of Federal programs that address the 
research, prevention, and control of infectious diseases that are 
leading causes of death and disability in the developing world, and 
which pose threats to U.S. citizens. Many of our current priorities 
overlap with the excellent and long-standing tropical medicine and 
neglected disease research work being done within the Department of 
Defense, including malaria and other vector-borne diseases; tropical 
diseases such as dengue fever and leishmaniasis; and enteric diseases.
    Because U.S. servicemen and women are often deployed to tropical 
regions endemic to tropical diseases, reducing the risk that these 
diseases present to servicemen and women is often critical to mission 
success. Our military has long taken a primary role in the development 
of treatments for tropical diseases, such as anti-malarial drugs. As a 
result of this investment and the innovation employed by these military 
scientists, they have developed many of the most effective and widely 
used treatments for these diseases.
    For this reason, we respectfully request that the Subcommittee 
expand funding for the Department of Defense's longstanding and 
successful efforts to develop new drugs, vaccines, and diagnostics 
designed to protect service members from malaria and tropical diseases. 
Specifically, ASTMH requests that increased funding be allocated to the 
Army Medical Research Institute for Infectious Diseases (USAMRIID), the 
Walter Reed Army Institute of Research (WRAIR), and the U.S. Naval 
Medical Research Center (UNMC), who work closely together to maximize 
and ensure the most efficient research portfolios.

 UNITED STATES ARMY MEDICAL RESEARCH INSTITUTE FOR INFECTIOUS DISEASES

    USAMRIID's mission includes advancing research to develop medical 
solutions--vaccines, drugs, diagnostics, and information--to protect 
our military service members from biological threats. USAMRIID has 
Biosafety Level 3 and Level 4 laboratories and world-class expertise in 
the generation of countermeasures for biological threats playing a 
critical role in the status of our country's preparedness for 
biological terrorism and biological warfare. While their primary 
mission is to protect the service members, like each of the research 
facilities, their important work benefits civilians as well.

                 WALTER REED ARMY INSTITUTE OF RESEARCH

    A large part of DOD investments in infectious disease research and 
development are facilitated through WRAIR, which since fiscal year 2007 
has performed more that $250 million in DOD research. Through critical 
public private partnerships with companies such as GSK and Sanofi, as 
well as nonprofits such as the Gates Foundation and Medicines for 
Malaria Venture, WRAIR invests in malaria vaccine and drug development, 
drug development for leishmaniasis, enteric disease research, vector 
control for malaria and other vector-born infections, and HIV/AIDS 
research and treatment. While each of these investments is crucial to 
the protection of U.S. troops abroad, WRAIR is also a partner to the 
global health community in saving the lives of some of the world's 
poorest people suffering from some of the most neglected diseases.
    WRAIR has research laboratories around the globe, including a 
public health reference laboratory in The Republic of Georgia; dengue 
fever clinical trials in the Philippines; malaria clinical studies and 
Global Emerging Infectious Surveillance in Kenya; military entomology 
network field sites in Thailand, the Philippines, Nepal, Cambodia, 
Korea, Kenya, Ethiopia, Egypt, Libya, Ghana, Liberia and Peru; as well 
as several other coordination efforts with national health ministries 
and defense units. This diversity in research capacity puts WRAIR in 
the unique position to be a leader in research and development for 
tropical diseases--research that will aid our military men and women as 
well as people living in these disease-endemic countries.

              UNITED STATES NAVAL MEDICAL RESEARCH CENTER

    NMRC is a premier medical and health research organization whose 
focus includes tropical medicine and infectious disease. The Infectious 
Disease Directorate (IDD) of NMRC focuses on malaria, enteric diseases, 
and viral rickettsial diseases. IDD has an annual budget exceeding $10 
million and conducts research on infectious diseases that are 
considered to be a significant threat to our deployed sailors, marines, 
soldiers and airmen. Their current research efforts are focused on 
malaria, bacterial causes of traveler's diarrhea, dengue fever, and 
scrub typhus with particular emphasis on vaccine discovery and testing. 
The research is enhanced by IDD's close working relationship with the 
Navy's three overseas medical research laboratories located in Peru, 
Egypt, and Indonesia. These laboratories also afford diplomatic 
advancement through the close working relationships they have developed 
with governments and citizens of those countries.

                TROPICAL MEDICINE AND TROPICAL DISEASES

    The term ``tropical medicine'' refers to the wide-ranging clinical, 
research, and educational efforts of physicians, scientists, and public 
health officials with a focus on the diagnosis, mitigation, prevention, 
and treatment of vector borne diseases prevalent in the areas of the 
world with a tropical climate. Most tropical diseases are located in 
either sub-Saharan Africa, parts of Asia (including the Indian 
subcontinent), or Central and South America. Many of the world's 
developing nations are located in these areas; thus tropical medicine 
tends to focus on diseases that impact the world's most impoverished 
individuals.
    U.S. troops are currently deployed or likely to be deployed in many 
of these same tropical areas. U.S. citizens, working, traveling and 
vacationing overseas are similarly impacted by these same tropical 
diseases, many of which have been ignored and neglected for decades. 
Furthermore, some of the agents responsible for these diseases could be 
introduced and become established in the United States (as was the case 
with West Nile virus), or might even be weaponized.
    The United States has a long history of leading the fight against 
tropical diseases which cause human suffering and pose a great 
financial burden that can negatively impact a country's economic and 
political stability. The benefits of U.S. investment in tropical 
diseases extend beyond economics and humanitarianism and into diplomacy 
as well.

         MALARIA--A FORMIDABLE FOE FOR U.S. MILITARY OPERATIONS

    Service members deployed by the U.S. military comprise a majority 
of the healthy adults traveling each year to malarial regions on behalf 
of the U.S. Government. Malaria has long been a threat to U.S. military 
deployment success. In fact, more person-days were lost among U.S. 
military personnel due to malaria than to bullets during every military 
campaign fought in malaria-endemic regions during the 20th century. For 
this reason, the U.S. military has long taken a primary role in the 
development of anti-malarial drugs, and nearly all of the most 
effective and widely used anti-malarials were developed in part by U.S. 
military researchers. Drugs that have saved countless lives throughout 
the world were originally developed by the U.S. military to protect 
troops serving in tropical regions during WWII, the Korean War, and the 
Vietnam War.
    In recent years the broader international community has increased 
its efforts to reduce the impact of malaria in the developing world, 
particularly by reducing childhood malaria mortality, and the U.S. 
military plays an important role in this broad partnership. However, 
military malaria researchers at NMRC and WRAIR are working practically 
alone in the area most directly related to U.S. national security: 
drugs and vaccines designed to protect or treat healthy adults with no 
developed resistance to malaria who travel to regions endemic to the 
disease. NMRC and WRAIR are working on the development of a malaria 
vaccine and on malaria diagnostics and other drugs to treat malaria--an 
especially essential investment as current malaria drugs face their 
first signs of drug resistance.
    The malaria parasite demonstrates a notorious and consistent 
ability to quickly develop resistance to new drugs. The latest 
generation of medicines is increasingly facing drug-resistance. Malaria 
parasites in Southeast Asia have already shown resistance to 
mefloquine; resistant strains of the parasite have also been identified 
in West Africa and South America. There are early indications that 
parasite populations in Southeast Asia may already be developing 
limited resistance to artemisinin, currently the most powerful anti-
malarial available. Further, the most deadly variant of malaria--
Plasmodium falciparum--is believed by the World Health Organization to 
have become resistant to ``nearly all anti-malarials in current use.''
    Resistance is not yet universal among the global Plasmodium 
falciparum population, with parasites in a given geographic area having 
developed resistance to some drugs and not others. However, the sheer 
speed with which the parasite is developing resistance to mefloquine 
and artemisinin--drugs developed in the 1970s--bodes of a crisis of 
such significance that military malaria researchers cannot afford to 
rest on their laurels.
    WRAIR, in concert with multiple organizations including the CDC and 
vaccine manufacturers, has developed several exciting vaccine 
candidates, including one that recently began the first ever large-
scale Phase 3 trial for a malaria vaccine, (RTS,S). In earlier trials, 
the vaccine has been shown to decrease clinical episodes of malaria by 
over 50 percent in children in Africa. Despite these advances, the 
vaccine might be unsuitable for deploying personnel and travelers, 
because of its efficacy level. As a result, there is still a 
significant need for continued funding for ongoing research.
    Developing new antimalarials as quickly as the parasite becomes 
resistant to existing ones is an extraordinary challenge, and one that 
requires significant resources, especially as U.S. military operations 
in malaria-endemic countries increase. Without new anti-malarials to 
replace existing drugs as they become obsolete, military operations 
could be halted in their tracks by malaria. The recent malaria outbreak 
affecting 80 of 220 Marines in Liberia in 2003 serves as an ominous 
reminder of the impact of malaria on military operations. Humanitarian 
missions also place Americans at risk of malaria as evidenced by 
several Americans contracting malaria while supporting Haitian 
earthquake relief efforts.

             TROPICAL DISEASE IMPACT ON MILITARY OPERATIONS

    Few other U.S. Government agencies devote as much time, funding, 
manpower, and direct research to tackling these devastating diseases as 
the DOD. The work ultimately goes beyond protecting soldiers and 
benefits the people living in the countries where these diseases cause 
the most harm. The recent success of the RTS, S malaria vaccine and its 
advancement to Phase 3 trials is just one success story from this 
program. DOD also does great research for other tropical diseases 
including leishmaniasis and dengue fever, two potentially deadly 
diseases of great risk to our troops and even greater risk to the 
citizens of these disease endemic regions.
    Leishmaniasis is a vector borne disease that is caused by the 
parasite leishmania. It is transmitted through the bite of the female 
phlebotomine sandfly. Leishmaniasis comes in several forms, the most 
serious of which is visceral leishmaniasis, which affects internal 
organs and can be deadly if left untreated.
    According to the WHO, over 350 million people are at risk of 
leishmaniasis in 88 countries around the world. It is estimated that 12 
million people are currently infected with leishmaniasis and 2 million 
new infections occur annually. Coinfection of leishmaniasis and HIV is 
becoming increasingly common, and WHO notes that because of a weakened 
immune system leishmaniasis can lead to an accelerated onset of AIDS in 
HIV-positive patients.
    Because of leishmaniasis' prevalence in Iraq, the DOD has spent 
significant time and resources on the development of drugs and new 
tools for the treatment of leishmaniasis. As more troops return from 
Iraq and Afghanistan, it is likely DOD will see an increase in 
leishmaniasis cases in our soldiers. WRAIR discovered and developed 
Sitamaquine, a drug that once completed, will be an oral treatment for 
leishmaniasis. While essential for the safety of our servicemen and 
women abroad, these types of innovations will also be extremely 
beneficial to the at risk populations world wide that are living in 
leishmaniasis endemic countries.
    Dengue fever, according to the WHO is the most common of all 
mosquito-borne viral infections. About 2.5 billion people live in 
places where dengue infection is possible and last year we saw a few 
cases pop up in the United States. There are four different viruses 
that can cause dengue infections. While infection from one of the four 
viruses will leave a person immune to that strain of the virus, it does 
not prevent them from contracting the other three, and subsequent 
infections can often be more serious.
    The DOD has seen about 28 cases of dengue in soldiers per year. 
While none of these cases resulted in the death of a soldier, 
hospitalization time is lengthy. Currently, there are several research 
and development efforts underway within the department of defense both 
for treatments and vaccines for dengue.

         U.S. GOVERNMENT ACTION IS NEEDED FOR MISSION READINESS

    The role of infectious disease in the success or failure of 
military operations is often overlooked. Even a cursory review of U.S. 
and world military history, however, underscores that the need to keep 
military personnel safe from infectious disease is critical to mission 
success. The drugs and prophylaxis used to keep our men and women safe 
from malaria and tropical diseases during previous conflicts in 
tropical regions are no longer reliable. Ensuring the safety of those 
men and women in future conflicts and deployments will require research 
on new tools. Additional funds and a greater commitment from the 
Federal Government are necessary to make progress in malaria and 
tropical disease prevention, treatment, and control.
    ASTMH feels strongly that increased support for efforts to reduce 
this threat is warranted. A more substantial investment will help to 
protect American soldiers and potentially save the lives of millions of 
individuals around the world. We appreciate the opportunity to share 
our views in our testimony, and please be assured that ASTMH stands 
ready to serve as a resource on this and any other tropical disease 
policy matters.
    Thank you for your attention to this matter.

    Chairman Inouye. I thank you very much, Ms. Goraleski.
    Senator Cochran.
    Senator Cochran. Ms. Goraleski, how close do you think we 
are to developing a new vaccine or a more effective vaccine 
against malaria? It seems to be a big threat.
    Ms. Goraleski. We are at a very positive place in terms of 
a malaria vaccine. We're just starting that phase 3 clinical 
trial. We're very hopeful.
    Chairman Inouye. Thank you very much.
    Senator Shelby.
    Senator Shelby. Besides malaria, what are, say, one or two 
of the most challenging tropical diseases? I know there are 
many out there.
    Ms. Goraleski. The parasitic diseases are very, very 
challenging. Sandflies transmit leishmaniasis. We also have 
other parasites that are equally debilitating and often hard to 
diagnose at first and then can last for decades.
    Senator Shelby. Thank you.
    Chairman Inouye. I thank the panel very much.
    Now may I call upon: Major General Gus Hargett, National 
Guard Association of the United States; Mr. Dale Lumme, Navy 
League of the United States; Mr. John R. Davis, Fleet Reserve 
Association; Ms. Susan Leighton, Ovarian Cancer National 
Alliance.
    May I call upon Major General Hargett.

STATEMENT OF MAJOR GENERAL GUS HARGETT, UNITED STATES 
            ARMY (RETIRED), PRESIDENT, NATIONAL GUARD 
            ASSOCIATION OF THE UNITED STATES
    General Hargett. Mr. Chairman, thank you for the 
opportunity to testify on behalf of the 470,000 national 
guardsmen across the country, our citizen soldiers and airmen.
    As our Nation struggles with how to get its financial house 
in order, I propose we give a hard look at how we could 
leverage the cost efficiencies inherent in the National Guard 
to reduce defense costs without reducing capabilities. Every 
day soldiers and airmen of the National Guard are serving 
across the Nation and around the world in more places than any 
component of the armed forces, and they do it for a fraction of 
the cost. To best meet its Federal and State missions, the 
National Guard must be resourced adequately and 
proportionately, increasing National Guard personnel end 
strength and ensuring the force has the equipment and resources 
needed to provide more capabilities at a lower cost to the 
taxpayer.
    Our National Guard has been an integral part of the war 
fight. Hundreds of thousands of Army national guardsmen have 
deployed overseas since September the 11th, many serving 
multiple deployments. We have a battle-proven operational force 
and it would be a disservice for our National Guard to revert 
back to pre-9-11 levels of equipment, readiness, and training.
    It has been estimated that the annual requirement for the 
Army Guard to maintain its current operational level is $400 
million. While DOD has asked more and more of our National 
Guard, the funding requests for the Guard have not kept pace. 
Thankfully, Congress has helped bridge the gap. Since 1982 
Congress has provided valuable funding through the National 
Guard and Reserve equipment account, enabling both the Army and 
Air Guard to procure more needed equipment and provide 
essential modernization upgrades. With this funding, the Army 
Guard has been able to significantly close the gap on many of 
its unfunded requirements. It has enabled units across the 
Nation to go from 40 percent of its required dual use equipment 
on hand just a few years ago to nearly 75 percent today. While 
the Army Guard has made significant progress in recent years, 
the need for equipment, additional equipment, remains.
    The Air Guard also continues to use NGREA funding for vital 
modernization efforts and domestic operation requirements. 
Along with NGREA, Congress has been instrumental in other 
modernization efforts for the Air Guard. This subcommittee has 
led the way in funding the active electronic scanned array 
radar, or AESAR, for the Air Guard F-15s. However, even with 
the progress made to date, there remains a shortfall in funding 
of $52.8 million to complete this program.
    Without adequate funding from NGREA and other sources, the 
Air Guard will be unable to modernize fighter and mobility 
legacy platforms. The Air Guard must remain an equal and 
effective partner in all fielding modernization, to include the 
C-130Js, C-27s, F-35s, the KC-45.
    While equipment funding is vital, the true strength of the 
National Guard is its people. An unrivaled blend of civilian 
and military skills ensures that our National Guard members are 
effective when conducting missions abroad and at home. The 
National Guard State Partnership Program, the Agricultural 
Development Teams, and the Southwest Border Missions are 
shining examples of the unique skill set of our National Guard 
men and women. However, the current budget request creates a 
shortfall of $12 million for the State Partnership Program and 
$75 million for the counterdrug program.
    In conclusion, as America's first military organization, 
the National Guard has proven for 375 years that it is right 
for America. Drawing on the experience of the last 10 years of 
the war fight, we are convinced that the National Guard will 
emerge as a more cost effective and more mission-capable force 
into the future.
    Thank you for the opportunity to testify today on behalf of 
our Guard men and women.
    [The statement follows:]

            Prepared Statement of Major General Gus Hargett

    The National Guard Association of the United States is a 
nonpartisan organization representing nearly 45,000 current and former 
Army and Air National Guard officers. Formed in 1878, NGAUS is focused 
on procuring better equipment, standardized training and a more combat-
ready force by petitioning Congress for resources. Well over a century 
later, NGAUS has the same mission.
    Our goal is to maintain the freedom and security of this Nation by 
guaranteeing a strong national defense through the provision of a 
vital, dynamic National Guard as a part of the Total Force.

               THE NATIONAL GUARD--``RIGHT FOR AMERICA''

    ``A National Guard in balance is one that adds value to America. It 
is structured and resourced with adaptive and innovative citizen 
Soldiers and Airmen, ready to provide global security and assistance. A 
National Guard in balance works as a critical interagency partner at 
the local, State and Federal levels . . . anytime, anywhere.''------
General Craig R. McKinley, Chief, National Guard Bureau

    Following the Vietnam war, General Creighton Abrams was determined 
to establish a clear linkage between the employment of the Army and the 
engagement of public support for military operations. General Abrams 
reasoned that by creating a force structure that integrated Reserve and 
Active Components so closely as to make them inextricable would ensure 
Presidents would never again send the Army to war without the Reserves 
and the commitment of the American people.
    Today, with locations in more than 3,300 communities across the 
Nation, the National Guard provides an indispensable link between the 
military and the citizens of our great Nation.
    The key to National Guard efficiency is the predominantly part-time 
(traditional) force that can mobilize quickly for combat operations, or 
respond when needed for disaster response or homeland defense.
    Unless activated for combat service, fully trained traditional 
National Guard members cost approximately 25 percent of their Active 
counterparts. National Guard efficiencies compared to regular military 
components include: fewer ``pay days'' per year, lower medical costs, 
significantly lower training costs beyond initial qualification 
training, virtually no costs for relocating families and household 
goods to new duty assignments every 3 or 4 years, fewer entitlements 
such as basic allowance for housing, lower base support costs in terms 
of services and facilities including commissaries, base housing, base 
exchanges, and child care facilities.
    On average, 17 United States Governors call out their National 
Guard each day to protect life or property, and the Guard responds 
immediately, effectively, appropriately, and in-force.
    The Air National Guard (ANG) has 106,700 personnel and provides 33 
percent of the Total Air Force capabilities for less than 7 percent of 
the Total Force Defense Budget including: 100 percent of the Air 
Force's air defense interceptor force, 33 percent of the general 
purpose fighter force, 45 percent of the tactical airlift and 6 percent 
of the special operations capability, 43 percent of the air refueling 
KC-135 tankers, 28 percent of the rescue and recovery capability, 23 
percent of tactical air support forces, 10 percent of the bomber force 
and 8 percent of the strategic airlift forces. Additionally, Air Guard 
members provide a wide variety of support missions to include: 
security, medical support, civil engineering, air refueling, strike, 
airlift, and Intelligence, Surveillance, and Reconnaissance (ISR).
    The Army National Guard has 358,200 personnel and provides 32 
percent of the Total Army end-strength for only 11 percent of the Total 
Army Defense Budget. By the end of fiscal year 2010, the Army National 
Guard force structure will include 8 Division Headquarters, seven 
Brigade Combat Teams (BCT), and 44 multi-functional Support Brigades. 
Additionally, the Army National Guard will have continued the 
conversion of 21 BCTs, completing transformation of the second set of 
seven BCTs in fiscal year 2010. Since 9/11/2001, more than 340,000 Army 
National Guard men and women have been activated in support of ongoing 
combat operations. On any given day, more than 50,000 Guard soldiers 
are ``on point'' for the Nation.
    As the Department of Defense implements policies to reform the way 
the Pentagon does business by directing the Service chiefs to find more 
than $100 billion in savings over the next 5 years, the National Guard 
is ready and able to play an important role in achieving these 
necessary goals.
    The National Guard provides vast capabilities to our country in its 
dual-use, domestic support missions and overseas defense, missions 
while continuing to maintain cost-effectiveness. Increasing National 
Guard end strength and resourcing and recapitalizing its force will 
offer more capability and value at a lower cost to America.

Maintaining a Ready, Relevant, and Accessible National Guard
    For the National Guard to best meet it's Federal and State missions 
it must be resourced adequately and proportionately. Since fiscal year 
1982 Congress has funded the National Guard and Reserve Equipment 
Account (NGREA) enabling both the Army and Air National Guard to 
procure much needed equipment and provide essential modernization 
upgrades. Since its start in fiscal year 1982, the Army National Guard 
has received more $9.29 billion and the Air National Guard has received 
$6 billion in NGREA funding.
    Since fiscal year 2006 Congress has provided the ARNG with 50 
percent of its total NGREA funding. With this funding, the ARNG has 
been able to significantly close the gap on many of its emerging 
requirements and new equipment program procurements. This has enabled 
our units across the country to go from 40 percent of required 
equipment on-hand a few years ago, to nearly 75 percent today. This 
dramatic turnaround is the direct result of congressional support and 
action.
    For example, using NGREA funds, the ARNG has been able to purchase 
an additional 1,500 Family of Medium Tactical Vehicles (FMTVs), with 
plans to purchase another 1,100. The ARNG has been able to invest 
millions in critical updates to systems such as Tactical Operation 
Combat System (TOCS), Standard Integration Command Post System (SICPS), 
and War fighter Information Network-Tactical (WIN-T).
    While the ARNG has made significant progress, the need for 
additional equipment funding remains. The National Guard and Reserve 
Equipment Report for Fiscal Year 2012 (Fiscal Year 2012 NGRER), 
completed in accordance with Section 10541, Title 10, United States 
Code, identifies several challenges for the ARNG. The fiscal year 2012 
NGRER identifies a $40 billion total shortfall for the ARNG (Page 1-4). 
Additionally, the ARNG estimates it needs ``$3.5 to $4.5 billion in 
annual programmed funding (versus a $2.3 billion per year average in 
the current Future Years Defense Program) to continue to modernize and 
maintain current EOH levels and interoperability'' (Fiscal Year 2012 
NGRER, Page 2-9).
    The Fiscal Year 2012 NGRER also identifies the following challenges 
regarding equipment:
  --Achieving full component-level transparency for equipment 
        procurement and distribution;
  --Equipping ARNG units for pre-mobilization training and deployment; 
        and
  --Equipping ARNG units for their homeland missions (pages 1-8, 1-9).
    NGAUS has worked with Congress over the years to increase the 
transparency of equipment procurement and better equip the force for 
training requirements and homeland missions.
    The ARNG helicopter fleet remains an area of concern. The Army 
National Guard Black Hawk fleet will soon grow to 849 helicopters. Five 
hundred of these are older UH-60A models, with an average age exceeding 
25 years. Many UH-60As are in need of immediate replacement/conversion. 
The ``A'' model is more expensive to operate, cannot operate at higher 
altitudes, and has a 1,000 lbs lower payload capability than the newer 
``L'' and ``M'' models.
    The ARNG currently has a documented requirement for 210 UH-72A 
Lakota helicopters to support domestic missions in ``permissive'' 
environments. With over 150 aircraft now delivered to the Army on-cost 
and within schedule, the UH-72A has proven to be a robust and efficient 
multirole platform. Leveraging the success of this program for 
additional missions could lead to even greater efficiencies in meeting 
operational needs.
    The Army National Guard Chinook helicopter fleet total requirement 
is 161 aircraft. Currently, the shortage is 17 aircraft, and all 
aircraft in this fleet are CH-47D models except 3 new CH-47Fs that were 
delivered in May. The average age of the CH-47D aircraft are 25 years, 
with many that are older. The need for replacement is immediate because 
the helicopters are not only being utilized at home to support many 
missions, but also in deployments abroad especially in Afghanistan. 
This is compounded with the CH-47D's deterioration from age, recent 
operational tempo, and losses in theater. The new CH-47F provides 
better survivability, upgraded avionics (CAAS cockpit), a new airframe, 
and improved operational capability. The new features save lives and 
allow missions to be completed that wouldn't have been attempted with 
the CH-47D models.
    Finally, modernizing the ARNG Tactical Wheeled Vehicle fleet is an 
issue. While the ARNG has reached 100 percent of the requirement for 
High-Mobility Multipurpose Wheeled Vehicles (HMMWV), 72 percent of the 
fleet has already reached its Economic Useful Life of 20 years and over 
60 percent of the ARNG's HMMWV inventory are legacy vehicles, and are 
between 20 to 25 years old. Additionally, the ARNG remains short of its 
requirement for Family of Medium Tactical Vehicles.
    The ANG continues to use NGREA funding for vital modernization 
efforts and specialized domestic operations requirements. They have 
procured essential equipment such as satellite communications kits for 
our Tactical Air Control Party (TACP), medical equipment for 
pararescue, body armor for security forces, helmet mounted cuing 
systems for fighter aircraft, defensive systems for mobility aircraft, 
firefighting vehicles, and more. With the need to fully fund ongoing 
operations and continued pressure on defense budgets, obtaining 
adequate funding for procuring equipment and modernization efforts will 
continue to be a challenge. Without adequate funding from NGREA or 
other sources, the ANG will be unable to modernize legacy platforms and 
equipment and will no longer remain an equal and effective partner in 
the Total Force.
    In the last year the National Guard Bureau has implemented process 
changes in order to better obligate these funds and field the procured 
equipment and upgrades to our Soldiers and Airmen at a more rapid rate.
    Along with NGREA, Congress has been instrumental in other 
modernization efforts for the Air National Guard. It was Congress that 
funded the LITENING Targeting pods for the Air National Guard F-16 
which killed the insurgent leader Abu Musab al-Zarqawi in Iraq. And it 
is Congress that has continued to fund the Active Electronic Scanned 
Array (AESA) radar for Air National Guard F-15Cs. Since fiscal year 
2006, Congress has provided $313 million for the AESA radar program for 
ANG F-15s. The AESA radar is being fielded to our fighter wings which 
currently perform the air sovereignty alert mission in the skies over 
our Nation. This new radar provides our pilots with the combat 
capability necessary to perform the homeland defense mission by 
providing the ability to detect asymmetric threats like cruise missiles 
or low observable aircraft threatening our Nation's security. However, 
there remains a shortfall in funding to complete this program. The 
fiscal year 2012 President's budget request again did not provide the 
necessary funding to continue this essential program. For fiscal year 
2012, the ANG has recognized an unfunded requirement of $52.8 million 
for F-15C AESA radars in its Weapons System Modernization Book.
    The Fiscal Year 2012 NGRER identifies a $7 billion shortfall for 
modernization programs and shortfalls (page 5-11) in the ANG documented 
in the Weapons System Modernization Book. NGAUS has identified unfunded 
modernization priorities to include (in addition to the already 
identified AESA radar):
  --$13.85 million for the Helmet Mounted Integrated Targeting (HMIT) 
        for A-10's (Aircraft Procurement);
  --$8.3 million for the HMIT for F-16's (Aircraft Procurement);
  --$12.12 million for the Center Display Unit for F-16's (Aircraft 
        Procurement);
  --$32.8 million for the Center Display Unit for F-16's (RDTE);
  --$9 million for the Center Display Unit for F-15's (RDTE);
  --$20.5 million for LC-130 Eight Bladed Propeller Upgrade (Aircraft 
        Procurement);
  --$10.74 million for Advanced Infrared Countermeasures (IRCM) Self 
        Protection Suite for C-130's (Aircraft Procurement);
  --$70.3 million for Infrared Counter Measures (IRCM) Defensive 
        Systems for KC-135's (Aircraft Procurement);
  --$6 million for Infrared Counter Measures (IRCM) Defensive Systems 
        for KC-135's (RDTE);
  --$2.4 million for Improved Watercraft and Ground Recovery Vehicles 
        (Other Than Aircraft Procurement); and
  --$46 million for two D-RAPCON Systems (Other than Aircraft 
        Procurement).
    In the near future the ANG will be fully submerged into the 
recapitalization crisis that the entire Air Force has become victim 
too. When the F-22 buy was cut off at 187 aircraft (from the 750 
originally planned to be purchased) the ANG lost most hope of being 
assigned those aircraft, with the exception of the classic associate 
relationship at Langley (Richmond, Virginia ANG) and Hawaii.
    Although the USAF is planning to acquire 1763 F-35's, the only ANG 
facility identified to receive the F-35 to date has been Burlington, 
Vermont. Beyond that, the USAF has been very slow to make any other 
final decisions as to which, if any other, ANG locations will receive 
these aircraft beyond the first six Active units, leaving ANG leaders 
wondering if the Guard will make the cut if the F-35 buy is cut short.
    The USAF has announced that it will perform a Service Life 
Extension Program (SLEP) to approximately 300 F-16s, most of which will 
be Active Component (AC) Block 50 and 40's. The question remains, how 
will the USAF ensure the longevity of older ANG F-16s, or will they 
eventually ``cascade'' the modernized Block 40/50's F-16's to the ANG 
as the AC receives new F-35's? And, what happens if the AC does not 
receive F-35's as anticipated? The Air Force has lacked transparency 
with the Air National Guard leadership. We believe it is time to end 
this and use the ANG as a model of how to field and execute the fighter 
mission in the future.
    When discussing the crisis as related to the airlift and transport 
fleet one should remember how the ANG received the aircraft they now 
have. During the 1980's and early 1990's, the Air National Guard 
acquired a significant number of C-130 Hercules via congressional ad's, 
even though the effort was opposed by the Pentagon. Today, however, the 
Pentagon is either looking to transfer some of the newer models to AC 
locations, or claiming there is an excess of up to 40 of these 
aircraft, which, they indicate are offsetting an equal amount of C-
27Js.
    The USAF is modernizing its C-5B/C fleet with both the Avionics 
Modernization Program (AMP) and Reliability Enhancement and Re-engining 
Program (RERP), to the C-5M configuration. However, even though the Air 
Force has programmed the C-5A's (only operated in the Reserve 
Component) for AMP, these aircraft are not programmed to receive the 
RERP upgrade. Today, the USAF has begun to retire some of these 
aircraft. Despite not having the same upgraded range and fuel 
efficiency, unmodified C-5A's would not be inter-flyable by Active/
Reserve Component crews. This lack of commitment to the ANG C-5 fleet 
has left units that operate these aircraft wondering what lies ahead in 
their future, thereby negatively impacting their ability to recruit the 
future generation of militia airmen.
    After several years of the Army and Air Force coordinating to 
determine how many C-27J's would be required to provide direct ``last 
tactical mile'' airlift support for the Army, and homeland response 
capabilities for the ANG, the Joint Requirements Oversight Council 
(JROC) validated that 78 aircraft were necessary to fill this 
requirement. However, subsequently, the Secretary of Defense (SECDEF) 
seemed to ``arbitrarily'' change that number to 38, assigned the 
mission to the ANG, and justified the cut in C-27's to the Mobility 
Capabilities Requirements Study 16 (MCRS) that had identified an excess 
of 40 older C-130's. Unfortunately, the MCRS had not included the C-27 
direct support mission in this study. When the total number of C-27's 
were reduced from 78 to 38, this caused the Air Force to also reduce 
the number of aircraft based in any one location from the standard 8 
Primary Assigned Aircraft (PAA) per unit to 4, which hampers effective 
training and operations. Additionally, since the Army has declared that 
``fixed wing aviation is not a core competency,'' the Pentagon is also 
divesting the ARNG of its aging C-23 fleet before the ANG will be in a 
position to provide comparable airlift support stateside, since it will 
be focused on fulfilling its combat mission in the Middle East.
    Although the USAF has finally selected a new tanker aircraft, to 
date, it is unclear where these aircraft will be stationed.
    Finally, even though the Army does not consider fixed-wing aviation 
to be a core competency, logic tells us that some level of fixed-wing 
capability makes economic and functional sense as a niche mission, 
which has always been acknowledged and authorized under Joint Doctrine. 
And, even though the ANG may fully commit to providing direct support 
(primarily during combat operations), there will always be ``pop up'' 
missions, both stateside and deployed, that would justify a small fleet 
of fixed-wing support aircraft for the ARNG. Thus, a program to replace 
the aging C-12 and C-26 aircraft with a fleet of new light aircraft to 
take on this requirement should be pursued.

The Added Value of Citizen Soldiers and Airmen
    The true strength of the National Guard is in its people. It's our 
citizen soldiers and airmen who juggle two jobs and a family life are 
invaluable to our Nation's defense. An unrivaled blend of civilian and 
military skills ensures that our members are effective when conducting 
missions abroad and at home.
    The National Guard supports programs unmatched to other Active and 
Reserve Components. Members of the National Guard actively work on 
global engagement programs, domestic support programs and youth 
programs to improve our communities.
    The State Partnership Program (SPP) was created in 1993 with only a 
handful of partner nations. Today, these mutually beneficial 
relationships are established with more than 60 foreign nations. They 
work together to improve regional security, stability and prosperity. 
The fiscal year 2012 President's budget request creates a shortfall of 
$12 million for the SPP.
    The Agribusiness Development Teams (ADT) is another great example 
of the National Guard's fusion of military capability and civilian 
skills. The ADTs are working with the Afghan Ministry of Agriculture, 
Irrigation and Livestock to educate and train Afghan farmers in modern 
agriculture methods and techniques. These efforts will undoubtedly 
increase the quality of life and economic stability for the region 
while leading to improved opportunities for the Afghanistan agriculture 
community.
    The domestic support realm ranges depending on the immediate needs 
of the regions and the longer term outcomes that they will produce. The 
National Guard has successfully supported the Southwest border security 
mission during Operation Jump Start from 2006-2008 and has continued to 
assist the U.S. Customs and Border Protection, Department of Homeland 
Security and the Immigrations and Customs Enforcement. Along with 
border security, National Guard members are assisting these entities by 
engaging in counter-narcotic missions on the Southwest border.
    The National Guard's Counter Drug Programs help local law 
enforcement agencies with analysis and ground support resulting in tens 
of billions of dollars worth of drugs, property, weapons and cash each 
year. The National Guard's Training Centers in Mississippi, Florida, 
Iowa, Pennsylvania, and Washington train over 100,000 military 
personnel, law enforcement officers, and interagency members each year. 
The fiscal year 2012 funding shortfall for the Counterdrug Program is 
$75 million.
    When a crisis occurs, whether man-made or natural, the National 
Guard is ready to respond. National Guard members have responded to an 
unprecedented number of devastating tornadoes across the Nation in from 
Alabama to Massachusetts, including the town of Joplin, Missouri; they 
are currently performing flood relief missions in Arkansas, Louisiana, 
Mississippi, Montana, North and South Dakota, Nebraska, Vermont and 
Wyoming; and just a few months ago they were fighting wildfires over 
West Texas with their C-130Js from the California ANG.
    The National Guard has designed structured response packages which 
are scalable to provide tiered response to local, State, regional or 
national level chemical, biological, radiological, nuclear, or 
explosives (CBRNE) incidents. In addition, the National Guard is 
working with the Department of Defense to stand up 10 Homeland Response 
Forces (HRFs). These HRFs will consist of 566 personnel and provide 
life saving capabilities during emergencies, bridging the gap between 
the initial National Guard response and Title 10 capabilities.
    Our citizen soldiers and airmen are dedicated to improving their 
communities and our Nation's future. This is why the National Guard 
Youth ChalleNGe Program exists. The NGYCP is an award winning, 
community based program which mentors high school dropouts and leads 
them to become successful and productive citizens and lead successful 
and fulfilling lives. Since 1993, the NGYCP has graduated over 95,500 
students and saved over $175 million annually in juvenile correction 
costs.

Conclusion
    In today's fiscally challenged environment, it is imperative that 
our Nation looks to our cost effective and mission proven National 
Guard as a solution to maintain our high level of national security at 
an affordable cost. As America's first military organization, the 
National Guard has proven for 375 years that it is ``Right for 
America.'' With the continued support of Congress, the National Guard 
will emerge as an even more cost-effective and mission capable force in 
the future.

    Chairman Inouye. Thank you very much, General Hargett.
    Senator Cochran.
    Senator Cochran. You may have mentioned this in your 
statement and I didn't notice the specifics, but is the 
National Guard being called on for deployments at this time in 
any conflict going on anywhere outside the United States?
    General Hargett. Yes, sir. There are still guardsmen in 
Iraq, Afghanistan, and Kuwait, and probably Kosovo and other 
places around the world.
    Senator Cochran. Do you have any estimation or any 
indication--you can't predict when the war's going to be over 
and we can come home and declare victory, but what do you hear 
from people you trust about the future for the Guard's 
deployment? At some point you're going to have to say, hey, 
wait a minute, we don't have anybody to send.
    General Hargett. I predict that we will be deploying 
guardsmen long into the future. I think we're an integral part 
of the force and I think to continue to even do the 
peacekeeping operations we will continue to deploy some 
guardsmen.
    Senator Cochran. It seems to me that, with the continued 
pressures and strains on family relationships and 
unpredictability of deployment schedules, how you can maintain 
a job at home, in the traditional sense of the Guard and 
Reserve being mobilized for emergencies only, things that 
aren't anticipated or couldn't be handled by regular forces--do 
you see any breakdown in the system?
    General Hargett. You know, as the former Adjutant General 
of the Tennessee Guard, I can speak for Tennessee. But I will 
tell you that the one thing that's unrecognized in what we have 
done for the last 10 years are the families and employers who 
have--I will tell you that I think the guardsmen are willing to 
do this forever. I think the strain will be families and 
employers as we go forward, and I think we've got to have 
programs that take care of families, programs that take care of 
employers, and look toward the future.
    But I think continued use of the Guard and Reserve can 
easily be accomplished with the proper programs with employers 
and families involved in those programs.
    Senator Cochran. Well, I know just from my personal 
experience, my son was a National Guard officer in the 
Mississippi Army National Guard and he loved it and was ready 
to go any minute, anywhere. I think that's an indication of the 
way most people felt in our State. I just wonder how long they 
can sustain that, though, and manage family, homes, careers, 
which is what they do.
    But thank you very much. It's a real compliment, I think, 
to those who are involved in the Guard and continue to make it 
an important force for our national security.
    General Hargett. Thank you.
    Senator Cochran. Thank you for your service.
    Chairman Inouye. Thank you.
    Senator Shelby.
    Senator Shelby. I just appreciate his appearance here and 
his testimony. All of you, I think this has been a good 
hearing. I know you've had limited time, but we're going to 
absorb a lot of this.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Mr. Lumme.

STATEMENT OF DALE LUMME, NATIONAL EXECUTIVE DIRECTOR, 
            NAVY LEAGUE OF THE UNITED STATES
    Mr. Lumme. Chairman Inouye, Ranking Member Cochran, 
distinguished members of the subcommittee: Thank you for the 
opportunity to appear before you today to discuss the most 
urgent needs of our sea services and maritime industry. As a 
retired Navy captain and naval aviator, and on behalf of the 
thousands of worldwide members of the Navy League, I would like 
to thank this subcommittee for its diligent stewardship and 
oversight of the sea services. I think, as witnessed by 
Chairman Inouye receiving the highest Navy League award 3 years 
ago for his maritime stewardship and then the reigning Navy 
League Award winner Senator Cochran, thank you for your service 
to the Navy, Marine, Coast Guard, and flag merchant marine.
    The Navy League is a nonprofit civilian organization whose 
mission it is to educate the American people about the enduring 
importance of sea power to a maritime Nation and to support the 
men and women of the United States sea services. Since the Navy 
League's founding in 1902 with the support of President Teddy 
Roosevelt, the organization has vigorously promoted America's 
maritime interests through our strong advocacy of our sea 
services, the U.S. flag merchant marine, Coast Guard, Marine 
Corps, and Navy.
    President Roosevelt asserted that a Navy could justify its 
existence only by the protection of maritime shipping. He 
stated that ``True national greatness has in all ages and in 
all countries throughout the world been based upon waterborne 
commerce.''
    Just this past weekend, in response to the President's 
weekend address, North Dakota Senator John Hoeven stated: 
``Over 100 years ago, President Roosevelt launched a Navy 
mission known as the Great White Fleet on a voyage around the 
world. President Roosevelt's leadership put the world on notice 
that the United States was a global maritime Nation open for 
business.''
    The Navy League strongly believes that a vibrant U.S. 
maritime industry is a critical part of our national security 
and now a vital part of our economic recovery. Navy veteran 
President John F. Kennedy in June 1963 aboard the USS Kitty 
Hawk stated: ``Recent events have indicated that control of the 
sea means security, control of the seas can mean peace, and the 
United States must control the seas to protect its own national 
security.''
    Over the last 20 years, a disturbing trend has emerged. We 
continue to ask our sea services to do more and more for our 
country, yet the size of our naval fleet continues to shrink. 
The Congress has heard recent testimony that our Navy is at its 
lowest level since 1916.
    It is not the job of the Navy League to advise the U.S. 
Congress how to tackle our national debt crisis, but it is the 
job to pass appropriations bills and not continuing 
resolutions. The Navy and Marine Corps and Coast Guard is still 
recovering from the continuing resolution from fiscal year 2011 
and we implore upon you for fiscal year 2012 not to pass 
another continuing resolution to harm our combat readiness.
    It may appear an easy way to cut spending is to cut defense 
and big procurement items like ships and aircraft, and that may 
be considered some of the easiest targets. The national 
security of the United States depends on a Navy with sufficient 
number of ships to maintain a forward global presence critical 
to the U.S. economy and the protection of our democratic 
freedoms that we take for granted.
    The number one problem facing the United States Navy today 
is the lack of a fully funded, achievable shipbuilding program 
that produces the right ships with the right capabilities for 
the right cost, in the most cost-efficient, economic 
quantities. The Navy League of the United States fully supports 
rebuilding the fleet to a goal, as recently stated by the 
Secretary of the Navy, of 325 ships to properly execute the 
maritime strategy.
    The Navy League also supports pursuit of multi-year 
procurement strategies for the MH-60 helicopter, continued 
acquisition of the F-35 to replace the AV-8, the acquisition of 
an affordable combat vehicle to replace the aging and costly 
amphibious assault vehicle, and, importantly, supports the 
sustainment of a significant deterrent capability of our 
ballistic missile submarine forces, including the replacement 
of the Ohio class submarines, and strongly believes this should 
be funded on a national imperative outside of the Navy's FCN. 
The Navy is buying what they can afford, not what our Nation's 
security needs.
    The CNO recently commented at a current strategy forum: 
``It is our persistent forward presence that allows for speed 
and flexibility of response for our Nation that has been called 
upon repeatedly over the last 2 decades, and most recently in 
ongoing ops in Libya and Japan.''
    The Secretary of the Navy recently commented that: 
``Sometimes the U.S. Navy-Marine Corps team follows the storm 
to the shore and sometimes it must bring the storm.'' The 
United States is a maritime Nation with global 
responsibilities. With a forward-engaged naval tradition as a 
foundation of our existence, the Navy-Marine Corps team is 
inseparable.
    The future success of shipbuilding and many of our Navy 
programs is contingent upon our Nation's support of science, 
technology, engineering, and math education programs. The Navy 
League strongly supports additional funding levels for STEM and 
is working to support efforts to expand this program through 
our Navy Sea Cadets and Worldwide Councils.
    In conclusion, America is a maritime Nation and must 
maintain its status of maritime superiority if there is to be 
peace and prosperity and economic prosperity throughout the 
world.
    Thank you for your continued support of America's sea 
services.
    [The statement follows:]

                    Prepared Statement of Dale Lumme

    Chairman Inouye, Ranking Member Cochran, distinguished members of 
the Subcommittee, thank you for the opportunity to appear before you 
today to discuss the most urgent needs of our sea services and maritime 
industry.
    On behalf of the 50,000 members of the Navy League worldwide, I 
would like to thank this committee for its diligent work to ensure our 
sea services are provided with the very best our country can give them.
    The Navy League is a nonprofit civilian organization whose mission 
is to educate the American people and their leaders about the enduring 
importance of sea power to a maritime nation, and to support the men 
and women of the U.S. sea services.
    Since the Navy League's founding, in 1902, with the support of 
President Theodore Roosevelt, the organization has vigorously promoted 
America's maritime interests through our strong advocacy of all the sea 
services--to include the U.S.-Flag Merchant Marine, the U.S. Coast 
Guard, the U.S. Marine Corps and the U.S. Navy--and the industries that 
support them.
    The founding direction of the Navy League--adopted 109 years ago--
is still appropriate today. The Navy League mission strongly supports 
the long-standing U.S. policy that a viable U.S. maritime industry is a 
critical part of our national security and now a vital part of our 
economic recovery.
    President Roosevelt asserted that a navy could justify its 
existence only by the protection of maritime shipping. He described the 
sea as a network of trade routes, and stated that true national 
greatness has, in all ages and in all countries throughout the world, 
been based upon waterborne commerce.
    It is the Navy League's firm belief that providing for maritime 
security is--and must always be--the first and most important 
cornerstone of national security.
    However, over the last 20 years, a disturbing trend has emerged. We 
continue to ask our sea services to do more and more for our country, 
yet the size of our naval fleet continues to shrink and plans to fund 
and rebuild naval platforms continue to be plagued by unchecked cost 
growth and significant construction delays. The security and prosperity 
of our Nation lies in our ability to protect and defend our people, our 
shores and our economic interests at home and abroad. Until we change 
the tone of the conversation on the industrial base and future 
readiness from ``like to have'' to ``urgent priority,'' we may be 
putting the security and prosperity of the American people in jeopardy.
With respect to the Navy League's support of the United States Navy
    The number one problem facing the Navy today is the lack of a fully 
funded, achievable shipbuilding program that produces the right ships, 
with the right capabilities, for the right costs, in the most cost 
effective economic quantities.
    The goal of a 325-ship Navy is a long way from reality, but as we 
have seen in recent operations this Nation's fleet is in high demand on 
a daily basis.
    Our fleet already is stretched to the breaking point and it will 
become more difficult to react rapidly to humanitarian and disaster 
situations and stand ready to defeat aggression. The United States will 
not be able to meet all of our global commitments as the number of 
ships continues to decline.
    In order to provide our Nation with the maritime security 
capability needed to meet our global commitments, our Shipbuilding and 
Conversion, Navy (SCN) account should be funded at $25 billion per year 
(or more) to achieve a force level of 325 ships.
    A 325-ship Navy is not just a number. It means hulls with the 
capability to maintain presence, project power and influence events. 
They must be capable of prevailing in conflict, whether alone or as 
part of a task force.
    The fleet must have sufficient aircraft of the right mix, and key 
to that requirement is getting the next-generation fighter/attack 
aircraft--the carrier variant and the short take-off and vertical-
landing (STOVL) variant of the F-35 Lightning II, also known as the 
Joint Strike Fighter (JSF)--operational in numbers. The timely delivery 
of the JSF, along with the recently extended multiyear buy of F/A-18E/F 
Super Hornet multirole fighters and EA-18G Growler airborne electronic 
attack aircraft, will help close the projected strike fighter gap in 
the latter part of this decade.
    Finally, it is vitally important that the Navy maintain a credible 
cyber force and develop leap-ahead, interoperable and resilient 
capabilities in cyberspace to successfully counter and defeat a 
determined, asymmetric threat.
    Chief of Naval Operations Admiral Gary Roughead recently commented 
at the Current Strategy Forum in June 2011 that:
    The Navy's forward presence and flexible range of capabilities 
gives our Nation options to remain globally engaged with partners, and 
ensure our access wherever our Nation's interests might dwell.
    While our ships are able to surge on short notice, it is our 
persistent forward presence that allows for the speed and flexibility 
of response the Nation has called upon repeatedly over the last two 
decades, and most recently in ongoing operations in Libya and Japan.
    Specifically, the CNO stated:

    ``Off Libya, deployed ships and submarines broke off their patrol 
and maritime ballistic missile defense missions to deliver tomahawk 
missiles against radar and command and control sites, creating in short 
order the conditions under which a no-fly zone could be imposed.
    ``Off Japan, the deployed Ronald Reagan Strike Group responded 
immediately to the natural disaster there, with helicopter flights to 
deliver humanitarian aid and medical capabilities, with nuclear 
expertise and heavy lift to participate in the relief effort.''

    The Navy League of the United States:
  --Fully supports rebuilding the fleet to a level of 325 ships to 
        properly execute the Maritime Strategy and, inclusive in this 
        ship count, should be not less than: 11 aircraft carriers; 38 
        amphibious ships, four more if the Global Fleet Station concept 
        is adopted; 48 attack submarines; and 55 Littoral Combat Ships 
        (LCSs).
  --Supports the sustainment of a minimum of 10 carrier air wings, 
        including the continued multi-year procurement of the F/A-18E/F 
        Super Hornet, the pursuit of multi-year procurement strategies 
        for the MH-60 helicopter and the E-2C/D Hawkeye airborne early 
        warning (AEW) aircraft, and full development and follow-on 
        procurement of the F-35 Lightning II.
  --Supports the continuing development, procurement and deployment of 
        the Navy portion of the Ballistic Missile Defense System, 
        including long-range surveillance and tracking capability to 
        queue ground-based intercept systems and, ultimately, the 
        ability to detect, track and engage medium and long-range 
        ballistic missiles well distant from the United States.
  --Supports the sustainment of the significant deterrent capability 
        that our ballistic-missile submarine, or SSBN, force offers, 
        including the replacement of the Ohio-class SSBNs at the rate 
        of one per year, which should be funded as a national 
        imperative outside of the Navy's SCN plan.
  --Strongly supports the acquisition of two new Virginia-class 
        submarines per year.
  --Supports maintaining two U.S.-owned sources for building Navy 
        submarines, and maintaining a teaming agreement for 
        constructing Virginia-class submarines wherein one shipyard 
        serves as the prime contractor and the other serves as its 
        major subcontractor.
  --Supports the Navy's LCS acquisition strategy to select 10 units of 
        each hull form, based on sea trials and operating experience of 
        the initial hulls, to attain the unique attributes of each for 
        the LCS class.
  --Supports the P-8A Multi-mission Maritime Aircraft and Broad Area 
        Maritime Surveillance System, which will contribute 
        surveillance data to Maritime Operations Centers and Regional 
        Operations Centers. These centers will fuse information for 
        dissemination to Navy, Coast Guard and Joint Force Maritime 
        Component Commanders and our allies for military and 
        counterdrug operations.
  --Supports the continuing integration of unmanned aircraft systems 
        (UASs) into the fleet, including the expansion of the 
        deployment of the MQ-8B Fire Scout vertical takeoff unmanned 
        aerial vehicle, and deploying an unmanned aircraft squadron on 
        an aircraft carrier at the earliest opportunity.
  --Believes that increased emphasis and funding is required to allow 
        Navy and Coast Guard operations in the polar regions to protect 
        our access to natural resources as well as preclude these 
        regions from becoming sanctuaries for potential adversaries. 
        Communications, logistics, ship and aircraft modifications are 
        essential for such operations.
  --Supports continued funding for Combat Logistics Force assets, 
        including oiler/ammunition carriers and dry cargo/ammunition 
        carriers; large, medium-speed roll-on/roll-off ships; and new 
        classes of special mission vessels, all of which will be 
        employed in the Maritime Preposition Force (Future) squadrons.
  --Urges that naval C\4\ISR systems have increased levels of 
        information flow, resource assignments and adaptability, and 
        that procurement processes be modified to ensure the rapid 
        insertion of new technology.
  --Supports Navy emphasis on cyber warfare to ensure the viability of 
        our C\2\ systems even in the face of increased cyber attacks.
  --Supports rapid passage of the United Nations Convention on the Law 
        of the Sea, or Law of the Sea Treaty, which seeks to establish 
        a comprehensive set of rules governing the oceans.
With respect to the Navy League's support of the United States Marine 
        Corps
    The United States is a maritime nation with global 
responsibilities. With a forward engaged naval tradition as the 
foundation of our existence, the Navy-Marine Corps Team is inseparable. 
The forward presence allows for the Navy-Marine Corps Team to build 
relationships around the globe. But, we must remember, countries, like 
mothers-in-law, are happy to see you come, but you are just as happy to 
see you go.
    The Navy-Marine Corps Team's persistent forward presence and 
multimission capability present an unparalleled ability to rapidly 
project U.S. power across the global commons--land, sea, air, space and 
cyber.
    Amphibious forces with robust and organic logistical sustainment 
bring significant advantages, including the ability to overcome the 
tyranny of distance and to project power where there is no basing or 
infrastructure--a strong deterrent capability for our Nation. To 
Marines, ``expeditionary'' is a state of mind that drives the way they 
organize, train, develop and procure equipment.
    By definition, the role of the Navy-Marine Corps Team as America's 
crisis response force necessitates a high state of unit readiness and 
an ability to sustain ourselves logistically.
    The Corps must regain its expertise in amphibious operations and 
maintain that capability in force structure. The service also must be 
provided the resources to reset the force; restore or acquire anew the 
equipment capabilities consumed in the ongoing wars; and field the F-
35B STOVL variant, develop a new, affordable Amphibious Combat Vehicle 
and field sufficient amphibious lift, starting with an additional LPD 
17.
    The new Marine Armor System, the up-armored High Mobility 
Multipurpose Wheeled Vehicle (or Humvee), the Marine Personnel Carrier 
and the Joint Light Tactical Vehicle will be instrumental in achieving 
these goals. To enhance the forcible-entry ability, the Corps must 
develop the expeditionary fighting vehicle replacement vehicle, the 
Amphibious Combat Vehicle.
    Significant support is needed for weapon improvements for the 
MAGTF, particularly in the 155 mm Howitzer, the High Mobility Artillery 
Rocket System (HIMARS) and Naval Surface Fire Support.
    Within Marine Aviation, the F-35B STOVL variant of the Lightning 
II, the MV-22 Osprey tiltrotor, the CH-53K heavy-lift helicopter, the 
UH-1 and AH-1 helicopters will provide the MAGTF commander with 
unsurpassed warfighting capability.
    The combatant commanders (COCOMs) multiple missions require more 
than the planned number of amphibious ships to meet their demand for 
forward presence and crisis response. At a minimum, 38 amphibious ships 
are needed to provide an adequate number of Expeditionary Strike Groups 
(ESGs) and Marine Expeditionary Units, deploy naval forces in single 
ships as Global Fleet Stations and provide adequate time for training 
and maintenance.
    The COCOMs know that in a natural disaster or humanitarian crisis, 
a large-deck amphibious ship is the most utilitarian platform in the 
naval fleet. The Amphibious Force brings helicopter lift, mobile 
communications, medical and engineering, all the capabilities most 
needed in a humanitarian assistance or disaster relief scenario.
    The Nation requires a fleet of amphibious ships to support the 
forcible entry amphibious force of two brigades. In light of fiscal 
constraints, the Department of the Navy stated that it will sustain a 
minimum of 33 amphibious ships in the assault echelon. Amphibious 
capability demands sea basing and the Maritime Prepositioning Force. 
Protecting U.S. interests around the globe and forcible entry are 
directly tied to these amphibious capabilities.
    The Navy League of the United States supports:
  --The full funding of costs associated with resetting the force to 
        meet current and future requirements.
  --The acquisition of an affordable amphibious combat vehicle to 
        ensure we have the ability to maneuver against adversaries that 
        are becoming increasingly capable, and to replace the aging and 
        costly Amphibious Assault Vehicle force.
  --The continued acquisition of the F-35B to replace the AV-8 Harrier 
        and F/A-18 Hornet aircraft, and the acquisition of unmanned air 
        and ground systems to further enhance the flexibility, mobility 
        and versatility of Marine Corps forces.
  --Adequate Navy shipping and sealift platforms to provide the 
        expeditionary lift to support present and future COCOM 
        requirements.
  --Continued full-rate production of the MV-22 Osprey. Recent 
        successful deployments to Afghanistan of the MV-22 reinforce 
        the immediate need for this capability for both the Marine 
        Corps and U.S. Special Operations Command.
  --The recapitalization of the workhorses of Marine Corps aviation--
        the KC-130J aircraft, equipped with an improved aerial 
        refueling system, and the CH-53K, and the acquisition of UH-1Y 
        Huey and AH-1Z Super Cobra helicopters.
  --The acquisition of modern air, ground and logistics C\2\ systems 
        such as Combat Operations Centers, the Joint Tactical Radio 
        System, the Common Air C\2\ System, Joint Tactical Common 
        Operational Picture Workstation and the Global Combat Support 
        System to support joint and coalition operations.
  --The successful and continuous armor upgrades of vehicles as well as 
        anti-sniper technology and anti-improvised explosive device 
        technologies.
  --The continued acquisition of MAGTF fires improvements, particularly 
        in the 155 mm Howitzer and HIMARS, and sufficient naval surface 
        fire for joint forcible-entry operations.
  --The ongoing reconstitution and modernization efforts in the wake of 
        the extremely demanding rotation cycle of personnel and 
        equipment in Afghanistan.
  --The transition to network-centric expeditionary forces able to 
        execute the war on terrorism with ready, relevant and capable 
        forces, supported by ISR assets that strengthen joint and 
        combined capabilities, ensure presence and provide surge.

With respect to the Navy League's support of the United States Coast 
        Guard
    The U.S. Coast Guard, the 5th Armed Force, is the lead agency for 
maritime homeland security. The USCG is in the process of determining 
operational requirements for the Offshore Patrol Cutter, and then will 
build the ships as soon as feasible to replace outdated and unreliable 
Medium Endurance Cutters. The total requirement is for 25 vessels 
delivered at two per/year.
    Global climate change is opening up polar sea lanes, highlighting 
competing territorial claims. Therefore, it is essential that 
responsibility for ensuring our national sovereignty and interests in 
the Polar Regions is assigned appropriately to the U.S. Coast Guard.
    The NLUS Supports the transfer of icebreaker maintenance funds from 
the National Science Foundation to the Coast Guard. The need for a 
robust presence in the polar regions is supported by the Joint Chiefs 
of Staff to accommodate security and sovereignty concerns. The first 
step is to put the management of the Nation's icebreaking capability 
where it belongs--with the Coast Guard.

With respect to the Navy League's support of the United States Flag 
        Merchant Marine
    A strong commercial U.S. Flag Merchant Marine is more critical than 
ever.
    95 percent of the equipment and supplies required to deploy U.S. 
forces is delivered by U.S. flagged and government owned vessels, 
manned by U.S. citizen mariners.
    The Navy League of the United States supports the Jones Act and the 
Passenger Vessels Services Act which requires U.S. built ships and U.S. 
citizen crews--because they protect critical national infrastructure 
and provide added sealift capacity, are important to economic and 
national security.
    The recapitalization of the ready reserve force (RRF) is vitally 
important to our maritime industry. The RRF should not be cut back 
until sufficient replacement capacity and capability are available.
    A strong strategic sealift merchant reserve component is needed in 
the U.S. Navy to ensure that critical mariner skills and experience are 
retained to support Navy and strategic sealift transportation.
    The Navy League of the United States supports combined government 
and industry efforts to counter piracy by introducing new technologies, 
and if requested by the shipping companies, placing armed guards aboard 
ships to prevent boardings.

                              SHIPBUILDING

    The Navy continues to struggle to meet its operational demand for 
deployable warships. The Navy deploys as many ships today as it did in 
the early 1990s, but with only two-thirds the number of ships in the 
fleet. The Navy is hard pressed to match and outpace threats from 
ballistic missiles, cruise missiles, aircraft and submarines.
    All three of the U.S. Navy's fleets--the fleet in planning, the 
fleet in construction and the fleet in being--are stressed with budget 
limitations.
    Good news lies with the success of aircraft carrier construction 
and the midlife refueling overhauls of the existing Nimitz class. The 
Virginia-class submarine construction continues with two boats a year 
authorized and funded beginning in 2011.
    The Ohio SSBN replacement is under design, with efforts to restrain 
costs and still meet the expected operational demands. This development 
and construction program, if allowed to remain in the Navy's SCN 
funding accounts, will create havoc with other vital construction 
programs. These costs should be funded independently as a national 
strategic investment.
    Major shipyards along the gulf coast have suffered from modest 
amounts of facility modernization and significant storm damage repair 
over the past decade. These shipyards must be able to plan on a 
sustainable and predictable workload, which will provide the revenue to 
support a trained work force, and facilities needed to construct our 
fleet.
    Along with constructing and supporting the Navy fleet, these yards, 
with the Naval Sea Systems Command, must support and cooperate closely 
with the U.S. Coast Guard, Military Sealift Command and MARAD. The 
plans, best practices, procedures, and research and development all 
must be shared with the industrial base. There also must be development 
in the domestic oil and gas industry's emergency response capability, 
sufficient to handle large and small oil spill response, such as the 
Deepwater Horizon oil spill.
    The shipbuilding industry needs increased investment in maritime 
research and development that includes dual-use vessels for America's 
Marine Highway System, with military-useful capabilities that can be 
called upon for DOD strategic sealift capability.
    The Navy must continue to strengthen and improve research and 
reassess its design, procurement and integration processes to produce 
affordable, combat-credible and survivable surface ships and 
submarines. Research is vital to the future fleet and its capabilities.
    The Navy League of the United States supports:
  --An increase of shipbuilding funds to the level of at least $25 
        billion per year, with the associated research and development 
        dollars to fund the requirements and design work that precedes 
        contracting for ship and submarine construction.
  --Ensuring that the funds for the SSBN(X), the Ohio-class submarine 
        replacement, are provided as needed outside of the Navy's SCN 
        budgets to preclude the disruption and delay of other vital 
        shipbuilding programs.
  --Adequate funding to recover and continue to build and sustain a 
        vital organic Navy Shipbuilding Technical Authority, including 
        a robust design and research capability and capacity, which has 
        dwindled and remains at a reduced and inadequate size.

                            INDUSTRIAL BASE

    The industrial base that services this Nation's Sea Services is, at 
best, stagnant and most likely declining. This is cause for great 
concern because it inhibits efficient ship construction, ship repair 
(battle damage) and ship modernization in a time of increased tension 
or crisis. It also inhibits price and technical competition, which 
results in paying more for goods and services and acquiring less 
advanced equipment and systems for warships and aircraft.
    The Navy and Coast Guard are only purchasing what they can afford--
not what they require to meet fleet needs. Our stocks of spare parts 
are reduced in number and our critical battle spares (shafts, 
propellers, reduction gears) are nearly nonexistent. The same limited 
availability of combat system components, such as weapon launchers, 
guns and sensors, would preclude our performing meaningful battle 
damage repairs and restoration, which with a small fleet is an 
important capability.
    The only practical source of this equipment today is found in the 
new-construction shipyards. The manufacturing lead time is extensive, 
therefore we need spares. The defense supply system stocks little if 
any of the critical steel, aluminum, piping and electric cable needed 
for major repairs.
    The labor pool possessing the critical skills necessary to produce 
our equipment and systems and construct our warships is aging, with key 
personnel leaving and not being replaced in kind. Ship construction and 
related industries are not viewed by today's younger generation as a 
viable career path.
    The key element to achieving on-time and on-price production for 
our technically advanced systems and ships is a trained and dedicated 
workforce. These shortages result in the all-too-common poor 
performance experienced in shipyards and manufacturing plants. The only 
solution is additional training and education at all levels. We are 
especially stressed with the low number of experienced ship design 
personnel and senior managers within the Navy and in industry.
    The future success of shipbuilding and many other Navy programs is 
contingent on our Nation's support of Science, Technology, Engineering, 
and Mathematics (STEM) education programs. According to the Office of 
Naval Research, more than 30 percent of current DOD Science and 
Technology professionals are expected to retire within the next 9 
years.
    STEM education equips our next-generation Sailors, Marines, 
scientists, architects, and engineers with the tools they need to 
develop new technologies and platforms that will defend America in the 
future.
    The National Science Foundation notes that roughly half of all U.S. 
economic growth over the last 50 years was the product of scientific 
innovation. It is vital to our economic and national security that we 
encourage and support math and science education programs at all 
levels. A host of programs have been designed and funded in STEM 
disciplines in order to reach kids in middle school and high school and 
inspire them to explore the opportunities and rewards that exist with a 
technical major.
    From its beginnings, the U.S. Navy has been a leader in leveraging 
technology and developing science-based solutions to defend U.S. 
interests. Today's investments in science and technology research will 
help the Navy maintain its edge as the high-tech service of the future. 
The Navy League supports additional funding levels for STEM and is 
working to support efforts to expand this program.
    Global trade is still robust, yet our own foreign commerce is 
carried in mostly foreign-built and foreign-crewed ships. A modest 
increase, beyond Jones Act construction, in commercial shipbuilding 
would give a substantial boost to our shipyards and marine vendors.
    Facilities at the larger shipyards in the United States are capable 
of constructing merchant ships as well as warships, but cannot match 
the costs, schedules and efficiencies of shipyards in Europe and Asia. 
On the other hand, U.S. yards construct and equip the best warships, 
aircraft carriers and submarines in the world. They are unmatched in 
capability, but are struggling to maintain that lead.
    No nation can support and sustain a capable and sizeable Navy 
without a strong and sustaining industrial base manned with adequate 
numbers of skilled personnel. It is essential that this Nation have a 
policy at the highest levels of government to support and sustain an 
adequate industrial base capable of providing and supporting a strong 
Navy and maritime commerce.
    The Navy League of the United States urges:
  --The U.S. Government to develop and institute an effective 
        industrial base policy that addresses critical issues such as 
        the development of improved ships, ship systems and weapons 
        with the capacity to annually produce multiple ships of a class 
        and the capability to increase capacity rapidly in time of 
        national need or emergency.
  --An increased and stable level of predictable funding for the ships, 
        submarines, aircraft and combat systems that are the essential 
        elements of our fleet. The cost of these programs continues to 
        rise beyond normal inflation rates, which is linked to low 
        production rates and unstable funding. Improved staffing, 
        additional research and stable programs with a reasonable 
        annual production rate will help contain rising costs. Costs 
        are related to schedule and, at present, our production times 
        are excessive and should be reduced. A strong industrial base 
        will assist in achieving affordable pricing for the Navy's 
        programs.
  --Capital investments in our existing infrastructure to allow us to 
        stay abreast of the latest technological advances, attract the 
        best young engineers and skilled workers, and ensure that we 
        have the capability and capacity to surge repair, produce and 
        construct the nation's fleet in time of crisis.
  --Expanded use of advanced acquisition strategies, including block 
        buys, multiyear-priced options with innovative funding 
        approaches, such as time-phased and advanced appropriations 
        that stabilize accounts and avoid disruptive funding spikes and 
        voids.
  --Support of the provision included in the fiscal year 2012 National 
        Defense Authorization Act that allows the Secretary of the Navy 
        the authority of advance purchase of major components during 
        construction of the next two Ford-class aircraft carriers and 
        to achieve cost savings by entering into multiyear advance 
        procurement agreements.
  --Adopting incentives to cut costs and schedules and reward firms 
        that achieve significant savings in both money and time, while 
        maintaining quality. This will create an environment in which 
        high-performing companies can achieve returns on capital 
        comparable to those commercial enterprises of similar risk and 
        capitalization. Contracts should be structured so that earning 
        higher fees for higher performance is achievable.

                          RESETTING OUR FORCES

    The national imperative to reset our Maritime Forces requires, not 
only the replacement of equipment, but also demands the continued 
effort to attract, train and retain intelligent and capable men and 
women.
    The resetting of our Maritime Forces requires the will of the 
American people, the President and Congress to commit the necessary 
resources to be prepared for our Nation's next battle. We can no longer 
demand more from an already stressed manpower pool to respond to 
worldwide disasters while redeploying to war zones and maintaining a 
high operational tempo.
    Combat operations have been continuous and equipment has been 
subjected to intense use in harsh environments. Aside from the 
requirement to buy new equipment for the increased end strength, the 
entire force needs extensive rehabilitation, repair and replacement as 
weapons and equipment are rotated out of combat.
    Likewise, prepositioned stocks and training base stocks must be 
replenished. The current reset cost estimate exceeds $15.6 billion, of 
which only about $10.9 billion has been funded. As the fight continues, 
the reset costs for equipment and training will increase apace, and 
Congress needs to understand and support this requirement.
    As the Marine Corps modernizes its combat forces, funding must be 
continued for individual survivability programs, to include personal 
protective equipment, lighter-weight gear and modern force-protection 
systems. Ground mobility must be improved to provide the Marine Corps 
the capability to effectively operate across the mission spectrum yet 
remain tailored in size to be deployable and employable.
Navy League Community Service
    Every year, the Navy League participates in countless activities 
that support service members and their families. Highlights of some of 
the accomplishments of the Navy League this past year include:
  --$1,395,712 was given by Navy League of the United States to support 
        the members of the sea services and their families.
  --Navy League supported 1,545 Welcome Home Receptions, Holiday 
        Parties, Child Care, R&R Programs, Ship Dinners and Luncheons 
        and BBQ's totaling $603,046.
  --Navy League adopted or supported 401 Navy, Coast Guard and Merchant 
        Marine ships and Marine Corps units in 2010.
  --Navy League organized or provided substantial support for 16 Navy 
        and Coast Guard ship commissioning ceremonies.
  --1,925 Sea Service Awards were given in 2010 totaling $185,720.
  --$41,970 was given in support of 546 transitioning sea service 
        members and their families.
  --$230,227 was provided to 146 Sea Cadets.
  --$103,158 was provided to 415 JROTC units.
  --$112,981 in scholarships were given to 71 sea service youths.
  --Over $20,000 worth of care packages were sent to the USO and troops 
        overseas.
  --Over 1 million paperback books have been sent to Operation 
        Paperback for overseas military personnel.
    Additionally, the Navy League of the United States is the sponsor 
of the Naval Sea Cadet Corps (NSCC). The Sea Cadets were founded by the 
Navy League in 1958 at the request of then-CNO Admiral Arleigh Burke. 
The goal was to establish a youth organization that would ``create a 
favorable image of the Navy on the part of American youth.'' The Naval 
Sea Cadet Corps was subsequently chartered by Congress in 1962 as a 
nonprofit, civilian development and training organization for youth 
ages 13 through 17, sponsored by the Navy League and supported by both 
the U.S. Navy and U.S. Coast Guard.
    The Sea Cadets recently signed a Memorandum of Understanding with 
the Coast Guard Auxiliary for training and support, and have also 
discussed Sea Cadet participation in the activities of NOAA. Included 
under the NSCC umbrella is the Navy League Cadet Corps, a junior 
program for children ages 11 through 13. The NSCC program has grown 
nationally to 10,487 participants in 387 units in all 50 States, Guam 
and Puerto Rico. The program is run by volunteers with the objective of 
developing within youth an interest and skill in seamanship and 
seagoing subjects; developing an appreciation for our navy's history, 
customs, traditions and its significant role in national defense; 
developing positive qualities of patriotism, courage, self-reliance, 
confidence, and pride in our Nation and other attributes which 
contribute to development of strong moral character, good citizenship 
traits and a drug-free, gang-free lifestyle; and to present the 
advantages and prestige of a military career.
    Many cadets enlist in the services, estimated at about 2,000 per 
year from an eligibility pool of about 20,000. Admiral Roughead 
recently indicated that every ex-Sea Cadet that enlists in the Navy 
represents a $14,000 saving in recruiting costs to the Navy. We are 
very proud that over 12 percent of the current brigade of Naval Academy 
Midshipmen are former Naval Sea Cadets.

                               CONCLUSION

    Forward deployed forces provide a forward presence creating global 
engagements that are critical to the U.S. economy, world trade and the 
protection of democratic freedoms that so many take for granted. The 
guarantors of these vital elements are hulls in the water, boots on the 
ground and aircraft overhead.
    Since ``presence with the capability to engage'' is the primary 
strength of the Sea Services, it is imperative that we fund an 
aggressive shipbuilding and modernization program. Sustained maritime 
superiority is paramount to supporting the American economy.
    America is a maritime nation and must maintain its status of 
maritime superiority if there is to be peace and economic prosperity 
around the world. Secretary of the Navy Mabus recently commented that: 
``Sometimes the U.S. Navy-Marine Corps Team follows the storm to the 
shore--sometimes we must bring the storm''.
    In 2020, 40 percent of the U.S. Gross Domestic Product will be 
dependent on ocean shipping and maritime trade. Maritime superiority is 
essential to our economy.
    The Navy League is committed to educating and informing, the senior 
leadership in the Executive and Legislative branches of the U.S. 
Government, as well as the media and the American people, of the 
continuing need for U.S. sea power, both naval and commercial, to 
protect U.S. interests throughout the world and ensure the Nation's 
economic well-being.
    The most important ``reform'' that can be made in the field of 
national defense is to provide adequate funding for America's Sea 
Services, which are the greatest force for peace in the world.

    Chairman Inouye. Thank you very much, Mr. Lumme.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    Thank you very much, Mr. Lumme, for your comments and 
observations. I know the Navy League is a voluntary 
organization of mostly former officers or enlisted active duty 
persons who have served in the U.S. Navy; is that right?
    Mr. Lumme. Actually, it's not, sir. We only have 28 percent 
that are former military, so we have over 70 percent that are 
volunteers that had no military service at all.
    Senator Cochran. How do you sell people on the fact that 
they ought to pay dues to the Navy League? What is the purpose 
of the organization?
    Mr. Lumme. Our advocacy of the sea service is not only for 
the combat readiness and support of maritime--because we do 
flag merchant marine and Coast Guard also. We also support the 
families. We have individual augmentee programs, we have adopt 
a sailor programs, adopt a ship programs. Most of the ship 
commissionings that go on around the United States, Coast Guard 
and Navy, are done by the Navy League as a sponsor.
    So we sell that because of patriotic support by the members 
who didn't join the military, but maybe want to help in other 
ways.
    Senator Cochran. Well, I think that's admirable and I 
commend you for the work you do. I enjoyed serving in the Navy. 
We were lucky we weren't at war at the time. I might not have 
enjoyed it so much if somebody had been shooting at us or 
trying to sink our ship.
    But the Navy has really done a great job in projecting 
power and a presence and influence throughout the world, I 
guess for the last--how many years? When did the Navy League 
start?
    Mr. Lumme. The Navy League started in 1902.
    Senator Shelby. 1902. Quite a record of service and 
accomplishment.
    Thank you.
    Chairman Inouye. Thank you.
    Senator Shelby.
    Senator Shelby. Mr. Chairman, I just want to tell Mr. Davis 
I appreciate his testimony and appearing here today.
    Chairman Inouye. Our next witness is Mr. John Davis of the 
Fleet Reserve Association.

STATEMENT OF JOHN R. DAVIS, DIRECTOR, LEGISLATIVE 
            PROGRAMS, FLEET RESERVE ASSOCIATION
    Mr. Davis. Chairman Inouye, Vice Chairman Cochran, and 
Senator Shelby: My name is John Davis and I want to thank you 
for the opportunity to express the views of the Fleet Reserve 
Association.
    Ensuring adequate funding for the military health system is 
a top legislative priority for the association and very 
important to every segment of our membership. This is reflected 
in responses to the association's 2011 online survey, which 
revealed that over 90 percent of all active duty, reserve, 
retired, and veteran respondents cited healthcare access as a 
critically important quality of life benefit associated with 
their military service.
    FRA opposes drastic TRICARE enrollment fee increases and 
opposed the 2006 proposed increase, which was up to $2,000 
increase every year for TRICARE Prime and an estimated index 
which would cause an increase every year of about 7.5 percent.
    The association opposes the current administration's 
proposal. Although it provides a modest increase in 2012, it 
does mandate further increases past 2012 based on an index that 
measures healthcare inflation and assumes a 6.2 percent 
increase every year.
    The FRA prefers the TRICARE provisions in the House and 
Senate defense authorization bills. That, like the 
administration's proposals, provides a modest adjustment, $2.50 
per month for individuals and $5 per month for families that 
are getting TRICARE Prime, and--and I can't overestimate this 
enough--in the out-years it provides a cap for any future 
increases that is no more greater than the percentage increase 
for the cost of living adjustment for retirees. This ensures 
that the military retirees' compensation will not be eroded by 
their healthcare costs in future years.
    We are also thankful that there are no increases for 
TRICARE Standard, for their survivors, for TRICARE for Life, 
and of course for active duty military.
    The House version also eliminates copays for mail order 
generic drug prescriptions. That is something that FRA has long 
supported.
    FRA welcomes the administration's focus on creating an 
electronic health record for service members that can follow 
them to the Department of Veterans Affairs and for the rest of 
their life.
    Notwithstanding the oversight limitations, adequate funding 
for an effective delivery system between DOD and VA to 
guarantee a seamless transition and quality of service for 
wounded personnel is very important to our membership.
    The association notes that the administration has not 
proposed authorizing chapter 61 retirees to receive full 
military retired pay and veterans disability compensation, as 
it has done the last 2 years. FRA continues to seek 
authorization and funding of full concurrent receipt from all 
disabled retirees.
    Family support is also important and should include funding 
for compensation, training, and certification for respite care 
for family members functioning as full-time caregivers for 
wounded warriors. These provisions were enacted in the fiscal 
year 2011 defense authorization and are similar to the 
Caregivers and Veterans Omnibus Health Care Service Act, S. 
1963, that was enacted for the VA. Both acts improve 
compensation, training, and assistance for caregivers of 
severely disabled active duty service members.
    FRA also supports the funding for a 1.6 percent active duty 
pay increase, which at least keeps pace with salaries in the 
private sector. If authorized, FRA supports funding retroactive 
eligibility for early retirement benefit, to include reservists 
who have supported contingency operations since September 11, 
2001.
    Again, I want to thank you for allowing me to submit my 
views, the FRA's views, to this subcommittee.
    [The statement follows:]

                  Prepared Statement of John R. Davis

                                THE FRA

    The Fleet Reserve Association (FRA) is the oldest and largest 
enlisted organization serving active duty, Reserves, retired and 
veterans of the Navy, Marine Corps, and Coast Guard. It is 
Congressionally Chartered, recognized by the Department of Veterans 
Affairs (VA) as an accrediting Veteran Service Organization (VSO) for 
claim representation and entrusted to serve all veterans who seek its 
help. In 2007, FRA was selected for full membership on the National 
Veterans' Day Committee.
    FRA was established in 1924 and its name is derived from the Navy's 
program for personnel transferring to the Fleet Reserve or Fleet Marine 
Corps Reserve after 20 or more years of active duty, but less than 30 
years for retirement purposes. During the required period of service in 
the Fleet Reserve, assigned personnel earn retainer pay and are subject 
to recall by the Secretary of the Navy.
    FRA's mission is to act as the premier ``watch dog'' organization 
in maintaining and improving the quality of life for Sea Service 
personnel and their families. FRA is a leading advocate on Capitol Hill 
for enlisted active duty, Reserve, retired and veterans of the Sea 
Services. The Association also sponsors a National Americanism Essay 
Program and other recognition and relief programs. In addition, the 
newly established FRA Education Foundation oversees the Association's 
scholarship program that presents awards totaling nearly $120,000 to 
deserving students each year.
    The Association is also a founding member of The Military Coalition 
(TMC), a consortium of more than 30 military and veteran's 
organizations. FRA hosts most TMC meetings and members of its staff 
serve in a number of TMC leadership roles.
    FRA celebrated 86 years of service in November 2010. For nearly 
nine decades, dedication to its members has resulted in legislation 
enhancing quality of life programs for Sea Services personnel, other 
members of the uniformed services plus their families and survivors, 
while protecting their rights and privileges. CHAMPUS, now TRICARE, was 
an initiative of FRA, as was the Uniformed Services Survivor Benefit 
Plan (USSBP). More recently, FRA led the way in reforming the REDUX 
Retirement Plan, obtaining targeted pay increases for mid-level 
enlisted personnel, and sea pay for junior enlisted sailors. FRA also 
played a leading role in advocating recently enacted predatory lending 
protections and absentee voting reform for service members and their 
dependents.
    FRA's motto is: ``Loyalty, Protection, and Service.''

                                OVERVIEW

    Mr. Chairman, the Fleet Reserve Association salutes you, members of 
the Subcommittee, and your staff for the strong and unwavering support 
for essential programs important to active duty, Reserve Component, and 
retired members of the uniformed services, their families, and 
survivors. The Subcommittee's work in funding these programs has 
greatly enhanced care and support for our wounded warriors, improved 
military pay, eliminated out-of-pocket housing expenses, improved 
healthcare, and enhanced other personnel, retirement and survivor 
programs. This funding is critical in maintaining readiness and is 
invaluable to our Armed Forces engaged in a long and protracted two 
front war, sustaining other operational commitments and fulfilling 
commitments to those who've served in the past. But more still needs to 
be done.
    A continuing high priority for FRA is full funding of the Military 
Health System (MHS) to ensure quality care for active duty, retirees, 
Reservists, and their families. FRA's other 2011 priorities include 
annual active duty pay increases that are at least equal to the 
Employment Cost Index (ECI), to help keep pace with private sector pay, 
retirement credit for reservists that have been mobilized since 
September 1, 2001, enhanced family readiness via improved 
communications and awareness initiatives related to benefits and 
quality of life programs, retention of full final month's retired pay 
for surviving spouse, and introduction and enactment of legislation to 
eliminate inequities in the Uniformed Service Former Spouses Protection 
Act (USFSPA).
    The Association also supports additional concurrent receipt 
improvements to expand the number of disabled military retirees 
receiving both their full military retired pay and VA disability 
compensation as proposed in the administration's budget request from 
last year.
    The fiscal year 2012 budget calls for a 1.6-percent active duty pay 
increase that equals the Employment Cost Index (ECI) and FRA supports 
that increase. The Association also supports efforts to reduce the so-
called ``Military Widows tax'' imposed on beneficiaries whose Survivor 
Benefit Plan (SBP) annuity is offset by the amount they receive in 
Dependency and Indemnity Compensation (DIC), and if authorized, funding 
to support this change.

                               HEALTHCARE

    Healthcare is especially significant to all FRA Shipmates 
regardless of their status and protecting and/or enhancing this benefit 
as noted above is the Association's top legislative priority. Responses 
to a recent FRA survey indicate that nearly 90 percent of active duty, 
Reserve, retired, and veteran respondents cited healthcare access as a 
critically important quality-of-life benefit.
    The administration is proposing an increase to the TRICARE Prime 
annual enrollment fee from $230 to $260 for individuals and from $460 
to $520 per retired family. Starting in 2013 the annual enrollment fee 
would be increased to keep pace with a medical inflation index. The 
proposal also eliminates pharmacy co-pays for mail-order generic drugs 
and increases the current retail formulary pharmacy $9 co-pay by $2 to 
$3. There are no proposed increases for TRICARE Standard, survivors, 
TRICARE-for-Life beneficiaries, and those who are medically retired. 
There are also no out-of-pocket costs for active duty service members. 
This proposed fee increase would represent a 13 percent increase in the 
TRICARE Prime annual enrollment fee in the first year and would 
apparently be indexed to Medicare Part B coverage cost increases in the 
out-years. FRA is opposed to using Medicare costs for disabled and 65 
and older beneficiaries as a basis for adjusting premiums for military 
retirees age 38-64 that undoubtedly have lower healthcare costs than 
individuals under Medicare.
    If approved, FRA believes future premium adjustments for TRICARE 
Prime beneficiaries under age 65 should be based on the Consumer Price 
Index (CPI) since military retired pay cost-of-living-adjustments 
(COLAs) are based on that measure. Any index in excess of the CPI would 
grind down the value of their retired pay and would counter the purpose 
of the COLA which to maintain the purchasing power of the beneficiary. 
The House Defense Authorization bill (H.R. 1540) authorizes the 2012 
fees increase per the administration's budget, but limits further 
increases to no more than the annual COLA, and provides the requested 
changes to pharmacy co-pays.
    The House Defense Appropriations Subcommittee bill provides $32.3 
billion for the Military Health System (MHS) in 2012 which is $935 
million more than the last fiscal year and $119 million more than 
requested by the administration. In conjunction with this, FRA strongly 
supports funding to fully implement bidirectional electronic health 
records that will follow service members as they transition from DOD to 
the VA.
    FRA also notes recommendations in recent Government Accountability 
Office (GAO) testimony before the House Committee on Oversight and 
Government Reform which identified Federal programs, agencies, offices 
and initiatives that have duplicative goals or activities. Number two 
on a list of 81 areas for consideration is realigning DOD's military 
medical command structures and consolidating common functions to 
increase efficiency which would result in projected savings of from 
``$281 million to $460 million'' annually. In addition, GAO cites 
opportunities for DOD and the Department of Veterans' Affairs (VA) to 
jointly modernize their respective electronic health record systems, 
and also control drug costs by increasing joint contracting.
    DOD must continue to investigate and implement other TRICARE cost-
saving options. The Association notes the elimination of 780 contract 
positions in conjunction with streamlining TRICARE Management Activity 
functions along with increasing inter-service cooperation and co-
locating medical headquarters operations.
    FRA also notes progress in expanding use of the mail order pharmacy 
program, Federal pricing for prescription drugs, a pilot program of 
preventative care for TRICARE beneficiaries under age 65, and 
elimination of co-pays for certain preventative services. The 
Association believes these efforts will prove beneficial in slowing 
military healthcare spending in the coming years.

                          WOUNDED WARRIOR CARE

    Last year Congress authorized a monthly stipend under the DOD 
family caregiver program for catastrophically injured or ill wounded 
warriors that is equal to the caregiver stipend provided by the 
Department of Veterans' Affairs (VA). The new program will help many 
caregivers, however, the enactment and implementation of the 
legislation is only the first step and effective oversight and 
sustained funding are also critical to ensuring future support for 
these caregivers. A recent Navy Times survey on wounded warrior care 
(November 29, 2010) indicates that 77 percent of caregivers have no 
life of their own; 72 percent feel isolated; and 63 percent suffer from 
depression.

                                  DES

    In response to the Dole/Shalala Commission Report a pilot program 
was created (NDAA--fiscal year 2008--Public Law 110-181) known as the 
Disability Evaluation System (DES). The pilot provides a single 
disability exam conducted to VA standards that will be used by both VA 
and DOD and a single disability rating by VA that is binding upon both 
Departments. This pilot program has expanded and become the Integrated 
Disability Evaluation System (IDES) and is viewed as a common-sense 
approach that FRA believes will reduce bureaucratic redtape and help 
streamline the process and warrants expansion to the entire disability 
rating system. Despite jurisdictional concerns, the Association urges 
the Subcommittee to provide oversight and adequate funding as the IDES 
is implemented.

                           CONCURRENT RECEIPT

    The Association notes that the administration has not proposed 
authorizing Chapter 61 retirees to receive their full military retired 
pay and veteran's disability compensation as it has the last two fiscal 
years. FRA continues to seek timely and comprehensive implementation of 
legislation that authorizes and funds the full concurrent receipt for 
all disabled retirees and supports ``The Retired Pay Restoration Act'' 
(S. 344) sponsored by Majority Leader Senator Harry Reid (Nevada) which 
is comprehensive legislation that authorizes concurrent receipt for all 
disabled retirees, including those with less than 20 years of service 
who have been medically retired (Chapter 61s).

                         FULL FINAL MONTH'S PAY

    Current regulations require survivors of deceased armed forces 
retirees to return any retirement payment received in the month the 
retiree passes away or any subsequent moth thereafter. Upon the demise 
of a retired service member in receipt of military retired pay the 
surviving spouse is to notify the Department of Defense of the death. 
The Defense Department's finance arm, Defense Finance and Accounting 
Service (DFAS) then stops payment on the retirement account, 
recalculates the final payment to cover only the days in the month the 
retiree was alive, forwards a check for those days to the surviving 
spouse (beneficiary) and, if not reported in a timely manner, recoups 
any payment(s) made covering periods subsequent to the retiree's death. 
The recouping is made without consideration of the survivor's financial 
status.
    At a most painful time, the surviving spouse is faced with the task 
of arranging and paying for the deceased retiree's interment and that 
difficulty is only amplified by the loss of retirement income when it 
is needed most.
    That is why FRA is supporting ``The Military Retiree Survivor 
Comfort Act,'' (H.R. 493) sponsored by Rep. Walter Jones (North 
Carolina).
    The measure is related to a similar pay policy enacted by the 
Department of Veterans Affairs (VA). Congress passed a law in 1996 that 
allows a surviving spouse to retain the veteran's disability and VA 
pension payments issued for the month of the veteran's death. FRA 
believes military retired pay should be no different.
    To offset some of the costs, if the spouse is entitled to survivor 
benefit annuities (SBP) on the retiree's death, there will be no 
payment of the annuity for the month the retirement payment is provided 
the surviving spouse. If authorized, FRA urges this subcommittee to 
provide adequate funding to correct inequities associated with this 
policy.

                             DEFENSE BUDGET

    FRA supports a defense budget of at least 5 percent of GDP to fund 
both people and weapons programs. The current level of defense spending 
(4.7 percent including supplemental spending in fiscal year 2010) is 
significantly lower than past wartime periods as a percentage of GDP 
and the Association is concerned that the administration's 5-year 
spending plan of 1 percent above inflation may not be enough for both 
people programs and weapon systems.

                            ACTIVE DUTY PAY

    The military has been appropriately excluded from the pay freeze 
for Federal employees announced by President Obama on November 29, 2010 
and FRA strongly supports the proposed 1.6 percent pay increase that 
equals the 2010 Employment Cost Index (ECI). The United States however, 
is in the 10th year of war and there is no more vital morale issue for 
our current warriors than adequate pay.
    A total of 92 percent of active duty personnel who responded to 
FRA's recent quality of life issues survey consider pay as ``very 
important,'' which was the highest rating. The Association appreciates 
the strong support from this distinguished Subcommittee in reducing the 
13.5 percent pay gap to 2.4 percent since 1999 and reiterates the fact 
that the ECI lags 15 months behind the effect date of pay adjustments 
due to budget preparation and associated Congressional action on annual 
authorizing and appropriations legislation. It should also be noted 
that the enacted fiscal year 2011 1.4 percent pay increase and the 
proposed fiscal year 2012 adjustment are the smallest pay increases in 
recent memory and do not further reduce the pay gap .
    The Association recommends that this distinguished Subcommittee 
provide funding for an active duty pay increase at least equal to the 
ECI so as not to increase the pay gap between civilian and military 
pay.

                             END STRENGTHS

    Sufficient funding to support adequate end strengths for the 
military is vital for success in Afghanistan and to sustaining other 
operations vital to our national security. FRA is concerned about calls 
for reducing end strength in the out-years to save money on the defense 
budget while still engaged for almost 10 years of war in Iraq and 
Afghanistan, a third war in Libya, renewed violence in Korea late last 
year, and support for the natural disaster in Japan. The strain of 
repeated deployments continues and is reflected in troubling stress-
related statistics that include alarming suicide rates, prescription 
drug abuse, alcohol use and military divorce rates. These are also 
related to the adequacy of end strengths and the need for adequate 
dwell time between deployments--issues that have been repeatedly 
addressed in Congressional oversight hearings.

                             RESERVE ISSUES

    FRA stands foursquare in support of the Nation's Reservists. Due to 
the demands of the War on Terror, Reserve units are increasingly 
mobilized to augment active duty components. As a result, the Reserve 
component is no longer a strategic Reserve, but is an essential 
operational Reserve that is an integral part of the total force that 
has been at war for almost a decade. And because of these increasing 
demands, including missions abroad over longer periods of time, it is 
essential to ensure adequate funding for military compensation and 
benefits to retain currently serving personnel and attract quality 
recruits.
    Retirement.--If authorized, FRA supports funding retroactive 
eligibility for the early retirement benefit to include Reservists who 
have supported contingency operations since 9/11/2001 (H.R. 181). The 
fiscal year 2008 Defense Authorization Act (H.R. 4986) reduces the 
Reserve retirement age (age 60) by 3 months for each cumulative 90-days 
ordered to active duty after the effective date (January 28, 2008) 
leaving out more than 600,000 Reservists mobilized since 9/11 for duty 
in Afghanistan and Iraq.
    Family Support.--FRA supports resources to allow increased outreach 
to connect Reserve families with support programs. This includes 
increased funding for family readiness, especially for those 
geographically dispersed, not readily accessible to military 
installations, and inexperienced with the military. Unlike active duty 
families who often live near military facilities and support services, 
most Reserve families live in civilian communities where information 
and support is not readily available. Congressional hearing witnesses 
have indicated that many of the half million mobilized Guard and 
Reserve personnel have not received transition assistance services they 
and their families need to make a successful transition back to 
civilian life.

                               CONCLUSION

    FRA is grateful for the opportunity to present these 
recommendations to this distinguished Subcommittee. The Association 
reiterates its gratitude for the extraordinary progress this 
Subcommittee has made in funding a wide range of military personnel and 
retiree benefits and quality-of-life programs for all uniformed 
services personnel and their families and survivors.

    Chairman Inouye. Thank you very much, Mr. Davis.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, I think we should express 
our appreciation to Mr. Davis for being here and helping us 
understand the recommendations of his organization. We know 
it's one of the oldest organizations supporting active duty 
military personnel and has a record of achievement. We thank 
you for your continued interest.
    Mr. Davis. Thank you.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Mr. Chairman, I already thanked him. I got 
ahead of the panel a minute ago. But I will reiterate that.
    Mr. Davis. You can thank me again.
    Senator Shelby. We appreciate you being here.
    Mr. Davis. Thank you.
    Senator Shelby. Thank you.
    Chairman Inouye. Thank you.
    Now may I call upon Ms. Leighton. Ms. Leighton.

STATEMENT OF SUSAN LEIGHTON ON BEHALF OF THE OVARIAN 
            CANCER NATIONAL ALLIANCE
    Ms. Leighton. Good morning, Mr. Chairman, Mr. Vice 
Chairman, and Senator Shelby. I'm honored to appear before you 
in support of the Ovarian Cancer National Alliance's request of 
$20 million for the Department of Defense ovarian cancer 
research program, which I will henceforth refer to as the 
``OCRP.''
    My name is Susan Leighton. I'm from Huntsville, Alabama, 
where my husband and I settled after his retirement from the 
United States Army as a chief warrant officer 3. I am also a 
veteran.
    In the summer of 1997, at the age of 48, I was diagnosed 
with stage 3C ovarian cancer. Women diagnosed in later stages 
like myself have only a 20 percent chance of surviving 5 years. 
In an instant, I went from preparing to take my daughter to 
college to wondering whether I would see her graduate.
    I was treated at the University of Alabama in Birmingham. 
My healthcare was paid for by my husband's military health 
plan. I was fortunate to enter treatment the year after two 
chemotherapeutic agents had been approved for use as first-time 
treatment of ovarian cancer. The combination of surgery and 
those two agents put me into remission. With the exception of 
one recurrence, I have remained with no evidence of disease.
    The research that led to the discovery of those two agents 
saved my life. I saw my daughter graduate from Auburn 
University, begin a career, and walk down the aisle to marry. 
Unfortunately, the majority of women diagnosed do not have this 
fairy tale ending.
    Ovarian cancer is a heterogeneous disease. Many women do 
not respond to the type of chemotherapy that helped me. The 
survival rate for this disease has remained fairly stable. 
Fewer than 50 percent of the approximately 21,000 women 
diagnosed each year will be alive in 5 years.
    The solution to improving the survival rates is simple: 
Research. Being one of the handful of long-term survivors, I 
feel a responsibility to speak for other ovarian cancer 
patients. I have participated as a consumer reviewer on the 
OCRP panels for 2 years, bringing the patient's perspective to 
the table. As a reviewer, I help decide which research will 
benefit women diagnosed with ovarian cancer and those at risk 
of developing it in the future.
    I have seen the focus move toward studying cellular 
pathways of cancer. We are on the precipice of understanding 
how ovarian cancer develops, grows, and spreads, and ultimately 
eliminating it.
    I recently returned from the annual meeting of the American 
Society of Clinical Oncology, where I heard about studies of 
PARP inhibitors and anti-angiogenesis agents, which are showing 
promising results for ovarian cancer survivors. Many of those 
studies were funded by grants from the OCRP.
    We are very aware of the current economic climate and 
understand the constraints you face when determining where best 
to allocate funds. For that reason, we are asking for flat 
funding of the OCRP in fiscal year 2012.
    My cancer support group in Alabama has a memorial statue in 
our garden of life and remembrance. I have watched over the 
years as we have added name after name to that statue. The 
young man who engraves those names for us each year refuses to 
take payment, telling us that the only payment he wants is a 
call telling him that we have no new names to add. The only way 
this will happen is by eliminating ovarian cancer.
    The situation in Alabama is no different than in Hawaii, 
Tennessee, Texas, or any other State. By flat funding the OCRP 
we will be able to maintain our current level of research and 
move closer to that goal.
    Thank you for the opportunity to speak on behalf of women 
battling ovarian cancer today, and I'm happy to answer any 
questions.
    [The statement follows:]

                  Prepared Statement of Susan Leighton

    Good morning, Mr. Chairman, Mr. Vice Chair and Members of the 
Subcommittee. I am honored to appear before you in support of the 
Ovarian Cancer National Alliance's request of $20 million for the 
Department of Defense Ovarian Cancer Research Program (DOD OCRP), which 
I will henceforth refer to as the OCRP. My name is Susan Leighton. I am 
from Huntsville, Alabama, where my husband and I settled after his 
retirement from the United States Army as a Chief Warrant Officer, 
Three.
    The Ovarian Cancer National Alliance (the Alliance) thanks the 
Subcommittee for the opportunity to submit comments for the record 
regarding the Alliance's fiscal year 2012 funding recommendations. We 
believe these recommendations are critical to ensure that advances can 
be made to help reduce and prevent suffering from ovarian cancer. For 
the last 14 years, the ovarian cancer community has worked to increase 
awareness of ovarian cancer and advocated for additional Federal 
resources to support research that would lead to more effective 
diagnostics and treatments.
    As an umbrella organization representing more than 50 State and 
local groups, the Alliance unites the efforts of grassroots activists, 
women's health advocates and healthcare professionals to bring national 
attention to ovarian cancer.
    As part of these efforts, Alliance advocates for continued Federal 
investment in the Department of Defense Congressionally Directed 
Medical Research Programs (CDMRP). The Alliance respectfully requests 
that the Senate Appropriations Subcommittee on Defense maintain the 
fiscal year 2011 funding level of $20 million for the DOD OCRP in 
fiscal year 2012.
    In the summer of 1997, at the age of 48, I was diagnosed with stage 
IIIC ovarian cancer. Women diagnosed in later stages, like me, have 
only a 20 percent chance of surviving 5 years. In an instant, I went 
from preparing to take my daughter to college to wondering whether I 
would see her graduate.
    I was treated at the University of Alabama. I was fortunate to 
enter treatment the year after two chemotherapeutic agents had been 
approved for use as first line treatment of ovarian cancer. The 
combination of surgery and those two agents put me into remission. With 
the exception of one recurrence, I have remained with no evidence of 
disease. The research that led to the discovery of those two agents 
saved my life. I saw my daughter graduate from Auburn University, begin 
a great career and walk down the aisle to marry. Unfortunately, the 
majority of women diagnosed do not have this fairy tale ending.
    Ovarian cancer is a heterogeneous disease. Many women do not 
respond to the type of chemotherapy that helped me. The survival rate 
for this disease has remained relatively stable; fewer than 50 percent 
of the approximately 21,000 women diagnosed each year will be alive in 
5 years. The solution to improving these survival rates is simple: 
research.
    Being one of a handful of long-term survivors, I feel a 
responsibility to speak for other ovarian cancer patients. I have 
participated as a consumer reviewer on the OCRP panels for 2 years, 
bringing the patient's perspective to the table. As a reviewer, I help 
decide which research will benefit women diagnosed with ovarian cancer 
and those at risk of developing it in the future. I have seen the focus 
move toward studying cellular pathways of cancer. We are on the 
precipice of understanding how ovarian cancer develops, grows and 
spreads--and ultimately eliminating it. I recently returned from the 
annual meeting of the American Society of Clinical Oncology, where I 
heard about studies of PARP inhibitors and anti-angiogenesis agents, 
which are showing promising results for ovarian cancer survivors. Many 
of those studies were funded by grants from the OCRP.
    The DOD OCRP, which belongs to U.S. Army Medical Research and 
Materiel Command (USAMRMC), complements but does not duplicate the 
important ovarian cancer research carried out by the National Cancer 
Institute (NCI). There are three critical differences between these 
research programs.
    First, the OCRP funds innovative, high risk, high reward research 
which many large, non-DOD Federal research agencies do not have the 
flexibility to engage in.
    Second, the OCRP is designed to prevent funding research that 
overlaps with other ovarian cancer research that has been funded by the 
NCI or other agencies. Before funding an award, OCRP grant managers are 
required to thoroughly check all sources of information to determine if 
a proposal is redundant of a previous OCRP grant or a grant awarded by 
another Federal agency such as the NCI.
    Third, the OCRP pushes investigators to make rapid progress in 
their research by requiring them to reapply every funding cycle. 
Because proposal reviews conducted by the OCRP are double-blinded by 
investigator and research institution, an investigator's progress is 
evaluated on its own merit and must have sufficient new findings, data 
or ideas to warrant new funding. The OCRP's unique method of funding 
ovarian cancer research has yielded tremendous breakthroughs in the 
fight against ovarian cancer, including:
  --a new treatment using nanoparticles to deliver diphtheria toxin-
        encoding DNA to ovarian cancer cells, leaving healthy cells 
        unaffected;
  --the discovery of a compound that potentially inhibits a form of 
        ovarian cancer that makes up 40 percent of ovarian cancer 
        tumors;
  --the finding that ovarian cancer cells are sensitive to glucose 
        deprivation and resveratrol treatment; and
  --identification of the earliest molecular changes associated with 
        BRCA1- and BRCA2-related ovarian cancers, leading to biomarker 
        identification for early detection.
    Cancer research performed by the DOD has been responsible for 
fundamentally changing the way cancer research is conducted. Many 
innovative practices and methods created by the CDRMPs have been 
adopted by the NCI, such as the use of cancer patients as consumer 
reviewers in the proposal review process. Furthermore, the CDRMP has 
created funding mechanisms to incentivize research that would fill 
voids in our understanding of cancer, which NCI has closely duplicated. 
One such example is the Idea Award Other awards originated by CDRMPs 
that have been duplicated by NCI are the Era of Hope Scholar and 
Concept Award mechanisms.
A Modest Research Program that Creates Jobs
    The OCRP remains a modest program compared to the other cancer 
programs in the CDMRP:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    However, even with limited funding, the OCRP has been able to make 
vast strides in the fight against ovarian cancer. With flat funding for 
fiscal year 2012, the program can maintain current levels of research 
regarding screening, early diagnosis and treatment of ovarian cancer.
    In a time that necessitates fiscal constraint, the OCRP has been 
designed to fund ovarian cancer research with extremely low overhead: 
only 4 to 8 percent of the Federal funding is used for administrative 
costs.
    Additionally, biomedical research like that conducted through the 
DOD OCRP, is a major provider of jobs in the United States economy. A 
2008 Families USA study found that for every NIH dollar invested in 
States, $2 of economic output were created. Additionally, the report 
estimated that approximately 350,000 jobs were supported by medical 
research in 2007.

Ovarian Cancer's Deadly Statistics
    In the 40 years since the War on Cancer was declared, ovarian 
cancer mortality rates have not significantly improved. We are very 
concerned that without continued funding in fiscal year 2012 for the 
DOD OCRP to continue ovarian cancer research efforts, the Nation will 
see growing numbers of women losing their battle with ovarian cancer.
    The American Cancer Society estimates that in 2011, more than 
21,000 American women will be diagnosed with ovarian cancer, and 
approximately 15,000 will lose their lives to this terrible disease. 
Ovarian cancer is the fifth leading cause of cancer death in women. 
Currently, more than one-half of the women diagnosed with ovarian 
cancer will die within 5 years. When detected early, the 5-year 
survival rate increases to more than 90 percent, but when detected in 
the late stages, the 5-year survival rate drops to less than 29 
percent.
    A valid and reliable screening test--a critical tool for improving 
early diagnosis and survival rates--still does not exist for ovarian 
cancer. Behind the sobering statistics are the lost lives of our loved 
ones, colleagues and community members. While we have been waiting for 
the development of an effective early detection test, thousands of our 
mothers, daughters, sisters and friends have lost their lives to 
ovarian cancer.
    In 2007, a number of prominent cancer organizations released a 
consensus statement identifying the early warning symptoms of ovarian 
cancer. Without a reliable diagnostic test, we can rely only on this 
set of vague symptoms of a deadly disease, and trust that both women 
and the medical community will identify these symptoms promptly. 
Unfortunately, we know that this does not always happen. Too many women 
are diagnosed at late stage due to the lack of a test; too many women 
and their families endure life-threatening and debilitating treatments 
to kill cancer; too many women are lost to this horrible disease.
    Our organization exists to ensure that women are diagnosed early, 
receive appropriate treatments, are active participants in their care 
and not just survive, but thrive. All women should have access to 
treatment by a gynecologic oncology specialist. All women should have 
access to a valid and reliable detection test. We must deliver new and 
better treatments to patients and the physicians and nurses who treat 
them. Until we have a test, we must continue to increase awareness and 
educate women and health professionals about the signs and symptoms 
associated with this disease.

Even with Limited Funding, OCRP Expands
    Large ovarian cancer research teams do not exist in many academic 
medical or research centers. In order to provide much-needed mentoring, 
networking and a peer group for young ovarian cancer researchers, the 
OCRP created an Ovarian Cancer Academy award in fiscal year 2009. The 
OCRP Ovarian Cancer Academy is intended to develop a unique, 
interactive virtual academy that will provide intensive mentoring, 
national networking and a peer group for junior faculty. The 
overarching goal of this award is to develop young scientists into the 
next generation of successful and highly productive ovarian cancer 
researchers within a collaborative and interactive research training 
environment.
    Additionally, in fiscal year 2010 the OCRP allowed ovarian cancer 
researchers to compete for the Consortium Award. The Consortium 
Development Award is an infrastructure development mechanism that 
provides support to create a Coordinating Center and establish the 
necessary collaborations at potential research sites for the 
development of a multi-institutional ovarian cancer research team. 
Participants in these consortiums will be scientists and/or clinicians 
who have made significant contributions to the field of ovarian cancer 
or who have a specific expertise related to the early changes 
associated with ovarian cancer progression.

Senate Support for Fiscal Year 2012 Appropriation Request
    This year, the ovarian cancer community has been proactive in 
securing support for our fiscal year 2012 appropriation request. A 
letter addressed to you in support of the $20 million appropriation for 
the OCRP was signed by Senators Robert Menendez and Olympia Snowe, who 
were joined by Richard Blumenthal, Susan Collins, Dick Durbin, Kirsten 
Gillibrand, Kay Hagan, John F. Kerry, Herb Kohl, Jeffrey Merkley, 
Debbie Stabenow and Ron Wyden.
    A letter from Senator Robert Casey addressed to you in support of 
all medical research conducted by the Department of Defense through the 
Congressionally Directed Medical Research Program (CDMRP) was signed by 
Senators Barbara Boxer, Al Franken, Kirsten Gillibrand, Tim Johnson, 
John Kerry, Patrick Lautenberg, Jack Reed, Olympia Snowe, Jon Tester 
and Ron Wyden.

Summary
    The Alliance maintains a long-standing commitment to work with 
Congress, the Administration, and other policymakers and stakeholders 
to improve the survival rate from ovarian cancer through education, 
public policy, research and communication. Please know that we 
appreciate and understand that our Nation faces many challenges and 
that Congress has limited resources to allocate; however, we are 
concerned that without the funding to maintain ovarian cancer research 
efforts, the Nation will continue to see many women lose their lives to 
this terrible disease.
    We are very aware of the current economic climate, and understand 
the constraints you face when determining where best to allocate funds. 
For that reason, we are asking for flat funding of the OCRP in fiscal 
year 2012 at $20 million.
    My cancer support group in Alabama has a memorial statue in our 
Garden of Life and Remembrance. I have watched over the years as we 
added name after name to the statue. The young man who engraves those 
names each year refuses to take payment, telling us that the only 
payment he wants is a call telling him that we have no new names to 
add. The only way this will happen is by eliminating ovarian cancer. 
The situation in Alabama is no different than that in Hawaii, 
Tennessee, Texas or any other State. By flat-funding the Ovarian Cancer 
Research Program, we will be able to maintain our current level of 
research and move closer to that goal.
    Thank you for this opportunity to speak on behalf of women battling 
ovarian cancer today. I am happy to answer any questions.

    Chairman Inouye. I thank you very much, Ms. Leighton.
    Ms. Leighton. Thank you.
    Chairman Inouye. Senator Cochran.
    Senator Cochran. Mr. Chairman, I am reminded of the 
leadership that you and former Chairman Senator Ted Stevens 
have given to research in many different areas of troubling 
concern, not only to traditional threats to the life and good 
health of men and women in active duty situations, but to 
families and how they can be affected by misfortune and 
illness.
    So I think of Ted Stevens and you working together over the 
years to make sure that funds are found where there is a need 
that exists. I think this is an indication of one of those 
instances and we should respond in a favorable way.
    Ms. Leighton. Thank you.
    Chairman Inouye. Thank you.
    Senator Shelby.
    Senator Shelby. Mr. Chairman, I appreciate my constituent 
testifying here today. I also appreciate her sharing her story, 
because she is a survivor where a lot of women with ovarian 
cancer have not. As she said in her testimony, her written 
testimony, she was fortunate to enter a treatment the year 
after two breakthrough agents had come through, through 
research, for the treatment.
    She also mentions in her--answers one of my questions that 
I posed to the subcommittee earlier, whether or not we were 
duplicating any of these things. She points out in her 
testimony--I think it's very important--that a lot of this 
research complements, but does not duplicate, the important 
ovarian research, cancer research, carried out by the National 
Cancer Institute, and the differences there. I think that's 
very, very important.
    I'm proud to have her testify here. I like her story and 
what she's doing is trying to save other people's lives.
    Thank you.
    Ms. Leighton. Thank you.
    Chairman Inouye. I thank the panel very much. Thank you 
very much.
    Our last panel: Dr. John Elkas, Society of Gynecologic 
Oncologists; and Mr. Jonathan Schwartz, representing ZERO--The 
Project to End Prostate Cancer.
    May I call upon Dr. Elkas.

STATEMENT OF JOHN C. ELKAS, M.D., COMMANDER, U.S. NAVAL 
            RESERVE, ON BEHALF OF THE SOCIETY OF 
            GYNECOLOGIC ONCOLOGISTS
    Dr. Elkas. Chairman Inouye, Senator Cochran, Senator 
Shelby: Thank you for inviting me to testify in today's 
hearing. My name is Dr. John Elkas and I am here today on 
behalf of the Society of Gynecologic Oncologists and the 
millions of Americans touched each year by ovarian cancer, 
including our military families.
    I practice medicine in the D.C. metropolitan area, where I 
am an associate clinical professor in the department of 
obstetrics and gynecology at the George Washington University 
Medical Center, and I am also a commander in the United States 
Naval Reserve and an adjunct associate professor of obstetrics 
and gynecology at the Uniformed Services University of the 
Health Sciences.
    I am honored to be here and pleased that this subcommittee 
is focusing attention on the Department of Defense 
congressionally directed medical research program in ovarian 
cancer. Since its inception 14 years ago, the OCRP has targeted 
the highest needs in ovarian cancer research, funding high-
risk, high-reward research on a range of issues from early 
cancer detection to personalized treatment and quality of life.
    One in 69 women will develop ovarian cancer and less than 
one-half will survive for 5 years. One woman dies of ovarian 
cancer every hour in our country. It is expected that more than 
22,000 women will be diagnosed with the disease this year and 
14,000 women will die from the disease in 2011.
    During the last 5 years, over 2600 members of our military 
or their families have been hospitalized for ovarian cancer or 
suspected ovarian cancer. These individuals have spent over 
14,000 bed-days in military treatment facilities.
    The Department of Defense ovarian cancer research program, 
which belongs to the U.S. Army Medical Research and Material 
Command, supports the forward momentum of critical research to 
understand, prevent, and treat this disease that affects the 
warfighter, military beneficiaries, and the general public.
    The DOD OCRP is able to facilitate collaboration between 
civilian and military research programs and because of this it 
is able to share successes, such as raising the standard of 
care of both military and civilian populations, lowering the 
incidence, mortality, and burden of ovarian cancer, while in 
turn reducing the economic drain on society.
    The OCRP's unique method of funding ovarian cancer research 
has yielded tremendous breakthroughs in the fight of ovarian 
cancer, such as a new treatment using nanoparticles to attack 
ovarian cancer cells while leaving healthy cells unaffected, 
the finding that ovarian cancer cells are sensitive to glucose 
deprivation, leading to more targeted treatments, and 
identifying the earliest molecular changes associated with 
BRCA1- and BRCA2-related ovarian cancers, leading to biomarker 
identification, again for early detection.
    Today ovarian cancer researchers are still struggling to 
develop the first ovarian cancer screening test. With 
traditional research models largely unsuccessful, the innovator 
grants awarded by the DOD OCRP are integral in moving this 
field of research forward.
    The Society of Gynecologic Oncology joins with the Ovarian 
Cancer National Alliance and the American Congress of 
Obstetricians and Gynecologists to urge this subcommittee to 
maintain Federal funding for the OCRP at $20 million for fiscal 
year 2012. Military beneficiaries will benefit in the same way 
the American general public stands to gain from research on 
this deadly disease. For every dollar that is saved from 
reducing the cost of cancer care for our military, another 
dollar can be used to support the warfighter. The DOD ovarian 
cancer research program is making a difference in the lives of 
our military beneficiaries and the general public.
    Thank you again for your attention to this request and for 
allowing me to testify before you today.
    [The statement follows:]

                  Prepared Statement of John C. Elkas

    Mr. Chairman, Ranking Member and members of the subcommittee, thank 
you for inviting me to testify at today's hearing. My name is Dr. John 
C. Elkas and I am here today on behalf of the Society of Gynecologic 
Oncology. I practice medicine in the D.C. metropolitan area, where I am 
an associate clinical professor in the department of obstetrics and 
gynecology at the George Washington University Medical Center and in 
private practice in Annandale, Virginia. I am also a Commander in the 
U.S. Naval Reserve and an adjunct associate professor of obstetrics and 
gynecology for the Uniformed Services University of the Health Sciences 
in Bethesda, Maryland.
    I am honored to be here and pleased that this subcommittee is 
focusing attention on the Department of Defense (DOD) Congressionally 
Directed Medical Research Program in Ovarian Cancer (OCRP). Since its 
inception now 14 years ago, the OCRP has targeted the highest needs in 
ovarian cancer research, funding high-risk, high-reward research on a 
range of issues from early cancer detection to personalized treatment 
and quality of life.
    This morning, I will try to outline some of the important 
contributions this DOD program has made to ovarian cancer research, the 
well-being of our patients, and its relevance to our military and to 
their families. In fact, it is quite easy to demonstrate that this 
investment by the Federal Government has resulted in substantial 
benefits and value to medicine, to science and most importantly 
improved patient care.
    As this subcommittee may know, ovarian cancer usually arises from 
the cells on the surface of the ovary and can be extremely difficult to 
detect. According to the American Cancer Society, in 2010, more than 
22,000 women were diagnosed with ovarian cancer and approximately 
14,000 lost their lives to this terrible disease. Ovarian cancer causes 
more deaths than all the other cancers of the female reproductive tract 
combined, and is the fourth highest cause of cancer deaths among 
American women. One of our biggest challenges lies in the fact that 
only 19 percent of all ovarian cancers are detected at a localized 
stage, when the 5-year relative survival rate approaches 93 percent. 
Unfortunately, most ovarian cancer is diagnosed at late or advanced 
stage, when the 5-year survival rate is only 31 percent.
    Nationally, biomedical research funding has grown over the last 
decade through increased funding to the National Institutes of Health, 
in no small part to the amazing efforts of members of this 
Subcommittee. Yet funding for gynecologic cancer research, especially 
for the deadliest cancer that we treat, ovarian cancer, has been 
relatively flat. Since fiscal year 2003, the funding levels for 
gynecologic cancer research and training programs at the NIH, NCI, and 
CDC have not kept pace with inflation, with the funding for ovarian 
cancer programs and research training for gynecologic oncologists 
actually suffering specific cuts in funding due to the loss of an 
ovarian cancer Specialized Project of Research Excellence (SPORE) in 
2007 that had been awarded to a partnership of DUKE and the University 
of Alabama-Birmingham. Were it not for the DOD OCRP, many researchers 
might have abandoned their hopes of a career in basic and translation 
research in ovarian cancer and our patients and the women of America 
would be waiting even longer for reliable screening tests and more 
effective therapeutic approaches.
    As a leader in the Society of Gynecologic Oncology (SGO) and as a 
gynecologic oncologist who has provided care to women affiliated with 
the United States Navy, I believe that I bring a comprehensive 
perspective to our request for increased support. The SGO is a national 
medical specialty organization of physicians who are trained in the 
comprehensive management of women with malignancies of the reproductive 
tract. Our purpose is to improve the care of women with gynecologic 
cancer by encouraging research, disseminating knowledge which will 
raise the standards of practice in the prevention and treatment of 
gynecologic malignancies and cooperating with other organizations 
interested in women's healthcare, oncology and related fields. More 
information on the SGO can be found at www.sgo.org.
    We, the members of the SGO, along with our patients who are 
battling ovarian cancer every day, depend on the DOD OCRP research 
funding. It is through this type of research funding that a screening 
and early detection method for ovarian cancer can be identified which 
will allow us to save many of the 14,000 lives that are lost to this 
disease each year.
    During the last 5 years, over 2,600 members of our military or 
their families have been hospitalized for ovarian cancer or suspected 
ovarian cancer. These individuals have spent over 14,000 bed days of 
care in military treatment facilities.
    The Department of Defense Ovarian Cancer Research Program (DOD 
OCRP) which belongs to U.S. Army Medical Research and Materiel Command 
(USAMRMC) supports the forward momentum of critical research to 
understand, prevent, and treat this disease that affects the 
warfighter, military beneficiaries, and the general public. DOD OCRP is 
able to facilitate collaboration between civilian and military research 
programs. Because the military is involved in research performed at 
civilian health facilities nationwide, the DOD OCRP is able to share 
successes and assist in raising the standard of care for both military 
and civilian populations, lowering the incidence, mortality and burden 
of this cancer, while in turn reducing the economic drain on society.
    Therefore, on behalf of the SGO, I respectfully request that the 
Senate Appropriations Subcommittee on Defense maintain the fiscal year 
2011 funding level of $20 million for the OCRD for fiscal year 2012.

Department of Defense Ovarian Cancer Research Program: Building an Army 
        of Ovarian Cancer Researchers
            New Investigators Join the Fight
    Since its inception in fiscal year 1997, the DOD OCRP has funded 
236 grants totaling more than $160 million in funding. The common goal 
of these research grants has been to promote innovative, integrated, 
and multidisciplinary research that will lead to prevention, early 
detection, and ultimately control of ovarian cancer. Much has been 
accomplished in the last decade to move us forward in achieving this 
goal.
    In Senator Mikulski's home State of Maryland, where many of my 
patients also live, the DOD OCRP has funded research on important 
questions such as:
  --Defining biomarkers of serous carcinoma, using molecular biologic 
        and immunologic approaches, which are critical as probes for 
        the etiology/pathogenesis of ovarian cancer. Identifying 
        biomarkers is fundamental to the development of a blood test 
        for diagnosis of early stage disease and also ovarian cancer-
        specific vaccines;
  --Developing and evaluating a targeted alpha-particle based approach 
        for treating disseminated ovarian cancer. Alpha-particles are 
        short-range, very potent emissions that kill cells by incurring 
        damage that cannot be repaired; one to three alpha-particles 
        tracking through a cell nucleus can be enough to kill a cell. 
        The tumor killing potential of alpha-particles is not subject 
        to the kind of resistance that is seen in chemotherapy; and
  --Understanding of the molecular genetic pathways involved in ovarian 
        cancer development leading to the identification of the cancer-
        causing genes (``oncogenes'') for ovarian cancer.
    In Senator Murray's home State of Washington, the DOD OCRP has 
funded five grants in the last 5 years to either the University of 
Washington or to the Fred Hutchinson Cancer Center to study research 
questions regarding:
  --The usefulness of two candidate blood-based microRNA markers for 
        ovarian cancer detection, and the identification of microRNAs 
        produced by ovarian cancer at the earliest stages, which may 
        also be the basis for future blood tests for ovarian cancer 
        detection;
  --The first application of complete human genome sequencing to the 
        identification of genes for inherited ovarian cancer. The 
        identification of new ovarian cancer genes will allow 
        prevention strategies to be extended to hundreds of families 
        for which causal ovarian cancer genes are currently unknown; 
        and
  --Proposed novel technology, stored serum samples, and ongoing 
        clinical studies, with the intend of developing a pipeline that 
        can identify biomarkers that have the greatest utility for 
        women; biomarkers that identify cancer early and work well for 
        the women in most need of early detection, that can immediately 
        be evaluated clinically.
    One of the first, and very successful, grant recipients from the 
DOD OCRP hails from the Fred Hutchinson Cancer Research Center in 
Seattle, Washington, Dr. Nicole Urban. Dr. Urban has worked extensively 
in the field of ovarian cancer early detection biomarker discovery and 
validation. Her current program in translational ovarian cancer 
research was built on work funded in fiscal year 1997 by the OCRP, 
``Use of Novel Technologies to Identify and Investigate Molecular 
Markers for Ovarian Cancer Screening and Prevention.'' Working with 
Beth Karlan, M.D. at Cedars-Sinai and Leroy Hood, Ph.D., M.D. at the 
University of Washington, she identified novel ovarian cancer 
biomarkers including HE4, Mesothelin (MSLN), and SLPI using comparative 
hybridization methods. These discoveries lead to funding in 1999 from 
the National Cancer Institute (NCI) for the Pacific Ovarian Cancer 
Research Consortium (POCRC) Specialized Program of Research Excellence 
(SPORE) in ovarian cancer.
    The DOD and NCI funding allowed her to develop resources for 
translational ovarian cancer research including collection, management, 
and allocation of tissue and blood samples from women with ovarian 
cancer, women with benign ovarian conditions, and women with healthy 
ovaries. The DOD grant provided the foundation for what is now a mature 
specimen repository that has accelerated the progress of scientists at 
many academic institutions and industry.
    In Senator Feinstein's home State of California, 25 grants have 
been funded by the DOD OCRP since the program was created in 1997 to 
study research questions such as:
  --Strategies for targeting and inhibiting a protein called focal 
        adhesion kinase (FAK) that promotes tumor growth-metastasis. 
        With very few viable treatment options for metastatic ovarian 
        cancer, this research could lead to drug development targeting 
        these types of proteins;
  --Developing a tumor-targeting drug delivery system using Nexil 
        nanoparticles that selectively adhere to and are ingested by 
        ovarian carcinoma cells following injection into the peritoneal 
        cavity. The hypothesis for this research is that the 
        selectivity of Nexil can be substantially further improved by 
        attaching peptides that cause the particle to bind to the 
        cancer cells and that this will further increase the 
        effectiveness of intraperitoneal therapy; and
  --Using several avenues of investigation, based on our understanding 
        of the biology of stem cells, to identify and isolate cancer 
        stem cells from epithelial ovarian cancer. This has significant 
        implications for our basic scientific understanding of ovarian 
        cancer and may drastically alter treatment strategies in the 
        near future. Therapies targeted at the cancer stem cells offer 
        the potential for long-term cures that have eluded most 
        patients with ovarian cancer.
    In Senator Hutchinson's home State of Texas, 20 grants have been 
funded since the inception of the DOD OCRP in 1997, to study research 
questions regarding:
  --Understanding the pre-treatment genomic profile of ovarian cancer 
        to then isolate the predictive response of the cancer to anti-
        vasculature treatment, possibly leading to the identification 
        of targets for novel anti-vasculature therapies;
  --Ovarian cancer development directly in the specific patient and her 
        own tumor. While this process has lagged behind in ovarian 
        cancer and improving patient outcomes, it has shown great 
        promise in other solid, tumor cancers; and
  --Identifying the earliest molecular changes associated with BRCA1- 
        and BRCA2-related and sporadic ovarian cancers, leading to 
        biomarker identification for early detection.
    As you can see from these few examples, the 236 grants have served 
as a catalyst for attracting outstanding scientists to the field of 
ovarian cancer research. In the 4 year period of fiscal year 1998-
fiscal year 2001 the OCRP enabled the recruitment of 29 new 
investigators into the area of ovarian cancer research.
            Federally Funding is Leveraged Through Partnerships and 
                    Collaborations
    In addition to an increase in the number of investigators, the 
dollars appropriated over the last 13 years have been leveraged through 
partnerships and collaborations to yield even greater returns, both 
here and abroad. Past-President of the SGO, Dr. Andrew Berchuck of Duke 
University Medical Center leveraged his OCRP DOD grants to form an 
international Ovarian Cancer Association Consortium (OCAC) that is now 
comprised of over 20 groups from all across the globe. The consortium 
meets biannually and is working together to identify and validate 
single nucleotide polymorphisms (SNPs) that affect disease risk through 
both candidate gene approaches and genome-wide association studies 
(GWAS). OCAC reported last year in Nature Genetics the results of the 
first ovarian cancer GWAS, which identified a SNP in the region of the 
BNC2 gene on chromosome 9 (Nature Genetics 2009, 41:996-1000.)
    Dr. Berchuck and his colleagues in the association envision a 
future in which reduction of ovarian cancer incidence and mortality 
will be accomplished by implementation of screening and prevention 
interventions in women at moderately increased risk. Such a focused 
approach may be more feasible than population-based approaches, given 
the relative rarity of ovarian cancer.
    The DOD OCRP program also serves the purpose of strengthening U.S. 
relationships with our allies, such as Australia, the United Kingdom, 
and Canada. Dr. Peter Bowtell, from the Peter MacCallum Cancer Centre 
in Melbourne, Australia, was awarded a fiscal year 2000 Ovarian Cancer 
Research Program (OCRP) Program Project Award to study the molecular 
epidemiology of ovarian cancer. With funds from this award, he and his 
colleagues formed the Australian Ovarian Cancer Study (AOCS), a 
population-based cohort of over 2,000 women with ovarian cancer, 
including over 1,800 with invasive or borderline cancer. With a bank of 
over 1,100 fresh-frozen tumors, hundreds of formalin-fixed, paraffin-
embedded (FFPE) blocks, and very detailed clinical follow-up, AOCS has 
enabled over 60 projects since its inception, including international 
collaborative studies in the United States, United Kingdom, and Canada. 
AOCS has facilitated approximately 40 publications, most of which have 
been released in the past 2 years.
    One last important example of the value of the DOD OCRP's 
contribution to science is the program's focus on inviting proposals 
from the Historically Black Colleges and Universities and Minority-
Serving Institutions. This important effort to reach beyond established 
clinical research partnerships expands the core research infrastructure 
for these institutions which helps them to attract new investigators, 
leveraging complementary initiatives, and supporting collaborative 
ventures.
    Over the decade that the OCRP has been in existence, the 236 
grantees have used their DOD funding to establish an ovarian cancer 
research enterprise that is much greater in value than the annually 
appropriated Federal funding.
            Opportunities are Lost Because of Current Level of Federal 
                    Funding
    These examples of achievement are obscured to a great degree by 
opportunities that have been missed. At this current level of funding, 
this is only a very small portion of what the DOD OCRP program could do 
as we envision a day where through prevention, early detection, and 
better treatments, ovarian cancer is a manageable and frequently 
curable disease. Consistently, the OCRP receives over 500 letters of 
intent for the annual funding cycle. Of this group, about 50 percent 
are invited to submit full proposals. Prior to fiscal year 2009, the 
OCRP was only able to fund approximately 16 grants per year, a pay line 
of less than 7 percent. With an increase in funding to $20 million in 
fiscal year 2009, $18.75 million in fiscal year 2010 and $20 million in 
fiscal year 2011, the program had been able to consistently fund more 
grants with the DOD being able to account for every dollar and how it 
is used.

Department of Defense Ovarian Cancer Research Program: Exemplary 
        Execution with Real World Results
            Integration Panel Leads to Continuous Evaluation and 
                    Greater Focus
    By using the mechanism of an Integration Panel to provide the two-
tier review process, the OCRP is able to reset the areas of research 
focus on an annual basis, thereby actively managing and evaluating the 
OCRP current grant portfolio. Gaps in ongoing research can be filled to 
complement initiatives sponsored by other agencies, and most 
importantly to fund high risk/high reward studies that take advantage 
of the newest scientific breakthroughs that can then be attributed to 
prevention, early detection and better treatments for ovarian cancer. 
An example of this happened in Senator Mikulski's and my home State of 
Maryland regarding the development of the OVA1 test, a blood test that 
can help physicians determine if a woman's pelvic mass is at risk for 
being malignant. The investigator, Zhen Zhang, Ph.D. at Johns Hopkins 
School of Medicine, received funding from an Idea Development Award in 
fiscal year 2003. Dr. Zhang discovered and validated five serum 
biomarkers for the early detection of ovarian cancer. This bench 
research was then translated and moved through clinical trials. The OVA 
test was approved by the FDA and is now available to clinicians for use 
in patient care.
            More Than a Decade of Scientific Success
    The program's successes have been documented in numerous ways, 
including 469 publications in professional medical journals and books; 
576 abstracts and presentations given at professional meetings; and 24 
patents, applications and licenses granted to awardees of the program. 
Investigators funded by the OCRP have succeeded with several crucial 
breakthroughs in bringing us closer to an algorithm for use in 
prevention and early detection of ovarian cancer.
    The Society of Gynecologic Oncology joins with the Ovarian Cancer 
National Alliance and the American Congress of Obstetricians and 
Gynecologists to urge this Subcommittee to maintain Federal funding for 
the OCRP at $20 million for fiscal year 2012. Military beneficiaries 
will benefit in the same way the general American public stands to gain 
from research in these deadly diseases. For every dollar that is saved 
from reducing the cost of cancer care for our military, another dollar 
can be used to support the warfighter. The DOD Ovarian Cancer Research 
Program is making a difference in the lives of military beneficiaries 
and the general public. I thank you for your leadership and the 
leadership of the Subcommittee on this issue.

    Chairman Inouye. I thank you very much, Dr. Elkas.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, we appreciate very much Dr. 
Elkas being here and bringing us up to date on the ovarian 
cancer research program. This subcommittee has supported this. 
Interesting how many women members of our Committee on 
Appropriations are mentioned in the testimony. It just reminds 
us that throughout not only the military, but our civilian 
population, more and more of our leaders are women, and it's 
certainly appropriate that this insidious illness is being 
targeted by your organization. We wish you well.
    Dr. Elkas. Thank you, sir.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Mr. Chairman, I just want to pick up on 
some of his testimony.
    One of our biggest challenges, you say, lies in the fact 
that only 19 percent of all ovarian cancers are detected at a 
localized and early stage, when the 5-year relative survival 
rate then would approach 93 percent. You point out most ovarian 
cancer is diagnosed at a later, advanced stage when the 5-year 
survival rate drops down to 31 percent.
    Tell me what research is being done and what promise is 
there to help do the early detection when the survival rate 
could be so high?
    Dr. Elkas. Thank you for your question, Senator. I'm 
excited because I think what makes the DOD OCRP program so 
unique and so wonderful is its ability to fund programs that 
would be otherwise very difficult to get funded through the NIH 
funding mechanism. Very recently, the FDA approved a screening 
test, a serum, a blood test that was developed through these 
dollars, that now better allows us to screen and detect ovarian 
cancer. It's not a perfect test, but it's certainly a step 
forward.
    In the coming weeks, in my practice at Fairfax I'll operate 
on 20 women in the coming weeks and find one ovarian cancer. 
That's 19 unnecessary surgeries. From my 14 years on active 
duty service, bringing women back from overseas for surgeries, 
many of which unnecessary, but certainly had to be done because 
of our lack of a screening modality--we hope that advances like 
we've already made will continue to be made, and it's certainly 
your help that allows us to do that.
    Senator Shelby. What is your approach to the early 
treatment? If you could diagnose something or indications real 
early, would it, one, save a lot of lives? Obviously. It would 
save a lot of money, too, would it not?
    Dr. Elkas. Oh, absolutely, absolutely, Senator. Our 
survival for early stage ovarian cancer, stage 1 and stage 2, 
approaches 88, 85 percent.
    Senator Shelby. Something else that got my attention in 
here because, as I said earlier, I'm the ranking Republican on 
another subcommittee dealing with NIH and so forth, and I'm new 
as far as ranking. But you're pointing out that funding for 
this cancer research in this area has remained flat, if not 
declined, through that; and that there was one ovarian cancer 
specialized project of research excellence that had been 
awarded to Duke and the University of Alabama-Birmingham and it 
was cancelled. What happened there? Was it not promising or 
what happened, because I'd be very interested in that.
    Dr. Elkas. The specific details of that I will certainly 
forward you.
    Senator Shelby. Will you send it to me?
    Dr. Elkas. Absolutely.
    Senator Shelby. And I'll share it with the subcommittee.
    Dr. Elkas. Please.
    Senator Shelby. Thank you so much.
    Dr. Elkas. Thank you. Thank you for your time.
    Chairman Inouye. Thank you very much.
    Now may I call on Mr. Schwartz.

STATEMENT OF JONATHAN D. SCHWARTZ, CHAIRMAN, BOARD OF 
            DIRECTORS, ZERO--THE PROJECT TO END 
            PROSTATE CANCER
    Mr. Schwartz. Thank you. Mr. Chairman and distinguished 
members of the subcommittee: Thank you for the opportunity to 
share my thoughts. I know this has been a long session and I 
admire your dedication. Hopefully the last is not least here.
    My name is Jonathan Schwartz and I am the Chairman of the 
Board of Directors of ZERO--The Project to End Prostate Cancer. 
I'm here to stress the importance of research and the 
congressionally directed medical research program, and 
particularly the prostate cancer research program.
    ZERO is a patient advocacy organization that raises 
awareness and educates men and their families about prostate 
cancer. Of particular importance to us is the issue of early 
detection. Not only do we operate a mobile screening program, 
we also work with policymakers in Congress and throughout 
Government and other organizations to ensure that men have 
access to information and services to make decisions that are 
in the best interest of their health.
    My dad was William Schwartz. He was diagnosed with prostate 
cancer at the age of 55. We thought he'd be okay because the 
cancer was detected early. Unfortunately, his cancer was very 
aggressive and had already spread to his lymph nodes. The 
doctors gave him just 2 years to live because back then there 
were very few treatment options for prostate cancer.
    Thankfully, new treatments became available that extended 
his life. He fought the disease for 8 years, and during that 
gift of time he saw all his children get married, became a 
grandfather, and between chemo sessions was able to travel and 
enjoy the company of family and friends. He also volunteered as 
the first CEO of the National Prostate Cancer Coalition, which 
is now ZERO. He worked tirelessly to increase Federal research 
funding because he knew that research would help him and 
countless other men.
    As a family, we enjoyed much of my dad's last years. But he 
also experienced great suffering. We saw firsthand the impact 
of this cruel disease.
    My dad died at age 63, younger than when most people 
retire. We all miss him dearly and wonder what it would be like 
to have him in our lives today. I still find it hard to accept 
that he will never get to meet my two daughters and they'll 
never get to know their ``Papa Bill.''
    Our family's experience has led me, my brother and sister, 
and of course our mom to care deeply about dad's cause. We 
don't want other families to go through this. We want the 
number of men suffering from prostate cancer to be as small as 
possible. Eventually we want that number to be zero.
    I'm here today because of my dad. I'm here today because 
prostate cancer affects the family, not just the man. And as I 
mentioned, I'm here today because I want to stress the 
importance of research at the prostate cancer research program.
    Prostate cancer is a disease that's diagnosed in over 
200,000 American men each year and will kill nearly 34,000 men 
in 2011. It's the second leading cause of cancer-related deaths 
among men. One in six men, one in four African American men, 
will get prostate cancer, and some of them will be in their 
30s. It is not just an old man's disease.
    There is much controversy about prostate cancer and 
particularly the controversy over testing, when men should 
start getting tested, how often they should be tested, what 
type of treatment a man should undergo when diagnosed. I 
recently met with my Georgia Senators on this topic. Senator 
Chambliss, a prostate cancer survivor whose live was saved by 
early detection, said it well when he said: ``You have to know 
you have it to have a choice about treatment.''
    Despite what some people call overdiagnosis, the number of 
men dying from prostate cancer is rising. So, Mr. Chairman, the 
problem isn't the number of men we are or should be testing. 
The problem is knowing whether they have aggressive or indolent 
disease and whether or not they should be treated. The only way 
doctors will ever really know the answer to these questions is 
through advances that may be closer than we think.
    Last year, research partially funded by the prostate cancer 
research program identified 24 different types of prostate 
cancer. Eight of these are aggressive forms of the disease. If 
we could identify what type of prostate cancer a man has, we 
could more effectively determine if he needs treatment and how 
aggressive that treatment should be. This would render moot the 
argument some make about the disease being overtreated and 
ultimately save men's lives.
    Another innovative funding mechanism of the prostate cancer 
research program is the Clinical Trials Consortium. To address 
the significant logistical challenges of multi-center clinical 
research, the Clinical Trials Consortium was started to promote 
rapid phase 1 and phase 2 trials of promising new treatments 
for prostate cancer. Since 2005, nearly 90 trials with more 
than 2,600 patients have taken place, leading to potential 
treatments that will soon be available to patients. Two 
recently approved drugs, Xgeva and Zytiga, benefited from the 
consortium, accelerating their approval time by over 2 years.
    Today, without adequate funding, the program could not 
support this award mechanism.
    The prostate cancer research program is funding some of the 
most critical work in cancer today. The program uses innovative 
approaches to funnel research dollars directly into the best 
research to accelerate discovery, translate discoveries into 
clinical practice, and improve the quality of care and quality 
of life of men with prostate cancer. It is the only federally 
funded program that focuses exclusively on prostate cancer, 
which enables them to identify and support research on the most 
critical issues facing prostate cancer patients today. The 
program funds innovative, high-impact studies, the type of 
research most likely to make a difference.
    I understand that the subcommittee is working under 
extremely tight budgetary constraints this year and the many 
tough decisions are ahead. This program is important to the 
millions of men who are living with the disease, those who have 
survived the disease, and those who are at risk for the 
disease, including our veterans and active duty military 
personnel.
    Active duty males are twice as likely to develop prostate 
cancer as their civilian counterparts. While serving their 
country, the United States armed forces are exposed to 
deleterious contaminants such as Agent Orange and depleted 
uranium. These contaminants are proven to cause prostate cancer 
in American veterans. Unfortunately, the genomes of prostate 
cancer caused by Agent Orange are the most aggressive strands 
of the disease and they also appear earlier in a man's life. In 
addition, a recent study showed that Air Force personnel were 
diagnosed with prostate cancer at an average age of just 48.
    In closing, I ask that you support our fight against all 
cancers and in particular prostate cancer. Prostate cancer can 
and should be a 100 percent detectable and treatable cancer, 
and hopefully some day a preventable one. Please support the 
research conducted through the congressionally directed medical 
research program and the prostate cancer research program by 
maintaining their funding levels.
    Thank you very much for your time. I'll be happy to answer 
any questions.
    [The statement follows:]

               Prepared Statement of Jonathan D. Schwartz

    Mr. Chairman and distinguished members of the subcommittee, thank 
you for the opportunity to share my thoughts. My name is Jonathan 
Schwartz, and I am Chairman of the Board of Directors of ZERO--The 
Project to End Prostate Cancer (ZERO). I am the son of William 
Schwartz, who fought prostate cancer for 8 years and volunteered as the 
first CEO of the National Prostate Cancer Coalition, which is now ZERO.
    My dad was diagnosed at the age of 55. We thought that he would be 
okay since the cancer was detected early. The strain of prostate cancer 
that he was diagnosed with was very aggressive and had spread to his 
lymph nodes. Thankfully there were new treatments that extended his 
life. During that 8 year gift, he was there to see his children get 
married, become a grandfather, travel, and enjoy family and friends. He 
worked tirelessly because he knew that research would help him and 
countless other men.
    My dad enjoyed much of his last years, but we also experienced 
great suffering. We saw firsthand the impact of this cruel disease. We 
all miss him dearly, and we are so saddened by all he has missed, 
including five more grandchildren. We often wonder what it would be 
like to have him in our lives today. Our family's experience has led me 
and my brother and sister to care deeply about dad's cause. We don't 
want other men and their families to go through this. We want the 
number of men suffering from prostate cancer to be as small as 
possible. Eventually, we want that number to be ZERO.
    I am here today because of my dad. I am here today because prostate 
cancer affects the family, not just the man. I am here today because I 
want to stress the importance of research and particularly the Prostate 
Cancer Research Program and the other programs of the Congressionally 
Directed Medical Research Program.
    Prostate cancer is a disease that is diagnosed in over 200,000 men 
each year and will kill nearly 34,000 men in 2011. It is the second 
leading cause of cancer related deaths among men and will inflict 1 in 
6 men in their lifetime.
    There are too many questions that continue to surround prostate 
cancer and too many uncertainties for us to just ignore this disease. 
It has been well publicized that cancer is killing less people every 
year, but the same cannot be said for prostate cancer. Prostate cancer 
deaths have continued to increase.
    The answers to these questions are found in research. The 
Congressionally Directed Medical Research Program and the Prostate 
Cancer Research Program are funding some of the most critical work in 
cancer today. The program uses innovative approaches to funnel research 
dollars directly into the best research to accelerate discovery, 
translate discoveries into clinical practice, and improve the quality 
of care and life of men with prostate cancer.
    An example of the innovative nature of the PCRP is the Clinical 
Trials Consortium. To address the significant logistical challenges of 
multicenter clinical research, the PCRP began support of a clinical 
trials consortium for rapid Phase I and Phase II clinical trials of 
promising new treatments for prostate cancer.
    Since their first PCRP award in 2005, each site has fulfilled key 
responsibilities in clinical trials design and recruitment. Nearly 70 
trials with more than 1,800 patients have taken place, leading to 
potential treatments that will soon be at patients' bedsides. Two 
recently approved drugs (XGEVA and ZYTIGA) benefited from PCRP funding 
and the consortium accelerating their approval time by over 2 years.
    The PCRP has played a unique role by identifying two key research 
gaps inhibiting forward movement of clinical trials, multicenter 
intellectual property and regulatory issues. The program developed and 
funded mechanisms to reduce those barriers resulting in unprecedented 
accomplishments for recruiting participants over an 18-month period.
    Today, without adequate funding, the PCRP cannot support this award 
mechanism.
    I understand that the committee is working under extremely tight 
budgetary constraints this year and that many tough decisions are 
ahead. This program is important to the millions of men who are living 
with the disease, those who have survived the disease and those who are 
at risk for the disease including our veterans and active duty military 
personnel.
    Active duty males are twice as likely to develop prostate cancer as 
their civilian counterparts. While serving our country, the United 
States' Armed Forces are exposed to deleterious contaminants such as 
Agent Orange and Depleted Uranium. These contaminants, particularly 
Agent Orange, are proven to cause prostate cancer in American Veterans. 
Unfortunately, the genomes of prostate cancer caused by Agent Orange 
are the more aggressive strands of the disease and appear earlier in a 
man's life. Studies have shown that military personnel at risk for the 
disease are also more likely to be diagnosed earlier in life.
    In closing, I ask that you support our fight against all cancers 
and in my case in particular, prostate cancer. Support the research 
conducted through the Congressionally Directed Medical Research Program 
and the Prostate Cancer Research Program by maintaining their funding 
levels.

    Chairman Inouye. Thank you, Mr. Schwartz.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, I think it's important to 
note that the testimony here reminds us that, while we are 
learning more about cancer, we are wondering why cancer is 
killing more people every year in the general population, 
including more prostate cancer. Prostate cancer seems to be on 
the rise. Some other life-threatening cancers seem to be on the 
decline.
    Another thing I think in the witness's testimony that's 
appropriate for this subcommittee to consider when we decide 
how much funding is available, if any, for this program is that 
Agent Orange has been identified as a causal connector with 
prostate cancer for those who have been exposed to that 
substance. This is something I think is peculiarly of interest 
to the military and appropriate for this subcommittee's 
attention. So I'm hopeful that we can find a way to support, as 
this witness suggests, an increase in funding for prostate 
cancer research.
    We appreciate your bringing these facts to the attention of 
the subcommittee.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Mr. Chairman, I'll be brief, but I would be 
remiss if I didn't--I'm a 17-year-old--``17-year-old''--I'm a 
17-year survivor of prostate cancer. I've been through that, as 
you went through it with your father and your family. A lot of 
people don't survive. It's my understanding that--I've been 
told that prostate cancer is the number two killer of men in 
this country. Research in new surgery procedures, everything, 
early diagnosis, has helped save a lot of lives.
    I agree with Senator Cochran. We don't need to cut back on 
this because if we do break through the research, we're going 
to not only save lives, but on a policy level we will save 
money down the road. You can do both if we do it right.
    Thank you, Mr. Chairman, for calling this hearing. This has 
been a very good hearing for me. As I've pointed out, I am the 
ranking Republican over on the other subcommittee dealing with 
NIH and all the other, and I'm curious as to how this works and 
I've found out a lot today.
    Thank you, Mr. Chairman.
    Chairman Inouye. I thank you very much.
    Three organizations have submitted testimony. Without 
objection, the testimony of Cummins, Incorporated, Washington 
State Neurofibromatosis Families, and the American Foundation 
for Suicide Prevention will be made part of the record along 
with any other statements that the subcommittee may receive.
    On behalf of the subcommittee, I thank all the witnesses 
for their testimony, and the subcommittee will take these 
issues in consideration and I can assure you will look at it 
very seriously.
    [The statements follow:]

 Prepared Statement of Dr. Wayne A. Eckerle, Vice President, Research 
                      and Technology, Cummins Inc.

    Cummins Inc., headquartered in Columbus, Indiana, is a corporation 
of complementary business units that design, manufacture, distribute 
and service engines and related technologies, including fuel systems, 
controls, air handling, filtration, emission solutions and electrical 
power generation systems. The funding requests outlined below are 
critically important to Cummins' research and development efforts, and 
would also represent a sound Federal investment toward a cleaner 
environment and improved energy efficiency for our Nation. We request 
that the Committee fund the programs as identified below.

                         DEPARTMENT OF THE ARMY

Other Procurement
    Budget Activity 03, Other Support Equipment, Line No. 177, 
Generators and Associated Equipment (MA9800), Medium generator Sets (5-
60 kW) (M53500), Advanced Medium Mobile Power System (AMMPS).--Increase 
the Administration's request of $11.6 million by $28.4 million to bring 
the program total to $40 million in fiscal year 2012. $40 million was 
appropriated in fiscal year 2011 and fiscal year 2010. This program is 
critical to providing our troops with the latest technology in power 
generation. AMMPS generators are the latest generation of Prime Power 
Generators for the DOD and will replace the obsolete Tactical Quiet 
Generators (TQG's) developed in the 1980s. The AMMPS gensets are 21 
percent more fuel-efficient, 15 percent lighter, 35 percent quieter, 
and 40 percent more reliable than the TQG. Generators are the Army's 
biggest consumer of diesel fuel in current war theatres. When AMMPS 
gensets are fully implemented, the Army and Marines will realize annual 
fuel savings of approximately 52 million gallons of JP-8 fuel and over 
$745 million in savings based on fuel costs and current use pattern. 
This will mean fewer fuel convoys to bases in active war zones 
resulting in saved lives of military and civilian drivers. AMMPS 
generators are fully EPA compliant and will result in annual carbon 
emissions reductions of 509,698 metric tons CO<INF>2</INF> or 7.7 
million metric tons over the expected life of the generators.
Research and Development Test and Evaluation Programs
    Volume V-B, Budget Activity 05, System Development & Demonstration, 
Line No. 120, Program Element No. 0604854A: Artillery Systems, Paladin 
Integrated Management (PIM).--Support the Administration's request of 
$120.1 million in fiscal year 2012. The M109A6 Paladin is the primary 
indirect fire weapons platform in the U.S. Army's Heavy Brigade Combat 
Team (HBCT) and is expected to be in the Army inventory through 2050. 
This request is to further develop Paladin Integrated Management (PIM) 
vehicles and conclude testing. The PIM effort is a program to ensure 
the long-term viability and sustainability of the M109A6 Paladin and 
its companion ammunition resupply vehicle, the M992 Field Artillery 
Ammunition Support Vehicle (FAASV). PIM is vital to ensuring the long-
term viability and sustainability of the M109 family of vehicles 
(Paladin and FAASV). The program will significantly reduce the 
logistics burden placed on our soldiers, and proactively mitigate 
obsolescence. The system will feature improved mobility (by virtue of 
Bradley-based automotive systems), allowing the fleet to keep pace with 
the maneuver force.
    Volume VII, Budget Activity 07, Operational Systems Development, 
Line No. 163, Program Element No. 0203735A: Combat Vehicle Improvement 
Program, Armored Multi-Purpose Vehicle (AMPV).--Support 
Administration's request of $53.3 million in fiscal year 2012. The 
Armored Multi-Purpose Vehicle (AMPV) is a new Army initiated program to 
replace the M113 platforms, which cannot be optimized for future U.S. 
Army combat operations. The Army has identified a significant 
capability gap within the Heavy Brigade Combat Team (HBCT) formation. 
The Bradley Family of Vehicles are the most capable and cost effective 
platform for replacement of the M113. Along with established 
production, the recapitalized Bradley vehicles bring combat-proven 
mobility, survivability, and adaptability to a variety of missions. The 
Army currently has approximately 1,900 Bradley hulls that could be 
inducted into the production process. This low cost, low risk, 
Military-off-the-Shelf (MOTS) to replace the M113 addresses the 
significant capability shortfalls within the HBCT formation and is an 
efficient use of existing Government owned assets and existing Public-
Private Partnership arrangements to bridge the modernization gap. 
Recapitalizing existing Bradley chassis provides the most survivable, 
mobile and protected solution for our soldiers at a significant lower 
cost.

Procurement of Weapons and Tracked Combat Vehicles (W&TCV)
    Activity No. 01 Tracked Combat Vehicles, Line No. 07, Howitzer, Med 
Sp Ft 155MM M109A6 (MOD) (GA0400), Paladin Integrated Management 
(PIM).--Support Administration's request of $46.88 million in fiscal 
year 2012. This is to begin low rate initial production vehicles for 
Paladin Integrated Management (PIM) procurement. The M109A6 Paladin is 
the primary indirect fire weapons platform in the U.S. Army's Heavy 
Brigade Combat Team (HBCT) and is expected to be in the Army inventory 
through 2050. The PIM program will incorporate Bradley-based drive-
train and suspension components which reduce logistics footprint and 
decrease operations and sustainment costs. PIM is vital to ensuring the 
long-term viability and sustainability of the M109 family of vehicles 
(Paladin and FAASV). The program will significantly reduce the 
logistics burden placed on our soldiers, and proactively mitigate 
obsolescence. The system will feature improved mobility (by virtue of 
Bradley-based automotive systems), allowing the fleet to keep pace with 
the maneuver force. The system will improve overall soldier 
survivability through modifications to the hull to meet increased 
threats.

                      DEPARTMENT OF THE AIR FORCE

Other Procurement
    Budget Activity 04, Other Base Maintenance and Support Equip, Item 
No. 61, Mobility Equip, Basic Expeditionary Airfield Resources.--
Maintain the Administration's request of $27 million in fiscal year 
2012. Appropriations in fiscal year 2010 and fiscal year 2011 totaled 
$29.7 million. Basic Expeditionary Airfield Resource (BEAR) is funded 
by the U.S. Air Force and is administered by the PM-MEP office. The 
BEAR product is an 800kW prime power mobile generator used by Combat 
Air Forces to power mobile airfields in-theatre and around the world. 
The finished product will replace the existing MEP unit that is 25 
years old and will offer greater fuel economy, increased fuel options 
(JP8), improved noise reduction, and the latest innovative control 
technology and functionality. With the ever increasing global reach of 
the U.S. military, the need for reliable mobile power is paramount. 
This program is currently funded for the design, development and 
preproduction of 8 individual BEAR units. These units will undergo a 
battery of validation tests. Design and development of the BEAR product 
is on schedule. There is interest from other branches of the military 
for the BEAR product as well given the increased need for mobile 
electric power.
                                 ______
                                 
 Prepared Statement of Karen Gunsul, Vice President, Washington State 
                       Neurofibromatosis Families

    Thank you for the opportunity to submit testimony to the 
Subcommittee on the importance of continued funding for research on 
Neurofibromatosis (NF), a terrible genetic disorder closely linked too 
many common diseases widespread among the American population.
    On behalf of Washington State Neurofibromatosis Families (WSNF) a 
participant in a national coalition of NF advocacy groups, I speak on 
behalf of the 100,000 Americans who suffer from NF as well as 
approximately 175 million Americans who suffer from diseases and 
conditions linked to NF such as cancer, brain tumors, heart disease, 
memory loss and learning disabilities. I also speak from the heart as 
the mother of a son who deals with NF every day. To find treatments 
and, ultimately, a cure, for this disorder would benefit him and 
countless others.
    In fiscal year 2012, I am requesting $16 million to continue the 
Army's highly successful Neurofibromatosis Research Program (NFRP), the 
same amount that was included for the NFRP in fiscal year 2011. The 
Peer-Reviewed Neurofibromatosis Research Program, one of the Department 
of Defense's Congressionally Directed Medical Research Programs 
(CDMRP), is now conducting clinical trials at nationwide clinical 
trials centers created by NFRP funding. These clinical trials involve 
drugs that have already succeeded in eliminating tumors in humans and 
rescuing learning deficits in mice. Administrators of the Army program 
have stated that the number of high-quality scientific applications 
justify a much larger program.

What is Neurofibromatosis (NF)?
    NF is a genetic disorder involving the uncontrolled growth of 
tumors along the nervous system which can result in terrible 
disfigurement, deformity, deafness, blindness, brain tumors, cancer, 
and even death. NF can also cause other abnormalities such as unsightly 
benign tumors across the entire body and bone deformities. In addition, 
approximately one-half of children with NF suffer from learning 
disabilities. While not all NF patients suffer from the most severe 
symptoms, all NF patients and their families live with the uncertainty 
of not knowing whether they will be seriously affected because NF is a 
highly variable and progressive disease.
    NF is not rare. It is the most common neurological disorder caused 
by a single gene and three times more common than Muscular Dystrophy 
and Cystic Fibrosis combined, but is not widely known because it has 
been poorly diagnosed for many years. Approximately 100,000 Americans 
have NF, and it appears in approximately 1 in every 2,500 births. It 
strikes worldwide, without regard to gender, race or ethnicity. 
Approximately 50 percent of new NF cases result from a spontaneous 
mutation in an individual's genes and 50 percent are inherited. There 
are three types of NF: NF1, which is more common, NF2, which primarily 
involves tumors causing deafness and balance problems, and 
schwannomatosis, the hallmark of which is severe pain. In addition, 
advances in NF research stand to benefit over 175 million Americans in 
this generation alone because NF is directly linked to many of the most 
common diseases affecting the general population.

NF's Connection to the Military
    Neurofibromatosis Research addresses areas of great clinical need 
directly affecting the health of the warfighter. NF is a complicated 
condition closely connected to many common diseases and disorders that 
can lead to unmanageable pain, learning disabilities, cancer, 
orthopedic abnormalities, deafness, blindness, memory loss, and 
amputation. NF also involves inflammation similar to that involved in 
wound healing.
    Pain Management.--Severe and unmanageable pain is seen in all forms 
of NF, particularly in one form of NF called schwannomatosis. Over the 
past 3 years, schwannomatosis research has made significant advances 
and new research suggests that the molecular or root cause of 
schwannomatosis pain may be the same as phantom limb pain. Research is 
currently moving forward to identify drugs that might be able to treat 
this pain, and these exciting findings could have broad applications 
for the military.
    Wound Healing, Inflammation and Blood Vessel Growth.--Wound healing 
requires new blood vessel growth and tissue inflammation. Mast cells 
are critical mediators of inflammation in wound healing, and they must 
be quelled and regulated in order to facilitate this healing. Mast 
cells are also important players in NF1 tumor growth. In the past few 
years, researchers have gained deep knowledge on how mast cells promote 
tumor growth, and this research has led to ongoing clinical trials to 
block this signaling. The result is that tumors grow slower. As 
researchers learn more about blocking mast cell signals in NF, this 
research could be translated to the management of mast cells in wounds 
and wound healing.
    Orthopedic Abnormalities and Amputation.--One-third of children 
with NF1 are at risk of developing orthopedic abnormalities that as a 
result break easily. In the leg particularly, repeated injuries lead to 
amputation below the knee, often in very young children. Recent 
research has identified the molecular basis of this, and drug trials in 
humans will begin in the next year. This research will lead to a deeper 
understanding of how to heal challenging bone breaks and directly 
benefit warfighters with major bone breakages or recurring bone breaks 
that heal poorly.
    Three-Dimensional Clinical Imaging Technologies.--Because NF tumors 
are often large and abnormally shaped, they lend themselves well to the 
emerging technology of volumetric MRI. This is used to monitor tumor 
volume and growth as well as to monitor the effectiveness of a drug 
treatment to induce tumor shrinkage or cessation of tumor growth. It is 
anticipated that MRI volumetric imaging could have broad applications 
in military use.

Link to Other Illnesses
    Researchers have determined that NF is closely linked to cancer, 
heart disease, learning disabilities, memory loss, brain tumors, and 
other disorders including deafness, blindness and orthopedic disorders, 
primarily because NF regulates important pathways common to these 
disorders such as the RAS, cAMP and PAK pathways. Research on NF 
therefore stands to benefit millions of Americans.
    Cancer.--NF is closely linked to many of the most common forms of 
human cancer, affecting approximately 65 million Americans. In fact, NF 
shares these pathways with 70 percent of human cancers. Research has 
demonstrated that NF's tumor suppressor protein, neurofibromin, 
inhibits RAS, one of the major malignancy causing growth proteins 
involved in 30 percent of all cancer. Accordingly, advances in NF 
research may well lead to treatments and cures not only for NF 
patients, but for all those who suffer from cancer and tumor-related 
disorders. Similar studies have also linked epidermal growth factor 
receptor (EGF-R) to malignant peripheral nerve sheath tumors (MPNSTs), 
a form of cancer which disproportionately strikes NF patients.
    Heart disease.--Researchers have demonstrated that mice completely 
lacking in NF1 have congenital heart disease that involves the 
endocardial cushions which form in the valves of the heart. This is 
because the same ras involved in cancer also causes heart valves to 
close. Neurofibromin, the protein produced by a normal NF1 gene, 
suppresses ras, thus opening up the heart valve. Promising new research 
has also connected NF1 to cells lining the blood vessels of the heart, 
with implications for other vascular disorders including hypertension, 
which affects approximately 50 million Americans. Researchers believe 
that further understanding of how an NF1 deficiency leads to heart 
disease may help to unravel molecular pathways involved in genetic and 
environmental causes of heart disease.
    Learning disabilities.--Learning disabilities are the most common 
neurological complication in children with NF1. Research aimed at 
rescuing learning deficits in children with NF could open the door to 
treatments affecting 35 million Americans and 5 percent of the world's 
population who also suffer from learning disabilities. In NF1 the 
neurocognitive disabilities range includes behavior, memory and 
planning. Recent research has shown there are clear molecular links 
between autism spectrum disorder and NF1; as well as with many other 
cognitive disabilities. Tremendous research advances have recently led 
to the first clinical trials of drugs in children with NF1 learning 
disabilities. These trials are showing promise. In addition because of 
the connection with other types of cognitive disorders such as autism, 
researchers and clinicians are actively collaborating on research and 
clinical studies, pooling knowledge and resources. It is anticipated 
that what we learn from these studies could have an enormous impact on 
the significant American population living with learning difficulties 
and could potentially save Federal, State, and local governments, as 
well as school districts, billions of dollars annually in special 
education costs resulting from a treatment for learning disabilities.
    Memory loss.--Researchers have also determined that NF is closely 
linked to memory loss and are now investigating conducting clinical 
trials with drugs that may not only cure NF's cognitive disorders but 
also result in treating memory loss as well with enormous implications 
for patients who suffer from Alzheimer's disease and other dementias. 
Indeed, one leading Army funded researcher is pursuing parallel 
research into both NF and Alzheimer's simultaneously.
    Deafness.--NF2 accounts for approximately 5 percent of genetic 
forms of deafness. It is also related to other types of tumors, 
including schwannomas and meningiomas, as well as being a major cause 
of balance problems.

The Army's Contribution to NF Research
    While other Federal agencies support medical research, the 
Department of Defense (DOD) fills a special role by providing peer-
reviewed funding for innovative, high-risk/high-reward medical research 
through the CDMRP. CDMRP research grants are awarded to researchers in 
every State in the country through a competitive two-tier review 
process. These well-executed and efficient programs, including the 
NFRP, demonstrate the government's responsible stewardship of taxpayer 
dollars.
    Recognizing NF's importance to both the military and to the general 
population, Congress has given the Army's NF Research Program strong 
bipartisan support. From fiscal year 1996 through fiscal year 2011 
funding for the NFRP has amounted to $230.05 million, in addition to 
the original $8 million appropriation in fiscal year 1992. In addition, 
between fiscal year 1996 and fiscal year 2009, 245 awards have been 
granted to researchers across the country.
    The Army program funds innovative, groundbreaking research which 
would not otherwise have been pursued, and has produced major advances 
in NF research, including conducting clinical trials in a nationwide 
clinical trials infrastructure created by NFRP funding, development of 
advanced animal models, and preclinical therapeutic experimentation. 
Because of the enormous advances that have been made as a result of the 
Army's NF Research Program, research in NF has truly become one of the 
great success stories in the current revolution in molecular genetics. 
In addition, the program has brought new researchers into the field of 
NF. However, despite this progress, Army officials administering the 
program have indicated that they could easily fund more applications if 
funding were available because of the high quality of the research 
applications received.
    In order to ensure maximum efficiency, the Army collaborates 
closely with other Federal agencies that are involved in NF research, 
such as the National Institutes of Health (NIH). Senior program staff 
from the National Institute of Neurological Disorders and Stroke 
(NINDS), for example, sits on the Army's NF Research Program 
Integration Panel which sets the long-term vision and funding 
strategies for the program. This assures the highest scientific 
standard for research funding, efficiency and coordination while 
avoiding duplication or overlapping of research efforts.
    Thanks in large measure to this Subcommittee's support; scientists 
have made enormous progress since the discovery of the NF1 gene. Major 
advances in just the past few years have ushered in an exciting era of 
clinical and translational research in NF with broad implications for 
the general population. These recent advances have included:
  --Phase II and Phase III clinical trials involving new drug therapies 
        for both cancer and cognitive disorders;
  --Creation of a National Clinical and Pre-Clinical Trials 
        Infrastructure and NF Centers;
  --Successfully eliminating tumors in NF1 and NF2 mice with the same 
        drug;
  --Developing advanced mouse models showing human symptoms;
  --Rescuing learning deficits and eliminating tumors in mice with the 
        same drug;
  --Determining the biochemical, molecular function of the NF genes and 
        gene products;
  --Connecting NF to more and more diseases because of NF's impact on 
        many body functions.

Fiscal Year 2012 Request
    The Army's highly successful NF Research Program has shown tangible 
results and direct military application with broad implications for the 
general population. The program has now advanced to the translational 
and clinical research stages, which are the most promising, yet the 
most expensive direction that NF research has taken. The program has 
succeeded in its mission to bring new researchers and new approaches to 
research into the field. Therefore, continued funding is needed to take 
advantage of promising avenues of investigation, to continue to build 
on the successes of this program, and to fund this promising research 
thereby continuing the enormous return on the taxpayers' investment.
    I respectfully request an appropriation of $16 million in the 
fiscal year 2012 Department of Defense Appropriations bill for the 
Army's Neurofibromatosis Research Program.
    In addition to providing a clear military benefit, the DOD's 
Neurofibromatosis Research Program also provides hope for the 100,000 
Americans who suffer from NF, as well as over 175 million Americans who 
suffer from NF's related diseases and disorders. Leading researchers 
now believe that we are on the threshold of a treatment and a cure for 
this terrible disease. With this Subcommittee's continued support, we 
will prevail. Thank you for your support.
                                 ______
                                 
  Prepared Statement of the American Foundation for Suicide Prevention

    Chairman Inouye, Ranking Member Cochran and members of the 
Subcommittee. My name is John Madigan, Senior Director of Public Policy 
with The American Foundation for Suicide Prevention (AFSP). AFSP thanks 
you for the opportunity to provide testimony on the funding needs of 
programs within the Department of Defense that play a critical role in 
suicide prevention efforts.
    AFSP is the leading national not-for-profit organization 
exclusively dedicated to understanding and preventing suicide through 
research, education and advocacy, and to reaching out to people with 
mental disorders and those impacted by suicide. You can find more 
information at www.asfp.org and www.spanusa.org.
    More than 1.9 million warriors have deployed for Operation Iraqi 
Freedom (OIF) and Operation Enduring Freedom (OEF), two of our Nation's 
longest conflicts (IOM, 2010). The physical and psychological demands 
on both the deployed and non-deployed warriors are enormous. From 2005 
to 2009, more than 1,100 members of the Armed Forces took their own 
lives, an average of 1 suicide every 36 hours. In that same period, the 
suicide rates among Marines and Soldiers sharply increased; the rate in 
the Army more than doubled. Numerous commissions, task forces, and 
research reports have documented the ``hidden wounds of war''--the 
psychological and emotional injuries that have so affected our military 
members and their families. The years since 2002 have placed 
unprecedented demands on our Armed Forces and military families. 
Military operational requirements have risen significantly, and manning 
levels across the Services remain too low to meet the ever-increasing 
demand. This current imbalance places strain not only on those 
deploying, but equally on those who remain in garrison. The cumulative 
effects of all these factors are contributing significantly to the 
increase in the incidence of suicide and without effective action will 
persist well beyond the duration of the current operations and 
deployments. Heightened concern regarding this increase in suicides has 
led to development of scores of initiatives across the DOD to reduce 
risk (Final Report of DOD Task Force on the Prevention of Suicide by 
Members of the Armed Forces, August, 2010).
    In testimony before this Subcommittee on May 18, Secretary of the 
Army John McHugh and General Martin Dempsey, Chief of Staff of the 
United States Army, called for the sustainment of $1.7 billion to fund 
vital Soldier and Family programs. These programs provide a full range 
of essential services and include the Army Campaign for Health 
Promotion, Risk Reduction, and Suicide Prevention. Additionally, The 
fiscal year 2012 budget request includes adding 24 behavioral health 
officers and enlisted technicians to the National Guard Brigade Combat 
Teams and expands the Reserve component substance abuse program. It 
also included additional funding for 54 Suicide Prevention Program 
managers for the National Guard, 38 Suicide Prevention Program Managers 
for Army Reserve, and Applied Suicide Intervention Skills Training 
(ASIST) and kits for the Reserve component. AFSP commends the 
Department of the Army for their efforts to reduce suicides within 
their ranks, and urges this Subcommittee to provide the $1.7 billion 
requested to sustain their important efforts.
    While there is sufficient funding for suicide prevention research 
within DOD right now, these efforts need to be sustained to ensure 
sufficient resources are devoted to research in the long term. We 
believe that funding needs to be sustained for confidential treatment 
programs like the Army Confidential Alcohol Treatment and Education 
Pilot (CATEP) and TRICARE Assistance Program (TRIAP) which are helping 
to change the culture and decrease stigma toward behavioral health 
treatment. AFSP also urges this Subcommittee to fully fund the OSD 
Office for Suicide Prevention that was created this month.
    In addition to Secretary McHugh and General Dempsey's request, AFSP 
urges this Subcommittee to fund the following programs or initiatives 
at the highest levels possible to address the unacceptably high rates 
of suicide among our military personnel.

Comprehensive Behavioral Health System of Care (CBHSOC)
    General Eric Shoomaker outlined this program in his testimony 
before this Subcommittee on April 6. CBHSOC is based on outcome studies 
that demonstrate the profound value of using the system of multiple 
touch points in assessing and coordinating health and behavioral health 
for a soldier and Family. The CBHSOC creates an integrated, 
coordinated, and synchronized behavioral health service delivery system 
that will support the total force through all ARFORGEN (Army Force 
Generation) phases by providing full spectrum behavioral healthcare.
    The CBHSOC is a system of systems built around the need to support 
an Army engaged in repeated deployments and its intent is to optimize 
care and maximize limited behavioral health resources to ensure the 
highest quality of care to Soldiers and Families through a multi-year 
campaign with a long-term goal of preventing suicide.

Yellow Ribbon Reintegration Campaign (YRRP)
    The Yellow Ribbon Reintegration Program provides information, 
services, referrals, and proactive outreach to Soldiers, spouses, 
employers, and youth through the different stages of mobilization: pre-
alert, alert, pre-deployment, deployment, post-deployment and 
reintegration.
    Public Law 111-84, Section 595 gave the YRRP Office the 
responsibility for establishing a program to provide Reserve and 
National Guard Service members, and their families, training in suicide 
prevention, community healing, and response to suicide. The YRRP Office 
has engaged several national associations to provide ongoing assistance 
in coordinating with community based behavioral health providers and 
conducted a needs and gap analysis of all the Reserve Components 
existing suicide prevention programs. Continuation of these efforts 
will be vital in lowering the rate of suicides among our National Guard 
and Reserve personnel.

Air Force Suicide Prevention Efforts
    In testimony before this Subcommittee on April 6, Lt. General (Dr.) 
Charles Green discussed numerous efforts on behalf of the United States 
Air Force that AFSP believes will reduce the rate of suicide in the Air 
Force. This includes the additional support the Air Force provides its 
most at-risk airmen with frontline supervisor's suicide prevention 
training given to all supervisors in career fields with elevated 
suicide rates, expanded counseling services beyond those available 
through chaplains and mental health clinics, Military Family Life 
Consultants and Military OneSource which provides counseling to active 
duty members off-base for up to 12 sessions.
    Chairman Inouye, Ranking Member Cochran and Members of the 
Committee, AFSP once again thanks you for the opportunity to provide 
testimony on the funding needs of programs within the Department of 
Defense that play a critical role in suicide prevention efforts. With 
your help, we can assure those tasked with leading the Department of 
Defense's response to the unacceptably high rate of suicide among our 
military personnel will have the resources necessary to effectively 
prevent suicide.

                         CONCLUSION OF HEARINGS

    Chairman Inouye. The subcommittee will stand in recess, but 
we will reconvene on Tuesday, June 28, at which time we'll meet 
in closed session to receive testimony on the fiscal year 2012 
budget for intelligence activities. The subcommittee is 
recessed.
    [Whereupon, at 1:06 p.m., Wednesday, June 22, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
